left blank intentionally
Department of Defense Performance and Accountability Report FY 2006
Table of Contents ......................................................................................



                                            Table of Contents
Message from the Deputy Secretary of Defense	                                                                ii

Overview	                                                                                                   iii

Year in Review	                                                                                             iv

Section 1: Management’s Discussion and Analysis
	   Mission and Organizational Structure 	                                                                   1
	   Analysis of Financial Statements and Stewardship Information	                                            5
	   Performance Objectives, Goals, and Results 	                                                             9
	   Analysis of Systems, Controls, and Legal Compliance 	                                                   13
	   Statement of Assurance	                                                                                 14
	   Other Management Information, Initiatives, and Issues	                                                  17

Section 2: Performance Information	
	 Overview 	                                                                                                27
	 Performance Results 	                                                                                     30
	 Program Assessment Rating Tool Summary	                                                                   68

Section 3: Financial Information	
	   Message from the Chief Financial Officer	                                                               73
	   Independent Auditor’s Report 	                                                                          74
	   Principal Financial Statements and Note	                                                                85
	   Required Supplementary Stewardship Information 	                                                       158
	   Required Supplementary Information 	                                                                   162

Section 4: Other Accompanying Information
	   Management Assurance Details 	                                                                         173
	   Auditor-Identified Financial Statement Weaknesses 	                                                    198
	   Inspector General’s Summary of Management and Performance Challenges	                                  198
	   Government Accountability Office High-Risk Areas 	                                                     206
	   Management’s Response to Auditor Challenges 	                                                          206
	   Improper Payments Information Act Reporting Details 	                                                  206
	   Funds Managed by the Department for the Executive Office of the President	                             215

Appendixes
	 A - Glossary	                                                                                            A-1
	 B - Internet Links	                                                                                      B-1




                                                           
                          Department of Defense Performance and Accountability Report FY 2006
........................................... Message from the Deputy Secretary of Defense




                                       ii
Department of Defense Performance and Accountability Report FY 2006
Overview .....................................................................................................



                                                    Overview
The Department of Defense Fiscal Year (FY) 2006                   Section 4: Other Accompanying Information
Performance and Accountability Report (PAR) provides              includes a summary of management assurances
the President, Congress, other Federal departments and            over internal controls and corrective actions plans;
agencies, and the American public with an overview                the Inspector General’s Summary of Management
of the Department’s financial condition. Essentially, the         and Performance Challenges, the Government
PAR is equivalent to the private sector’s annual report           Accountability Office’s high risk areas related to
to their stockholders and includes an assessment of               the Department, and management’s response to
program performance. The report covers the 12-month               these auditor assessments; the Improper Payments
period ending September 30, 2006 in the following                 Information Act reporting details and corrective
four sections:                                                    action plans; and the financial statements for the
                                                                  Executive Office of the President funds managed by
Section 1: Management’s Discussion and Analysis is a              the Department.
high-level summary of the Department’s performance
and financial information for FY 2006. It highlights              Appendixes include a glossary and a list of Internet
the Department’s FY 2006 annual performance goals                 links for documents cited in the report.
and results. In addition, Section 1 provides financial
highlights for FY 2006 and a statement on the
limitations of the financial statements; management
assurances over internal controls, summaries of                   We welcome your feedback regarding the content of
the Department’s progress in implementing the                     this report. To comment or request copies of the report,
Financial Improvement and Audit Readiness Plan,                   please email us at DoDPAR@osd.mil, or write to:
its Enterprise Transition Plan initiative, and the
President’s Management Agenda objectives. This                    U.S. Department of Defense
section concludes with a discussion of potential future           Office of the Under Secretary of Defense (Comptroller)
effects of current events and conditions facing the               1100 Defense Pentagon
Department in 2007 and beyond.                                    Washington, DC 20301-1100

Section 2: Performance Information presents the                   You may also view this document at www.dod.mil/
Department’s strategic plan, strategic objectives,                comptroller/par.
strategic goals, performance goals, annual
performance results for FY 2006, and a summary of
programs assessed using the Office of Management
and Budget’s Program Assessment Rating Tool.

Section 3: Financial Information includes a message
from the Chief Financial Officer, the Department of
Defense Inspector General Auditor’s Report with its
opinion on the FY 2006 financial statements, and the
Department’s principal financial statements and notes.




                                                            iii
                                                         Department of Defense Performance and Accountability Report FY 2006
                ............................................................................................. Year in Review



                                                             Year in Review




The Department of Defense continues to succeed at its                           of Defense has made great progress in reducing the
mission while balancing efforts to thwart threats to our                        threat they pose. Significant sources of terrorist funding
Nation and allies. We concurrently seek to transform                            are gone. Major sanctuaries, once used to train new
the organization as we position ourselves for the                               recruits or launch attacks, have been reclaimed by
future.                                                                         their legitimate populations, and extremists not already
                                                                                dead or in jail are finding their days numbered.
This year marked the fifth anniversary of a horrific day
in our Nation’s history. While we continue to face the                          Such progress was made possible by the heroic efforts
challenge of terrorist extremists determined to impose                          of the men and women of America’s Armed Forces.
their radical ideology on the world, the Department                             From combat operations and training of Afghan and
                                                                                Iraqi security forces, to the mission of providing
                                                                                humanitarian assistance at home and around the
                                                                                world, America has witnessed a truly impressive
                                                                                display of the skill and dedication of young patriots
                                                                                – volunteers every one – who are giving everything
                                                                                of themselves to secure peace and freedom for our
                                                                                citizens and those of other nations.

                                                                                While extremists in London, Mumbai, Madrid,
                                                                                Morocco, Bali, Beslan, Baghdad, and dozens of other
                                                                                places across the globe continue to murder hundreds
                                                                                of innocent civilians, U.S. forces are making significant
                                                                                strides in removing these extremists from the societies
Pakistani earthquake victims crowd around a U.S. Army CH-47                     in which they hide. Pockets of remaining Taliban
Chinook helicopter delivering disaster relief supplies to the earthquake
devastated area surrounding the town of Oghi, Pakistan on
October 17, 2005.

                                                                           iv
Department of Defense Performance and Accountability Report FY 2006
Year in Review .............................................................................................


fighters meet their demise each week in Afghanistan.                             security responsibilities are increasingly being turned
Abu Sayyef rebels are losing their grip on the                                   over to Iraqi forces.
Philippines. Abu Musab Zarqawi, the terrorist leader
of al Qaeda in Iraq, who incited sectarian violence                              In Afghanistan, the nation’s security forces are
and killed thousands of innocent men, women, and                                 receiving training and support from a growing NATO
children, was killed in a bombing raid. Subsequent                               presence in that country. Although they gain relatively
operations have eliminated dozens of extremist leaders                           little public notice, reconstruction projects in Iraq
and terrorist safe houses in Iraq.                                               continue to reach completion. Increased electricity
                                                                                 generation is benefiting more than one million homes
                                                                                 in Iraq, and nearly two million more Iraqis now enjoy
                                                                                 clean drinking water. More than 200 kilometers of
                                                                                 roads, and more than 4,000 schools, have been built
                                                                                 in Iraq, with hundreds more in Afghanistan and the
                                                                                 Horn of Africa, where Coalition forces have also
                                                                                 brought water and electricity to millions in need of
                                                                                 essential services.

                                                                                 All of this progress contributes to the overall
                                                                                 advancement of civil society in troubled regions. For
                                                                                 every new student able to pursue an education, there
                                                                                 is a parent who sees the potential benefits that an
                                                                                 education holds for their child’s future. For each house
Iraqi voters line up outside a polling site in Barwana, Iraq during Iraq’s       that receives clean, running water for the first time,
first free, permanent parliamentary government elections on
December 15, 2005.                                                               there is a tangible incentive to keep that house free of
                                                                                 terrorists or weapons that would place that benefit at
                                                                                 risk. As life improves, freedom and democracy take
The formation this year of the new Iraqi prime                                   root and grow.
minister’s cabinet was a significant step forward in
strengthening the permanent government of Iraq.
It is a government that not only represents all of
Iraq’s various communities for the first time in that
nation’s history, but one that is pursuing a national
reconciliation with those who have remained outside
the political process.

Iraq’s security forces continue to gain strength as well.
In October 2005, there were some 196,000 trained
and equipped Iraqi security forces. A year later, that
number is approaching 300,000. Through training and
close mentoring, Coalition forces have moved from
a lead to a supporting role in many operations, and
                                                                                 Locals wait to be seen by U.S. military medical personnel outside the
                                                                                 compound gate in Gode, Ethiopia during a 3 day medical civic action
                                                                                 program on November 9, 2005.

                                                                             
                                           Department of Defense Performance and Accountability Report FY 2006
            ............................................................................................. Year in Review


Throughout FY 2006, the Department has also                    the realities of a new age by realigning global posture,
provided aid and humanitarian assistance to thousands          developing new technologies to safeguard our forces,
in need, from the marshes of the Gulf Coast to the             and applying innovative business practices to what
jungles of the Pacific Rim. Navy and Marine Corps              had been an industrial age bureaucracy.
assets proved invaluable in evacuating thousands of
American citizens from Lebanon during a terrorist              These remarkable achievements could not have
crisis in that country, and the Army Corps of Engineers        occurred without the professionalism and dedication
completed repairing and improving levees, in and               of America’s men and women in uniform, and the
around New Orleans, to heights and strengths to at             dedicated civilians who support them. In a world full
least what they were prior to Hurricane Katrina.               of challenge and change, they are a shining beacon of
                                                               steadfast and noble service. We thank them for all that
Despite a war and major disasters, the Department of           they do, and for all that they are.
Defense transformation is moving forward, reflecting




                                                          vi
Section 1:
Management’s
Discussion and
Analysis
Heraldry, a system of identification using visual symbols, became a useful art in the Middle Ages, when warriors on
the battlefield displayed an emblem on their shields and the tunics they wore over their armor. In America, heraldry
symbols have been used by military forces as well as other organizational elements of the government since the
beginning of the Revolution.

The Great Seal of the United States is a symbol familiar to Americans. In addition, each department and agency of
the government has its own seal which appears on documents and publications issued by the organization. The seal
of the Department of Defense, shown above, was designed to visually depict the mission of the Department.

The American bald eagle, long associated with symbolism representing the Untied States of America and its military
establishment, is an emblem of strength. In facing to the right, the field of honor is indicated. The eagle is defending
the United States, represented by the shield of thirteen pieces. The thirteen pieces are joined together by the blue
chief, representing the Congress. The rays and stars above the eagle signify glory, while the three arrows are
collectively symbolic of the three component parts of the Department of Defense (Army, Navy, and Air Force). The
laurel stands for honors received in combat defending the peace represented by the olive branch.
Department of Defense Performance and Accountability Report FY 2006
Section 1: Management’s Discussion and Analysis .......................................


        Mission and Organizational                                                                                             The Secretary and the
                 Structure                                                                                                     Office of the Secretary

The mission of the Department of Defense is to                                                                                 The Secretary of Defense and the Office of the
provide the military forces needed to deter war and to                                                                         Secretary of Defense are responsible for the
protect the security of our country. The Department                                                                            formulation and oversight of defense strategy and
is America’s largest, busiest, and most successful                                                                             policy. The Office of the Secretary of Defense supports
organization. Since the creation of America’s first                                                                            the Secretary in policy development, planning,
army in 1775, the Department and its predecessor                                                                               resource management, and fiscal and program
organizations have evolved into a global presence                                                                              evaluation.
of 3 million individuals, stationed in more than 140
countries, that are dedicated to defending the United                                                                          Military Departments
States by deterring and defeating aggression and
coercion in critical regions. The Department embraces                                                                          The Military Departments consist of the Army, Navy
the core values of leadership, professionalism, and                                                                            (of which the Marine Corps is a component), and the
technical knowledge. Its employees are dedicated to                                                                            Air Force. In wartime, the U.S. Coast Guard becomes
duty, integrity, ethics, honor, courage, and loyalty. The                                                                      a special component of the Navy; otherwise, it is part
chart below shows how the Department is structured.                                                                            of the Department of Homeland Security. The Military




                                                                                                     Secretary of Defense
                                                                                                  Deputy Secretary of Defense


  Department of the Army                      Department of the Navy                      Department of the Air Force                   Office of the                                    Joint Chiefs of Staff (JCS)
                                                                                                                                    Secretary of Defense            Inspector
    Secretary of the Army                       Secretary of the Navy                      Secretary of the Air Force                                                                          Chairman JCS
                                                                                                                                                                     General
       UNDER                             UNDER                                                  UNDER                                                                                         The Joint Staff
   SECRETARIES                       SECRETARIES                                             SECRETARIES                                UNDER SECRETARIES,
                      CHIEF OF                           CHIEF OF        COMMANDANT                            CHIEF OF          ASSISTANT SECRETARIES OF DEFENSE
        AND                               AND                                                    AND
                     STAFF, ARMY                     NAVAL OPERATIONS   OF MARINE CORPS                     STAFF, AIR FORCE             AND EQUIVALENTS                                     VICE CHAIRMAN JCS
 ASST. SECRETARIES                 ASST. SECRETARIES                                      ASST. SECRETARIES
   OF THE ARMY                        OF THE NAVY                                          OF THE AIR FORCE                                                                                 CHIEF OF STAFF, ARMY
                                                                                                                                                                                         CHIEF OF NAVAL OPERATIONS
                                                                                                                                                                                          CHIEF OF STAFF, AIR FORCE
                                                                                                                                                                                         COMMANDANT, MARINE CORPS
                Army Major                   Navy Major                    Marine Corps Major               Air Force Major
            Commands & Agencies          Commands & Agencies              Commands & Agencies            Commands & Agencies




                                                                                                                                                                                Unified Combatant Commands
                                                                                                                                                                                 - CENTRAL COMMAND
                                                                                                                                                                                 - EUROPEAN COMMAND
                                                                                                                                                                                 - JOINT FORCES COMMAND
                                                                   DoD Field Activities                                            Defense Agencies                              - NORTHERN COMMAND
                                                                                                                                                                                 - PACIFIC COMMAND
                                                                                                                                                                                 - SOUTHERN COMMAND
                                                                                                                                                                                 - SPECIAL OPERATIONS COMMAND
                                                                                                                                                                                 - STRATEGIC COMMAND
                                                                                                                                                                                 - TRANSPORTATION COMMAND




                                                                                                                           
                                            Department of Defense Performance and Accountability Report FY 2006
           ........................................ Section 1: Management’s Discussion and Analysis


Departments organize, staff, train, equip, and sustain          Combatant Commands
America’s military forces. When the President and
Secretary of Defense determine that military action is          Combatant Commands are responsible for conducting
required, these trained and ready forces are assigned           the Department’s missions around the world. The
to a Combatant Command responsible for conducting               Army, Navy, Air Force, and Marine Corps supply forces
military operations.                                            to these Commands.

The Military Departments include Active Duty,
Reserve, and National Guard forces. Active Duty                                                          EUCOM
forces are full-time military Service members. The                       NORTHCOM
Reserve, when ordered to active duty by the Congress,                                          CENTCOM
supports the Active forces. Reserve forces are an                                                                PACOM
extension of the Active Duty personnel and perform
similar jobs when called to active duty. They are                  PACOM      SOUTHCOM
also relied on to conduct counter-drug operations,
provide disaster aid, and perform other peace-keeping
missions. The National Guard has a unique dual
mission with both federal and state responsibilities.           Five Commands have specific mission objectives for
In peacetime, the Guard is commanded by the                     their geographic area of responsibility, as shown in the
governor of each respective state or territory, who             map above:
can call the Guard into action during local or                  •	U.S. European Command (USEUCOM) is
statewide emergencies, such as storms, drought,                   responsible for activities in Europe, Greenland,
or civil disturbances. When ordered to active duty                Russia, and most of Africa.
for mobilization or called into federal service for             •	U.S. Central Command (USCENTCOM) is
emergencies, units of the Guard are placed under                  responsible for the Middle East, eastern Africa,
operational control of the appropriate Military                   and several of the former Soviet republics. This
Department. The Guard and Reserve forces are                      Command is primarily responsible for conducting
recognized as an indispensable and integral part of the           Operation Enduring Freedom in Afghanistan and
Nation’s defense from the earliest days of a conflict.            Operation Iraqi Freedom.
                                                                •	U.S. Pacific Command (USPACOM) is responsible
Chairman of the Joint Chiefs of Staff                             for China, South and Southeast Asia, Australia, and
                                                                  the Pacific Ocean.
The Chairman of the Joint Chiefs of Staff is the                •	U.S. Southern Command (USSOUTHCOM) is
principal military advisor to the President, the National         responsible for Central and South America, and the
Security Council, and the Secretary of Defense. The               Caribbean.
Chairman assists the President and the Secretary in             •	U.S. Northern Command (USNORTHCOM) is
providing for the strategic direction of the Armed                responsible for North America including Canada
Forces, including operations conducted by the                     and Mexico.
Commanders of the Combatant Commands. As part
of this responsibility, the Chairman also assists in the        In addition, four Commands have specified worldwide
preparation of strategic plans and helps to ensure that         mission responsibilities focused on a particular
plans conform to available resource levels projected            function(s):
by the Secretary of Defense.


                                                            
Department of Defense Performance and Accountability Report FY 2006
Section 1: Management’s Discussion and Analysis .......................................


•	U.S. Strategic Command provides global deterrence                                The Department’s worldwide infrastructure includes
  capabilities and synchronizes Department efforts to                              nearly 600,000 facilities (buildings, structures, and
  combat weapons of mass destruction worldwide.                                    utilities) located at more than 3,700 sites around the
•	U.S. Special Operations Command leads, plans,                                    world, and nearly 30 million acres. To protect the
  synchronizes and, as directed, executes global                                   security of the United States, the Department uses
  operations against terrorist networks.                                           approximately 250,000 vehicles, 13,000 aircraft, and
•	U.S. Transportation Command moves military                                       500 oceangoing vessels.
  equipment, supplies, and personnel around the
  world in support of operations.
                                                                                    Analysis of Financial Statements
•	U.S. Joint Forces Command develops concepts for
  joint warfighting.                                                                 and Stewardship Information
Defense Agencies and                                                               The Department’s six principal financial statements
the Department Field Activities                                                    include a consolidated Balance Sheet along with
                                                                                   statements of: Net Cost; Net Position; Budgetary
Defense Agencies and the Department Field Activities                               Resources; Financing; and Custodial Activity. These
provide support services commonly used throughout                                  statements reflect the combined financial posture
the Department. For instance, the Defense Finance                                  of the Department and include both the proprietary
and Accounting Service provides accounting services,                               (federal accounting standards) and budgetary resources
contractor and vendor payments, and payroll services;                              of the Department.
and the Defense Logistics Agency provides logistics
support and supplies to all Department activities.                                 The Department’s financial management environment
                                                                                   is complex and diverse. Its FY 2006 financial
Resources                                                                          statements included $1.4 trillion in assets and nearly
                                                                                   $2 trillion in liabilities. In FY 2006, the Department
To provide Americans with the highest level of                                     obtained an audit opinion on the Department-wide
national security, the Department employs nearly                                   financial statements and its nine major reporting
1.4 million men and women on Active Duty, almost                                   components, which include the Military Retirement
826,000 in the Reserve and National Guard, and                                     Fund, the Medicare-Eligible Retiree Health Care Fund,
approximately 720,000 civilians. Together, these men                               the U.S. Army Corps of Engineers, and the general
and women work daily to protect U.S. interests around                              funds and working capital funds for the Army, Air
the world.                                                                         Force, and Navy.

                       MILITARY AND CIVILIAN                                       Of those, only the Military Retirement Fund received
                            PERSONNEL                                              an unqualified audit opinion, meaning that the
               1600
               1400                                                                financial statements are presented fairly, in all material
                      1,385,000
               1200                                                                respects. The Military Retirement Fund accounts for
                                                                                   15 percent of the Department-wide assets and
   THOUSANDS




               1000
                800                                                                49 percent of the liabilities.
                600                                          720,000
                400                  452,000
                                                   374,000                         The Medicare-Eligible Retiree Health Care Fund,
                200
                                                                                   which accounts for 6 percent of the Department’s
                  0
                      Active Duty National Guard   Reserve   Civilian **           assets and 28 percent of its liabilities, received a
** Source: Defense Civilian Personnel Data System, as of September 30, 2006.       qualified opinion, which means that except for certain

                                                                               
                                             Department of Defense Performance and Accountability Report FY 2006
           ........................................ Section 1: Management’s Discussion and Analysis


conditions, the financial statements meet the standards           financial outlook is impacted primarily by future
for an unqualified opinion as described above.                    military retirement benefits.

Overall, the Department (to include the remaining                 During FY 2006, the Department received
seven major reporting components) expects to receive              $594.7 billion in appropriations from the Congress
a disclaimer of opinion from its auditor for FY 2006,             and invested budget resources in the following general
which means the financial statements are not                      areas, as shown in the chart below. The Department,
auditable.                                                        the federal government’s single largest agency, receives
                                                                  more than half the discretionary amount of the federal
The Department prepares statements for many of                    budget.
its smaller entities that are rolled into the overall
consolidated financial statements and identified                      FY 2006 Budget Allocation
as “Other Defense Organizations.” Some of these
                                                                            Military Retirement Benefits
smaller entities are subject to audit each year. Five                                      7%                  Procurement
organizations within this group achieved unqualified               Personnel & Benefits                             14%
                                                                             18%
audit opinions in FY 2006: the Defense Finance
                                                                                                                   Operations &
and Accounting Service, the Defense Contract                      Construction
                                                                       2%
                                                                                                                   Maintenance
Audit Agency, the Defense Commissary Agency,                                                                              24%
the Chemical Biological Defense Program, and the                      Research &
                                                                     Development
Defense Threat Reduction Agency. In addition, at                            12%

the Department-wide level, the Department received                                 Other                   Global War on Terror
                                                                                    2%                             21%
favorable audit reviews for the third consecutive
year on three significant financial statement items
in FY 2006: (1) Investments, (2) Federal Employees’               As a result of these investments in people,
Compensation Act Liabilities, and (3) Appropriations              infrastructure, operations, and technologies, the
Received.                                                         Department continues to defend the national interests.
                                                                  For example, during FY 2006 the Department reduced
As a result of its financial improvement efforts,                 the foothold of terrorism, assisted in establishing the
15 percent of the Department’s assets and 49 percent              Iraqi government, provided humanitarian aid for
of its liabilities received clean audit results in FY 2006.       victims of natural disasters, and continued improving
The Department’s financial statements for FY 2006                 financial accountability.
are presented in their entirety in Section 3: Financial
Information. A summary of results is provided below.              The complete picture of the Department’s financial
                                                                  information shows several trends and insights into the
Financial Analysis                                                financial health of the organization.

In general, the financial statements of the Department            •	The financial results of the Department reflect asset
show that the short-term financial outlook of the                   growth of 13 percent over the past 3 years, resulting
Department is stable. While needing to address                      from an increase in funds available, and investments
priorities and seek supplementary funds from Congress               for long-term liabilities and military equipment.
due primarily to the Global War on Terror, the mission            •	Concurrent to the growth in assets, liabilities have
of the Department is being achieved. Short-term                     increased nearly 15 percent primarily due to the
financial indicators reveal the Department’s ability                long-term liability increases for military retirement
to satisfy immediate objectives while the long-term                 benefits.

                                                              
Department of Defense Performance and Accountability Report FY 2006
Section 1: Management’s Discussion and Analysis .......................................


•	The Department’s net position increased 16 percent            environmental liabilities inventory. Future challenges
  over the past 3 years. This increase is due primarily         will be affected by the impact of valuations at overseas
  to the timing of a $68 billion supplemental                   locations, buried munitions, base closure, cleanup,
  appropriation for the Global War on Terror late               and enforcement of the standards for asbestos.
  in the fiscal year. The net position is projected to
  return to previous levels by the end of FY 2007 as            Improving the Department’s Financial
  the supplemental appropriation is executed.                   Management
•	Departmental costs changes over the past 3 years
  are mainly driven by military retirement benefit              The Financial Improvement and Audit Readiness
  costs, Global War on Terror costs, and depreciation           plan (http://www.dod.mil/comptroller/FIAR/index.
  expense on military equipment.                                html) charts financial management transformation
                                                                for the Department. It provides the construct within
Long-Term Liabilities Related to Military                       which sound financial management can mature
Retirement Benefits                                             and evolve. The Financial Improvement and Audit
                                                                Readiness (FIAR) plan targets problems arising from
Eighty-three percent of long-term military retirement           weak or nonexistent internal controls, incomplete
benefit liabilities are not currently funded. The               and inaccurate information, and systems that cannot
Department has a sound investment strategy to address           properly process data and information. Financial
the military retirement benefits requirement. Based on          management improvement efforts proceed primarily
current projections, unfunded liabilities in the Military       along two tracks:
Retirement Fund will be fully funded in 2033 and the
Medicare-Eligible Retiree Healthcare Fund in 2041.              •	Improving the Department’s financial health by
                                                                  streamlining procedures, improving the timeliness
Military Equipment                                                and availability of financial information, and
                                                                  capturing more relevant information.
The net value of military equipment increased                   •	Preparing the Components for financial statement
$21 billion over the past 3 years primarily due to a              audits (e.g., testing internal controls).
change in valuation method. The baseline of
$345 billion in book value is now accurately                    Fully integrated with other business transformation
established and the Department is well on its way to            efforts, the plan ensures accountability and prioritizes
improved financial health in this area.                         financial management improvements. The 3 essential
                                                                elements—integration, accountability, and
Real Property                                                   prioritization—are interrelated.

The Department’s $100 billion in real property is an            The FIAR plan reflects integrated solutions:
increase in 3 percent over the past 3 years. This is due
to efforts to accurately identify and report a complete         •	Individual Component financial improvement plans
real property inventory.                                          detail corrective actions to accomplish critical
                                                                  milestones in the FIAR plan. For example, the U.S.
Environmental Liabilities                                         Army Corps of Engineers’ financial statements are
                                                                  currently under audit. In addition, the Air Force is
Environmental liabilities of $68 billion is an increase           ready for an audit of its Fund Balance with Treasury
of 8 percent over the past 3 years. This is due to
Departmental efforts to improve estimates and its

                                                            
                                            Department of Defense Performance and Accountability Report FY 2006
           ........................................ Section 1: Management’s Discussion and Analysis


  and Cash and Other Monetary Assets.                              responsible for implementing the plan.
•	Systems modifications and solutions managed                   • 	Status of financial achievements are reported
  under the Enterprise Transition Plan (http://www.                quarterly to the Office of Management and Budget.
  dod.mil/dbt/products/sept-06-bea_etp) are closely
  aligned to FIAR efforts. The Department has                   The diagram below shows how the FIAR plan and
  thousands of programs and processes ranging from              Enterprise Transition Plan are integrated to focus efforts
  manual processing to computer-based management                on improving the Department’s financial management.
  systems. Few interact with others, most do not meet
  congressionally-mandated requirements, and many                BUSINESS ENTERPRISE
                                                                    ARCHITECTURE             INTEGRATED FINANCIAL AUDIT PICTURE

  fail to provide the level of reliability, accuracy, and
                                                                       ENTERPRISE          DoD FIAR PLAN
  timeliness demanded by today’s complex business                    TRANSITION PLAN     ROADMAP TO FINANCIAL
                                                                                           IMPROVEMENT AND
                                                                      AND INITIATIVES
  environment. Systems initiatives and solutions in the                                     ACCOUNTABILITY


  Enterprise Transition Plan eventually will provide the
  Department with effective and efficient Department-
  wide financial management systems that provide                                             COMPONENT
                                                                                                                        OFFICE OF THE
                                                                      COMPONENT                                    INSPECTOR GENERAL (OIG)
                                                                                              FINANCIAL
  end-to-end tracking of financial transactions and                 TRANSITION PLANS
                                                                                         IMPROVEMENT PLANS
                                                                                                                        ASSESSMENT &
                                                                                                                         AUDIT PLANS
  produce fully auditable financial reports.
•	The FIAR plan will enable the Department to comply
  with internal control requirements set forth by the           The financial portion of the Enterprise Transition Plan
  Office of Management and Budget.                              focuses on Financial Visibility (http://www.dod.
•	The FIAR plan breaks down the Department’s large              mil/dbt/priorities_financial.html), which is defined
  number of assets and liabilities into auditable               as having immediate access to accurate and reliable
  segments based on significant lines on the                    financial information (planning, programming,
  Department’s Balance Sheet.                                   budgeting, accounting, and cost) in support of
                                                                financial accountability and auditability, and facilitates
The FIAR plan sets priorities for the Department’s              effective decision-making throughout the Department.
financial management improvement efforts. The                   The Department’s approach consists of the following
Department is focusing first on four items that                 key initiatives: Intragovernmental Transactions
represent 33 percent of its assets and 31 percent of            Initiative, Standard Financial Information Structure,
its liabilities. The four focus areas include Military          and the U.S. Standard General Ledger.
Equipment, Real Property, Medicare-Eligible Retiree
Health Care Fund, and Environmental Liabilities.                Intragovernmental transactions involve sales,
These lines represent some of the more significant              services, or transfers between two entities of the
Balance Sheet categories.                                       federal government. Generally accepted accounting
                                                                principles require the elimination of intragovernmental
Finally, the FIAR plan ensures accountability:                  balances from consolidated financial statements
                                                                to prevent overstating accounts for intra- or inter-
•	Progress toward completing key milestones is                  entity activity, or double counting. The Government
  reported monthly to the Defense Business Systems              Accountability Office cited the federal government’s
  Management Committee, chaired by the Deputy                   inability to adequately account for and reconcile
  Secretary of Defense.                                         intragovernmental activity and balances as a
•	Various metrics are used to gauge success.                    major impediment to rendering an opinion on the
•	Accountability for accomplishing milestones will be           government-wide consolidated financial statements.
  included in the performance standards of personnel            In FY 2006, the Department developed a set of

                                                            
Department of Defense Performance and Accountability Report FY 2006
Section 1: Management’s Discussion and Analysis .......................................


requirements and initiated a demonstration system              The Office of Management and Budget elevated the
to enact standard processes, business rules, and data          Department’s progress rating for Improved Financial
elements. This is the first step towards Department-           Performance under the President’s Management
wide deployment of this initiative to address                  Agenda to green. While progress is green, the
intragovernmental transactions.                                Department remains red in status and remains on the
                                                               Government Accountability Office’s high risk list. The
The Standard Financial Information Structure (SFIS)            Government Accountability Office has issued two
provides a common business language by using                   consecutive reports citing important business systems
standardized terms throughout the Department. The              modernization progress, and the Comptroller General
common language ensures consistency in budgeting,              also has acknowledged publicly the Department’s
accounting, financial reporting, and performance-              progress and approach.
based management. In FY 2006, the Department
created the Standard Financial Information Structure           Limitations of the Financial Statements
Library (http://www.dod.mil/dbt/sfis_resources.html)
to serve as the central repository for maintaining and         The principal financial statements have been
exposing the Standard Financial Information Structure          prepared to report the financial position and results
vocabulary to all Department business systems.                 of operations of the Department of Defense, pursuant
                                                               to the requirements of 31 U.S.C. 3515(b). The
One of the requirements of the Federal Financial               statements are prepared from accounting records of
Management Improvement Act is that agencies’                   the Department in accordance with OMB Bulletin
financial systems comply substantially with the U.S.           A-136 and to the extent possible generally accepted
Standard General Ledger at the transaction level. This         accounting principles. The statements, in addition to
means that agencies must conform to the Department             the financial reports, are used to monitor and control
of the Treasury’s standards for recording transactions         budgetary resources which are prepared from the
of the federal government accounting process. In               same records. The statements should be read with the
FY 2006, the Department implemented an online                  realization that they are for a component of the U.S.
U.S. Standard General Ledger Library in the Business           Government, a sovereign entity.
Enterprise Architecture. This library breaks down the
Department of the Treasury’s general guidance into
                                                                Performance Objectives, Goals,
detailed transaction sets that link to specific business
events, a capability that will facilitate standard                       and Results
account transaction postings using Standard Financial
Information Structure data elements across the                 The Department established four strategic goals for
Department.                                                    FY 2006, each with supporting performance measures.
                                                               Overall, the Department succeeded in achieving its
Based on these integrated plans, the Department made           goals, as shown in the chart on the following page.
great progress in improving financial management
in FY 2006. The Department completed nearly 80                 The goals and results for selected measures are
percent of its Enterprise Transition Plan milestones           presented with charts showing the Department’s
and during fourth quarter, FY 2006 completed                   success in achieving its objectives in that area.
94 percent of its FIAR Plan milestones. The                    Detailed performance information is presented in
Department’s progress has not gone unrecognized.               Section 2; Performance Information.




                                                           
                                               Department of Defense Performance and Accountability Report FY 2006
              ........................................ Section 1: Management’s Discussion and Analysis


       Summary of FY 2006                                           •	High retention rates—the Marine Corps met its
 Performance Results (66 Metrics)                                     annual target.
                                                                    •	Closing the pay gap to within 3 percent between
                                                                      military enlisted and comparable civilian pay.
       Data Not Available
                  14%                                               •	Breaking the 90 percent threshold for the first
                                                                      time on overall satisfaction with health care
      Below Target
             9%                                                       appointments, exceeding the goal of 89 percent.
                                         On or Above Target
                                                   63%                Satisfaction with the Military Health Plan has risen
Slightly Below Target
        14%                                                           10 percent since FY 2002.
                                                                    •	The recruitment and retention of Service members
                                                                      in critical skill areas is improving. However,
Strategic Goal 1:                                                     more improvement is needed. The Department is
Balance Force Management Risk                                         considering various incentives to attract and retain
                                                                      people with the skills that have high entrance
This goal focuses on recruiting, retaining, training, and             standards or are crucial to combat readiness.
equipping America’s military forces. Key components
address issues such as the total strength of the Armed              Strategic Goal 2:
Forces, the number and educational level of Active                  Balance Operational Risk
and Reserve recruits, the ability of the Department to
attract and retain critical skills, efforts to close the pay        This goal focuses on achieving and maintaining
gap with the private sector for enlisted personnel, and             operational superiority. Key goal components address
the quality of health care provided to Service members              issues such as incorporating lessons learned, effective
and their families.                                                 real-time plans and operations, and integrating joint
                                                                    operations. By FY 2009, the Department will have a
The chart below shows the performance ratings for the               networked capability to seamlessly produce, update,
Balance Force Management Risk strategic goal.                       and transition plans through crisis situations. The
                                                                    Department refers to this capability as “Net-Centricity.”
    Strategic Goal 1 Results
                                                                    Net-centricity allows all DoD users and mission
Achieved for FY 2006 (35 Metrics)                                   partners to share the information they need, when
                                                                    they need it, in a form they can understand and act on
                                      On or Above Target            with confidence, and protects information from those
                                             49%
  Data Not Available                                                who should not access it. Net-centricity is achieved
          14%
                                                                    through the realization of a networked environment
                                                                    (including infrastructure, systems, processes, and
  Below Target
       11%                           Slightly Below Target          people) that enables a completely different approach
                                             26%
                                                                    to warfighting and business operations.

                                                                    The Department is on or above target for all eight
FY 2006 results include:                                            metrics for the Balance Operational Risk strategic goal.
•	A very successful recruiting year—the Army, Navy,                 FY 2006 results indicate significant progress toward:
  Marine Corps, and Air Force are expected to meet
  their annual targets. Nearly all recruits met or                  •	Implementing the Global Force Management Data
  exceeded the desired educational and aptitude                       Initiative to monitor and provide comprehensive
  levels.                                                             insight into U.S. forces that are available worldwide,

                                                               10
Department of Defense Performance and Accountability Report FY 2006
Section 1: Management’s Discussion and Analysis .......................................


  enabling the Department to allocate the right forces          FY 2006 results include:
  for specific missions, at the right place and time.
     -	 Adaptive Planning to produce war and                    •	Eliminating 29,245 inadequate housing units for
        contingency plans that are more timely and                military personnel, exceeding its target of 27,635.
        responsive to the current security environment.           Since FY 2002, the percentage of inadequate
     -	 Analytic Agenda Products that guide analysis              housing units has dropped nearly one-third, from
        through a set of common scenarios and data.               59 to 40 percent. This issue is important enough
•	Expanding the lessons learned program Department-               to warrant a stand-alone initiative in the President’s
  wide. This includes incorporating the lessons                   Management Agenda; as of September 30, 2006,
  learned from Operation Iraqi Freedom, the                       the Department was rated green on both status and
  Department’s response to Hurricane Katrina, and                 progress.
  other recent actions.                                         •	Meeting its target to allocate 42 percent of its budget
•	Continuing transformation to the joint force model              to infrastructure activities.
  to eliminate military “stovepipes” by seamlessly              •	Continuing efforts to achieve zero percent
  combining the Armed Forces’ capabilities necessary              acquisition cost growth and reduce the time it takes
  to address a situation or event. The Capstone                   to acquire major defense items and leverage new
  Concept for Joint Operations provides a broad                   technologies.
  description of how the future joint force will operate        •	Strengthening budget guidance to estimate the direct
  across the range of military operations 8 to 20 years           cost of program priorities.
  in the future.
                                                                Strategic Goal 4:
Strategic Goal 3:                                               Balance Future Challenges Risks
Balance Institutional Risk
                                                                This goal focuses on developing new, leading-edge
This goal focuses on efforts to align the Department            capabilities to meet the challenges of tomorrow by
and its resources to support the warfighter. Key goal           rapidly converting innovative warfighting concepts
components address changing the way the Department              from prototypes into fielded capabilities. Key
conducts its daily business, such as controlling                components address defining and acquiring the skills
infrastructure costs, improving acquisition processes,          required for the future, experimenting with new
and effectively managing its assets.                            warfare concepts, enhancing its intelligence-gathering
                                                                capabilities, and maintaining the Department’s science
The chart below shows the performance ratings for the           and technology strengths.
Balance Institutional Risk strategic goal.
                                                                The chart below shows the performance ratings for the
                                                                Balance Future Challenges Risk strategic goal.
     Strategic Goal 3 Results
                                                                     Strategic Goal 4 Results
 Achieved for FY 2006 (12 Metrics)
                                                                 Achieved for FY 2006 (11 Metrics)

    Data Not Available
            33%
                                                                   Below Target
                                                                       9%                             On or Above Target
                                      On or Above Target                                                     91%
                                             59%
   Below Target
       8%



                                                           11
                                          Department of Defense Performance and Accountability Report FY 2006
          ........................................ Section 1: Management’s Discussion and Analysis


FY 2006 results include:                                       The Department recognizes its shortcomings in
                                                               integrating performance and financial information
•	Conducting numerous activities to improve the                caused by inadequate financial management
  effectiveness of intelligence in military operations         systems. To address these problems and provide
  and for overall national security, including                 decision-makers with accurate, timely, and reliable
  information sharing, developing a common human               financial data, the Department launched its Financial
  resources system for the intelligence components,            Improvement and Audit Readiness Plan and Enterprise
  and establishing standards for training, tradecraft,         Transition Plan in 2005. These plans were discussed
  technology, architecture and operational tactics,            earlier in this section.
  techniques, and procedures.
•	Achieving the goals for the Department’s Defense             The data in this report are the latest available at time
  Technology Objectives, which highlight specific              of publication. In many cases, the data for FY 2006
  technological advancement, the anticipated date              are incomplete because of lengthy reporting cycles.
  the technology will be available, the specific               Therefore, results are projected using partial year data.
  benefits that should result from the technological           Incomplete data and projected results are noted for
  advancement, and the funding required (and                   each metric as applicable. The FY 2007 Performance
  sources) to achieve the new capability.                      and Accountability Report will include final FY 2006
•	Establishing the Standing Joint Force Headquarters to        results and note any significant deviations from
  ensure that in the event of a crisis, a team with the        targeted and actual results.
  command structure and staff as well as functional
  and geographic expertise is already in place for             Other Program Evaluations
  rapid reaction with integrated employment of air,            Conducted in FY 2006
  land, sea, and information forces.
                                                               The Department’s Office of Inspector General
Data Quality, Accuracy, and Reliability                        reviewed many of the Department’s activities. These
                                                               reports also contain management’s response and plans
To the greatest extent possible, the Department ensures        to address the issues identified in the reports. They
that the performance data provided is quantifiable             may be viewed at http://www.dodig.osd.mil/. Click
and verifiable by implementing internal management             on Publications & Documents, then select Audits
controls and responding to recommendations                     under the heading Reports.
provided by the Department’s Office of Inspector
General, the Government Accountability Office,                 The Government Accountability Office has reviewed a
and others. Performance data for most quantifiable             wide range of the Department’s activities. The reports,
measures are generated as a result of the Department’s         which contain management’s response and plans to
operations. Survey satisfaction data is produced from          address the issues identified in the reports, may be
statistically valid surveys. Accuracy measures come            viewed at: http://www.gao.gov/ Click on Reports and
from validated automated systems and are reviewed              Testimony, select browse by Agency, select Department
periodically and verified for correctness. New metrics         of Defense, and select date range (October 1, 2005 to
or metrics under development are subject to the                September 30, 2006 covers FY 2006).
same data quality requirements once the metric is
established.




                                                          12
Department of Defense Performance and Accountability Report FY 2006
Section 1: Management’s Discussion and Analysis .......................................



   Analysis of Systems, Controls,                             Defense their individual statements of assurance
                                                              over internal controls. The tables referenced in the
      and Legal Compliance                                    statement appear in Section 4: Other Accompanying
                                                              Information.

Management Assurances                                         The Department uses management-conducted
                                                              assessments with alternative reviews such as audit
The Federal Managers’ Financial Integrity Act (FMFIA)         results as the source of weaknesses. In addition, the
requires federal agencies to assess the effectiveness         Department of Defense Office of Inspector General
of internal management controls for program,                  has previously identified 11 material weaknesses
operational, and administrative areas as well as              during its review of the Department, of which
accounting and financial management. Internal                 seven are covered in the Department’s management
management controls are the organization, policies,           weaknesses inventory, detailed in Section 4 of this
and procedures that are considered the tools that help        report.
program and financial managers achieve results and
safeguard the integrity of their programs. The program          FY 2006 Material Weaknesses
strengthens integrity and accountability within               40
programs and operations, and:                                 35
                                                                      34                                              35
                                                              30
•	Is critical for good government
                                                              25
•	Demonstrates responsible stewardship over assets
  and resources                                               20
•	Promotes high-quality, responsible leadership               15
•	Enhances the sound delivery of services to customers        10                12
•	Maximizes desired program outcomes                           5                           7
                                                               0
                                                                                                         4
The Department assesses its internal management                    Beginning   New      Resolved     Transferred     Ending
controls under a formalized program conducted                                                      or Consolidated
throughout the Department, to include forward
deployed units such as the Multi-National Forces              Summary of Material Weaknesses
- Iraq. Management’s philosophy is that effective
                                                              and Corrective Actions
internal management controls are crucial to all
processes and not just financial and accounting
                                                              The Department continued an aggressive program
processes.
                                                              of identifying, tracking, and resolving weaknesses
                                                              in internal controls during FY 2006. Overall, the
Using assessments according to the Office
                                                              Department reported 12 new material weaknesses,
of Management and Budget Circular A-123,
                                                              corrected or consolidated 11, and ended FY 2006 with
Management’s Responsibility for Internal Control as
                                                              a total of 35, resulting in a net gain of one material
the basis, the Department prepared the FY 2006
                                                              weakness over FY 2005. Each weakness and their
Annual Statement of Assurance, presented on
                                                              corrective action plans are discussed in detail in
the next page. The Department asserts that all
                                                              Section 4: Other Accompanying Information.
Components have reported to the Secretary of




                                                         13
                          Department of Defense Performance and Accountability Report FY 2006
........................................ Section 1: Management’s Discussion and Analysis



                   Annual Assurance Statement




                                      14
Department of Defense Performance and Accountability Report FY 2006
Section 1: Management’s Discussion and Analysis .......................................



Internal Control Program Focus                                  the Department in an effort to reach approximately
for FY 2006                                                     three million Department personnel geographically
                                                                dispersed in more than 140 countries. The goal is to
On July 28, 2006, the Deputy Secretary of Defense               reach everyone in the Department with this important
announced a new √ CHECK IT Campaign to heighten                 message.
awareness of the internal management control
program across the Department. The core message                 Statement of Assurance over
of the campaign is that the Department counts on                Financial Reporting Process
everyone to do his or her job right. As the campaign
slogan states, “√ CHECK IT because what gets                    The Department is using an incremental approach
checked gets done.” The year-long campaign focuses              in implementing Circular A-123, Appendix A. At
on different functional areas each month, as shown in           the beginning of FY 2006, the Deputy Secretary
the chart below.                                                of Defense established a Senior Assessment Team
                                                                composed of senior leaders as the governing body for
         Month                 √ CHECK IT Focus
                                                                the Department’s Appendix A implementation. The
                                                                team defines the scope of the assessments used within
                             2006
                                                                the Department, determines the Department’s financial
 August             Financial Management                        reporting weaknesses, and monitors the progress of
 September          Acquisition                                 corrective actions. In addition, certain Components,
 October            Joint Military Operations                   based on materiality, were required to establish Senior
 November           Personnel
                                                                Assessment Teams that monitor the Component’s
                                                                Appendix A implementation process.
 December           Information Technology

                             2007                               The Department issued guidance at the beginning of
                                                                FY 2006 that prescribed procedures for conducting
 January            Logistical Functions
                                                                flow charts, risk assessments, and control analyses
 February           Medical Functions                           to promote consistency and comparability of data
 March              Financial Management                        throughout the Department. In addition, the test
 April              Safety                                      plan guidance issued in March 2006 prescribed a
 May                Military Operations                         standardized process for developing test plans, which
                                                                included universe and sample size determination,
 June               Intelligence and Security
                                                                independent testing, tolerance levels, and test
Government leaders such as the Comptroller                      methods.
General, the Controller of the Office of Management
and Budget, and the Under Secretary of Defense                  The Department is leveraging its Financial
(Comptroller) have helped the Department by                     Improvement and Audit Readiness (FIAR) plan for
providing interviews. Stories featuring these interviews        Appendix A implementation by using the resources
were broadcast internally within the Department of              and capabilities already established for the FIAR
Defense on the Pentagon Channel, internationally on             plan. The FIAR plan is the Department’s path to
the American Forces Network, and are available on               audit readiness and an unqualified audit opinion. It
the DefenseLink, the Department’s official website.             describes major impediments identified by auditors
Additionally, stories built around interviews, public           and management and sets milestones for resolving
service announcements, and posters are emailed                  problems affecting the accuracy, reliability, and
directly to Component representatives throughout                timeliness of financial information. For process

                                                           15
                                            Department of Defense Performance and Accountability Report FY 2006
           ........................................ Section 1: Management’s Discussion and Analysis


solutions, the plan addresses known major                        requirements. The Department’s inability to comply
deficiencies and captures work done or to be done by             materially with the Act primarily results from structural
large Components in assessing their weaknesses and               problems related to legacy accounting systems that
developing plans to overcome those weaknesses. The               do not accurately account for both budgetary and
Department will continue to maximize resources by                proprietary activities. Quite simply, the Department
aligning its Appendix A efforts with the FIAR plan.              does not have the systems and accounting structures in
                                                                 place to enable compliance.
Training and Education
                                                                 To remedy these challenges, the Department of
Management understands that training and education               Defense has placed an unprecedented emphasis
are crucial to the successful execution of the internal          on reforming its financial management systems and
management control program and the conduct of                    accounting processes. Primarily through the Business
adequate assessments. The Department conducted                   Enterprise Architecture and the Enterprise Transition
training for 21 of the 34 Components at locally-                 Plan, the Department is identifying the business
sponsored training workshops. In addition, the                   capabilities and standards at the Department-wide
Department conducted a Department-wide conference                level that will support compliance. The Standard
attended by more than 200 representatives from all               Financial Information Structure and U.S. Standard
34 Components.                                                   General Ledger initiatives discussed earlier in this
                                                                 section are major steps toward achieving compliance
To increase the education of managers and employees              with the Federal Financial Management Improvement
on the importance of internal management controls                Act.
and effective assessment techniques, the Department is
conducting a Department-wide survey of Department-               Improper Payments Information Act
sponsored schools to assess the extent to which                  Reporting
training is already available for internal management
controls. The results of the survey will be an indicator         The Improper Payments Information Act of 2002,
of how much additional course work for the internal              as implemented by the Office of Management and
management controls is needed at the Department of               Budget, requires federal agencies to review all
Defense schools.                                                 programs and activities annually and identify those
                                                                 that may be susceptible to significant erroneous
Systems                                                          payments.

The Federal Financial Management Improvement                     The Department of Defense reports its progress in
Act requires federal agencies to conform to the U.S.             reducing erroneous payments to both the President
Government Standard General Ledger, comply with                  and the Congress. The Department’s FY 2006 review
all applicable federal accounting standards, establish           did not identify any programs or activities at risk for
financial management systems that meet government-               “significant erroneous payments” in accordance with
wide standards and requirements, and support full                the Office of Management and Budget’s criteria (i.e.,
disclosure of federal financial data, including the costs        programs with erroneous payments exceeding both
of federal programs and activities.                              $10 million and 2.5 percent of program payments).
                                                                 During this review, however, the Department noted
The Department’s Inspector General and the audit                 that civilian, commercial, and travel pay potentially
agencies within the Military Services have reported              were susceptible to erroneous payments in excess of
on the Department’s failure to comply with the Act’s             $10 million. For FY 2006, the Department reports
                                                            16
Department of Defense Performance and Accountability Report FY 2006
Section 1: Management’s Discussion and Analysis .......................................


on three high risk programs: military health benefits,        •	Electronic Government (e-Gov)
military retirement, and military pay.                        •	Strategic Management of Human Capital
                                                              •	Competitive Sourcing
In accordance with guidance, the Department                   •	Improved Financial Performance
calculated statistically-valid estimates of erroneous         •	Budget and Performance Integration
payments and is implementing plans to reduce them
within each of the six programs. Current estimates for        In addition, the President’s Management Agenda
FY 2006 improper payments are presented in the table          includes the following four program initiatives that
below.                                                        apply to the Department:
      FY 2006 Estimated Improper Payments
                  Dollars in Millions                         •	Eliminating Improper Payments
 Program                    Estimated $   Estimated %         •	Real Property Management
 Military Retirement                                          •	Coordination of Department of Veterans Affairs and
                                 $48.8         0.1%
                                                                Department of Defense Programs and Systems
 Travel Pay                       $8.0         1.0%
                                                              •	Privatization of Military Housing
 Military Health Benefits       $140.0         2.0%
 Military Pay                    $65.9         0.1%           As of September 30, 2006, the Department’s grades
 Civilian Pay                    $62.8         0.1%           were mixed:
 Commercial Pay                 $550.0         0.2%
                                                                          Department Scorecard Results
While the Department’s overall improper payment                                    (September 30, 2006)
percentage is quite low for the over $750 billion it                                                      Status         Progress
                                                               Government-Wide Initiatives
pays each year to individuals, contractors, agencies,                                                     Score           Score
and other entities, the Department has numerous pre-           Electronic Government (e-Gov)                R                G

and post-payment controls in place to minimize and
                                                               Strategic Management of Human
eliminate improper payments. For further reporting                                                           Y               G
                                                               Capital
details about these controls and the Department’s
Improper Payments Information Act reporting results,           Competitive Sourcing                          Y               Y


see Section 4: Other Accompanying Information.                 Improved Financial Performance               R                G



                                                               Budget & Performance Integration              Y               G

Other Management Information,
     Initiatives, and Issues                                   Program Initiatives
                                                               Eliminating Improper Payments
                                                                                                             Y               G
                                                               Initiative
President’s Management Agenda                                  Real Property Management Initiative           Y               Y


                                                               Coordination of VA and DoD
The President’s Management Agenda has been                                                                   Y               Y
                                                               Programs and Systems                              *               *




inculcated throughout the Department and has made
significant progress since implementation. Further             Privatization of Military Housing *          G                G


information is available at http://www.results.gov.
                                                                G   - SUCCESS       Y   - MIXED RESULTS      R       - FAILURE
The President’s Management Agenda identifies the
following five government-wide initiatives:                   Note:     Changes in score since FY2005
                                                              * = Results as of June 30, 2006



                                                         17
                                           Department of Defense Performance and Accountability Report FY 2006
           ........................................ Section 1: Management’s Discussion and Analysis


Following is a brief description of each initiative           Capital Strategic Plan to guide and inform human
and actions that the Department has taken toward              resource policies, programs, and initiatives. Currently,
achieving the President’s Management Agenda.                  the Department is re-evaluating and assessing its core
                                                              mission and critical support occupations by:
Electronic Government (E-Gov)                                 (1) workforce profile and trends, (2) Components’
                                                              needs and requirements, and (3) geographical
Goal: To ensure that the federal government’s                 locations to ensure alignment with the capabilities
$60 billion annual investment in information                  listed in the Quadrennial Defense Review. This
technology (IT) is well spent.                                assessment will provide specific competency-focused
                                                              results that will help support current and future
Agencies are working to ensure that all major IT              workload requirements for the Department.
investments and projects are:
                                                              The Department began implementation of the National
•	Justified with strong business cases                        Security Personnel System on April 30, 2006, with
•	Completed within 10 percent of cost, schedule, and          the conversion of approximately 11,000 employees,
  performance goals                                           supervisors, and managers to the pay band system
•	Secured properly and data is protected appropriately        and new performance management system. Between
                                                              October 2006 and January 2007, 66,000 employees
The E-Gov initiative emphasizes the customer.                 will be converted to the new system. The Department,
The Department takes an active role in several                however, remains enjoined by decision of the U.S.
government-wide initiatives, including SmartBUY,              District Court from implementing the National Security
the Integrated Acquisition Environment, and various           Personnel System labor relations system and appeals
education and training initiatives.                           process.

As one example, the Department developed a multi-             Improved Financial Performance
tiered Information Assurance workforce certification
program in December 2005 which applies to both                Goal: To ensure transparency over the Department’s
Department and contractor Information Assurance               finances—having timely and reliable financial
personnel. This program establishes technical and             information on a regular, recurring basis and using
administrative training requirements; identifies              that information to make informed decisions about
specific commercial certifications applicable to              agency or program management. Transparency means
the Department’s military, civilian, and contractor           knowing the costs and results of the Department’s
Information Assurance support personnel; and requires         programs and operations and being able to judge
the development of specific tracking and reporting            the best return on investment. Demonstrating
capabilities to support certification/recertification         fiscal accountability and achieving unqualified
efforts.                                                      financial statements are good first steps. Ultimately,
                                                              the Department will use more accurate, precise,
Strategic Management of Human Capital                         and timely financial information in its day-to-day
                                                              management.
Goal: To maintain a competent, motivated, and
mission-ready workforce able to respond to emerging           In FY 2006, the Department released the Financial
threats, now and in the future.                               Improvement and Audit Readiness (FIAR) plan, which
                                                              contains key milestone plans that include four focus
In May 2006, the Department issued its Human                  areas and the Fund Balance with Treasury. The

                                                         18
Department of Defense Performance and Accountability Report FY 2006
Section 1: Management’s Discussion and Analysis .......................................


key milestone plans incorporate the critical steps,            and defended its FY 2007 budget, which requested
by quarter, for obtaining favorable audit results,             $439.3 billion in discretionary budget authority for
resolving related material weaknesses and other                FY 2007. The budget supports priorities established
financial deficiencies, and providing improved                 by the Secretary to fulfill the President’s pledges to
financial data. The improved financial data will drive         defeat global terrorism, restructure America’s Armed
improvements in the Department’s key management                Forces and global defense posture, develop and field
decisions. The FIAR plan also incorporates efficiency          advanced warfighting capabilities, and provide for the
and effectiveness performance metrics for the four             welfare of the forces. To develop the FY 2007 budget,
FY 2006 focus areas. As a result of the FIAR plan              the Department continued to implement the new
implementation, the Office of Management and                   Planning, Programming, Budgeting, and Execution
Budget scored the Department as green for progress             System, refining the second year of the Department’s
for the Improved Financial Performance initiative              2-year budget. This process increases the effectiveness
of the President’s Management Agenda throughout                of the Department’s resource allocation process by
FY 2006. While progress is green, the Department               linking performance results to programming and
remains red in status and remains on the Government            budgeting decisions and placing additional emphasis
Accountability Office’s high risk list.                        on program execution.

Major FY 2006 accomplishments include:                         The Department developed and submitted the FY 2006
                                                               Emergency Wartime Supplemental Request for funds
•	The United States Army Corps of Engineers’ Civil             to finance continuing military operations in Iraq and
  Works financial statements are currently under audit.        Afghanistan. The request was formulated, in large part,
•	The Defense Logistics Agency has asserted that its           by calculating the costs, based on current cost and
  contingent legal liabilities line item is ready for          performance data, for specific performance elements
  audit.                                                       (e.g., the deployment of specific units to the theater)
•	The Department completed the baseline value of               and estimating the associated operational tempo.
  military equipment and reported this value in its
  financial statements.                                        In addition, the Department met its goal of using the
•	The Navy completed validation of its Nuclear                 Program Assessment Rating Tool to assess programs
  and Conventional Ships and Submarines portion                representing 80 percent of its resources in the FY 2007
  of its environmental liabilities, which account for          President’s Budget. Details about Department’s results
  13.1 percent of the Department’s environmental               are presented in Section 2; Performance Information.
  liabilities.
•	The Navy and Air Force completed identification              Competitive Sourcing
  of the universe of units, facilities, property and/or
  operations where environmental liability issues have         Goal: To help agencies become more results-oriented
  been identified.                                             and effective through public-private competition
                                                               subject to Office of Management and Budget Circular
Budget and Performance Integration                             A-76, Performance of Commercial Activities.

Goal: To improve program results and to ensure that            The Department uses the A-76 process only when
performance is routinely considered in funding and             it makes military and economic sense to do so.
management decisions.                                          Competition is the driving force within the American
                                                               economy, resulting in improved quality, reduced cost,
During FY 2006, the Department formulated, justified,          and rapid delivery of better products and services. The

                                                          19
                                            Department of Defense Performance and Accountability Report FY 2006
           ........................................ Section 1: Management’s Discussion and Analysis


Department continues to use the process of public-               •	Application of requirements models that are based
private competition to obtain services clearly identified          on accurate and auditable commercial benchmarks
as commercial to improve support to the warfighter                 and tied directly to existing and forecasted assets.
and increase readiness. Alternatives to Circular                 •	Standardization of performance targets across the
A-76 are focused primarily on military-to-civilian                 Department through improved planning guidance.
conversions and high performing organizations, in                •	Implementation of mechanisms for continuous
accordance with section 337 of the National Defense                tracking of performance through the programming
Authorization Act of 2004 (Public Law 108-136).                    and budgeting cycle.
These alternatives also produce significant efficiencies,        •	Controlling the size of the Department footprint
but the Department does not have systems necessary                 through incentives and robust demolition and
to quantify such efficiencies.                                     disposal programs, including Base Realignment and
                                                                   Closure decisions.
Public-private competition has produced significant              •	An up-to-date asset management plan that includes
savings for the Department. For competitions                       goals and timelines.
conducted between FY 2000 and FY 2006, the                       •	Achieving full sustainment funding levels to prevent
Department expects to produce savings (cost                        deterioration and loss of service life.
avoidance) of nearly $9.4 billion, regardless of who             •	Reaching a recapitalization rate that matches
ultimately wins the competition. During FY 2006, the               the expected service life of the assets under
Department initiated competitions involving more than              management, to prevent loss of effectiveness through
7,000 positions with anticipated savings (cost                     obsolescence.
avoidance) of $150 million.
                                                                 To improve asset accountability, the Department
Real Property Management                                         has developed a real property unique identification
                                                                 concept. All assets have a Department-wide unique
Goal: To help agencies efficiently manage the                    identifier, allowing management and financial systems
hundreds of billions of dollars in real property owned           to better track environmental, operational, and
by the federal government.                                       financial data for real property. The Department’s
                                                                 concept is being reviewed by industry and other
The Department has developed and implemented                     federal agencies for use outside of the Department.
a comprehensive plan to improve real property                    Real property is a focus area of the Department’s FIAR
management with the ultimate goal of ensuring                    plan.
that the right assets are available, when and where
needed, with the capabilities necessary to support               Eliminating Improper Payments
the warfighter. Accurately capturing the real property
inventory, and continuing to refine the performance              Goal: To strengthen financial management controls to
measures that monitor how well the Department                    better detect and prevent improper payments, enabling
sustains, restores, and modernizes its facilities, are           the Department to better ensure the taxpayer dollar is
integral steps necessary to accomplish that goal. The            put to use as Congress intended.
Department’s plan to monitor progress, identify and
correct deficiencies, and address overall management             Each year, the Department makes approximately
of its real property includes:                                   $700 billion in payments to individuals and a variety
                                                                 of other entities. An improper payment occurs when
•	Increased visibility of assets under management                the funds go to the wrong recipient, the recipient
  through improved real property inventories.                    receives the incorrect amount of funds, or the recipient

                                                            20
Department of Defense Performance and Accountability Report FY 2006
Section 1: Management’s Discussion and Analysis .......................................


receives payment for an ineligible service. Improper          The plan includes goals, objectives, and performance
payments also include duplicate payments and                  metrics in the following areas:
payments for products and services not received.
                                                              •	Leadership, commitment, and accountability
The Department maintains a vigorous review process            •	High quality health care
to identify and prevent duplicate vendor payments             •	Seamless coordination of benefits
and ensure that program dollars are spent as intended.        •	Integrated information sharing
This review process includes pre- and post-payment            •	Efficiency of operations
reviews, continual enhancements to commercial                 •	Joint contingency/readiness capabilities
payment systems to detect potential erroneous
payments prior to disbursement, post-payment                  As part of the integrated information sharing goal,
reviews of commercial payments within 180 days                the Departments share a significant amount of data.
of disbursement, and continual review of purchase             The federal Health Information Exchange enables the
and travel card payments by the Office of Inspector           transfer of protected electronic health information
General. The Department’s efforts to eliminate                from the Department to VA at the time of a Service
improper payments are described in greater detail in          member’s separation. On a monthly basis, the
Section 4: Other Accompanying Information.                    Department transmits to VA:

Coordination of Department of Veterans                        •	Laboratory results
Affairs and Department of Defense                             •	Radiology results
Programs and Systems                                          •	Outpatient pharmacy data
                                                              •	Allergy information
Goal: To ensure a seamless transition from Active             •	Discharge summaries
Duty to veteran status, continuity of care, greater           •	Consult reports
accuracy in forecasting patient population, and               •	Admission, disposition and transfer information
increased sharing of services to reduce costs and             •	Elements of the standard ambulatory data records
improve the quality of care.                                  •	Demographic data on separated Service members

Both the Department and the Department of Veterans            VA providers and benefits specialists access this
Affairs (VA) operate comprehensive medical care               data daily in their delivery of health care and claims
programs for Active Duty military members and                 adjudication. As of August 2006, the Department
veterans. The Department and VA work together                 had electronically transmitted information to the
to find efficiencies and improve health care to               exchange data repository on more than 3.6 million
beneficiaries. The Joint Executive Council and its            retired or discharged Service members. More than
subordinate Health Executive Council and Benefits             1.9 million of these members went to VA for care
Executive Council continue to pursue expanded                 or claims adjudication. In addition, in FY 2006
opportunities to share health care resources between          electronic pre- and post-deployment health assessment
the two Departments. Currently, they are updating             information was added to the information being sent
the Joint Strategic Plan for FY 2007, building on the         to VA electronically. As of July 2006, more than
successful completions of milestones and measures             703,900 pre- and post-deployment health assessment
from the 2006 plan.                                           forms were sent to VA, covering more than 580,000
                                                              separated Service members, and (deployed and now
                                                              demobilized) Reserve and National Guard members.


                                                         21
                                             Department of Defense Performance and Accountability Report FY 2006
           ........................................ Section 1: Management’s Discussion and Analysis


Privatization of Military Housing                                 •	Enablers such as logistics, space, and intelligence,
                                                                    surveillance, and reconnaissance
Goal: To eliminate inadequate family housing and                  •	Roles, missions, and organizations
increase the quality of life for Service members and              •	Manning and balancing the force
their families.                                                   •	Business practices and processes
                                                                  •	Department authorities
The Department received green scores on the
President’s Management Agenda for both status                     The 2006 Quadrennial Defense Review recognized
and progress on this initiative. Leveraging the                   that the United States is a Nation at war and is
Department’s resources with private sector capital                building on lessons learned from recent and ongoing
revitalizes inadequate housing faster and at a                    operations in Iraq and Afghanistan. Senior Department
lower lifecycle cost to the taxpayer than traditional             leaders guided and participated in all aspects of the
construction. Since the end of 2000, when the                     review to avoid “stove-piping” of issues and resource
Department privatized nearly 5,900 housing units,                 priorities. The Quadrennial Defense Review includes
the Department has privatized almost 142,000 units,               ideas from other government agencies, industry, allies,
and plans to privatize a cumulative total of more than            and partners. The Department consulted closely with
186,000 units by the end of 2007. The Department                  Congress throughout the process.
tracks its progress in four categories: (1) elimination of
inadequate housing units; (2) privatization of housing            A cross-cutting theme of the Quadrennial Defense
inventory; (3) average housing costs covered for                  Review is how America might help allies and
Service members living in non-governmental housing;               partners develop their capacities to confront common
and (4) satisfaction of Service members with their                security challenges. Experience in the war on terror
housing choices.                                                  has underscored the need for a changed defense
                                                                  establishment—one postured both for extended
Looking Forward: 2007 and Beyond                                  conflict and continuous transformation.

The 2006 Quadrennial Defense Review shapes the                    Based on the Quadrennial Defense Review results,
Department’s future with a 20-year outlook by linking             the Department’s senior leaders decided to refine the
strategy to defense resources and encompassing four               capstone force planning construct that translates the
areas that drive capabilities development and force               Department’s strategy into guidance to shape and size
planning:                                                         military forces. This wartime construct, described
                                                                  in detail in the 2006 Quadrennial Defense Review,
•	Defeating terrorist networks                                    makes adjustments to better capture the realities of a
•	Defending the homeland in depth                                 long war by:
•	Shaping the choices of countries at strategic
  crossroads                                                      •	Better defining the Department’s responsibilities
•	Preventing hostile state or non-state actors from                 for homeland defense within a broader national
  acquiring or using weapons of mass destruction                    framework.
                                                                  •	Giving greater emphasis to the war on terror and
The 2006 Quadrennial Defense Review process also                    irregular warfare activities, including long-duration
looked at all aspects of the Department to include:                 unconventional warfare, counter-terrorism, counter-
                                                                    insurgency, and military support for stabilization and
•	Programs and force size                                           reconstruction efforts.
•	The right mix of capabilities

                                                             22
Department of Defense Performance and Accountability Report FY 2006
Section 1: Management’s Discussion and Analysis .......................................


•	Accounting for, and drawing a distinction between,           FY 2007 budget request, the Congress permitted
  steady-state force demands and surge activities over         the Department to “front-load” a limited number of
  multi-year periods.                                          initiatives into the budget submission for FY 2007,
                                                               rather than waiting until the next full budget cycle.
At the same time, this wartime construct requires the          This Quadrennial Defense Review recommended
capability to conduct multiple, overlapping wars.              a number of adjustments to align defense plans,
It calls for the forces and capabilities needed for            policies, and programs with the broader strategic
deterrence, reflecting a shift from “one-size-fits-all”        direction as “leading edge” measures in the President’s
deterrence toward more flexible capabilities to deter          Budget request for FY 2007. The Department will
advanced military powers, regional weapons of mass             develop additional proposals for the FY 2008 budget
destruction states, or non-state terrorists.                   submission.

The 2006 Quadrennial Defense Review provided                   Among the key programmatic decisions the
new direction for accelerating the transformation              Quadrennial Defense Review proposed to launch in
of the Department to focus more on the needs of                FY 2007 are the following:
Combatant Commanders and to develop portfolios of
joint capabilities rather than individual “stove-piped”        •	Increasing Special Operations Forces by 15 percent
programs. The 2006 Quadrennial Defense Review                    and increasing the number of Special Forces
emphasizes the needs of the Combatant Commanders                 Battalions by one-third to strengthen forces to
as the basis for programs and budgetary priorities.              defeat terrorist networks. U.S. Special Operations
                                                                 Command is establishing the Marine Corps Special
This environment also places new demands on the                  Operations Command, an Air Force Unmanned
Department’s Total Force concept. Although the                   Aerial Vehicle Squadron, and providing an increase
all-volunteer force has been a key to successful                 of Navy SEAL teams. The Department also is
U.S. military operations over the past several                   expanding Psychological Operations and Civil
decades, continued success in future missions is not             Affairs units by 3,700 personnel, a 33 percent
preordained. The Total Force of Active and Reserve               increase. Multi-purpose Army and Marine Corps
military, civilian, and contractor personnel must                ground forces are increasing their capabilities and
continue to develop the best mix of people equipped              capacity to conduct irregular warfare missions.
with the right skills needed by the Combatant                  •	Funding a $1.5 billion initiative over the next 5
Commanders. The Quadrennial Defense Review                       years to develop broad-spectrum medical counter-
updates the Department’s workforce management                    measures against the threat of genetically engineered
policies to guide investments in the force and improve           bio-terror agents. This will strengthen homeland
the workforce’s ability to adapt to new challenges.              defense and homeland security. Additional
                                                                 initiatives include developing advanced detection
The Quadrennial Defense Review                                   and deterrent technologies and facilitating full-
and Department’s FY 2007 Budget                                  scale civil-military exercises to improve interagency
                                                                 planning for complex homeland security
Submission                                                       contingencies.
                                                               •	Developing a wider range of conventional and
The 2006 Quadrennial Defense Review benefited
                                                                 non-kinetic deterrent options while maintaining a
from the change in the legislation mandating the
                                                                 robust nuclear deterrent to help shape the choices
review. By shifting the completion date of the review
                                                                 of countries at strategic crossroads, strengthen
to coincide with the submission of the President’s
                                                                 deterrence, and hedge against future strategic

                                                          23
                                           Department of Defense Performance and Accountability Report FY 2006
           ........................................ Section 1: Management’s Discussion and Analysis


  uncertainty. It will convert a small number of Trident        all of its current and planned surveillance capabilities
  submarine-launched ballistic missiles for use in a            and programs, which included a transparent review
  conventional prompt global strike. The Department             of capabilities at all levels of classification across
  is increasing procurement of unmanned aerial                  the entire portfolio of assets. This review enabled
  vehicles to improve persistent surveillance, nearly           decision-makers to make informed choices about how
  doubling today’s capacity. It is developing the next          to reallocate resources among previously stove-piped
  generation long-range strike systems, accelerating            programs to deliver needed capabilities to the joint
  projected initial operational capability by almost            force more rapidly and efficiently.
  two decades.
•	Expanding its capabilities and forces for addressing          The Department is building on these initial efforts to
  the dangers posed by states that possess weapons              integrate tasks, people, relationships, technologies,
  of mass destruction and the possibility of terrorists         and associated resources more effectively across the
  gaining control of them. The U.S. Strategic                   Department’s many activities. By shifting the focus
                                                                from Service-specific programs to joint capabilities,
  Command is the lead Combatant Command for
                                                                the Department will be better positioned to understand
  integrating and synchronizing efforts to combat
                                                                the implications of investment and resource trade-offs
  weapons of mass destruction, providing a focal
                                                                among competing priorities. As a first step, the
  point for the Department’s efforts. The Department            Department will manage four capability areas using
  also is establishing a deployable Joint Task Force            a capability portfolio concept: Joint Command and
  headquarters for weapons of mass destruction                  Control, Joint Net-Centric Operations, Battlespace
  elimination able to provide immediate command                 Awareness, and Joint Logistics. As the Department
  and control of forces for executing those missions.           learns from experience and gains confidence in this
                                                                approach, it plans to expand the concept to other
Aligning Authority and Accountability                           capability areas.
through Joint Capability Portfolios
                                                                Summary
Most of the Department’s resources are provided to the
                                                                Without question, reshaping the defense enterprise
Military Services. This arrangement can lead to gaps
                                                                is difficult. The structures and processes developed
and redundancies within capability areas as individual
                                                                over the past half-century were forged in the Cold
Service attempts to supply complete warfighting
packages rather than organize to depend on                      War. However, the strategic landscape of the 21st
                                                                century demands excellence across a much broader
capabilities provided by other Military Departments.
                                                                set of national security challenges. With change
To optimize the provision of capabilities for the joint
                                                                comes turmoil, and achieving a desired vision
warfighter, the Department is working to re-orient
                                                                requires determination and perseverance within the
its processes around joint capability portfolios. In
                                                                Department. Cooperation with the Congress is vital.
the acquisition realm, the Department has already
                                                                As the Department emphasizes agility, flexibility,
instituted several joint capability reviews. These
                                                                responsiveness and effectiveness in the operational
reviews look across major force programs to assess
                                                                forces, its organizations, processes, and practices are
needed investments in specific capability portfolio
                                                                changing to embody these characteristics to support
areas such as integrated air and missile defense, land
                                                                the joint warfighter and America’s Commander in
attack weapons, and electronic warfare.
                                                                Chief.
The Quadrennial Defense Review used this type
of portfolio approach to evaluate surveillance
capabilities. The Department began by accounting for
                                                           24
Section 2:
Performance
Information
             How the
        Department Evolved
1775 - The Army, Navy, and Marine Corps were
established in concurrence with the American
Revolution.

1789 - The War Department was established and
was the precursor to what is now the Department of
Defense.

1798 - The Department of the Navy, and the U.S.
Coast Guard, were founded.

1947 – Congress established a civilian, Cabinet-level
Secretary of Defense. The Department of the Air Force
was created, the War Department was converted to
the Department of the Army, and the three military
departments of the Army, Navy and Air Force were
placed under the direct control of the first Secretary
of Defense.

1949 - the national defense structure was
consolidated further, creating what we now know
as the Department of Defense, and withdrawing
cabinet-level status for the three Military Department
Secretaries.
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


                         Overview                                     The performance model incorporates the following
                                                                      elements:
This overview describes the Department’s strategic
planning process and its methods for measuring                        Mission
performance. Due to the volume of information,
the Department’s printed Fiscal Year (FY) 2006                        The mission of the Department of Defense is to
Performance and Accountability Report includes                        provide the military forces needed to deter war and to
the results for selected performance measures under                   protect the security of our country.
each strategic goal. The complete performance
report includes a full discussion of each metric and                  Strategic Objectives
is available on the Department’s website (www.dod.
mil/comptroller/par/fy2006/FY06PARSection2.pdf).                      The 2005 National Defense Strategy (www.
                                                                      defenselink.mil/news/Mar2005/d20050318nds1.pdf)
The Department’s Quadrennial Defense Review serves                    established four strategic objectives for the Department
as the Department’s strategic plan. The Secretary’s                   of Defense:
Annual Defense Report serves as the Department’s
annual performance plan. The 2001 Quadrennial                         •	Secure the United States from direct attack by
Defense Review (www.defenselink.mil/pubs/qdr2001.                       dissuading, deterring, and defeating those who
pdf) and the 2005 Annual Defense Report (www.dod.                       seek to harm the U.S. directly, especially violent
mil/execsec/adr2005.pdf) set forth the performance                      extremists with weapons of mass destruction.
objectives and goals that form the basis for the
FY 2006 Performance and Accountablity Report. The                     •	Secure strategic access and retain global freedom
most recent Quadrennial Defense Review, submitted                       of action by promoting the security, prosperity,
to the Congress in February 2006, will form the basis                   and freedom of action of the U.S. and its
for performance reporting for FYs 2007-2010 (www.                       partners by securing access to key regions, lines
defenselink.mil/qdr/report/Report20060203.pdf).                         of communication, and the global commons
                                                                        (i.e., international waters and airspace, space,
To demonstrate tangible benefits to the American                        cyberspace).
public and to carefully monitor its own performance,
the Department
          DOD’s uses PERFORMANCE
                      the performance management                      •	Strengthen alliances and partnerships by expanding
model depicted  in the  diagram below.                                  the community of nations that share principles
           MANAGEMENT               MODEL
                                                                        and interests with the U.S. and help these partners
                                                                        increase their capacity to defend themselves and
                                                                        collectively meet challenges in the Nation’s interest.
                     T




                               Mission
                                                ST
                  EN




                                                RA




                               Strategic
               SM




                                                  TE




                              Objectives
                                                                      •	Establish favorable security conditions by creating
            ES




                                                     GIC
         SS




                                                                        conditions conducive to a favorable international
                                                       PL




                            Strategic Goals
       EA




                                                                        system by honoring America’s security commitments
                                                       AN
       NC




                                                           NIN




                                                                        and working with others to bring about a common
    MA




                          Performance Goals
                                                            G
  OR




                                                                        appreciation of threats; a broad, secure and lasting
  RF




                         Performance Measures                           peace; and bring about the steps required to protect
PE




                                                                        against these threats.
                          Performance Targets




                                                                 27
                                             Department of Defense Performance and Accountability Report FY 2006
            ............................................................ Section 2: Performance Information



Strategic Goals                                                    •	Institutional risks are associated with the capacity
                                                                     of new command, management, and business
The Department’s resources to achieve these strategic                practices. The primary concern is to align the
objectives are limited and choices must be made                      Department and its resources to support the
between competing priorities by balancing the                        warfighter.
demands of the present against preparations for
the future. Balancing priorities involves managing                 •	Future challenges risks are those associated with the
risk. The Department’s risk management framework                     Department’s capacity to execute future missions.
includes four dimensions that are described below.                   The primary concern is to ensure success against an
These dimensions form the basis for the Department’s                 array of prospective future challengers.
strategic goals.
                                                                   Performance Goals and Measures
•	Force management risks are associated with
  managing military forces fulfilling the missions                 The following table lists each strategic goal, its
  described in the National Defense Strategy. The                  supporting performance goals, and the associated
  primary concern is the ability to recruit, retain, train,        measures and metrics. Results for the measures and
  and equip a ready force and sustain that readiness.              metrics in italics appear later in this section of the
                                                                   report. Results for all of the measures and metrics
•	Operational risks are associated with the current                appear in the web version of the report.
  force executing the strategy successfully within
  acceptable human, material, financial, and strategic
  costs. The primary concern is the ability to achieve
  and maintain operational superiority.




                                                              28
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


     Strategic Goal                                              Performance Goals and Associated Measures and Metrics
     1. Balance Force Management Risk—Recruit, Retain, Train, and Equip a Ready Force and Sustain Readiness
     1.1 Ensure Sustainable Military Tempo and Maintain          1.2 Maintain a Quality Workforce
          Workforce Satisfaction                                 •   Active Component End Strength
     •    Personnel Tempo (PERSTEMPO) Across                     •   Reserve Component Selected Reserve End Strength
          Occupational Groups                                    •   Active Component Enlisted Recruiting Quantity
     •    Personnel Tempo (PERSTEMPO) Standards Met              •   Reserve Component Enlisted Recruiting Quantity
     •    Quality of Life Social Compact Improvement Index       •   Active Component Enlisted Recruiting Quality
     •    Commitment to Military Life Index                      •   Reserve Component Enlisted Recruiting Quality
     •    Satisfaction with Access                               •   Critical Skill Recruit Needs
     •    Overall Satisfaction with Appointment                  •   Active Component Enlisted Retention Goal
     •    Satisfaction with Military Health Plan                 •   Selected Reserve Component Enlisted Attrition
                                                                 •   Manning Level of Critical Skills
                                                                 •   Retain Balanced Mix on Non-Commissioned Officer
                                                                     Grade/Experience
     1.3 Maintain Reasonable Force Costs                         1.4 Shape the Force of the Future
     •    Civilian Force Costs                                   •   Military Human Resources Strategic Plan
     •    Community Quality of Life Per Capita Cost              •   Civilian Human Resources Strategic Plan
     •    Cost Per Enlisted Recruit—Active Component             •   Civilian Recruiting Cycle Time
     •    Cost Per Enlisted Recruit—Reserve Component            •   Implement New Reserve Component Management
     •    Cost of Basic Training                                     Paradigm (Continuum of Service)
     •    Military Personnel Costs—Enlisted Pay Gap              •   Active Component/Reserve Component Force Mix
     •    Medical Cost Per Equivalent Life Per Month             •   Identify Future Critical Skills
     •    Primary Care Provider Productivity                     •   Meeting Civilian Critical Fill Goals
     •    Total Costs for Contractor Support                     •   Optimal Officer Career Plans
     2. Balance Operational Risk—Achieve and Maintain Operational Superiority
     2.1 Maintain Force Readiness                                2.2 Ensure Superior Capabilities Exist to Succeed
     •    Adaptive Planning                                      •   Global Force Management
     •    Analytic Baselines                                     •   Theater Security Cooperation
     •    Operational Lessons Learned
     •    Defense Readiness Reporting System Implementation
     2.3 Align Forces Consistent with Strategic Priorities       2.4 Transition Forces Rapidly to Meet New Threats
     •    Joint Concepts                                         •   Operational Availability
     3. Balance Institutional Risk—Align the Organization and its Resources to Support the Warfighter
     3.1 Improve the Readiness and Quality of Key Facilities     3.2 Manage Overhead and Indirect Costs
     •    Base Realignment and Closure                           •   Reduce Percentage of the Department’s Budget Spent on
     •    Eliminate Inadequate Domestic Family Housing by            Infrastructure
          2007
     •    Fund to a 67-Year Recapitalization Rate
     •    Restore Readiness of Key Facilities by 2010
     3.3 Realign Support to the Warfighter                       3.4 Streamline the Decision Process, Improve Financial
     •    Reduce Customer Wait Time                                   Management, and Drive Acquisition Excellence
     • Reduce Major Defense Acquisition Program Annual           •   Improve the Transparency of Component Submissions for
          Rate of Acquisition Cost Growth                            Alignment of Program Review to Strategic Trades
     • Reduce Major Defense Acquisition Program                  •   Increase Visibility of Trade Space
          Acquisition Cycle Time                                 •   Provide Explicit Guidance for Program and Budget
     •    Reduce Major Defense Acquisition Program                   Development
          Operating and Support Cost Growth
     4. Balance Future Challenges Risk—Execute Future Missions Successfully Against an Array of Prospective Challengers
     4.1 Define and Develop Transformational Capabilities        4.2 Define Skills and Competencies for the Future
     •    Intelligence Activities                                •   Intelligence Human Resources Systems
     •    Global Net Enabled Information Sharing                 •   Strategic Transformation Appraisal
          Environment
     •    Defense Technology Objectives
     •    Net-centric Solutions
     4.3 Develop More Effective Organizations                    4.4 Drive Innovative Joint Operations
     •    Enhance Homeland Defense                               •   Experiment with New Warfare Concepts
     •    Establish a Standing Joint Force Headquarters          •   Science and Technology
     •    Transform the Department’s Training

                                                              29
                                                    Department of Defense Performance and Accountability Report FY 2006
               ............................................................ Section 2: Performance Information



                                                  Performance Results

During FY 2006, the Department effectively accomplished its mission, met its strategic objectives and goals, and
met 63 percent of its performance goal measures as indicated in the table below.


                                                                                              Performance Rating and Number of Results
                                    Performance Goal                                          Met or     Slightly    Below     Data Not
 Strategic Goal
                                    (Number of Reported Measures)                             Above      Below       Target    Available
                                                                                              Target     Target
 1. Balance Force Management        1.1 Ensure Sustainable Military Tempo and Maintain            2           2                     3
 Risk—Recruit, Retain, Train, and   Workforce Satisfaction
 Equip a Ready Force and Sustain
 Readiness                          1.2 Maintain a Quality Workforce                              4           3         3           1

                                    1.3 Maintain Reasonable Force Costs                           5           3                     1

                                    1.4 Shape the Force of the Future                             6           1         1

 2. Balance Operational Risk—       2.1 Maintain Force Readiness                                  4
 Achieve and Maintain Operational
 Superiority                        2.2 Ensure Superior Capabilities Exist to Succeed             2

                                    2.3 Align Forces Consistent with Strategic Priorities         1
                                    2.4 Transition Forces Rapidly to Meet New Threats             1
 3. Balance Institutional           3.1 Improve the Readiness and Quality of Key Facilities       3                                 1
 Risk—Align the Organization
 and its Resources to Support the   3.2 Manage Overhead and Indirect Costs                        1
 Warfighter
                                    3.3 Realign Support to the Warfighter                                               1           3
                                    3.4 Streamline the Decision Process, Improve Financial        3
                                    Management, and Drive Acquisition Excellence
 4. Balance Future Challenges       4.1 Define and Develop Transformational Capabilities          4
 Risk—Execute Future Missions
 Successfully Against an Array of   4.2 Define Skills and Competencies for the Future             2
 Prospective Challengers            4.3 Develop More Effective Organizations                      2                     1
                                    4.4 Drive Innovative Joint Operations                         2

 Summary Results                                                                                42            9         6           9


The data in this report are the latest available at the time of publication. In many cases, FY 2006 data are
incomplete due to timing and reporting cycles. Some results are presented as of the second or third quarter, and
may include year-end projections based on these data. Nearly half of the Department’s performance data are
current as of the third quarter; another one-third is current as of the fourth quarter or the end of the year. The web
version of the FY 2006 report includes the due date for final data for each measure. The FY 2007 Performance and
Accountability Report will include final FY 2006 results. It also will identify significant deviations from targeted
and actual results.



                                                                       30
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


In FY 2005, the Department reported on 70 performance measures. Four of those measures were deleted from this
report for the following reasons:

•	The “TRICARE Prime Outpatient Market Share” measure was dropped because the results provided limited value.
•	“Enhanced Planning Process” is now covered by the “Analytic Baselines” measure.
•	“Link Defense Resources to Key Performance Goals” is covered by two metrics: “Improve the Transparency of
  Component Submissions for Alignment of Program Review to Strategic Trades” and “Provide Explicit Guidance
  for Program and Budget Development.”
•	“Support Acquisition Excellence Goals” is now covered by three measures that address various reductions in the
  Major Defense Acquisition Program.

Final results for FY 2005 for selected measures are presented in this section of the report; complete FY 2005 results
for all measures are contained in the web version of this report.

Descriptions of each strategic goal and specific results for FY 2006 are presented below.


                                            Strategic Goal 1:
   Balance Force Management Risk - Recruit, Retain, Train, and Equip a Ready
                        Force and Sustain Readiness

This goal focuses on the Department’s efforts to support American forces and ensure they have what is required
to defend the Nation today and in the years ahead. These performance measures address the human part of
the defense equation—what information is helpful for the Department to manage its workforce properly and
continue to attract and retain the best and the brightest and sustain the quality of the all-volunteer force. The
Department uses a wide range of measures and indicators to monitor the “pulse” of the workforce and to ensure
the Department meets its military objectives.

Performance Goal 1.1:
Ensure Sustainable Military Tempo and Maintain Workforce Satisfaction

This performance goal focuses on deployment of forces and factors that influence recruitment and retention
decisions. The military lifestyle presents special challenges to family life. Overseas tours away from support
networks, frequent moves that disrupt a spouse’s career or a child’s school routine, and long separations from
family members test the strength of our military families everyday. Military Tempo measures, which track time
away from home, continue to be collected. However, payment for excessive tempo has been suspended. The
current payment requirements have been considered punitive in nature, do not reflect the Services’ deployment
patterns, and are not appropriate compensation for exceeding member expectations. The compensation for
excessive deployment is being re-evaluated to be more Service-specific and appropriate.

The Department uses a variety of measures to gauge its success in making military life a desirable career path.
Below are selected metrics.




                                                         31
                                                            Department of Defense Performance and Accountability Report FY 2006
                  ............................................................ Section 2: Performance Information


Quality of Life and Commitment to Military Service Indices

Many factors contribute to an individual’s decision to join and remain in a career field, but the “benefits” package
is always a key consideration. To attract and maintain a quality workforce, the Department developed the
Modernized Social Compact that outlines a 20-year strategy for Quality of Life support to ensure that programs and
services keep pace with the changing needs of the transforming military. The Compact is designed to help Service
members keep pace with the American standard of living, to recognize and facilitate changing demographics (for
example, two-thirds of military families live off the installation), and meet expectations of military members and
their families.

The Department uses the Quality of Life Social Compact Improvement Index to ensure that it provides support to
families. The Index monitors eight key programs and services supporting military members and families: housing,
Military OneSource (a one-stop website for military members and their families containing useful information
on life issues), off-duty/voluntary education, financial readiness, child development, the Department’s education
activity, commissaries, and exchanges. Functional areas and metrics may be added or eliminated as data mature
and priorities change. The Index will be cross-referenced with a metric that measures the Community Quality of
Life Per Capita Cost to ensure that programs are provided at a level sufficient to meet the unique needs of military
members and their families. The Department is analyzing results from the 2006 surveys.

The following table shows the Department’s progress toward developing and meeting the standards represented by
the Quality of Life Social Compact Improvement Index.


                                                 Quality of Life Social Compact Improvement Index
                                                                                                            FY 2005                  FY 2006
 Metric                         FY 2002                FY 2003                     FY 2004
                                                                                                          Target/Actual            Target/ActualA
 Trend data                No historical data;    Developed              Met or exceeded            Met or exceeded            Meet or exceed
 to monitor                new metric             framework for index    standards in 4 of 8        standards in 3 of 8        standards in 8
 improvements in                                                         functional areas           functional areas           functional areas
 leading Quality of                                                      For 2 functional areas,    For 4 functional areas,
 Life indicators                                                         some of the Department’s   some of the Department’s
                                                                         Components met or          Components met or
                                                                         exceeded standards         exceeded standards
                                                                         Did not meet standards     Metric for 1 functional
                                                                         for 1 functional area      area was under review
                                                                         Metric for 1 functional
                                                                         area was under
                                                                         development

 A
     FY 2006 data will not be available until the first quarter of FY 2007.


The Department is developing a Commitment to Military Life Index to track the factors that influence and predict
commitment to military service for Active, Guard, and Reserve members and spouses. Commitment is a primary
predictor of a Service person’s intention to remain in the military and is useful in making resource decisions.
This index is modeled after an approach used in corporate America to measure employee commitment. A



                                                                              32
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


complementary Index of Spousal Commitment to the Military is being developed to acknowledge the importance
of both military and family factors in predicting commitment to the military.

The value of the Commitment Index will be to demonstrate the fluctuations and factors of commitment over
time. The Commitment Index survey questions will be included in all surveys of Active Duty members, and once
each year in a Reserve and Guard survey. The Index will gain meaning as the factors influencing commitment
are tracked at different points in time. The data will be used in further research that will look at how commitment
indicators are linked to actual reenlistment decisions. The survey instrument will be reviewed and updated
as needed, and data will be cross-referenced with the Quality of Life Social Compact Improvement Index and
Community Quality of Life Per Capita Cost metric.

Medical Care

Another factor that influences recruitment and retention is the quality of the health benefits offered to members.
The Military Health System provides operational medicine, training, research and force health protection across
the full range of military operations. It also delivers health care for the system’s 9.2 million eligible beneficiaries,
including Active, activated Reserve, and eligible family members, through direct and managed care programs. The
Department uses three metrics to gauge the effectiveness of its medical programs: (1) satisfaction with access,
(2) overall satisfaction with appointment, and (3) satisfaction with military health plan.

Access

Access is a significant factor in the overall satisfaction with medical care and an area for focused improvement.
The Department measures satisfaction with access to appointments based on monthly customer satisfaction surveys
aimed at individuals who had an outpatient medical visit at a Military Treatment Facility hospital or clinic during
the previous month. The survey includes a question, “How would you rate the (clinic name) on ease of making
this appointment by phone?” The Department computes the percentage of respondents (weighted by appropriate
sampling weights) who answer “Good,” “Very Good,” or “Excellent” (on a scale from “Poor” to “Excellent”).
Quarterly reports are available by Military Service branch. The table below shows the aggregate Military Health
System score.


                                                              Satisfaction with Access
                                                                                                   FY 2005           FY 2006
 Metric                                             FY 2002              FY 2003     FY 2004
                                                                                                 Target/ActualA   Target/ActualB


 Satisfaction with access                            80.8%                83.0%          81.8%   ≥84% / 81.0%     ≥84% / 80.6%

 A
     Actual performance represents a weighted average for the entire fiscal year.
 B
     FY 2006 data are estimated as of the second quarter.


Satisfaction with access decreased after the survey method changed from mail to telephone. A slight change was
expected, but the size of the decrease raised concerns about access to the hospitals or clinics. Using other tools,



                                                                            33
                                                         Department of Defense Performance and Accountability Report FY 2006
                 ............................................................ Section 2: Performance Information


the Department conducted a review to determine whether this was an issue across-the-board for the Military
Health System or was focused on Military Treatment Facilities. Two major areas (“getting needed care” and
“getting care quickly”) from the quarterly beneficiary survey showed that responses from most enrollees were at
or near the norm. However, enrollees in the TRICARE Prime program, a program similar to a health maintenance
organization, appear to be less satisfied. Part of the reason may be the priority given to the returning wounded,
which forces the TRICARE Prime enrollees to seek care in the private sector while the Military Treatment Facilities
are treating the returning wounded. As more appointments become available in the military hospitals and clinics
for TRICARE Prime beneficiaries, the scores should improve.

Although performance to date for FY 2006 is below the goal, it is expected to continue to improve throughout
the rest of the year. It is unlikely that the Department will achieve the goal for the year. Access to care is a very
important issue for the Military Health System, and the Department will continue to monitor and take appropriate
action as needed.

Appointment Satisfaction

The Department also looks at beneficiaries’ overall satisfaction with their outpatient medical appointments at
a Military Treatment Facility hospital or clinic during the month. Overall satisfaction with the appointment is
affected by numerous factors during the visit, including the experience in getting an appointment, the wait time
at the appointment, the interaction with the provider, and interactions with the pharmacy or ancillary services.
This metric is based on a monthly customer satisfaction survey for individuals who had an outpatient medical visit
during the previous month. The metric is based on Question 12 of the customer satisfaction survey, which asks:
“All things considered, how satisfied were you with the (name of clinic) during this visit?”

The survey is conducted monthly and computes the percentage of respondents (weighted by appropriate sampling
weights) who answer “Good,” “Very Good,” or “Excellent” (on a scale from “Poor” to “Excellent”). Results are
based on the summation of data for all surveys completed by patients during the year. Although information is
available by Military Service branch, the table below shows only an aggregate Military Health System score.


                                                    Overall Satisfaction With Appointment
                                                                                                  FY 2005           FY 2006
 Metric                                              FY 2002             FY 2003    FY 2004
                                                                                                Target/ActualA   Target/ActualB

 Overall satisfaction with appointment                87.1%               88.4%     87.6%      ≥ 89% / 88.8%     ≥ 89% / 90.5%

 A
     Actual performance represents a weighted average for the entire fiscal year.
 B
     FY 2006 data are estimated as of the second quarter.


The FY 2006 performance has continued to exceed the goal for the Military Health System. Once individuals
obtain an appointment, they are satisfied with the health care services they receive and the overall treatment by the
staff. Although the survey method changed from a mailed survey to a phone-based survey in FY 2005, the surveys
did not show any decline in overall satisfaction with the appointment. The Department expects the score at the
end of the fiscal year to remain above the goal.


                                                                            34
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


Satisfaction with Health Plan

Satisfaction with the “company” health plan is an important recruitment/retention consideration in virtually every
career path, and the military is no different. This metric provides a key indicator of the performance of the Military
Health System. This metric uses the following survey item: “We want to know your rating of all your experience
with your health plan. Use any number from 0 to 10 where 0 is the worst health plan possible and 10 is the best
health plan possible. How would you rate your health plan now?”

Satisfaction is measured as the percentage of respondents (weighted by appropriate sampling weights) who answer
8, 9, or 10. Currently, the results for the year are actually based on the respondents’ interactions with the health
system during the prior fiscal year. The table below shows that the Department has made steady improvements in
health plan satisfaction rates since FY 2002.


                                                    Satisfaction with Military Health Plan
                                                                                               FY 2005           FY 2006
 Metric                                             FY 2002             FY 2003    FY 2004
                                                                                             Target/ActualA   Target/ActualB

 Percentage satisfied with military health
                                                     46.5%               51.2%       53%     ≥ 57% / 53%      ≥ 57% / 56%
 plan

 A
     Actual performance represents a weighted average for the entire year.
 B
     FY 2006 data are final as of the third quarter.


Throughout FY 2006, eligible beneficiaries’ satisfaction with the plan has improved. The results for each quarter
of FY 2006 are above the comparable quarter for FY 2005. Issues with claims processing have been resolved, and
development of the provider network is occurring smoothly. The next issue for focused improvement is access to
care; the Department expects to make improvements that will have a positive impact on the beneficiaries’ overall
satisfaction with the plan.

Performance Goal 1.2:
Maintain a Quality Workforce

This goal focuses on ensuring that the Department has the appropriate numbers and skill mix in its military forces.
Metrics cover three broad categories: total strength, recruitment results, and retention results. The categories link
together very closely; a shortfall or overage in one has implications for the other two.

Military Manpower

Two metrics track the total number of Active Component and Reserve Component forces available, or what the
Department refers to as the end strength. End strength is the number of forces that are onboard at the end of the
fiscal year to execute the Department’s mission.




                                                                             35
                                                        Department of Defense Performance and Accountability Report FY 2006
                 ............................................................ Section 2: Performance Information


Active Components

The table below shows the end strength for the Active Components. The percentages beneath each figure indicate
the percentage difference between the planned and actual end strength.


                                                Active Component End Strength (in thousands)
                                                                                                 FY 2005         FY 2006
Service                                             FY 2002        FY 2003       FY 2004
                                                                                               Target/Actual   Target/ActualA
                                                     486.5          499.3         499.5        502.4 / 492.7   512.4 / 496.4
    Army
                                                    (+1.4%)        (+4.0%)       (+3.6%)         (-1.9%)         (-3.1%)

                                                     383.1          382.2         373.2        365.9 / 362.9   352.7 / 353.5
     Navy
                                                    (+1.9%)        (+1.7%)       (-0.2%)         (-0.8%)         (+0.2%)
                                                     173.7          177.8         177.5        178.0 / 180.0   179.0 / 178.9
     Marine Corps
                                                    (+0.7%)        (+1.6%)       (+1.4%)         (+1.1%)         (-0.0%)
                                                     368.3          375.1         376.6        359.7 / 353.7   357.4 / 352.6
    Air Force
                                                    (+2.6%)        (+4.4%)       (+4.8%)         (-1.7%)         (-1.3%)
A
    FY 2006 data are as of the third quarter.


The Nation continued to operate in a state of national emergency due to the Global War on Terror. As a result,
the Congress authorized end-strength increases during FY 2006 for the Army and Marine Corps. The Army’s
authorization was increased to 512,400. The Marine Corps’ authorization was increased by 1,000. The Marine
Corps reached its new authorization by the end of the third quarter. The Army began the fiscal year with
492,700 soldiers (short of the desired FY 2005 end strength), but expects to end FY 2006 just 1.9 percent short of
its goal.

Leveraging technology and modernizing weapons platforms have helped achieve a reduction in manpower
requirements. The Air Force is slightly below its authorized strength as of the third quarter and most likely will not
meet its FY 2006 authorized strength. However, the Air Force plans to reduce strength by 23,200 in FY 2007;
therefore, falling below the FY 2006 authorization is not a concern. The Navy had a 13,200 reduction in
authorized strength in FY 2006 and ended the third quarter slightly above its FY 2006 authorized strength. In
FY 2007, the Navy plans another strength reduction of 12,000. While both the Air Force and the Navy reduce
strength levels, they are properly shaping the force using force-shaping tools such as moving qualified Service
members into undermanned critical skills areas and applying high accession and retention standards to ensure a
highly qualified workforce with the right people, in the right jobs, at the right time.

Reserve Components

At the end of the third quarter, four Department Components (Army National Guard, Army Reserve, Navy Reserve,
and Air National Guard) were below their targets. The Navy Reserve will close FY 2006 under strength due to
recruiting shortfalls and fewer re-enlistments. The shortfall in the two Army Reserve Components was attributed to
a strong economy, which results in fewer individuals joining the Reserve.




                                                                     36
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


Based on current projections, the Reserve forces should achieve the following strength levels:


                            Reserve Component Selected Reserve End Strength (numbers in thousands)
                                                                                                            FY 2006
 Reserve Component                                     FY 2002   FY 2003    FY 2004         FY 2005
                                                                                                          Target/ActualA
                                                        351.1     351.1       342.9          333.2        350.0 / 340.4
      Army National Guard
                                                       (+0.3%)   (+0.3%)     (-2.0%)        (-4.8%)         (-2.7%)
                                                        206.7     211.9       204.1          189.0         205.0/189.8
      Army Reserve
                                                       (+0.8%)   (+3.4%)     (-0.4%)        (-7.8%)          (-7.4%)
                                                         88.0      88.2       82.6            76.5         73.1 / 70.3
      Navy Reserve
                                                       (+1.1%)   (+0.4%)    (-3.9%)         (-8.3%)         (-3.8%)
                                                         39.9      41.0       39.7            39.9         39.6 / 39.5
      Marine Corps Reserve
                                                       (+0.9%)   (+3.8%)    (+0.1%)         (+0.9%)         (-0.3%)
                                                        112.1     108.1      106.7           106.4        106.8 / 105.2
      Air National Guard
                                                       (+3.4%)   (+1.4%)    (-0.2%)         (-0.3%)         (-1.5%)
                                                         76.6      74.8       75.3            75.8         74.0 / 74.7
      Air Force Reserve
                                                       (+2.6%)   (-1.1%)    (-0.6%)         (-0.4%)         (+1.0%)
 A
     FY 2006 data are final as of the third quarter.




Recruitment

The Department uses several metrics to provide insight into the outcomes of its recruiting efforts. The first
set answers the question: “Did the Department meet its annual recruiting goals?” The second set ranks the
educational level and aptitude of the recruits. The third set examines the Department’s success in recruiting
individuals with critical skills.

Number of Recruits – Active Components

All Active Components met their third quarter recruiting goals and are expected to meet their year-end recruiting
goals for FY 2006.


                               Active Component Enlisted Recruiting Quantity (numbers in thousands)
                                                                                            FY 2005         FY 2006
 Metric                                                FY 2002   FY 2003    FY 2004
                                                                                          Target/Actual   Target/ActualA
 Number of enlisted Active Component
                                                        196.5     184.9       182.6       169.5 / 163.3   179.7 / 120.1
 accessions
 A
     FY 2006 data are final as of the third quarter.


Number of Recruits – Reserve Components

All Reserve Components, except Navy Reserve and Air National Guard, met their recruiting goals through the end
of the third quarter in FY 2006. The strong economy and the pressures of the Global War on Terror have created


                                                                   37
                                                          Department of Defense Performance and Accountability Report FY 2006
                  ............................................................ Section 2: Performance Information


a lower propensity among Service-eligible young people to join and a decreased desire by those who typically
influence potential recruits to consider military service. Enhanced recruiting and retention incentives have helped.


                              Reserve Component Enlisted Recruiting Quantity (numbers in thousands)
                                                                                                                  FY 2006
 Metric                                                FY 2002       FY 2003       FY 2004            FY 2005
                                                                                                                Target/ActualA
 Number of enlisted Reserve Component
                                                        147.1         133.1         118.2              141.1    141.1 / 101.2
 accessions
 A
     FY 2006 data are final as of the third quarter.


Educational Levels and Aptitude

Aptitude test results and education levels correlate closely to job performance for both Active and Reserve
members. All military enlisted applicants (Active and Reserve) take the Armed Services Vocational Aptitude Battery
exam, which includes the Armed Forces Qualification Test. This test measures math and verbal skills, which
directly correlate with trainability and on-the-job performance. The table below shows how test percentiles are
grouped into categories:


                   Armed Forces Qualification Test Categories and Corresponding Percentile Score Ranges
                               Category                                               Percentile Score Range

                                    I                                                         93–99
                                   II                                                         65–92
                                  IIIA                                                        50–64
                                  IIIB                                                        31–49
                                   IV                                                         10–30
                                   V                                                           1–9


Those who score at or above the 50th percentile are ranked in categories I-IIIA. The Department values these
higher-aptitude recruits because their training and job performance are superior to those in the lower groupings.
The Department also values recruits with high school diplomas because years of research and experience
demonstrate that high school graduates are more likely to complete their initial 3 years of enlistment.

Quality benchmarks for recruiting were established in 1992 based on a study conducted jointly by the Department
and the National Academy of Sciences. The study produced a model linking recruit quality and recruiting resources
to the job performance of enlistees. From this model, the Department derived its minimum acceptable quality
thresholds for Active and Reserve members as follows:

•	90 percent with high school diplomas or equivalent
•	60 percent in aptitude test categories I–IIIA
•	Not more than 4 percent in aptitude test category IV



                                                                      38
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


Adhering to these benchmarks reduces personnel and training costs, while ensuring that the force meets high
performance standards.

As the following tables show, the quality of Active and Reserve Component recruits is fairly consistent from year to
year. Three of the four Active Components met their quality goals, while the Army missed its high school diploma
goal. Most Reserve Components have met the quality standards in their recruiting efforts through the end of the
third quarter. It appears the Navy Reserve missed its target due to challenges in reporting. The Navy is working
on a solution. While the Army National Guard missed its targets slightly as of the end of the third quarter, fourth
quarter trends suggest that it may meet the goal of 90 percent recruits with high school diplomas and less than
4 percent in the Armed Forces Qualification Test category IV.


                                                 Active Component Enlisted Recruiting Quality
                                                                                                  FY 2005         FY 2006
Category                                              FY 2002       FY 2003        FY 2004
                                                                                                Target/Actual   Target/ActualA
Percentage of recruits holding high school
                                                           94%        95%           95%         >90% / 93%      >90% / 92%
diplomas
Percentage of recruits in Armed Forces
                                                           70%        72%           73%         >60% / 70%      >60% / 70%
Qualification Test categories I–IIIA

Percentage of recruits in category IV                      0.7%      0.2%           0.3%         <4% /1.9%       <4% / 1.5%

A
    FY 2006 data are final as of the third quarter.



                                                Reserve Component Enlisted Recruiting Quality
                                                                                                                  FY 2006
 Metric                                               FY 2002       FY 2003        FY 2004       FY 2005
                                                                                                                Target/ActualA
 Percentage of recruits holding high
                                                           89%       87%            87%B           85%           >90% /89%
 school diplomas
 Percentage of recruits in Armed Forces
                                                           66%       66%            66b%           63%           >60% / 61%
 Qualification Test categories I–IIIA

 Percentage of recruits in test category IV                1.1%      1.5%           2.0%            3%            <4% / 4%
 A
     The FY 2006 data are final as of the third quarter.
 B
     Excludes Air National Guard.


Critical Skills

The third set of recruitment metrics evaluates the Department’s success in attracting recruits with critical skills that
are in high demand. This metric captures the fill rate for enlisted skills that the Services consider most critical for
recruitment emphasis, such as linguists, explosive ordinance disposal technicians, and military police. Positions
requiring these skills are difficult to fill, either because they are viewed as undesirable or dangerous, or persons
with the needed specialty skills are not readily available.




                                                                      39
                                                           Department of Defense Performance and Accountability Report FY 2006
                  ............................................................ Section 2: Performance Information


To obtain these skills, the Department may provide enlistment bonuses, incentives to recruiters, etc. Currently, the
metric is applied only to Active Duty enlisted recruits.

The exact fill rate for each skill is measured and each Service is rated based on the recruit rate for its lowest skill
rating. The Department uses the following criteria for evaluating overall unit readiness with respect to skill match
(the categories and percentages indicate whether unit personnel have the skills to fit the unit’s missions):

•	C1—Fully mission capable	                               85% or above
•	C2—Mostly mission capable	                              75% to 84%
•	C3—Major parts mission capable	                         65% to 74%
•	C4—Some parts mission capable	                          64% and below

The “C” rating, short for capability rating, focuses on the weakest link in the chain. For example, if a unit needs
five critical skills to perform its mission successfully, and only four of the five are filled at a rate of 85 percent or
more, the unit’s “C” rating is based on the fifth skill fill rate. If it is filled at only 60 percent then the unit as a whole
receives the lowest rating of C4.

The following tables show the overall fill rates for designated skills and how the data breaks down by Active
Component. As of the third quarter, the Air Force met the target, but the other Services did not.


                                                              Critical Skill Recruit Needs
                                                                                                         FY 2005               FY 2006
Metric                                                 FY 2002             FY 2003         FY 2004
                                                                                                       Target/Actual         Target/ActualA

Percentage of designated skill positions          No historical data;     No historical
                                                                                             95%     95% fill rate / 65%   95% fill rate / 84%
filled                                               new metric         data; new metric
A
    FY 2006 data are final as of the third quarter.


Retention

The ability of the Department to retain Active and Reserve forces in certain numbers at certain career levels is a key
driver that has both staffing and budget repercussions. Poor retention rates require greater recruiting efforts and
increased funding to train new Service members.

Active Components

The table below shows that the Active Components continue to have excellent retention rates and are meeting or
exceeding year-to-date goals. The figures reflect reenlistment numbers as of the end of the third quarter; the Marine
Corps has already met its annual goal. The other Services are expected to meet their annual reenlistment goals by
the end of the fiscal year.




                                                                              40
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................



                               Active Component Enlisted Retention Goal (numbers in thousands)
                                                                                                                     FY 2005                 FY 2006
 ServiceA                                          FY 2002               FY 2003               FY 2004
                                                                                                                   Target/Actual          Target/ActualB
 Army
                                                      19.4              19.8 / 21.8              24.9               26.9 / 27.8            26.5 / 24.5
    Initial
                                                      23.1                 19.5                  21.1               23.8 / 24.4            24.5 / 19.6
    Mid-career
                                                      15.7                 12.8                  14.0               13.5 / 17.3            13.2 / 12.4
    Career
                                                      58.2                 54.2                  60.0               64.2 / 69.5            64.2 / 56.5
    Total
 NavyC
                                                                                                                                           15.0 / 11.2
    Zone A                                           59%                   62%                   54%                53% / 52%
                                                                                                                                            8.0 / 6.5
    Zone B                                           75%                   77%                   70%                69% / 63%
                                                                                                                                            4.0 / 3.6
    Zone C                                           87%                   88%                   87%                85% / 85%
                                                                                                                                           27.0 / 21.3
    Total
 Marine Corps
                                                       6.1                  6.0                   6.0                5.9 / 6.2              5.9 / 5.9
   First term
                                                       7.3                  5.8                   7.7                5.1 / 7.0              6.3 / 6.4
   Subsequent
                                                      13.3                  11.8                 13.7               11.0 / 13.1            12.1 / 12.3
   Total
 Air ForceC
                                                                                                                                           19.4 / 14.8
     Zone A                                          72%                   61%                   63%                51% / 41%
                                                                                                                                            9.3 / 7.8
     Zone B                                          78%                   73%                   70%                71% / 70%
                                                                                                                                            6.2 / 5.2
     Zone C                                          95%                   95%                   97%                88% / 89%
                                                                                                                                           31.9 / 27.8
     Total
 A
   Definitions by years of service:
    Army: Mid-career—7 to 10; career—10 or more
    Navy: Zone B—6 to 10; Zone C—10 to 14
    Air Force: Zone B—6 to 10; Zone C—10 to 14
    Marine Corps: First term—Marines on their initial contract who are interested in reenlisting during their Expiration of Active Service fiscal year;
      Subsequent—Marines in the ranks of sergeant, staff sergeant, and gunnery sergeant.
 B
   FY 2006 actual data are final as of the third quarter. Target is the annual retention goal.
 C
   The Navy and Air Force in FY 2005 and prior years tracked retention as a percentage of the target. To enhance consistency in the reporting
   process across the Department, the Navy and Air Force began reporting the actual number of reenlistments in FY 2006.


Reserve Components

To assess retention trends in the Reserve Components, the Department uses attrition rather than retention rates.
Attrition is computed by dividing total losses from the Selected Reserve of a specific Component for a fiscal year
by the average personnel strength of that Component’s Selected Reserve for that year. This metric is preferable
to retention rates for two reasons: (1) only a small portion of the Reserve Component population is eligible for
reenlistment during any given year, and (2) the Reserve Components have different business practices than the
Active Components due mainly to the lack of mobility of reservists.

The table below shows that Reserve Component attrition overall is within anticipated limits. Reserve Component
Enlisted attrition is generally lower when compared to third quarter results from the prior year. Components
anticipate achieving targets at year-end due to Command emphasis on providing support to Reserve members and
their families.




                                                                            41
                                                           Department of Defense Performance and Accountability Report FY 2006
                 ............................................................ Section 2: Performance Information



                                          Selected Reserve Component Enlisted Attrition Ceiling
                                                                                                                   FY 2006
 Selected Reserve Component                          FY 2002          FY 2003       FY 2004        FY 2005
                                                                                                                 Target/ActualA
      Army National Guard                             20.6%            18.1%         18.6%          20.2%        19.5% / 14.3%

      Army Reserve                                    24.6%            22.1%         22.6%          23.4%        28.6% / 16.1%

      Navy Reserve                                    26.5%            26.5%         28.2%          31.2%        36.0% / 26.0.%

      Marine Corps Reserve                            26.0%            21.4%         26.3%          22.1%        30.0% / 18.9%

      Air National Guard                               7.3%            12.7%         11.5%          10.2%        12.0% / 8.4%

      Air Force Reserve                                8.7%            17.0%         13.6%          14.7%        18.0% / 11.0%
 A
     FY 2006 data are estimated as of the third quarter.


Critical Skills

The Department also is developing a way to measure its effectiveness at retaining critical military skills. To be
designated as “critical,” a skill must meet two tests: (1) it must be short of its targeted manning level, and (2) it must
be critical to the Service’s mission. As a first step, the Department established a common definition and metric to
monitor critical skills across the Services.

A skill shortage may occur when fewer individuals are assigned than are authorized (quantitative) or when the
average experience is substantially different from the desired experience (qualitative). These shortages are actual,
projected, or have a past trend of historical shortages. To be considered mission critical, a skill must meet at least
one of the following criteria:

•	Require notably above-average training or replacement costs
•	Be in high demand in the civilian sector
•	Present a recruiting challenge
•	Be crucial to combat readiness
•	Be a low-density, high-demand skill

The Service’s overall rating can be no higher than its lowest-rated critical skill; the Department’s score can be no
higher than the lowest-rated Service.

The Department monitors each Service’s ability to retain members in its top 10 critical skills using a stoplight
scoring system. Overall, the Department and the individual Active Components are rated “Red” for critical skills.
Only 10 of 40 (25 percent) designated skills achieved 95 percent or greater fill goal. A skill retention rate of
95 percent or greater is assessed “green”, 85-94 percent “yellow,” and 85 percent or less “red.” Most critical skills
require difficult training and very stringent prerequisites for continuation, and they are highly sought in both the
private sector and among other government agencies.




                                                                        42
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................



                                                           Manning Level of Critical Skills
                                                                                                                  FY 2005            FY 2006
End-State Metric                                      FY 2002             FY 2003              FY 2004
                                                                                                                Target/Actual      Target/ActualA

                                                No historical data;   Started to define   Established       Began tracking the   >95% fill for all
                                                new metric            critical skills     common            metric during the    skills/
Percentage of skills deemed critical for                              Developed list of   definitions for   second quarter FY    Overall Services
retention relative to a Department-wide                               critical skills     critical skills   2005                 rating: Red
benchmark                                                                                 Tested data                            25% of designated
                                                                                          collection                             skills achieved 95%
                                                                                                                                 or more of goal

A
    FY 2006 data are final as of the third quarter.


Performance Goal 1.3:
Maintain Reasonable Force Costs

This goal focuses on the cost to maintain the military force necessary to fulfill the Department’s mission. The term
“force costs” refers to all the force-related activities that make up overall labor costs for the Department.
Per capita costs for recruiting and basic training; civilian and contractor support costs; medical costs and Quality
of Life initiatives; productivity of primary care providers; and the pay gap between private sector and military
compensation that exists for enlisted personnel are measures that help the Department manage its labor costs.
Several of these cost factors are described below.

Per Capita Costs to Recruit and Train

The cycle to recruit, train, and replace Service members is a major cost driver for force management. Two factors
provide a rudimentary indicator of the price of replenishing the force over time: the average annual cost to recruit
one new Service member and the cost to complete basic training per Service member. The cost per recruit tends to
increase annually, while the cost of basic training has remained relatively stable. Each year, the Department enlists
approximately 180,000 new recruits for the Active Components and 130,000 for the Reserve Components.

Recruiting Costs

The two tables below indicate the cost per Active and Reserve Component recruit along with indicators that
track costs and trends over time. The cost of recruiting an Active or Reserve Component member is calculated
by dividing a Service’s total expenditures for enlisted recruiting by the total number of recruits. Recruiting
expenditures include recruiting personnel compensation, enlistment bonuses, college funds, advertising,
communications, recruiting support, and other resources within the recruiting Service.

The estimated cost per enlisted recruit in FY 2006 is below the FY 2003 - FY 2005 levels. The FY 2006 estimate
does not include supplemental appropriations. These increased resources will be reflected in the FY 2008
President’s Budget submission.



                                                                             43
                                                          Department of Defense Performance and Accountability Report FY 2006
                 ............................................................ Section 2: Performance Information


Reliable FY 2006 recruiting costs for the Reserve Components could not be determined. Changes in Component
personnel procedures and system problems have made it difficult to determine the reliability and validity of
the cost per enlisted recruit for the Reserve Components. The Department is actively pursuing a solution to this
problem.


                             Cost Per Enlisted Recruit—Active Component (Constant FY 2006 Dollars)

Metric                                               FY 2002         FY 2003       FY 2004        FY 2005         FY 2006A

Cost per recruit                                     $14,901         $15,156       $15,153         $16,386         $14,845

A
    FY 2006 data are as of the FY 2007 President’s Budget.



                            Cost Per Enlisted Recruit—Reserve Component (Constant FY 2005 Dollars)
                                                                                                                   FY 2006
Metric                                               FY 2002         FY 2003       FY 2004         FY 2005
                                                                                                                 Target/Actual
                                                                                                                  2% variance
Cost per recruit                                     $6,636          $7,773         $9,174         $10,012      from target /not
                                                                                                                   available


Training Costs

Basic training encompasses the fundamental introduction and indoctrination provided to enlisted recruits.
Performance and production targets are driven by the number of recruits and vary by Service and year. Basic
training costs are projected by fiscal year and include manpower, support equipment, facilities, and all other costs
associated with indoctrinating recruits into military culture, raising their standards of physical conditioning, and
instructing them in basic military skills.

Overall funding for recruit training in FY 2006 was $2.1 billion, down 0.7 percent from FY 2005. The Services
anticipate approximately 44,600 more entrants to basic training in FY 2006 than in FY 2005. As the table below
shows, the cost of basic training per enlisted Service member will decrease from $12,477 in FY 2005 to $9,764 in
FY 2006 and is within 1.2 percent of the targeted $9,646 per enlisted Service member.


                                              Cost of Basic Training (Constant FY 2006 Dollars)
                                                                                                                  FY 2006
Metric                                               FY 2002         FY 2003       FY 2004        FY 2005
                                                                                                                Target/ActualA

Cost of basic training per enlisted recruit          $8,763          $9,216        $11,734         $12,477      $9,646 / $9,764

A
    FY 2006 data are estimated as of the third quarter.




                                                                       44
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


Closing Pay Gap

The Department monitors the gap between military pay for enlisted members and pay for comparable civilian
positions. To help ensure sufficient military manpower for national defense, the Department tries to maintain
competitive salaries and benefits. The Department has found that military pay at about the 70th percentile of pay
earned by comparably experienced civilian workers is an effective benchmark for competitive compensation.
Military compensation significantly less than the 70th percentile leads to recruiting and retention problems that
are costly to remedy. The pay gap for officers was eliminated in FY 2002 through a combination of targeted pay
increases, across-the-board raises that exceeded the average increases in the private sector, and general increases
in allowances.

Although a good leading indicator of recruiting or retention trends, this metric alone is not sufficient to gauge
the overall efficiency or effectiveness of the military personnel compensation program. The Department plans to
monitor changes in total military personnel costs, the probability that an enlisted member will remain in service
after 15 years, and the average experience at promotion for grades affected by the pay gap.

Measurement of the enlisted pay gap is based on private sector pay by education and years of experience and
compared to enlisted pay, by pay grade and years of service. The Department’s goal is to close at least 25 percent
of the remaining gap annually until the gap is eliminated. After the gap is closed, the goal is to ensure that military
pay remains at approximately the 70th percentile of comparable civilians.

As the table below shows, the Department exceeded its target and came very close to eliminating the enlisted pay
gap in FY 2006. This positive change was the result of a 3.1 percent across-the-board pay raise compared with a
2.6 percent increase in the private sector, as measured by the Employment Cost Index. Another important factor
was a 6 percent increase in the average housing allowance and a 2 percent increase in the subsistence or food
allowance.


                                             Military Personnel Costs—Enlisted Pay Gap
                                                                                                                                     FY 2006
Metric                                          FY 2002a             FY 2003             FY 2004A               FY 2005
                                                                                                                                   Target/Actual

Percentage of enlisted pay gap closed              48%                 61%                  73%                   88%               91% / 97%

A
  Data for FY 2002 and FY 2004 changed from prior reports because the baseline for civilian wages was updated due to the availability of more
recent data. FY 2000 costs were used as a baseline.



Medical Costs

Another metric looks at how well the Military Health System manages the care for those individuals who have
chosen to enroll in a health maintenance organization-type of benefit. It is designed to capture: (1) how efficiently
a Military Treatment Facility provides care; (2) how efficiently the facility manages the demand of its enrollees; and
(3) how well the facility determines whether care should occur inside the facility or be purchased from a managed
care support contractor.

                                                                        45
                                                        Department of Defense Performance and Accountability Report FY 2006
               ............................................................ Section 2: Performance Information


The overall measure can be broken into multiple components that allow for review of utilization factors and unit
cost information for both direct care and purchased care. Military Treatment Facilities determine how much it
costs to provide care and how many times enrollees receive care. The top-level measure is used to track overall
performance and the detailed measures allow for review and management at the local level.

The initial data, as shown in the table below, appear to indicate an increase in monthly care costs per enrollee of
approximately 7.2 percent compared to the target of 3.8 percent. The Department expects to move closer to its
target as more of the claims are completed.


                                               Medical Cost Per Equivalent Life Per Month
                                                                                                                  FY 2005                 FY 2006
Metric                                             FY 2002              FY 2003              FY 2004
                                                                                                                Target/ActualA         TargetB/ActualC

Medical cost per enrollee per month                  $168                 $179                 $192              $213 / $208             $221 / $223

                                                 Not available
Percentage change                               (first year data          6.5%                 7.3%             ≤10.9% / 8.3%           ≤3.8% / 7.2%
                                                    reported)

Metric information has been updated to reflect change from straight enrollee count to an equivalent life factor. This factor allows for better comparison
across time due to changes in enrollees.
A
  FY 2005 data represent the best estimate of final information.
B
  FY 2006 dollar value target is based on a 6-month period for FY 2006 compared to the same period for FY 2005. Dollar values will change as claims
  data become final.
C
  FY 2006 data are estimated as of the second quarter.


Performance Goal 1.4:
Shape the Force of the Future

This goal focuses on developing a military force trained and prepared to meet future threats and international
challenges. Metrics are designed to gauge civilian and military human resource strategic planning and the correct
“mix” of forces to ensure the appropriate balance between Active and Reserve forces.

Human Resources Strategic Plans

Good human capital management is one of the key tenets of the Department’s transformation initiative.

Military Human Resources Strategic Plan

The Department’s Military Human Resources Strategic Plan focuses on six goals:
•	Increase the willingness of the American public to recommend military service to youth
•	Recruit the right number of quality people
•	Develop, sustain, and retain the force
•	Transition members to and from Active and Reserve status seamlessly
•	Develop a flexible, integrated human resources management information system
•	Sustain continuous human resources process improvement

                                                                           46
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


This plan establishes the legislative and policy priorities for the next several years, such as the following:

•	Accessing enlisted personnel with the right level of education and aptitude
•	Ensuring that the force is manned with the right number of military members with the appropriate skills
•	Implementing a demonstration program evaluating various personnel management policies and programs for
  extending careers, such as an “up-and-stay” policy (versus “up-or-out”) for certain high-investment specialties

During FY 2006, the Department completed studies that provided: (1) the final report for variable officer career
lengths; (2) the Defense Advisory Committee on Military Compensation report for recommendations on a flexible
and competitive compensation system; (3) alternatives for the military retirement system and obstacles to their
implementation; (4) the report on the Service General and Flag Officer career management process; (5) a validation
of the Armed Services Vocational Aptitude Battery; (6) a first step in implementing the policy change to align
enlisted grade and experience pyramids; (7) a strategic approach to joint personnel issues; and (8) alternatives for a
flexible and competitive compensation system.

Civilian Human Capital Strategic Plan

The Department employs approximately 720,000 civilians worldwide to support its military forces in a wide variety
of administrative, technical, and professional occupations.

The Department’s Civilian Human Capital Strategic Plan is a comprehensive plan for ensuring a strong civilian
workforce, able to meet the mission challenges of today and the future, and guiding the civilian human resources
policies, programs and initiatives. In FY 2006, the Department revised the plan to establish long-term goals with
performance metrics that align with: (1) the 2006 Quadrennial Defense Review, (2) the Department’s overall
human capital strategy, and (3) Office of Personnel Management human capital initiatives. The plan is designed to
create:

•	World Class Enterprise Leaders, who manage people effectively in a joint environment, ensure continuity of
  leadership, and sustain a learning environment that drives continuous improvement across the enterprise
•	Mission-Ready Workforce characterized by agility, flexibility, diversity, and seamless integration with the
  Total Force
•	Results-Oriented Performance Culture that is mission-focused and results-oriented
•	Enterprise Human Resources Support that is strategically aligned and customer-focused, and provides
  measurable, leading-edge results

During FY 2006, the Department focused on implementing the plan and metrics to measure performance. Results
will be measured using the evaluation method outlined in the Civilian Human Capital Accountability System,
scheduled for completion in the fourth quarter of FY 2006. Annually, the Department will provide a Human
Capital Accountability Report to the Office of Personnel Management.

Efficient Civilian Hiring

In 2004, the Office of Personnel Management imposed new goals for both non-Senior Executive Service and Senior
Executive Service hiring actions. Non-Senior Executive Service positions should be filled in 45 working days or

                                                           47
                                                           Department of Defense Performance and Accountability Report FY 2006
                  ............................................................ Section 2: Performance Information


less, measured from the date the vacancy announcement closed to the date of the job offer. Senior Executive
Service positions should be filled in 30 working days or less, measured from the date the vacancy announcement
closed to the date the package was submitted to the Office of Personnel Management Qualifications Review Board.
The Department adopted both of these models as its principal measures of hiring efficiency.

Data collection began in FY 2005. The data were benchmarked, data collection processes were refined, and
results were verified. The Department began reporting accurate and reliable data during the second quarter of
FY 2006.

Job offers for all non-Senior Executive Service positions were made well within the 45-day model. Against the
30-day model for Senior Executive Service positions, the Department reduced its time to an average of 75 days, a
40 percent reduction from the original FY 2005 benchmark of 125 days.

The Department’s performance against the models is presented in the table below.

                                                           Civilian Recruiting Cycle Time
                                                                                                       FY 2005                     FY 2006
End-State Metric                       FY 2002              FY 2003           FY 2004
                                                                                                     Target/Actual               Target/ActualA
Trend data to monitor             No historical data;   Drafted          Issued reporting    Collected and validated data  Non-Senior Executive
the number of days                new metric            performance      requirements for                                  Service hires:
appropriated fund positions                             measures         measure             Began to characterize results 45 days / 31 days
are vacant
                                                        Established      Integrated Office   Calculated the Department’s    Senior Executive
                                                        benchmark with   of Personnel        time-to-fill metric:           Service hires:
                                                        Fortune 500      Management          71% actions within 90 days     30 days / 75 days
                                                                         reporting           12% actions within 120 days
                                                                         requirements into   17% actions over 120 days
                                                                         the Department’s
                                                                         reporting           Data for Office of Personnel
                                                                         requirements        Management metric not yet
                                                                                             collected

A
    FY 2006 data are final as of the third quarter.


Balance Between Active and Reserve Components

The 2001 Quadrennial Defense Review directed a comprehensive study of the proper mix of the Active and
Reserve Component forces. Subsequently, the Secretary of Defense directed the Services to review their force
structures and, where required, rebalance them to ease the stress on the Guard and Reserve. The Secretary’s
guidance was to promote judicious and prudent use of the Reserve Components with force rebalancing initiatives,
reduce strain through the efficient application of manpower and technological solutions, and improve the balance
of Active and Reserve Component capabilities.

The Department began tracking rebalancing actions in FY 2003. The Services reviewed their force structure
initiatives and took rebalancing actions as necessary. The tables below show the results of the Department’s efforts
to rebalance the Active and Reserve Components. The first table shows the rebalancing results through the end of
FY 2006 and the second table shows the projected rebalancing actions between FY 2007 and FY 2012.
                                                                         48
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................



                                 Active Component/Reserve Component Force Mix
                                      Rebalancing Actions FY 2003 – FY 2006
 Service                             Unit of Measure     FY 2003             FY 2004           FY 2005            FY 2006

    Army                                 Spaces           2,500               4,467            16,799             15,365

    Navy                                 Spaces           19,713              8,752             4,699              1,178

    Marines                              Spaces               0                0                6,000              2,123

    Air Force                            Spaces            273                5,147             1,407              395

 TOTAL                                   Spaces           22,486             18,366            28,905             19,061



                                 Active Component/Reserve Component Force Mix
                                 Rebalancing Actions Projected FY 2007 – FY 2012
 Service                             Unit of Measure   FY 2007     FY 2008         FY 2009    FY 2010    FY2011      FY 2012

     Army                               Spaces         19,704       8,569             2,599    1,288      435         1,186

     Navy                               Spaces          296         238               (94)      68         8             23

     Marines                            Spaces          180          0                 0        0          0               0

     Air Force                          Spaces          298         1,069             203      228        258            65

 TOTAL                                  Spaces         20,478       9,876             2,708    1,584      701         1,274


Beginning in FY 2006, the Services must report their rebalancing plans and results in terms of the addition of force
structure (spaces) to stressed capability areas. Previous reporting focused on unit force structure changes. This
shift in focus may result in report numbers different from those expected. Due to these new requirements, the final
results of the Services’ efforts to rebalance are not yet available.

Continuum of Military Service

A review of the use of Reserve Component forces directed by the 2001 Quadrennial Defense Review proposed the
concept of “continuum of service.” Under this concept, a Reservist who normally trains 38 days per year could
volunteer to move to full-time service for a period of time or to some increased level of service between full-time
and his or her normal Reserve Component commitment, without completely abandoning civilian life. Similarly,
an Active Duty Service member could request transfer into the Reserve Component for a period of time, or some
status in between, without jeopardizing his or her full-time career and opportunity for promotion. Military retirees
with hard-to-find skills could return on a flexible basis and create opportunities to serve for others with specialized
skills.

This concept allows for better transition between Active and Reserve Component service and enhances Reserve
Component usage. Some initiatives related to the continuum concept will require legislative, policy, or regulatory
changes that may take several years to complete. Currently, the Department’s efforts are focused on: (1) creating a
seamless flow between Active and Reserve Component forces; (2) encouraging volunteerism and establishing new
                                                           49
                                           Department of Defense Performance and Accountability Report FY 2006
            ............................................................ Section 2: Performance Information


affiliation programs; (3) simplifying rules for accessing, employing, and separating Reserve Component personnel;
(4) increasing the flexibility of the Reserve Component compensation system; and (5) enhancing combined Active
and Reserve Component career development.




                                            Strategic Goal 2:
     Balance Operational Risk - Achieve and Maintain Operational Superiority


This goal focuses on the Department’s efforts to create plans that can be adapted quickly as events unfold, train for
the next real-time mission, and supply the warfighters with the resources they need immediately. These challenges
are today’s threats, so goals address achieving near-term objectives, not long-term outcomes.

Performance Goal 2.1:
Maintain Force Readiness

In today’s rapidly changing world, the Department must have the capability to respond quickly and effectively
to a wide range of potential challenges. The Department is replacing existing planning methods that are too
deliberate and slow with a new system that will yield plans that provide relevant options to the President and
Secretary of Defense on a timely basis. The long-term goal is to have a networked capability to produce, update,
and transition through crisis situations seamlessly by the end of FY 2009. The Department refers to this capability
as “net-centricity,” which means harnessing the power of information connectivity by enabling critical relationships
between people and organizations.

Adaptive Planning

Adaptive planning is a methodology for developing timely war and contingency plans responsive to the current
security environment. The Department plans to have the initial spiral of capability to produce plans on demand
by 2008 via the DoD’s Secret Internet Protocol Network (SIPRNET) together with web portal and tools to obtain
process and display data from the military services and agencies.

In FY 2006, the Secretary approved a three-phased approach to the adaptive planning:

•	Phase I—Initiation (through FY 2007), which will deploy new technology and exercise portions of the adaptive
  planning construct on select priority plans.
•	Phase II—Implementation (FYs 2007–2008), which will produce electronic plans for all contingencies in a
  collaborative joint command and control environment.
•	Phase III—Integration (FY 2009 and beyond), which will produce and maintain “living” plans in a collaborative
  environment.

The Department continues to test and refine the web-based tools used to build campaign plans. Additional tools,
such as war-gaming, are being integrated into the web portal or are under consideration. These tools will be
interoperable with authoritative data sources and key command and control planning and execution systems.

                                                         50
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


Analytic Baselines

The Secretary of Defense directed that the Department create a foundation, or set of analytic baselines, for strategic
analyses that rely on common scenarios and data. These baselines are intended to help provide responsive and
analytically sound insights to help senior staff make decisions on joint warfighting issues and policy. The analytic
baselines provided a “warm starting point” for Quadrennial Defense Review analytic efforts and insights. The
Department continues to develop and update its analytic baselines.

Operational Lessons Learned

The Department takes lessons learned very seriously and ensures that lessons learned are integrated into training
processes and systems. Lessons learned from operational missions must be captured systematically and injected
into the full range of preparatory and planning activities; ongoing experimentation; concept development; doctrine;
and joint tactics, techniques, and procedures development. These actions will result in a robust Joint Lessons
Learned Program that encompasses the range of joint Military Service, Reserve, and Guard Component activities.
The Department developed the strategic and operational requirements for a collaborative, web-enabled, and net-
centric Joint Lessons Learned Information System. This system, when fully operational, will facilitate knowledge
management of lessons learned in concert with the Joint Training System, the Joint Training and Information
Management System, the Defense Readiness Reporting System, and Military Service systems through the Global
Information Grid.

Defense Readiness Reporting System Implementation

The 2001 Quadrennial Defense Review directed the Department to change fundamentally the way force
“readiness” is measured, reported, and resolved. The Department launched a series of policy and procedure
changes to develop and use a new readiness reporting and assessment system. When implemented, the system
will provide capabilities-based, adaptive, near-real-time information for all military units. Readiness will be
assessed from the perspective of the Combatant Commanders. This is important because Combatant Commanders
describe their roles and responsibilities in terms of mission-essential tasks and assigned missions or core tasks first,
and then assess their ability to conduct those tasks.

In June 2006, the Department released a new version of the Defense Readiness Reporting System that integrates
mission-essential task assessment functionality with asset visibility in a single software application. The
Department also released additional system guidance. This system is being used actively to support various
readiness forums in the Department and to answer readiness questions at the highest levels.

Performance Goal 2.2
Ensure Superior Capabilities Exist to Succeed

This goal focuses on the Department’s efforts to have the right capabilities in the right place to achieve the
desired effect—before deploying forces to deter or fight an adversary. A key part of this goal is to ensure that the
Department recognizes how deploying forces from one region to another may impede or enhance its ability to
accomplish strategic goals in another region or at home.


                                                           51
                                           Department of Defense Performance and Accountability Report FY 2006
            ............................................................ Section 2: Performance Information


Global Force Management

Global Force Management is a method for monitoring joint force operational availability. It is designed to
manage continuously the process that provides forces to conduct operational missions (called “sourcing”)
using analytically-based availability and readiness management methods. The objective is to integrate data on
worldwide availability and readiness. This process provides comprehensive insight into U.S. force availability
worldwide and accounts for ongoing operations and constantly changing unit availability. It leverages the most
responsive, best-positioned force at the time of need and guides the allocation of Service forces that rotate into the
theater. The term “theater” refers to a strategic area of national security interest.

Global Force Management also provides senior decision-makers a way to: (1) assess risk in terms of forces
available to source Combatant Commanders’ war plans, and (2) predict the likely stress on the force associated
with proposed allocation, assignment, and apportionment changes. In simple terms, Global Force Management
ensures that decision-makers know the location and status of all forces so that they can make informed assignment
decisions. In FY 2006, the Department improved its existing force assignment information to develop optimal joint
force sourcing solutions. The Department also completed its initial electronic documentation of organizational
hierarchies, command and support relationships, and manpower.

Theater Security Cooperation

Theater security cooperation entails developing the right defense partnerships with friends and allies to promote
specific U.S. security interests. Recently, the Department initiated a comprehensive security cooperation strategy
review that focused the activities of Combatant Commands, the Services, and Defense Agencies on common
goals to garner the necessary cooperation. Security cooperation embraces all interactions with foreign defense
establishments, and it is the primary means of building relationships that promote specific U.S. security interests.
Security cooperation activities help America’s allies develop military capabilities for self-defense and to support
coalition operations. They also provide information, intelligence, and access. In FY 2006, the Department
published and began to implement its Security Cooperation Guidance. The first comprehensive security
cooperation assessments were submitted, analyzed, and forwarded to the Secretary of Defense. The Department
is researching assessment metrics for determining the effectiveness of the security cooperation program and
evaluating the capabilities required for security cooperation.

Performance Goal 2.3:
Align Forces Consistent with Strategic Priorities

This goal focuses on developing plans and concepts to ensure that the Department’s forces are able to work
together in a wide variety of joint operations in any number of circumstances around the globe.

Joint Concepts

Joint concepts provide the operational context for the transformation of the Armed Forces by bridging the gap
between strategic guidance and the Department’s strategy for providing resources for operations. As they are
revised, all joint concepts are written in a problem/solution format to facilitate validation through assessment and
experimentation.
                                                          52
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


The Capstone Concept for Joint Operations guides the development of future joint capabilities as well as force
development and employment, primarily by providing a broad description of how the future joint force will
operate across the range of military operations 8 to 20 years in the future. Joint Operating Concepts apply a
solution in greater detail to a specified mission area, while Joint Functional Concepts apply elements of the
capstone solution to describe how the joint force will perform an enduring military function across the range
of military operations. Joint Integrating Concepts provide an operational-level description of how a joint force
commander will perform a specific operation or function. In FY 2006, the Department institutionalized joint
collaboration; informed strategy, operational plans, and defense planning scenarios; generated a robust body of
joint warfighting knowledge; provided a solid conceptual basis for joint experimentation; described cross-cutting
military functions; identified key joint force capabilities required, and identified 93 joint capability gaps.

Performance Goal 2.4:
Transition Forces Rapidly to Meet New Threats

This goal focuses on strategies to ensure that the Department can respond to threats in a variety of ways by using
all of its available resources.

Operational Availability

The Department must prevent terrorists from harming America, its people, and its friends and allies. The
Department must be able to rapidly transition military forces to post-hostilities operations, and identify and deter
threats to the United States, while standing ready to assist civil authorities with mitigating the consequences of a
terrorist attack or other catastrophic event. These diverse requirements demand integration with and leveraging of
other elements of national power, such as international alliances and partnerships. The Department is developing a
broader portfolio of capabilities and is realigning forces using a building-block approach to match those capability
portfolios with mission goals. Continued implementation of several of the Department’s initiatives previously
discussed, such as Global Force Management, Adaptive Planning, and Analytic Baselines, will help the Department
meet this goal.


                                            Strategic Goal 3:
             Balance Institutional Risk - Improve Organization Efficiency to
                                 Support the Warfighter

This goal focuses on the Department’s internal transformation efforts to streamline the decision process, improve
financial management, build a base of facilities ready and able to meet the highest standards for quality and
readiness, and drive acquisition excellence.

Performance Goal 3.1:
Improve the Readiness and Quality of Key Facilities

This goal focuses on the physical property assets that support the Department’s mission and its people.



                                                         53
                                                      Department of Defense Performance and Accountability Report FY 2006
               ............................................................ Section 2: Performance Information


Eliminate Inadequate Domestic Family Housing by 2007

The Department’s goal is to ensure that Service members and their families are provided safe, modern, and
attractive housing that the average American would be proud to call home. Housing can be a key factor in
recruitment and retention decisions. The issue is important enough to warrant a stand-alone initiative in the
President’s Management Agenda. As of September 30, 2006, the Department was rated green on both status and
progress.

The Department plans to eliminate all inadequate family housing at bases located in the United States by the end
of FY 2007 and at bases located in other countries by FY 2009. In general, inadequate housing is any unit that
requires a major repair, component upgrade, component replacement, or total upgrade. Each Service evaluated
its housing, identified inadequate units, and developed a plan to eliminate these units through a combination of
traditional military construction, operations and maintenance support, and privatization. The plans are updated
annually in the President’s Budget.

For FY 2006, the Department is on track to exceed its target by eliminating more than 29,000 inadequate housing
units. The table below shows the Department’s progress in reducing inadequate housing for Service members and
their families.


                                  Inadequate Domestic Family Housing (numbers in thousands)
                                                                                                                                     FY 2006
Metric                                           FY 2002A            FY 2003A            FY 2004A              FY 2005
                                                                                                                                  Target /ActualB
Number of inadequate family housing units
                                                   130.5               115.6                93.3                 61.3             27.6 / 29.2245
(U.S.)
Inadequate family housing units as a
percentage of total family housing units           59%                  59%                 55%                  50%                   40%
(U.S.)C
A
  Prior-year values changed based on revised family housing inventory data included in the Services’ FY 2007 President’s Budget requests.
B
  FY 2006 actual data are estimated as of the end of the third quarter.
C
  Percentages decrease gradually because the total owned housing is also decreasing due to privatization.


Fund to a 67-Year Recapitalization Rate

The Department’s facilities recapitalization metric measures the rate at which the facilities inventory is being
recapitalized. Recapitalization means to restore or modernize facilities. Recapitalization may involve total
replacement of individual facilities, but often occurs incrementally over time without a complete replacement. The
performance goal for recapitalization equals the average expected service life of the facilities inventory, currently
67 years. That average is based on the expected service life benchmarks, weighted by value of the facilities
represented by each benchmark.

The FY 2006 recapitalization rate estimated at 73 years exceeds the budgeted rate of 111 years, an outcome similar
to that of FY 2005 in which the actual rate of 67 years exceeded the budgeted rate of 104 years. The increased



                                                                        54
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


investment in recapitalization is influenced by two factors: (1) supplemental funding to restore facilities damaged
or destroyed by Hurricanes Katrina and Rita, and (2) the initiation of FY 2005 Base Realignment and Closure
spending.

The expected service life of the facilities inventory is also a function of facilities sustainment. Sustainment
includes the routine maintenance and repair necessary to achieve the expected service life. To achieve a normal
expected service life, full sustainment levels must be assumed. A reduced expected service life results from less
than full sustainment. Sustainment levels required to achieve a normal expected service life are benchmarked to
commercial per-unit costs; for example, $1.94 per square foot is needed annually to properly sustain the aircraft
maintenance hangar inventory over a 50-year life cycle. The facilities sustainment model adjusts these costs to
local areas. The Department’s goal continues to be full sustainment annually for all facilities. Fully sustaining the
Department’s facilities is more cost effective over the life of the facility and prevents the premature deterioration
that leads to more costly restoration requirements.

In the future, the title of this metric will be changed to more accurately reflect its content. The metric appropriately
addresses facilities sustainment as well as recapitalization. Since both are addressed, the title of this metric
beginning with FY 2007 will be “Real Property Asset Life-Cycle Metrics.”


                                             Status of Funding a 67-Year Recapitalization Rate

Metrics                                           FY 2002           FY 2003            FY 2004A             FY 2005B              FY 2006

Facilities recapitalization metric (years)          101               149C                88D                  67E                   73

Facilities sustainment model (percent)              89%B              93%                 71%                 79%                   91%

FY 2006 data are estimated as of the year-end.
A
  Three Defense Agencies (Defense Logistics Agency, the Department of Defense Education Activity, and TRICARE Medical Activity) were included
   beginning in FY 2004, but excluded in previous years.
B
  Estimated (the Facilities Sustainment Model was first fielded in FY 2003)
C
  FY 2003 data are as of the FY 2005 President’s Budget.
D
  FY 2004 data are as of the FY 2006 President’s Budget.
E
  FY 2005 data are as of the FY 2007 President’s Budget..


Performance Goal 3.2:
Manage Overhead and Indirect Costs

This goal focuses on the Department’s efforts to control its overhead costs and maximize the funds available for
direct support to the warfighter.

Reduce Percentage of the Department Budget Spent on Infrastructure

The budget share devoted to infrastructure is one of the principal measures used by the Department to gauge
progress toward achieving its infrastructure reduction goals. A downward trend in this metric indicates that the
balance is shifting toward less infrastructure and more mission programs. The Department updates the percentage

                                                                      55
                                                       Department of Defense Performance and Accountability Report FY 2006
               ............................................................ Section 2: Performance Information


of the budget spent on infrastructure each time the President’s Budget is revised. The Institute for Defense Analyses
reviews and normalizes the data to adjust for the effect of definitional changes in the database that mask true
content changes. Prior-year data are normalized to permit accurate comparisons with current-year data. Because
of these adjustments, there may be slight shifts upward or downward in the targets established for past-year
infrastructure expenditures.

The Department will allocate an estimated 42 percent of total obligational authority to infrastructure activities in
FY 2006, about the same as the preceding year. The Department continues to maintain its allocation of resources
to forces fighting the Global War on Terror and meeting other operational requirements. The percentage of
infrastructure requirements has decreased slightly since FY 2002 due to reform initiatives, including savings from
previous Base Realignment and Closure rounds, strategic and competitive sourcing initiatives, and privatization
and reengineering efforts.

The tables below show the percentage and dollar amounts the Department has spent on infrastructure.


                                                Defense Budget Spent on Infrastructure
                                                                                                                FY 2005               FY 2006
 Metric                                           FY 2002             FY 2003              FY 2004
                                                                                                              Target/Actual         Target/ActualA
 Department budget spent on
                                                    44%                 42%                  42%                 42% / 43%            42% / 42%
 infrastructure (percent)
 A
  FY 2006 data are estimated as of the fourth quarter. This is a lagging indicator. Projections are based on the FY 2007 President’s Budget and the
 Future Years Defense Program.


The following chart shows the dollars spent on infrastructure consistent with the percentages provided in the
previous table.


                          Forces and Infrastructure Costs as Share
                                 of the Future Defense Plan
                                                             (Dollars in Billions)                        Forces
                        600
                                                                                                          Infrastructure
                                                                                        230
                                                       206             209                              205
                        400           180

                                                       280             287              300
                                                                                                        277
                        200           230



                            0
                                    FY 2002         FY 2003          FY 2004          FY 2005          FY 2006




                                                                         56
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................



Performance Goal 3.3:
Realign Support to the Warfighter

This goal focuses on the Department’s efforts to shift support to the warfighter by providing equipment and supplies
more quickly and by minimizing costs associated with the acquisition process.

Reduce Customer Wait Time

Customer wait time measures the elapsed time from when a customer orders and receives an item. The customer’s
order may be filled from assets on hand at the customer’s military installation or naval vessel, or through the
Department’s wholesale logistics system. This metric includes orders for spare and repair parts ordered by
organizational maintenance activities. Below the enterprise level, customer wait time is captured by each of the
Military Services and the Defense Logistics Agency.

The table below shows that, through the second quarter of FY 2006, the Department experienced an average
customer wait time of 17 days. The Department has reduced its wait time over the past several years but did
not meet the FY 2006 target of 15 days due to the continuously high demand for critical items, primarily due to
the Global War on Terror, and to delays in closing out transactions. The Department continues efforts to reduce
customer wait time through supply chain improvements.


                                                                  Customer Wait Time
                                                                                                             FY 2006
 Metric                                                 FY 2002         FY 2003        FY 2004   FY 2005
                                                                                                           Target/ActualA

 Customer wait time (in days)                             16              19             23        21         15 / 17

 A
     FY 2006 data are final as of the second quarter.


Acquisition Reform

The Department uses three metrics to track efforts to reduce costs and improve the speed in which the Department
completes major acquisitions.

Reduce Major Defense Acquisition Program Annual Rate of Acquisition Cost Growth

The Department measures the amount that acquisition costs grow from year to year. Acquisition cost growth can
occur for various reasons, including technical risk, schedule slippage, programmatic changes, and overly optimistic
cost estimates. The Department seeks to reduce cost growth from all sources, providing an output target for
procurement managers of individual systems, as well as for the aggregate procurement programs of the individual
Services. The objective is a downward trend toward an ultimate goal of no growth.

The table on the next page shows the trend in the annual growth in acquisition costs.


                                                                          57
                                                         Department of Defense Performance and Accountability Report FY 2006
                 ............................................................ Section 2: Performance Information



                                                   Major Defense Acquisition Program
                                             Annual Rate of Acquisition Cost Growth (Lagged)
                                                                                                                                       FY 2006
Metric                                    FY 2001A          FY 2002           FY 2003            FY 2004             FY 2005
                                                                                                                                    Target/ActualB

Percent annual growth                      13.9%              6.4%               5.0%             3.5%                6.9%        Data Not Available


Acquisition cost growth is calculated using data from the December Selected Acquisition Reports.
A
  Results for FY 2001 reflect acquisition cost growth for a 2-year period (FYs 2000 and 2001). There were no December 2000 Selected Acquisition
  Reports, because a Future Years Defense Program was not included in the FY 2002 President’s Budget submission.
B
  Results for FY 2006 will be available in April 2007 with the release of the December 2006 Selected Acquisition Reports.



Reduce Major Defense Acquisition Program Acquisition Cycle Time

Leveraging new technologies faster through rapid development and fielding of weapon systems will enable U.S.
forces to stay ahead of the equipment advances of potential adversaries. Acquisition cycle time is the elapsed time
from program initiation—when the Department makes a commitment to develop and produce a weapon system—
until the system attains initial operational capability. The Department measures the average cycle time across all
Major Defense Acquisition Programs.

During the 1960s, a typical acquisition took 84 months to complete. By 1996, a similar acquisition required
132 months from program start to initial operational capability. To reverse this trend, the Department established
an objective to reduce the average acquisition cycle time for Major Defense Acquisition Programs started since
1992 to fewer than 99 months, a reduction of 25 percent. The Department achieved that initial objective by using
techniques such as demonstrated technology, time-phased requirements and evolutionary development, and
integrated test and evaluation.

The Department is seeking to reduce the average cycle time to fewer than 66 months for all Major Defense
Acquisition Programs started after FY 2001. The table below shows that the Department has not met its target.
To achieve the objective, the Department is introducing further improvements to development and production
schedules similar to those initiated for managing system performance and cost.


                              Major Defense Acquisition Program Acquisition Cycle Times (in months)
                                                                                                                    FY 2005            FY 2006
Metric                                     FY 2001          FY 2002           FY 2003            FY 2004
                                                                                                                  Target/Actual         TargetA

Acquisition cycle time for new
                                             102              103                102               101              <99 / 101     <99 / Not Available
starts in FY 1992–FY 2001

Acquisition cycle time for new
                                             N/A              N/A                76                 80               <66 / 81     <66 / Not Available
starts after FY 2001

A
    Results for FY 2006 will not be available until the April 2007 release of the December 2006 Selected Acquisition Reports.




                                                                            58
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


Reduce Major Defense Acquisition Program Operating and Support Cost Growth

This metric measures the amount that operating and support costs grow from year to year. Operating and support
costs are the infrastructure expenses associated with acquisition programs. Real cost growth can occur for various
reasons, including technical or programmatic changes, changes in the support strategy or concept, and overly
optimistic cost estimates. The Department’s objective is to attain a zero percent operating and support cost growth.
The table below only shows results for 2 years, which is not enough data to provide meaningful trend analysis.
Over time, this metric will help the Department manage its costs.


                             Major Defense Acquisition Program Operating and Support Cost Growth
                                                                                                                                  FY 2006
Metric                                     FY 2001          FY 2002          FY 2003            FY 2004             FY 2005
                                                                                                                                Target/ActualA

                                                                            Established
                                         No historical    No historical
Percentage of annual operating                                            metric baseline
                                          data; new        data; new                              2.3%                6.0%    0% / Not available
and support cost growth                                                    from which to
                                           metric           metric
                                                                          measure growth

A
    Results for FY 2006 will be available in April 2007 with the release of the December 2006 Selected Acquisition Reports.


Performance Goal 3.4:
Streamline the Decision Process, Improve Financial Management, and Drive
Acquisition Excellence

This goal focuses on improving the Department’s planning structure to ensure that decisions are based upon an
accurate baseline of facts and information.

Improve the Transparency of Component Budget Submissions for Alignment of Program
Review to Strategic Trades

Improving the transparency of the Department’s Component program and budget submissions will help align
resource plans and enable senior-level decision-makers to reach better-informed decisions for strategic resource
trades.

To achieve a consistent baseline, the Department must first streamline the flow of data. Each data element should
be collected once by a single authoritative source collection system, and all parties should agree on the accuracy
and validity of the data, as well as the authority of the source that provided it. The Department can reuse the same
resource data with confidence to support multiple decisions.

Efforts to refine the submission of program and budget data are underway in the Services, Defense Agencies, and
the Office of the Comptroller. Streamlining the data flow to eliminate dual submissions between budget and
program systems and standardizing and reducing requirements will reduce workload and improve data quality.
Criteria that measure transparency improvements include: (1) the number of data elements requested at each point
in the cycle, and (2) the level of human effort required annually to maintain data structure accuracy.

                                                                            59
                                            Department of Defense Performance and Accountability Report FY 2006
            ............................................................ Section 2: Performance Information


The Department’s Enterprise Transition Plan includes a target to fully deploy the systems supporting this metric by
FY 2010. As part of this plan, a unified information architecture will be implemented by FY 2008.

Increase Visibility of Trade Space

“Trade space” is the range of budget alternatives available to the decision-maker, based on full knowledge of real
and potential impacts. In FY 2003, the Department restructured its budget planning guidance to better define
where more or less risk should be taken across the Department’s programs. This revised structure directed the
Services and Agencies to apply explicit criteria for risk management and to align their resource plans accordingly.
During the program and budget review, any resource proposal that varied from guidance was corrected in the
President’s Budget.

The Department further strengthened the guidance as a resource decision tool by adding more details on how
Services and Defense Agencies were expected to meet the Secretary’s intent within fiscal constraints. The Strategic
Planning Guidance, issued in FY 2006, marked the first attempt to estimate the direct cost of program priorities
within the context of the overall Department’s budget. It is still difficult to develop a truly independent cost
estimate of planning priorities or to assess accurately all the variables associated with estimating the potential trade
space created by accepting increased risk in some areas of the Department.

The newly initiated Enhanced Planning Process will provide a continuous, open, and collaborative analytic forum
to examine closely issues of the greatest interest to the Secretary. The process is intended to produce programmatic
recommendations that will be documented in a new annual publication, the Joint Programming Guidance.

Provide Explicit Guidance for Program and Budget Development

In March 2003, a study team explored ways to make the existing program and budget development process less
cumbersome, more responsive, and more helpful to the Secretary in managing and enhancing joint capabilities.
The Joint Defense Capabilities Study, completed in November 2003, recommended focusing the Secretary’s
annual planning and programming guidance on high-level strategic issues, and framing resource alternatives as
capabilities rather than programs. The study also recommended that actual results become a formal part of the
overall assessment process. Accordingly, “execution of funds” was added to the overall process, and became
the Department’s Planning, Programming, Budgeting, and Execution System. The Department has enhanced its
planning process to focus on strategic and joint issues that address core military capabilities.

To implement the 2006 Quadrennial Defense Review Report, the Department developed eight execution road
maps:
•	Institutional Reform and Governance
•	Strategic Communications
•	Building Partnership Capacity
•	Sensor-Based Management of the Intelligence, Surveillance, and Reconnaissance Enterprise
•	Authorities
•	Irregular Warfare
•	Joint Command and Control
•	Tag, Track, and Locate

                                                           60
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


In developing the road maps, the Department conducted experiments and studies to evaluate proposals for
improving its planning, programming, and budgeting decision processes. In addition, the Department continued
to modify its decision-making processes to strengthen the linkages between planning, budgeting, and execution.
To monitor these activities, the Department established a Quadrennial Defense Review Execution Office, which
reports progress to the Secretary.



                                             Strategic Goal 4:
Balancing Future Challenges Risks - Execute Future Missions Successfully Against
                     an Array of Prospective Challengers

This goal focuses on the Department’s efforts to transform over time to effectively counter the increasing rate of
change and degree of uncertainty in the regional and global threats faced by the United States.

Performance Goal 4.1:
Define and Develop Transformational Capabilities

This goal focuses on the Department’s efforts to take into account not just the challenges to immediate war plans,
but also the challenges to people and transformation. The Department has moved from a “threat-based” to a
“capabilities-based” approach to defense planning, focusing not only who might threaten America, or where, or
when—but more on how the U.S. might be threatened, and what portfolio of capabilities the Department will need
to deter and defend against those new threats.

Transformation is not only about technology. It is also:

•	Changing the way challenges and opportunities are viewed
•	Adapting the Department to that new perspective
•	Refocusing capabilities to meet future challenges instead of those the Department is currently prepared to meet

Intelligence Activities

The Department focuses on explicit and effective measures for its intelligence activities to deny our enemies
advantages while exploiting their weaknesses by employing intelligence, security, and counterintelligence means.
The success of any intelligence program depends on four fundamental areas:

•	Aligning intelligence, security, counterintelligence strategy, policy, and processes for maximum effectiveness and
  efficiency
•	Integrating intelligence activities horizontally (i.e., communication among and within agencies to promote
  information sharing)
•	Focusing intelligence activities on supporting the warfighter’s requirements
•	Improving intelligence, surveillance, and reconnaissance capabilities




                                                           61
                                           Department of Defense Performance and Accountability Report FY 2006
            ............................................................ Section 2: Performance Information


The Department’s intelligence community is conducting numerous activities to improve the effectiveness of
intelligence in military operations and for overall national security. Further, the Department requires current and
comprehensive policies to guide its intelligence community in accordance with the four fundamental areas. The
ongoing efforts include identifying directives, instructions, regulations, and manuals that should be developed,
modified, or canceled.

One of the major developments to come out of these activities is the Intelligence Campaign Planning process to
integrate, synchronize, prioritize, and focus the Department’s intelligence on achieving specific military objectives.
In simple terms, this process determines what information is needed, identifies knowledge gaps and capability
shortcomings, and coordinates with the broader intelligence community to mitigate the shortfalls.

The Department is conducting a definitive review of all existing policies and directives relating to intelligence,
counterintelligence, and security activities to codify a common language and understanding of intelligence issues.
Various targeted activities address intelligence shortcomings for each of the four fundamental areas.

In FY 2006, the Department’s intelligence community took steps to increase its role in sharing terrorist screening
information with intelligence and law enforcement communities directly supporting the Global War on Terror. It
worked across the Department and the broader intelligence community to resolve many impediments related
to sharing intelligence information about foreign disclosure and coalition operations. This effort resulted in
significantly improved intelligence access for Combatant Commands.

Technology Innovation

Global Net Enabled Information Sharing Environment

Today’s diverse mission environments require the secure, quick, and accurate movement of information in support
of military operations and Combatant Commanders. The Department’s ability to construct a global information
network configured with the information required for modern combat operations and able to support critical
command and control requirements has been limited by the flow of information through the network and
processing power at any given time or point.

The foundation of a Net Enabled Information Sharing Environment is commercially available information
technology with enhancements that will:

•	Achieve a ubiquitous, assured, and robust multi-security level Internet Protocol based information transport
  networks;
•	Provide bandwidth and computing resources matched to user’s missions needs;
•	Provide collaboration tools and other mission support tools: and,
•	Assure authorized access by managing the identity of users whether human or software

The Department is continuing with information technology enhancements to establish specific geographic
requirements and meet the demands of the Global War on Terror. In FY 2006, the Department made significant
progress in developing communications paths and infrastructure upgrades to support ongoing operations around
the world.

                                                          62
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


The Department increased investments in information transport and development of better bandwidth requirements
utilization models that will allow greater capacity needed to support warfighter needs. In addition, the Department
restructured its future satellite communications approach to ensure both the successful and timely delivery of
increased capability and the synchronization of the phasing and pacing of terminals and space vehicles.

The Department began a pilot implementation of Internet Protocol version 6 (IPv6) on intranets that carry
operations traffic. The Internet Protocol provides the addressing mechanism that defines how and where
information such as text, voice, music, and video move across seperately owned and operated networks. The
current Internet protocol cannot accommodate the increasing number of global users and devices that are
connecting to the Internet. As a result, IPv6 was developed to overcome those limitations by expanding available
address space, improving end-to-end security, facilitating mobile communications, enhancing quality of service,
and easing system management burdens. All federal agencies, including the Department, are transitioning to IPv6.

The Department instituted an aggressive multi-level network and has increased priority and funding for information
assurance to build a robust combination of network defenses to meet today’s cyber-threats. In addition, the
Department initiated a significant research and development effort focused on defense and protection tools for
information systems. The Department is also continuing efforts to reduce software assurance risk and is developing
a software assurance strategy for use on major acquisition programs.

Defense Technology Objectives

Technological superiority is a cornerstone of military strategy. Technologies such as radar, jet engines, nuclear
weapons, night vision, smart weapons, stealth, the Global Positioning System, and vastly more capable information
management systems have changed warfare dramatically. Today’s technological edge allows the Department
to prevail decisively across a broad spectrum of conflicts and with relatively few casualties. Maintaining this
technological edge has become even more important as the size of U.S. forces decreases and high-technology
weapons are now readily available on the world market. Future warfighting capabilities will be determined
substantially by today’s investment in science and technology.

Science and technology investments are focused and guided through a series of Defense Technology Objectives
developed by senior Department planners. Each objective highlights a specific technological advancement, the
anticipated date the technology will be available, the specific benefits that should result from the technological
advance, and the funding required (and funding sources) to achieve the new capability. These objectives specify
milestones and approaches, quantitative metrics that will indicate progress, and the customers who will benefit
when the new technology is fielded. This metric measures the percentage of Defense Technology Objectives
that are progressing satisfactorily toward the established goals. In accordance with the Department’s new review
process that evaluates all objectives biennially, the FY 2006 assessments are in process. The table on the next page
shows the results through the third quarter, FY 2006.




                                                         63
                                                     Department of Defense Performance and Accountability Report FY 2006
               ............................................................ Section 2: Performance Information



                                              Status of Defense Technology Objectives
                                                                                                             FY 2005              FY 2006
Metric                                          FY 2002             FY 2003             FY 2004
                                                                                                           Target/ActualA      Target/ActualA,B
Percentage of Defense Technology
Objectives evaluated as progressing               97%                 96%                 94%                    0               ≥70% / 99%
satisfactorily toward goals

Objectives evaluated in biannual reviewC          149C                163C                180                    0                    88

Total number of objectivesC,D                      401                 386                404                   392                  404
A
  The Department implemented a new comprehensive review process that evaluates all objectives biennially. The latest review and assessment of
   Defense Technology Objectives was conducted in FY 2006 (not all FY 2006 results have been reported).
B
  FY 2006 data are as of the third quarter.
C
  No targets are established for the objectives evaluated or total number of objectives.
D
  The total number of objectives is the sum of all objectives contained in the Joint Warfighting Science and Technology Plan and the Defense
   Technology Area Plan, dated February of the calendar year prior to the fiscal year in which the reviews are conducted.


Net-centric Solutions

Military commanders need and use information of all kinds, not just intelligence data, to “see” the battle space
and defeat adversaries. Data must be visible, available, and understandable when and where needed to accelerate
decision-making. The net-centric enterprise architecture will enable commanders to engage the network at
anytime from anywhere using a military version of the Internet search engine, without needing cumbersome
base support. Data will be posted and ready for download and analysis as soon as they arrive, anywhere on the
network. As an example, during recent operations in Afghanistan and Iraq, ground forces could reach remote
Unmanned Aerial Vehicle pilots in Nevada to direct the vehicles in support of local operations in real time.

The Department’s net-centric solution will be completed no later than FY 2008, by which point all of the
Department’s data will comply with standards to be accessible, discoverable, and usable. The Department is
moving forward with a broad data strategy based on development of a common data structure and strengthening of
standards, organizations, and categorization schemes. These changes allow for improved information sharing and
information assurance across a multitude of domains from personnel to intelligence information systems. The data
strategy is being implemented by developing and revising requirements, acquisition, and budgeting processes. The
Department also is developing a strategy focused on information sharing with federal, state, local, and coalition
partners.

Performance Goal 4.2:
Define Skills and Competencies for the Future

This goal focuses on the Department’s efforts to prepare for the future. History has shown that rapid and
unexpected change can transform the geopolitical landscape. New technologies can revolutionize the character of
armed conflicts in ways that render previous doctrine and capabilities obsolete.




                                                                       64
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


Intelligence Human Resources System

To accomplish its mission, the Department’s intelligence components must have the best people available. The
components need to recruit agile problem-solvers with broad and varied experiences who can operate in an
environment which changes as the threat changes. A key first step is the development of the Defense Civilian
Intelligence Personnel System, a common human resources system for the Department’s intelligence components.
When fully implemented, this system will provide a competitive, performance-driven compensation structure
and significantly enhanced hiring flexibilities. In addition, increased value is placed on personnel with critical
foreign language skills (native and heritage speakers) who play an especially important role in the collection
of intelligence. The Department established standards for training, tradecraft, technology, architecture and
operational tactics, techniques, and procedures across the Department to ensure all elements are working together
to meet the needs of Combatant Commands, Military Departments, and senior-level decision-makers.

Strategic Transformation Appraisal

The Department’s overall transformation roadmaps address activities, processes, resources, and incentives to
foster and promote innovation and transformation activities, including concept-based experimentation processes,
education and training programs, and the use of operational prototypes. Each Service and Defense Agency
prepares an annual update of information and a roadmap on its transformation efforts. The roadmaps represent
a shared future vision and complement the program and budget process, ensuring coherence between resource
allocation decisions and future concept development and experimentation. Roadmaps also provide a baseline
for managing transformational change within the force and articulate strategies for implementing and managing
transformation risks.

Each year, the Department evaluates the progress and plans in the individual and joint transformation roadmaps,
and assesses the gaps or adjustments requiring action. The Strategic Transformation Appraisal is the Department’s
only strategic-level risk assessment management tool. The transformation information packages from the Services
were complete or nearly complete as of the end of July 2006. The package from the Defense Agencies is complete.
The Department expects to complete the Strategic Transformation Appraisal of these packages by
December 31, 2006.

Performance Goal 4.3:
Develop More Effective Organizations

This goal focuses on the Department’s efforts to structure, train, deploy, and manage joint forces and organizations.
Transformation efforts are aimed at enabling joint operations that combine land, sea, air, and space forces, under
the control of a single Combatant Commander, to use in ways that are most appropriate to achieving a specific
objective. Successful cultural change requires not only wanting to fight jointly, but to think jointly.

Homeland Defense

The Department’s highest priority is protecting the U.S. homeland from attack through the full range of activities
associated with an active homeland defense, including military missions in the forward regions, approaches to


                                                         65
                                           Department of Defense Performance and Accountability Report FY 2006
            ............................................................ Section 2: Performance Information


the U.S., the U.S. homeland, and global commons (i.e., international waters and airspace, space, cyberspace).
Specifically, the Department must be able to:

•	Conduct military missions to prevent, deter, defend, and defeat attacks on the U. S., the U.S. population, and
  defense critical infrastructure
•	Support civil authorities directed by the President or Secretary of Defense as part of a comprehensive national
  response to prevent and protect against terrorist incidents or manage the consequences of attack or disaster
•	Enhance contributions of domestic and foreign partners to homeland security and homeland defense

To meet the challenges of the post-9/11 threat environment, the Department developed a comprehensive strategy
for homeland defense and civil support. This new strategy relies on an integrated threat assessment to define the
Department’s strategic goals, key objectives, and core capabilities for homeland defense and civil support. The
strategy will describe associated force structure, technology, and resource implications. By aligning strategic goals
with resource and technology plans, the Department will add coherence and direction to the disparate activities
to deter and prevent attacks, protect critical defense and designated civilian infrastructure, provide situational
understanding, and prepare for and respond to incidents.

The strategy for homeland defense and civil support was incorporated into the 2006 Quadrennial Defense Review.
It addressed how the Department will: (1) protect defense-critical infrastructure, (2) provide for force protection;
(3) maintain mission-essential functions and services; (4) communicate to federal, state, local, and international
partners; and (5) support the federal effort to prepare for, prevent, and, if necessary, respond to the pandemic
influenza and natural disasters.

Establish a Standing Joint Force Headquarters

In 2003, the Secretary of Defense directed Combatant Commanders to establish a Standing Joint Force
Headquarters with a 58-person core team that serves as a planning staff during day-to-day operations. In the
event of a crisis, a headquarters team—with the command structure and staff as well as functional and geographic
expertise—is already in place for rapid reaction. The headquarters is prepared immediately to execute command
and control functions for the integrated employment of air, land, sea, and information forces. The headquarters
is made up of joint-trained personnel skilled in using computer-based analysis tools and joint information and
processes. To operate in the field, each deployable headquarters must have a deployable joint command and
control capability. All Combatant Commanders have recently established their headquarters.

Transform the Department’s Training

Training Transformation is designed to provide dynamic, capabilities-based training in support of national
security requirements across the full spectrum of the Department’s operations. One of the leading indicators is
the percentage of critical Combatant Command billets manned by Joint Specialty Officers. A higher percentage
indicates increased performance in jobs that require knowledge of joint matters, such as Critical Joint Duty
Assignments. To become a Joint Specialty Officer, an officer must successfully complete an appropriate program
of Joint Professional Military Education, followed by a Joint Duty Assignment. These assignments are 2- to 3-year



                                                         66
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


positions in a multi-Service or multi-national Command or activity involved in the integrated employment or
support of the land, sea, and air forces of at least two of the three Military Departments. The Department tracks
critical positions filled by Joint Specialty Officers.

The table below shows that only 68.8 percent of military officers filling critical positions were certified Joint
Specialty Officers (or the certification requirement was waived by the Chairman of the Joint Chiefs of Staff). This
was due to overall manpower shortfalls and conflicting operational priorities for the Global War on Terror. In
response, the Department developed a strategic plan that will be the basis for proposed legislative and policy
changes to update joint officer management for current needs of the Department.


                              Joint Specialty Officers in Combatant Commander Critical Positions
                                                                                                             FY 2005         FY 2006
Metric                                           FY 2002             FY 2003              FY 2004
                                                                                                           Target/Actual   Target/Actual

Percentage of military officers in
Combatant Commander critical positions
                                            No historical data;     No historical    No historical data;
certified as Joint Specialty Officers (or                                                                   90% / 68%      90% / 68.8%
                                               new metric         data; new metric      new metric
waived by the Chairman of the Joint
Chiefs of Staff )


Performance Goal 4.4:
Drive Innovative Joint Operations

This goal focuses on efforts to facilitate joint operations. Successful transformation requires fashioning joint
concepts to guide the conduct of joint operations. The Department identified eight key operational capabilities
where joint operations are critical for deterring conflict and conducting military operations:

•	Strengthen intelligence
•	Protect critical bases of operation
•	Operate from the global commons
•	Protect and sustain forces in remote locations
•	Deny enemies sanctuary
•	Conduct network-centric operations
•	Improve proficiency against irregular challenges
•	Increase capabilities of partners, both international and domestic

New Warfare Concepts

The Department’s Joint Concept Development and Experimentation Plan aims to rapidly convert innovative joint
warfighting concepts into prototypes and fielded capabilities. New concepts put into practical use can provide
America’s warfighters with an advantage to defeat adversaries. The plan follows two paths:

•	The Joint Concept Development Program explores innovative concepts for improving future joint warfighting.
  These concepts can result from small-scale experiments conducted in a joint war-gaming environment. They can

                                                                        67
                                          Department of Defense Performance and Accountability Report FY 2006
            ............................................................ Section 2: Performance Information


  be developed and incorporated into large-scale experimentation programs. Experimentation with these concepts
  will lead to capabilities for the joint warfighter. The program provides recommendations for investments based
  on experimentation results.
•	The Joint Prototype Program improves current warfighting capabilities and refines new capabilities through
  continuous experimentation. The program identifies capability proposals for rapid prototyping and provides
  recommendations for future resource investments based on experimentation results.

Joint Operations Concepts have been developed to guide the transformation of the joint force so that it is prepared
to operate successfully 8 to 20 years in the future. The concepts present a detailed description of how future
operations may be conducted and provide the basis for joint experimentation.



                       Program Assessment Rating Tool Summary
The Office of Management and Budget developed the Program Assessment Rating Tool (PART) to assess and
improve program performance. The PART is used within the Department to provide a systematic approach for
rating programs by analyzing whether a program has a clear definition of success, uses strong management
practices, and produces results. A PART review helps identify program strengths and weaknesses to make informed
funding and management decisions aimed at making the program more effective. It looks at all factors that affect
and reflect program performance including program purpose and design; performance measurement, evaluations,
and strategic planning; program management; and program results. The PART includes a series of analytical
questions that enable programs to show improvements over time, and allow comparisons between similar
programs.

A summary of the Department’s PART ratings is included in budget submissions to help integrate budget and
performance. The following figure provides a breakout of the overall ratings for the Department’s PART programs.
Approximately 60 percent of the Department’s programs were rated for FY 2005.


                     The Department’s Programs by PART
                        Performance Rating Category

                                                                           Effective
                          Adequate                                            34%
                             22%



                                                                            Results not
                                                                           Demonstrated
                    Moderately Effective                                            13%
                             31%




                                                         68
Department of Defense Performance and Accountability Report FY 2006
Section 2: Performance Information ............................................................


In FY 2005, the Office of Management and Budget provided “favorable” PART ratings to 87 percent of the
Department’s 32 programs assessed. Of the possible favorable ratings, 11 programs, 34 percent, were rated
“effective.” An effective rating is the highest rating a program can receive; programs rated at this level are
considered to have ambitious goals, achieved results and efficiencies, and implemented effective management
practices. The Department’s programs rated at this level include the Military Force Management, Navy/Marine
Corps Air Operations, and Defense Basic Research. Ten programs, 31 percent, were rated “moderately effective,”
which is the second highest rating. Programs rated moderately effective include the Defense Housing, Air Combat
Program, and the Department’s Unmanned Aircraft Systems Program. Seven programs were rated “adequate,”
representing 22 percent of the favorable ratings.

In FY 2005, none of the Department’s programs were rated “ineffective” by the Office of Management and Budget.
This is a significant improvement over the 13 percent of programs that were rated “ineffective” in FY 2004. In
FY 2005, 13 percent of the Department’s programs were rated “results not demonstrated.” This rating concludes
that additional performance goals and data collection procedures are required to provide further evidence of
improved performance. In these cases, the Department has detailed improvement plans to correct program
deficiencies that will increase program effectiveness. As examples, the Defense Communications Infrastructure
program began taking action to develop common metrics to assess program performance across the Department.
The Defense Small Business Innovation Research and Technology Transfer program is changing the way small
companies’ past performance is assessed to match legislative intent. The Department of Defense Training
and Education Programs for Other Training and Education is identifying specific program goals, developing
performance measurements, and establishing ambitious targets.

The following tables show how PART programs align with the Department’s strategic goals and the budget for each
program. Of the Department’s FY 2005 budget, $286 billion or 59 percent is dedicated to programs that have been
rated.
                                                                                  FY 2005 Funding
 Strategic Goal 1:                Program                                                                    Score
                                                                                    (in Millions)
 Balance Force Management
 Risk – Recruit, Retain, Train,   Air Force Aircraft Operations                       $6,455                Effective
 and Equip a Ready Force          Army Land Forces Operations                         $2,495                Effective
 and Sustain Readiness
                                  Defense Health Care                                $20,021               Adequate
                                  Navy Ship Operations                                $5,186                Effective
                                  Defense Housing                                    $17,047          Moderately Effective
                                  Department of Defense Education Activity            $1,776          Moderately Effective
                                  Department of Defense Recruiting                    $3,973          Moderately Effective
                                  Department of Defense Training and Education
                                                                                       $829           Moderately Effective
                                  Programs - Accession Training

                                  Department of Defense Training and Education
                                                                                      $4,957                Effective
                                  Programs - Basic Skills and Advanced Training
                                  Department of Defense Training and Education
                                                                                      $1,210        Results Not Demonstrated
                                  Programs - Other Training and Education
                                  Military Force Management                          $113,649               Effective

                                  Subtotal                                           $177,598


                                                                      69
                                                   Department of Defense Performance and Accountability Report FY 2006
            ............................................................ Section 2: Performance Information


                                                                               FY 2005 Funding
Strategic Goal 2:              Program                                                                     Score
                                                                                 (in Millions)
Balance Operational Risk
– Achieve and Maintain         Air Combat Program                                  $11,783          Moderately Effective
Operational Superiority        Airlift Program                                     $5,771           Moderately Effective
                               Chemical Demilitarization                           $1,387                Adequate
                               Defense Air Transportation System                   $7,482           Moderately Effective
                               Defense Communications Infrastructure               $3,820         Results Not Demonstrated
                               The Department of Defense Unmanned Aircraft
                                                                                   $1,588           Moderately Effective
                               Systems
                               Marine Corps Expeditionary Warfare                  $10,223        Results Not Demonstrated
                               Navy/Marine Corps Air Operations                    $5,795                 Effective
                               Space Launch                                        $1,175                Adequate
                               Navy Shipbuilding                                   $13,778               Adequate

                               Subtotal                                            $62,802

                               Air Force Depot Maintenance                         $3,533                 Effective
Strategic Goal 3:
Balance Institutional Risk     Department of Defense Depot Maintenance: Ship       $4,042                 Effective
– Align the Organization and   Department of Defense Facilities Sustainment,
its Resources to Support the                                                       $11,366               Adequate
                               Restoration, Modernization, and Demolition
Warfighter
                               Depot Maintenance - Naval Aviation                   $977                  Effective
                               Energy Conservation Investment                       $50                   Effective

                               Subtotal                                            $19,968

Strategic Goal 4:              Defense Basic Research                              $1,476                 Effective
Balance Future Challenges      Defense Small Business Innovation Research/
Risk – Execute Future                                                              $1,264         Results Not Demonstrated
                               Technology Transfer
Missions Successfully
Against an Array of            Future Combat Systems/Modularity Land Warfare       $9,623           Moderately Effective
Prospective Challengers        Missile Defense                                     $7,695                Adequate
                               National Security Space Weather Programs             $394                 Adequate
                               Defense Applied Research Program                    $5,188           Moderately Effective

                               Subtotal                                            $25,640


                               Grand Total                                        $286,008




                                                                    70
Section 3:
Financial
Information
page left blank intentionally
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



                         Message from the Chief Financial Officer




                                                      73
                             Department of Defense Performance and Accountability Report FY 2006
.................................................................. Section 3: Financial Information


      Independent Auditors’ Report on the Principal Statements




                                          74
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................




                                                      75
                             Department of Defense Performance and Accountability Report FY 2006
.................................................................. Section 3: Financial Information




                                          76
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................




                                                      77
                             Department of Defense Performance and Accountability Report FY 2006
.................................................................. Section 3: Financial Information




                                          78
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................




                                                      79
                             Department of Defense Performance and Accountability Report FY 2006
.................................................................. Section 3: Financial Information




                                          80
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................




                                                      81
                             Department of Defense Performance and Accountability Report FY 2006
.................................................................. Section 3: Financial Information




                                          82
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................




                                                      83
                             Department of Defense Performance and Accountability Report FY 2006
.................................................................. Section 3: Financial Information




                                          84
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



   Principal Financial Statements                              September 30, 2006 and 2005. The Department’s net
                                                               cost of operations includes the gross costs incurred
             And Notes                                         by the Department less any exchange revenue earned
                                                               from Department activities.
The principal financial statements included in this
report have been prepared in accordance with the               The Statement of Changes in Net Position
requirements of the Chief Financial Officers Act of            The Statement of Changes in Net Position, which
1990, the Government Management Reform Act of                  presents the change in the Department’s net position
1994, and the Office of Management and Budget’s                resulting from the net cost of the Department’s
Circular A-136, “Financial Reporting Requirements.”            operations, budgetary financing sources other than
The responsibility for the integrity of the financial          exchange revenues, and other financing sources for
information included in these statements rests with            the years ended September 30, 2006 and 2005.
the management of the Department of Defense. The
Department’s fiscal years 2006 and 2005 principal              The Statement of Budgetary Resources
financial statements were audited by the Office of             The Statement of Budgetary Resources, which presents
Inspector General. The auditors’ report accompanies            the budgetary resources available to the Department
the principal statements.                                      during FY 2006 and 2005, the status of these resources
                                                               at September 30, 2006 and 2005, and the outlay of
The Department’s principal financial statements for            budgetary resources for the years ended
fiscal years 2006 and 2005 consisted of the following:         September 30, 2006 and 2005.

The Balance Sheet                                              The Statement of Financing
The Balance Sheet, which presents as of                        The Statement of Financing, which reconciles the net
September 30, 2006 and 2005 those resources owned              cost of operations with the obligation of budgetary
or managed by the Department which are available               resources for the years ended September 30, 2006 and
to provide future economic benefits (assets); amounts          2005.
owed by the Department that will require payments
from those resources or future resources (liabilities);        The Statement of Custodial Activity
and residual amounts retained by the Department,               The Statement of Custodial Activity, which presents
comprising the difference (net position).                      the sources and disposition of nonexchange revenues
                                                               collected or accrued by the Department on behalf of
The Statement of Net Cost                                      other recipient entities for the years ended
The Statement of Net Cost, which presents the net cost         September 30, 2006 and 2005.
of the Department’s operations for the years ended




                                                          85
                                                           Department of Defense Performance and Accountability Report FY 2006
                      .................................................................. Section 3: Financial Information


                                                 Principal Financial Statements
  CONSOLIDATED BALANCE SHEET
  Department of Defense
  As of September 30, 2006 and 2005
  ($ in millions)

                                                                                          2006                      2005
                                                                                                                   Restated

  Assets (Note 2)
  Intragovernmental
  Fund Balance with Treasury (Note 3)                                             $               327,138.3    $              290,657.1
  Investments and Related Interest (Note 4)                                                       299,261.2                   263,367.8
  Accounts Receivable, Net (Note 5)                                                                  2,927.4                    1,291.3
  Other Assets (Note 6)                                                                              1,189.6                    1,519.1
  Total Intragovernmental Assets                                                                  630,516.5                   556,835.3


  Cash and Other Monetary Assets (Note 7)                                                            2,199.8                    2,072.7
  Accounts Receivable, Net (Note 5)                                                                  7,864.1                    7,615.5
  Loans Receivable (Note 8)                                                                           191.7                        75.6
  Inventory and Related Property, Net (Note 9)                                                    231,823.2                   222,573.3
  General Property, Plant and Equipment, Net (Note 10)                                            465,439.5                   452,541.4
  Investments and Related Interest (Note 4)                                                          1,089.8                     605.0
  Other Assets (Note 6)                                                                            27,928.7                    23,822.1
  Total Assets                                                                    $              1,367,053.3   $         1,266,140.9


  Liabilities (Note 11)
  Intragovernmental
  Accounts Payable (Note 12)                                                      $                  1,549.8   $                2,058.0
  Debt (Note 13)                                                                                      382.1                      467.1
  Other Liabilities (Notes 15 and 16)                                                              12,822.2                    11,150.8
  Total Intragovernmental Liabilities                                                              14,754.1                    13,675.9


  Accounts Payable (Note 12)                                                                       27,320.9                    28,575.4
  Military Retirement and Other Federal Employment Benefits (Note 17)                            1,815,769.5             1,736,057.8
  Environmental and Disposal Liabilities (Note 14)                                                 69,985.1                    65,027.6
  Loan Guarantee Liability (Note 8)                                                                    36.8                        41.1
  Other Liabilities (Notes 15 and 16)                                                              31,566.1                    29,985.4
  Total Liabilities                                                                              1,959,432.5             1,873,363.2


  Net Position
  Unexpended Appropriations - Earmarked Funds (Note 23)                                                 11.4                          -
  Unexpended Appropriations - Other Funds                                                         307,698.0                   271,493.6
  Cumulative Results of Operations - Earmarked Funds                                         (1,271,684.5)                            -
  Cumulative Results of Operations - Other Funds                                                  371,595.9               (878,715.9)
  Total Net Position                                                                             (592,379.2)              (607,222.3)


  Total Liabilities and Net Position                                              $              1,367,053.3   $         1,266,140.9


The accompanying notes are an integral part of these financial statements.




             The accompanying notes are an integral part of these financial statements.
                                                                         86
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


               CONSOLIDATED STATEMENT OF NET COST
               Department of Defense
               For the years ended September 30, 2006 and 2005
               ($ in millions)
                                                                                  2006                    2005
               Program Costs
               Gross Costs                                                    $          629,736.4    $          680,086.6
               Less: Earned Revenue                                                      (48,350.3)              (45,207.1)
               Net Program Costs                                                         581,386.1               634,879.5
               Cost Not Assigned to Programs                                                      -                       -
               Less: Earned Revenue Not Attributable to Programs                                  -                       -
               Net Cost of Operations                                         $          581,386.1    $          634,879.5


The accompanying notes are an integral part of these financial statements.




           The accompanying notes are an integral part of these financial statements.

                                                                         87
                                                          Department of Defense Performance and Accountability Report FY 2006
                   .................................................................. Section 3: Financial Information


  CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
 Department of Defense
 As of September 30, 2006 and 2005
 ($ in millions)                                                                                        FY 2006



                                                                          Earmarked Funds             All Other Funds             Eliminations
 Cumulative Results of Operations
 Beginning Balances                                                   $         (1,170,876.1)     $            300,193.3      $                  -
 Prior Period Adjustments:                                                                                                                       -
 Changes in Accounting Principles                                                             -                           -                      -
 Correction of Errors                                                                         -                   (8,033.1)                      -
 Beginning Balances, as adjusted                                                 (1,170,876.1)                 292,160.2                         -
 Budgetary Financing Sources
 Appropriations used                                                                        2.1                548,113.6                         -
 Nonexchange revenue                                                                  3,037.2                         19.9                       -
 Donations and forfeitures of cash and cash equivalents                                  25.4                             -                      -
 Transfers in(out) without reimbursement                                                225.7                        732.8                       -
 Other budgetary financing sources                                                          0.6                           -                      -
 Other Financing Sources (Non-Exchange)
 Donations and forfeitures of property                                                        -                       47.3                       -
 Transfers in(out) without reimbursement                                               (152.4)                       135.7                       -
 Imputed financing from costs absorbed by others                                              -                    4,409.6                       -
 Other                                                                                  (25.0)                     3,440.9                       -
 Total Financing Sources                                                              3,113.6                  556,899.8                         -
 Net Cost of Operations                                                              39,006.8                  542,379.3                         -
 Net Change                                                                         (35,893.2)                    14,520.5                       -


 Cumulative Results of Operations                                     $          (1,206,769.3)    $            306,680.7      $                  -


 Unexpended Appropriations
 Beginning Balances                                                   $                  13.4     $            271,480.2      $                  -
 Prior Period Adjustments:
 Changes in accounting principles                                                             -                           -                      -
 Corrections of errors                                                                        -                           -                      -
 Beginning balances, as adjusted                                                         13.4                  271,480.2                         -
 Budgetary Financing Sources
 Appropriations received                                                                    0.1                594,653.4                         -
 Appropriations transferred in(out)                                                           -                    (146.8)                       -
 Other adjustments (rescissions, etc)                                                         -                (10,175.2)                        -
 Appropriations used                                                                     (2.1)                (548,113.6)                        -
 Total Budgetary Financing Sources                                                       (2.0)                    36,217.8                       -
 Total Unexpended Appropriations                                                         11.4                  307,698.0                         -
 Net Position                                                         $          (1,206,757.9)    $            614,378.7      $                  -


The accompanying notes are an integral part of these financial statements.




           The accompanying notes are an integral part of these financial statements.

                                                                          88
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



  CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
 Department of Defense
 As of September 30, 2006 and 2005
 ($ in millions)                                                                                   2006                         2005


                                                                                                                          Consolidated Total
                                                                                             Consolidated Total               Restated
 Cumulative Results of Operations
 Beginning Balances                                                                      $            (870,682.8)     $            (745,441.3)
 Prior Period Adjustments:
 Changes in Accounting Principles                                                                                 -                     3,632.4
 Correction of Errors                                                                                     (8,033.1)                     (776.5)
 Beginning Balances, as adjusted                                                                      (878,715.9)                  (742,585.4)
 Budgetary Financing Sources
 Appropriations used                                                                                    548,115.7                   491,580.5
 Nonexchange revenue                                                                                       3,057.1                      1,665.0
 Donations and forfeitures of cash and cash equivalents                                                       25.4                         42.6
 Transfers in(out) without reimbursement                                                                     958.5                      3,176.4
 Other budgetary financing sources                                                                             0.6                          0.5
 Other Financing Sources (Non-Exchange)
 Donations and forfeitures of property                                                                        47.3                          1.5
 Transfers in(out) without reimbursement                                                                     (16.7)                       (14.3)
 Imputed financing from costs absorbed by others                                                           4,409.6                      4,465.3
 Other                                                                                                     3,415.9                     (2,168.5)
 Total Financing Sources                                                                               560,013.4                    498,749.0
 Net Cost of Operations                                                                                581,386.1                    634,879.5
 Net Change                                                                                            (21,372.7)                  (136,130.5)


 Cumulative Results of Operations                                                        $            (900,088.6)     $            (878,715.9)


 Unexpended Appropriations
 Beginning Balances                                                                      $             271,493.6      $             243,813.9
 Prior Period Adjustments:
 Changes in accounting principles                                                                                 -                            -
 Corrections of errors                                                                                            -                            -
 Beginning balances, as adjusted                                                                       271,493.6                    243,813.9
 Budgetary Financing Sources
 Appropriations received                                                                               594,653.5                    524,990.1
 Appropriations transferred in(out)                                                                        (146.8)                      (651.7)
 Other adjustments (rescissions, etc)                                                                  (10,175.2)                      (5,078.2)
 Appropriations used                                                                                  (548,115.7)                  (491,580.5)
 Total Budgetary Financing Sources                                                                        36,215.8                     27,679.7
 Total Unexpended Appropriations                                                                       307,709.4                    271,493.6
 Net Position                                                                            $            (592,379.2)     $            (607,222.3)



The accompanying notes are an integral part of these financial statements.




            The accompanying notes are an integral part of these financial statements.

                                                                         89
                                                            Department of Defense Performance and Accountability Report FY 2006
                   .................................................................. Section 3: Financial Information


    COMBINED STATEMENT OF BUDGETARY RESOURCES
    Department of Defense
    For the Years Ended September 30, 2006 and 2005
    ($ in millions)


                                                                                                              2006



                                                                                    Budgetary Financing                 Non-Budgetary Credit
                                                                                        Accounts                     Reform Financing Accounts
    Budgetary Resources
    Unobligated balance, brought forward, October 1                             $                 68,589.5           $                    35.0
    Recoveries of prior year unpaid obligations                                                   30,242.2                                      -
    Budget Authority:
       Appropriations received                                                                   681,682.7                                  -
       Borrowing authority                                                                                -                               93.8
       Contract authority                                                                         59,451.7                                      -
       Spending authority from offsetting collections:
          Earned:
                Collected                                                                        164,717.5                                58.5
                Receivable from federal sources                                                      649.0                                      -
          Change in unfilled customer orders:
                Advanced received                                                                    313.9                                      -
                Without advance from federal sources                                                 179.1                               (46.8)
       Subtotal                                                                                  906,993.9                               105.5
    Nonexpenditure transfers, net, anticipated and actual                                           (182.2)                                     -
    Temporarily not available pursuant to Public Law                                             (35,746.3)                                     -
    Permanently not available                                                                    (71,854.5)                               (0.1)
    Total Budgetary Resources                                                   $                898,042.6           $                   140.4


    Status of Budgetary Resources
    Obligations Incurred:
       Direct                                                                   $                646,432.0           $                   108.9
       Reimbursable                                                                              165,521.3                                      -
       Subtotal                                                                                  811,953.3                               108.9
    Unobligated balance:
       Apportioned                                                                                74,622.3                                 0.5
       Exempt from apportionment                                                                   1,220.4                                      -
       Subtotal                                                                                   75,842.7                                 0.5
    Unobligated balances not available                                                            10,246.6                                31.0
    Total Status of Budgetary Resources                                         $                898,042.6           $                   140.4


The accompanying notes are an integral part of these financial statements.




           The accompanying notes are an integral part of these financial statements.

                                                                         90
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


    COMBINED STATEMENT OF BUDGETARY RESOURCES
    Department of Defense
    For the Years Ended September 30, 2006 and 2005
    ($ in millions)


                                                                                                                        2006



                                                                                              Budgetary Financing            Non-Budgetary Credit
                                                                                                  Accounts                Reform Financing Accounts
    Change in Obligated Balance
    Obligated balance, net
       Unpaid obligations, brought forward, October 1                                                     300,445.5                           446.3
       Less: Uncollected customer payments from Federal sources, brought forward, October 1              (54,586.9)                          (123.7)
       Total unpaid obligated balance                                                                     245,858.6                           322.6
    Obligations incurred net                                                                              811,953.3                           108.9
    Less: Gross outlays                                                                                 (763,627.4)                          (176.8)
    Obligated balance transferred, net:
          Actual transfers, unpaid obligations                                                                      -                              -
          Actual transfers, uncollected customer payments from federal sources                                      -                              -
          Total unpaid obligated balance transferred, net                                                           -                              -
    Less: Recoveries of prior year unpaid obligations, actual                                            (30,242.2)                                -
    Change in uncollected customer payments from federal sources                                            (827.8)                            46.8
    Obligated balance, net, end of period:
      Unpaid obligations                                                                                  318,529.2                           378.4
      Less: Uncollected customer payments from federal
                                                                                                         (55,414.7)                           (76.9)
      sources
      Total, unpaid obligated balance, net, end of period                                                 263,114.5                           301.5


    Net Outlays
    Net Outlays:
      Gross outlays                                                                           $           763,627.4       $                   176.8
      Less: Offsetting collections                                                                      (165,031.5)                           (58.5)
      Less: Distributed offsetting receipts                                                              (61,978.2)                                -
      Net Outlays                                                                             $           536,617.7        $                  118.3



The The
    accompanying notes are
        accompanying       an integral
                        notes   are anpart of these
                                       integral     financial
                                                 part         statements.
                                                       of these   financial statements.




              The accompanying notes are an integral part of these financial statements.

                                                                                 91
                                                        Department of Defense Performance and Accountability Report FY 2006
                   .................................................................. Section 3: Financial Information


COMBINED STATEMENT OF BUDGETARY RESOURCES
Department of Defense
For the Years Ended September 30, 2006 and 2005
($ in millions)


                                                                                                            2005



                                                                                  Budgetary Financing                 Non-Budgetary Credit
                                                                                      Accounts                     Reform Financing Accounts
Budgetary Resources
Unobligated balance, brought forward, October 1                               $                  73,282.9          $                    24.6
Recoveries of prior year unpaid obligations                                                      36,376.7                                     -
Budget Authority:
   Appropriations received                                                                      604,969.5                                 -
   Borrowing authority                                                                                  -                              170.3
   Contract authority                                                                            56,753.1                                     -
   Spending authority from offsetting collections:
      Earned:
            Collected                                                                           158,928.0                               16.9
            Receivable from federal sources                                                        (18.2)                                     -
      Change in unfilled customer orders:
            Advanced received                                                                      642.0                                      -
            Without advance from federal sources                                                  5,065.9                               40.6
   Subtotal                                                                                     826,340.3                              227.8
Nonexpenditure transfers, net, anticipated and actual                                              264.5                                      -
Temporarily not available pursuant to Public Law                                               (31,875.4)                                     -
Permanently not available                                                                      (58,299.7)                               (2.2)
Total Budgetary Resources                                                     $                 846,089.3          $                   250.2


Status of Budgetary Resources
Obligations Incurred:
   Direct                                                                     $                 601,516.8          $                   215.2
   Reimbursable                                                                                 175,983.1                                     -
   Subtotal                                                                                     777,499.9                              215.2
Unobligated balance:
Apportioned                                                                                      59,206.9                                1.5
   Exempt from apportionment                                                                       725.9                                      -
   Subtotal                                                                                      59,932.8                                1.5
Unobligated balances not available                                                                8,656.6                               33.5
Total Status of Budgetary Resources                                           $                 846,089.3          $                   250.2



The accompanying notes are an integral part of these financial statements.




            The accompanying notes are an integral part of these financial statements.

                                                                         92
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


COMBINED STATEMENT OF BUDGETARY RESOURCES
Department of Defense
For the Years Ended September 30, 2006 and 2005
($ in millions)


                                                                                                                        2005



                                                                                              Budgetary Financing             Non-Budgetary Credit
                                                                                                  Accounts                 Reform Financing Accounts
Change in Obligated Balance
Obligated balance, net
   Unpaid obligations, brought forward, October 1                                                          282,772.9                           238.8
   Less: Uncollected customer payments from Federal sources, brought forward, October 1                    (49,538.8)                          (83.1)
   Total unpaid obligated balance                                                                          233,234.1                           155.7
Obligations incurred net                                                                                   777,499.9                           215.2
Less: Gross outlays                                                                                       (723,450.6)                           (7.7)
Obligated balance transferred, net:
      Actual transfers, unpaid obligations                                                                          -                               -
      Actual transfers, uncollected customer payments from federal sources                                          -                               -
      Total unpaid obligated balance transferred, net                                                               -                               -
Less: Recoveries of prior year unpaid obligations, actual                                                  (36,376.7)                               -
Change in uncollected customer payments from federal sources                                                (5,048.0)                         (40.6)
Obligated balance, net, end of period:
  Unpaid obligations                                                                                       300,445.5                           446.3
  Less: Uncollected customer payments from federal sources                                                 (54,586.9)                        (123.7)
  Total, unpaid obligated balance, net, end of period                                                      245,858.6                           322.6


Net Outlays
Net Outlays:
  Gross outlays                                                                           $                723,450.6           $                 7.7
  Less: Offsetting collections                                                                            (159,570.1)                          (16.9)
  Less: Distributed Offsetting receipts                                                                    (55,072.9)                               -
  Net Outlays                                                                             $                508,807.6           $                (9.2)



The accompanying notes are an integral part of these financial statements.




        The accompanying notes are an integral part of these financial statements.

                                                                              93
                                                                  Department of Defense Performance and Accountability Report FY 2006
                  .................................................................. Section 3: Financial Information


CONSOLIDATED STATEMENT OF FINANCING
Department of Defense
For the Years Ended September 30, 2006 and 2005
($ in millions)



                                                                                                              2006                     2005
Resources Used to Finance Activities
Bugetary Resources Obligated
   Obligations incurred                                                                                   $           812,062.2    $           777,715.1
   Less: Spending authority from offsetting collections and recoveries                                               (196,113.4)              (201,052.5)
   Obligations net of offsetting collections and recoveries                                                           615,948.8                576,662.6
   Less: Offsetting receipts                                                                                          (61,978.2)               (55,072.9)
   Net Obligations                                                                                                    553,970.6                521,589.7
Other Resources
   Donations and forfeitures of property                                                                  $                47.3    $                  1.5
   Transfers in(out) without reimbursement                                                                                (16.7)                   (14.3)
   Imputed financing from costs absorbed by others                                                                      4,409.6                  4,465.3
   Other                                                                                                                3,415.9                 (2,168.5)
   Net other resources used to finance activities                                                                       7,856.1                  2,284.0
   Total resources used to finance activities                                                             $           561,826.7    $           523,873.7


Resources Used to Finance Items not Part of the Net Cost of Operations

Change in budgetary resources obligated for goods, services and benefits ordered but not yet provided
   Undelivered orders                                                                                     $           (19,661.9)   $           (42,391.5)
   Unfilled customer orders                                                                                               446.2                  5,748.6
Resources that fund expenses recognized in prior periods                                                               (6,365.6)                (2,610.0)
CONSOLIDATED STATEMENT OF FINANCING
Budgetary offsetting collections and receipts that do not affect Net Cost of Operations                                 5,091.7                  3,325.1
Departmentthat
Resources  of Defense
               finance the acquisition of assets                                                                     (131,868.4)              (112,714.7)
For theresources
Other    Years Ended Septemberto
                 or adjustments 30,
                                 net2006 and 2005
                                     obligated resources that do not affect Net Cost of Operations
($ inLess:
      millions)
            Trust or Special Fund Receipts Related to Exchange                                                            (10.0)                   (10.0)
   Other                                                                                                               (3,446.2)                 2,176.3
Total resources used to finance items not part of the Net Cost of Operations                                         (155,814.2)              (146,476.2)
Total resources used to finance the Net Cost of Operations                                                $   2006 406,012.5       $   2005    377,397.5

Components of the Net Cost of Operations that will not Require or Generate Resources in the Current
Period
Components Requiring or Generating Resources in the Future Period:
   Increase in annual leave liability                                                                     $             7,401.2    $               615.1
   Increase in environmental and disposal liability                                                                     5,632.5                  1,100.3
   Updward (downward) reestimates of credit subsidy expense                                                                (2.2)                        -
   Increase in exchange revenue receivable from the public                                                                (47.7)                    40.5
   Other                                                                                                               73,776.0                168,069.4
   Total components of Net Cost of Operations that will require or generate resources in future periods                86,759.8                169,825.3
Components not Requiring or Generating Resources:
   Depreciation and amortization                                                                          $            65,116.2    $            48,944.0
   Revaluation of assets and liabilities                                                                                5,174.4                  1,775.1
   Other
       Trust fund exchange revenue                                                                                    (26,827.3)               (26,007.0)
       Cost of goods sold                                                                                              47,718.4                 46,172.4
       Operating materials and supplies used                                                                           10,062.5                    246.8
       Other                                                                                                          (12,630.4)                16,525.4
   Total components of Net Cost of Operations that will not require or generate resources                              88,613.8                 87,656.7
   Total components of Net Cost of Operations that will not require or generate resources in the
                                                                                                                      175,373.6                257,482.0
   current period

   Net Cost of Operations                                                                                 $           581,386.1    $           634,879.5



The accompanying notes are an integral part of these financial statements.

           The accompanying notes are an integral part of these financial statements.
                                                                                          94
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


COMBINED STATEMENT OF CUSTODIAL ACTIVITY
Department of Defense
For the Years Ended September 30, 2006 and 2005
($ in millions)


                                                                                     2006                  2005
Revenue Activity
Sources of Cash Collections:
   Deposits by foreign governments                                              $           13,719.7   $          10,693.1
   Seized Iraqi cash                                                                               -                     -
   Total cash collections                                                       $           13,719.7   $          10,693.1
   Accrual adjustments                                                                             -                     -
Total custodial revenue                                                         $           13,719.7   $          10,693.1


Disposition of Collections
   Disbursed on behalf of foreign governments and international organizations   $           12,555.1   $          11,070.7
   Seized assets disbursed on behalf of Iraqi people                                            31.2                 52.1
   Increase (decrease) in amounts to be transferred                                          1,164.6               (377.6)
   Collections used for refunds and other payments                                                 -                     -
   Retained by the reporting entity                                                                -                     -
   Seized assets retained for support of the Iraqi people                                     (31.2)                (52.1)
   Total disposition of collections                                             $           13,719.7   $          10,693.1
Net Custodial Activity                                                           $                 -   $                 -



The accompanying notes are an integral part of these financial statements.




  The accompanying notes are an integral part of these financial statements.

                                                                                95
                                          Department of Defense Performance and Accountability Report FY 2006
           .................................................................. Section 3: Financial Information


                                Notes to the Principal Statements

Note 1. Significant Accounting Policies

1.A. Basis of Presentation

These financial statements have been prepared to report the financial position and results of operations of
the Department, as required by the “Chief Financial Officers Act of 1990,” expanded by the “Government
Management Reform Act of 1994,” and other appropriate legislation. The financial statements have been prepared
from the books and records of the Department in accordance with the “DoD Financial Management Regulation,”
the Office of Management and Budget (OMB) Circular No. A-136, “Financial Reporting Requirements,” and to the
extent possible generally accepted accounting principles (GAAP). The accompanying financial statements account
for all resources for which the Department is responsible. Information relative to classified assets, programs, and
operations is excluded from the statements or otherwise aggregated and reported in such a manner that it is not
discernable.

The Department is unable to fully implement all elements of GAAP and OMB Circular No. A-136 due to
limitations of its financial management processes and systems, and non-financial systems and processes that
feed into the financial statements. The Department derives its reported values and information for major asset
and liability categories largely from non-financial systems, such as inventory systems and logistics systems.
These systems were designed to support reporting requirements for maintaining accountability over assets and
reporting the status of federal appropriations rather than preparing financial statements in accordance with
GAAP. The Department continues to implement process and system improvements addressing these limitations.
The Department currently has 11 previously identified auditor material weaknesses: (1) Financial Management
Systems, (2) Intragovernmental Eliminations, (3) Unsupported Accounting Entries, (4) Fund Balance with Treasury,
(5) Environmental Liabilities, (6) General Property, Plant and Equipment, (7) Government Property and Material in
Possession of Contractors, (8) Inventory, (9) Operating Materials and Supplies, (10) Statement of Net Cost, and
(11) Statement of Financing.

1.B. Mission of the Reporting Entity

The National Security Act of 1947 established the Department of Defense. The Department’s mission is to
organize, train, and equip armed forces to deter aggression and, if necessary, defeat aggressors against the United
States and its allies. Fiscal year (FY) 2006 is the eleventh year that the Department has prepared audited Agency-
wide financial statements as required by the Chief Financial Officers (CFO) Act and Government Management
Reform Act (GMRA). Auditors are required to audit the financial statements of the following stand-alone reporting
entities: (1) Army General Fund, (2) Army Working Capital Fund, (3) Navy General Fund, (4) Navy Working Capital
Fund, (5) Air Force General Fund, (6) Air Force Working Capital Fund, (7) Military Retirement Fund, (8) Medicare-
Eligible Retiree Health Care Fund, and (9) U.S. Army Corps of Engineers (Civil Works).

The Department requires the Marine Corps General and Working Capital Funds and the following Defense
Agencies to prepare internal stand-alone auditable financial statements: 1) Defense Logistics Agency, 2) Defense
Finance and Accounting Service, 3) Defense Information Systems Agency, 4) Defense Contract Audit Agency,

                                                        96
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


5) Defense Commissary Agency, 6) Defense Security Service, 7) Defense Threat Reduction Agency, 8) Defense
Advanced Research Projects Agency, 9) Chemical and Biological Defense Program, 10) Missile Defense
Agency, 11) Services Medical Activity, 12) TRICARE Management Activity, and 13) U.S. Special Operations
Command.

1.C. Appropriations and Funds

The Department receives its appropriations and funds as general, working capital (revolving), trust, special,
and deposit funds. The Components use these appropriations and funds to execute their missions and report on
resource usage.

General funds are used for financial transactions funded by congressional appropriations, including personnel,
operations and maintenance, research and development, procurement, and military construction accounts.

Working capital funds (WCF) receive their initial funding through an appropriation or a transfer of resources from
existing appropriations or funds and use those capital resources to finance the initial startup. The WCF entities
provide goods and services on a reimbursable basis. Reimbursable receipts fund ongoing operations and generally
are available in their entirety for use without further congressional action.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out
specific purposes or programs in accordance with the terms of the donor, trust agreement, or statute.

Special fund accounts are used to record government receipts reserved for a specific purpose.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public
entity. The Department is acting as an agent or a custodian for funds awaiting distribution, for example payroll
taxes.

Earmarked funds are trust or special funds designated by statute to be used only for specific activities, benefits
or purposes. Earmarked funds are financed by specifically identified revenues and remain available over time.
Earmarked funds also have a requirement to account for and report on the receipt, use and retention of revenues
and other financing sources that distinguish them from general revenues.

1.D. Basis of Accounting

For FY 2006, the Department’s financial management systems are unable to meet all of the requirements for full
accrual accounting. Many of the Department’s financial and non-financial feeder systems and processes were
designed and implemented prior to the issuance of GAAP for federal agencies. These systems were not designed
to collect and record financial information on the full accrual accounting basis as required by GAAP. Most of the
Department’s legacy systems were designed to record information on a budgetary basis.

The Department has undertaken efforts to determine the actions required to bring its financial and non-financial
feeder systems and processes into compliance with GAAP. One such action is the current revision of its
accounting systems to record transactions based on the United States Standard General Ledger (USSGL). Until all

                                                         97
                                           Department of Defense Performance and Accountability Report FY 2006
            .................................................................. Section 3: Financial Information


of the Department’s financial and non-financial feeder systems and processes are updated to collect and report
financial information as required by GAAP, the Department’s financial data will be based on budgetary transactions
(obligations, disbursements, and collections), transactions from non-financial feeder systems, and adjustments for
known accruals of major items such as payroll expenses, accounts payable, and environmental liabilities.

In addition, the Department identifies program costs based upon the major appropriation groups provided by
the Congress. Current processes and systems do not capture and report accumulated costs for major programs
based upon the performance measures as required by the Government Performance and Results Act (GPRA). The
Department is in the process of reviewing available data and attempting to develop a cost reporting methodology
that balances the need for cost information required by GPRA and the Statement of Federal Financial Accounting
Standard (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal Government,” with
the need to keep the financial statements from being overly voluminous.

1.E. Revenues and Other Financing Sources

The Department receives congressional appropriations as financing sources for general funds on either an annual
or multi-year basis. When authorized, these appropriations are supplemented by revenues generated by sales
of goods or services. The Department recognizes revenue as a result of costs incurred for goods and services
provided to other federal agencies and the public. Full cost pricing is the Department’s standard policy for services
provided as required by OMB Circular No A-25 “Transmittal Memorandum #1, User Charges”. The Department
recognizes revenue when earned within the constraints of current system capabilities. In some instances, revenue
is recognized when bills are issued.

Depot Maintenance and Ordnance WCF activities recognize revenue according to the percentage of completion
method. Supply Management WCF activities recognize revenue from the sale of inventory items.

The Department does not include non-monetary support provided by U.S. allies for common defense and mutual
security in amounts reported in the Statement of Net Cost and the Statement of Financing. The U.S. has cost-
sharing agreements with other countries. Examples include countries where there is a mutual or reciprocal defense
agreement, where U.S. troops are stationed, or where the U.S. Fleet is in a port.

1.F. Recognition of Expenses

For financial reporting purposes, the Department’s policy requires the recognition of operating expenses in
the period incurred. However, because the Department’s financial and non-financial feeder systems were not
designed to collect and record financial information on the full accrual accounting basis, accrual adjustments are
made for major items such as payroll expenses, accounts payable, environmental liabilities, and unbilled revenue.
The Department’s expenditures for capital and other long-term assets are recognized as operating expenses based
on depreciation. In the case of Operating Materials and Supplies (OM&S), operating expenses are generally
recognized when the items are purchased. Efforts are underway to migrate towards the consumption method for
recognizing OM&S expenses.

1.G. Accounting for Intragovernmental Activities

                                                         98
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



Preparation of reliable financial statements requires the elimination of transactions occurring among entities within
the Department or between two or more federal agencies. However, the Department cannot accurately identify
most of its intragovernmental transactions by customer because the Department’s systems do not track buyer and
seller data needed to match related transactions. Seller entities within the Department provide summary seller-
side balances for revenue, accounts receivable, and unearned revenue to the buyer-side internal Department
accounting offices. In most cases, the buyer-side records are adjusted to agree with Department seller-side
balances. Intra-Department intragovernmental balances are then eliminated. The Department is developing
long-term systems improvements that will include sufficient up-front edits and controls to eliminate the need
for after-the-fact reconciliations. The volume of intragovernmental transactions is so large that an after-the-fact
reconciliation cannot be accomplished effectively with existing or foreseeable resources.

The Department of the Treasury Financial Management Service is responsible for eliminating transactions between
the Department and other federal agencies. The Treasury Financial Manual Part 2 – Chapter 4700, “Agency
Reporting Requirements for the Financial Report of the United States Government,” and the Treasury’s “Federal
Intragovernmental Transactions Accounting Policies Guide,” provide guidance for reporting and reconciling
intragovernmental balances. While the Department is unable to fully reconcile intragovernmental transactions
with all federal partners, the Department is able to reconcile balances pertaining to investments in federal
securities, borrowings from the U.S. Treasury and the Federal Financing Bank, Federal Employees’ Compensation
Act transactions with the Department of Labor (DOL), and benefit program transactions with the Office of
Personnel Management (OPM). The Department’s proportionate share of public debt and related expenses of
the federal government are not included. The federal government does not apportion debt and its related costs
to federal agencies. The Department’s financial statements, therefore, do not report any portion of public debt or
interest thereon, nor do the statements report the source of public financing whether from issuance of debt or tax
revenues.

Financing for the construction of Department facilities is obtained through appropriations. To the extent this
financing ultimately may have been obtained through the issuance of public debt, interest costs have not been
capitalized since the Department of the Treasury does not allocate such interest costs to the benefiting agencies.

1.H. Transactions with Foreign Governments and International Organizations

Each year, the Department sells defense articles and services to foreign governments and international
organizations under the provisions of the “Arms Export Control Act of 1976.” The provisions of the Act authorize
the Department to sell defense articles and services to foreign countries and international organizations, generally
at no profit or loss to the U.S. Government. Payment is required in advance.

1.I. Funds with the U.S. Treasury

The Department’s monetary financial resources are maintained in U.S. Treasury accounts. The disbursing offices
of the Defense Finance and Accounting Service (DFAS), the Military Services, the U.S. Army Corps of Engineers
(USACE), and the Department of State’s financial service centers process the majority of the Department’s cash



                                                         99
                                           Department of Defense Performance and Accountability Report FY 2006
            .................................................................. Section 3: Financial Information


collections, disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports that
provide information to the U.S. Treasury on check issues, electronic fund transfers, and interagency transfers, and
deposits.

In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by
appropriation, on interagency transfers, collections received, and disbursements issued. The Department of the
Treasury records this information to the applicable Fund Balance with Treasury (FBWT) account. Differences
between the Department’s recorded balance in the FBWT accounts and Treasury’s FBWT accounts are reconciled.

1.J. Foreign Currency

Cash is the total of cash resources under the control of the Department, which includes coin, paper currency,
negotiable instruments, and amounts held for deposit in banks and other financial institutions. Foreign currency
consists of the total U.S. dollar equivalent of both purchased and non-purchased foreign currencies held in foreign
currency fund accounts.

The majority of cash and all foreign currency is classified as nonentity and, therefore, restricted. Amounts reported
consist primarily of cash and foreign currency held by Disbursing Officers to carry out their paying, collecting, and
foreign currency accommodation exchange missions. Cash seized during Operation Iraqi Freedom is restricted for
use to assist the Iraqi people and support the restoration of Iraq.

The Department conducts a significant portion of its operations overseas. The Congress established a special
account to capture the gains and losses from foreign currency transactions for five general fund appropriations
(operations and maintenance, military personnel, military construction, family housing operations and
maintenance, and family housing construction). The gains and losses are computed as the variance between the
exchange rate at the date of payment and a budget rate established at the beginning of each fiscal year. Foreign
currency fluctuations related to other appropriations require adjustments to the original obligation amount at the
time of payment. The Department does not separately identify currency fluctuations.

1.K. Accounts Receivable

As presented in the Balance Sheet, accounts receivable includes accounts, claims, and refunds receivable from
other federal entities or from the public. Allowances for uncollectible accounts due from the public are based
upon analysis of collection experience by fund type. The Department does not recognize an allowance for
estimated uncollectible amounts from other federal agencies. Claims against other federal agencies are to be
resolved between the agencies (per the Code of Federal Regulations 4 CFR 101).

The Department bases the estimate of uncollectible accounts receivable from the public as either a percentage of
actual prior-year write-offs or a percentage of aged accounts receivable from the public.

1.L. Direct Loans and Loan Guarantees




                                                         100
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



The Department operates a direct loan and loan guarantee program authorized by the National Defense
Authorization Act for FY 1996, Public Law 104-106, Stat 186, Section 2801. The Act includes a series of
authorities that allow the Department to work with the private sector to renovate military housing. The
Department’s goals are to obtain private capital to leverage government dollars, make efficient use of limited
resources, and use a variety of private sector approaches to build and renovate military housing faster and at a
lower cost to American taxpayers.

The Act also provides the Department with a variety of authorities to obtain private sector financing and expertise
to improve military housing. The Department uses these authorities individually or in combination. They
include guarantees (both loan and rental); conveyance/leasing of existing property and facilities; differential lease
payments; investments (both limited partnerships and stock/bond ownership); and direct loans. In addition, the
“Federal Credit Reform Act of 1990” governs all amended direct loan obligations and loan guarantee commitments
made after FY 1991 resulting in direct loans or loan guarantees.

The Department also operates a loan guarantee program designed to encourage commercial use of inactive
government facilities. The revenue generated from property rental offsets the cost of maintaining these facilities.

The National Defense Authorization Act for FY 2005, Public Law 108-375, Section 2805, provided permanent
authorities to the Military Housing Privatization Initiative.

1.M. Inventories and Related Property

The Department values approximately 60 percent of resale inventory using the moving average cost method. An
additional 2 percent (fuel inventory) is reported using the first-in-first-out method. The Department reports the
remaining 38 percent of resale inventories at an approximation of historical cost using latest acquisition cost
adjusted for holding gains and losses. The latest acquisition cost method is used because legacy inventory systems
were designed for materiel management rather than accrual accounting. Although these systems provide visibility
and accountability over inventory items, they do not maintain historical cost data necessary to comply with SFFAS
No. 3, “Accounting for Inventory and Related Property.” Additionally, these systems cannot produce financial
transactions using the USSGL, as required by the Federal Financial Management Improvement Act of 1996
(P.L. 104-208). By utilizing new systems development processes, Department Components are continuing to
transition the balance of their inventories to the moving average cost method. However, since the on-hand
balances which transitioned were not, for the most part, baselined to auditable historical cost, the reported values
remain non-compliant with SFFAS No. 3 and GAAP.

The Department manages only military or government-specific materiel under normal conditions. Items commonly
used in and available from the commercial sector are not managed in the Department’s materiel management
activities. Operational cycles are irregular, and the military risks associated with stock-out positions have no
commercial parallel. The Department holds materiel based on military need and support for contingencies.
Therefore, the Department does not attempt to account separately for “inventory held for sale” and “inventory held
in reserve for future sale” based on SFFAS No. 3 definitions.

Related property includes operating materials and supplies (OM&S) and stockpile materials. The OM&S, including

                                                         101
                                          Department of Defense Performance and Accountability Report FY 2006
            .................................................................. Section 3: Financial Information


munitions not held for sale, are valued at standard purchase price. The Department uses both the consumption
method and the purchase method of accounting for OM&S. Items that are centrally managed and stored, such
as ammunition and engines, are generally recorded using the consumption method and reported on the Balance
Sheet as OM&S. When current systems cannot fully support the consumption method, the Department uses the
purchase method. Under this method materials and supplies are expensed when purchased. During FY 2006, the
Department expensed significant amounts using the purchase method either because the systems could not support
the consumption method or because management deemed that the item was in the hands of the end user.

The Department determined that the recurring high dollar value of OM&S in need of repair is material to the
financial statements and requires a separate reporting category. Many high-dollar managed items, such as aircraft
engines, are categorized as OM&S rather than military equipment.

The Department recognizes condemned materiel as “Excess, Obsolete, and Unserviceable.” The cost of disposal
is greater than the potential scrap value; therefore, the net value of condemned materiel is zero. Potentially
redistributed materiel, presented in previous years as “Excess, Obsolete, and Unserviceable,” is included in “Held
for Use” or “Held for Repair” categories according to its condition.

Past audits identified uncertainties about the completeness and existence of the reported values of inventory.
Inventory available and purchased for resale includes consumable spare and repair parts and repairable items
owned and managed by the Department. This inventory is retained to support military or national contingencies.
Inventory held for repair is damaged inventory that requires repair to make suitable for sale. It is more economical
to repair than to procure these inventory items. Because the Department often relies on weapon systems and
machinery no longer in production, the Department supports a process that encourages the repair and rebuilding
of certain items. This repair cycle is essential to maintaining a ready, mobile, and armed military force. Finally,
work in process balances include costs related to the production or servicing of items, including direct material,
direct labor, applied overhead and other direct costs. Work in process balances include costs related to the
production or servicing of items, including direct material, direct labor, applied overhead and other direct cost.
Work in process also includes the value of finished products or completed services pending the submission of bills
to the customer. The work in process designation may also be used to accumulate amounts paid to contractors
under cost reimbursable contracts, including amounts withheld from payment to ensure performance, and amounts
paid to other government plants for accrued costs of end items of material ordered but not delivered. Work in
process includes munitions in production and depot maintenance work with its associated labor, applied overhead,
and supplies used in the delivery of maintenance services.

1.N. Investments

The Department reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts.
Premiums or discounts amortize into interest income over the term of the investment using the effective interest
rate method or another method obtaining similar results. The Department’s intent is to hold investments to
maturity, unless they are needed to finance claims or otherwise sustain operations. Consequently, a provision is
not made for unrealized gains or losses on these securities.

The Department invests in nonmarketable securities. The two types of nonmarketable securities are par value


                                                        102
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


and market-based intragovernmental securities. The Bureau of Public Debt issues nonmarketable par value
intragovernmental securities. Nonmarketable, market-based intragovernmental securities mimic marketable
securities, but are not publicly traded.

The Department’s Net Investments are held by various trust and special funds. These funds are comprised of the
Military Retirement Trust Fund (MRF); Medicare-Eligible Retiree Health Care Fund (MERHCF); Other Defense
Organizations General Fund (ODO GF) trust and special funds; donations (Gift Funds); and the USACE South
Dakota Terrestrial Habitat Restoration, Inland Waterways, and Harbor Maintenance Trust Fund accounts.

Other investments represent limited partnerships, entered into on behalf of the U.S. Government in support of the
Military Housing Privatization Initiative authorized by Public Law 104-106 Section 2801. These investments do
not require market value disclosure.

1.O. General Property, Plant and Equipment

The Department is moving away from a standard capitalization threshold for all categories (e.g. real property,
military equipment, etc.) of General Property, Plant, and Equipment (PP&E) to one that is specific for each
individual category.

In FY 2006 the capitalization threshold was revised from $100,000 to $20,000 for real property. The current
$100,000 capitalization threshold remains unchanged for the remaining General PP&E categories.

General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an asset has
a useful life of two or more years, and when the acquisition cost equals or exceeds the Department’s capitalization
threshold of $100,000, except for the USACE and WCF as discussed below. The Department also requires
capitalization of improvement costs over the Department’s capitalization threshold of $100,000 for General PP&E.
The Department depreciates all General PP&E, other than land, on a straight-line basis.

Prior to FY 1996, General PP&E was capitalized if it had an acquisition cost of $15,000, $25,000, and $50,000
for FYs 1993, 1994, and 1995, respectively, and an estimated useful life of two or more years. General PP&E
previously capitalized at amounts below $100,000 were written off General Fund financial statements in
FY 1998. No adjustment was made for WCF assets. These assets remain capitalized and reported on WCF
financial statements.

The USACE Civil Works General PP&E assets are capitalized at historical acquisition cost plus capitalized
improvements when an asset has a useful life of two or more years, and when the acquisition cost exceeds
$25,000. One exception is all buildings and structures related to hydropower projects, which are capitalized
regardless of cost. During FY 2003, the Corps increased its buildings and structures threshold from $0 to $25,000
for all Civil Works appropriations with the exception of Revolving Fund and Power Marketing Agency assets. All
Civil Works buildings and structures currently capitalized under $25,000 (excluding Revolving Fund and Power
Marketing Agency) were expensed in FY 2003 and removed from the Corps of Engineers Financial Management
System. Beginning in FY 2004, all Civil Works Buildings and Structures under $25,000 are expensed except for



                                                        103
                                           Department of Defense Performance and Accountability Report FY 2006
            .................................................................. Section 3: Financial Information


Power Marketing Agency assets.

When it is in the best interest of the government, the Department provides government property necessary to
contractors to complete contract work. The Department either owns or leases such property, or it is purchased
directly by the contractor for the government based on contract terms. When the value of contractor-procured
General PP&E exceeds the Department’s capitalization threshold, it must be reported on the Department’s Balance
Sheet.

The Department is developing new policies and a contractor reporting process that will provide appropriate
General PP&E information for future financial statement reporting purposes. Accordingly, the Department reports
only the government property in the possession of contractors that is maintained in the Department’s property
systems. The Department has issued property accountability and reporting regulations that require components
to maintain, in their property systems, information on all property furnished to contractors. This action and other
proposed actions are structured to capture and report the information necessary for compliance with federal
accounting standards.

The SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and Equipment,” establishes
generally accepted accounting principles for valuing and reporting military equipment (e.g., ships, aircraft, combat
vehicles, weapons) in federal financial statements. The standard provides for the use of estimated historical cost
for valuing military equipment if obtaining actual historical cost information is not practical. The Department
estimated historical costs using the Bureau of Economic Analysis (BEA) estimates to calculate the value of the
military equipment for reporting periods from October 1, 2002 through March 31, 2006.

Effective with 3rd Quarter FY 2006, the Department replaced the BEA estimation methodology with an estimation
methodology for military equipment based on internal Departmental records. The Department initially identified
the universe of military equipment by accumulating information relating to program funding and associated
military equipment, equipment useful life, program acquisitions and disposals to create a baseline. The military
equipment baseline is updated using expenditure information, and information related to acquisition and logistics
to identify acquisitions and disposals.

1.P. Advances and Prepayments

The Department records payments in advance of the receipt of goods and services as advances or prepayments and
reports them as assets on the Balance Sheet. The Department recognizes advances and prepayments as expenses
when it receives the related goods and services.

1.Q. Leases

Lease payments for the rental of equipment and operating facilities are classified as either capital or operating
leases. An operating lease does not substantially transfer all the benefits and risk of ownership. Payments for
operating leases are charged to expense over the lease term as it becomes payable.
Capital leases convey certain benefits and risks of ownership, and therefore require recognition of an asset and



                                                         104
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


corresponding lease liability equal to the present value of the rental and other lease payments during the lease term
(excluding portions representing executory costs paid to the lessor) or the asset’s fair market value. The discount
rate for the present value calculation is either the lessor’s implicit interest rate or the government’s incremental
borrowing rate at the inception of the lease. The Department as the lessee receives the use and possession of
leased property, for example real estate or equipment, from a lessor in exchange for a payment of funds.

Office space and leases entered into by the Department in support of contingency operations are the largest
components of operating leases. These costs were gathered from existing leases, General Services Administration
(GSA) bills, and Inter-service Support Agreements. Future year projections use the Consumer Price Index
(CPI), rather than the Department’s inflation factor. The CPI impacts increases to the leases, especially those at
commercial lease sites. Equipment leases have a variety of lease terms, which are not expected to be renewed
upon expiration. Other operating leases are generally one-year leases. The Department expects to continue to
reduce the level of owned assets while increasing the number of leased assets. The Department will strive to
displace commercial leases with more economical GSA leases.

1.R. Other Assets

Other assets include those assets, such as military and civil service employee pay advances, travel advances, and
contract financing payments, that are not reported elsewhere on the Department’s Balance Sheet.

Contract financing payments are defined in the Federal Acquisition Regulation (FAR), Part 32, as authorized
disbursements of monies to a contractor prior to acceptance of supplies or services by the government. These
payments are designed to alleviate the potential financial burden on contractors performing certain long-term
contracts and facilitate competition for defense contracts. Contract financing payments clauses are incorporated in
the contract terms and conditions and may include advance payments, performance-based payments, commercial
advance and interim payments, progress payments based on cost, and interim payments under certain cost-
reimbursement contracts.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental
payments, or progress payments based on a percentage or stage of completion, which the Defense Federal
Acquisition Regulation Supplement (DFARS) authorizes only for construction of real property, shipbuilding, and
ship conversion, alteration, or repair. Progress payments for real property and ships are reported as Construction in
Progress in Note 10.

1.S. Contingencies and Other Liabilities

The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” as amended by SFFAS No. 12,
“Recognition of Contingent Liabilities Arising from Litigation,” defines a contingency as an existing condition,
situation, or set of circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be
resolved when one or more future events occur or fail to occur. The Department recognizes contingencies as
liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount can be
reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but

                                                         105
                                             Department of Defense Performance and Accountability Report FY 2006
            .................................................................. Section 3: Financial Information


there is at least a reasonable possibility of incurring a loss or additional losses. Examples of loss contingencies
include the collectibility of receivables, pending or threatened litigation, and possible claims and assessments. The
Department’s loss contingencies arise as a result of pending or threatened litigation or claims; and assessments
occur due to events such as aircraft, ship and vehicle accidents, medical malpractice, property or environmental
damages, and contract disputes.

Other liabilities arise as a result of anticipated disposal costs for the Department’s assets. This type of liability has
two components: nonenvironmental and environmental. Consistent with SFFAS No. 6, “Accounting for Property,
Plant, and Equipment,” recognition of an anticipated environmental disposal liability begins when the asset is
placed into service. Nonenvironmental disposal liabilities are recognized for assets when management decides
to dispose of an asset based upon the Department’s policy, which is consistent with SFFAS No. 5, “Accounting
for Liabilities of the Federal Government.” The Department recognizes nonenvironmental disposal liabilities for
nuclear-powered military equipment when placed into service. Such amounts are developed in conjunction with,
and not easily separately identifiable from, environmental disposal costs.

1.T. Accrued Leave

The Department reports earned military and civilian leave, except sick leave, as accrued liabilities. Sick leave is
expensed when taken. The liability reported at the end of the accounting period reflects the current pay rates.

1.U. Net Position

Net position consists of unexpended appropriations and cumulative results of operations.

Unexpended Appropriations represent amounts of authority that are unobligated and have not been rescinded or
withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments
have not been incurred.

Cumulative Results of Operations represent the difference, since inception of an activity, between expenses and
losses and financing sources (including appropriations, revenue, and gains). Beginning with FY 1998, these results
included the cumulative amount of donations and transfers of assets in and out without reimbursement.

1.V. Treaties for Use of Foreign Bases

The Department has the use of land, buildings, and other overseas facilities that are obtained through various
international treaties and agreements negotiated by the Department of State. The Department purchases capital
assets overseas with appropriated funds; however, the host country retains title to land and improvements.
Generally, treaty terms allow the Department continued use of these properties until the treaties expire. In the
event treaties or other agreements are terminated, whereby use of the foreign bases is prohibited, losses are
recorded for the value of any nonretrievable capital assets. This takes place after negotiations between the U.S.
and the host country have determined the amount to be paid to the U.S. for such capital investments.

1.W. Comparative Data

                                                           106
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



Financial statement fluctuations greater than two percent of total assets on the Balance Sheet or ten percent from
the prior period presented are generally explained within the notes to the financial statements.

1.X. Unexpended Obligation

The Department obligates funds to provide goods and services for outstanding orders not yet delivered. The
financial statements do not reflect this liability for payment for goods and services not yet delivered.

1.Y. Undistributed Disbursements and Collection

Undistributed disbursements and collections represent the difference between disbursements and collections
matched at the transaction level to a specific obligation, payable, or receivable in the activity field records as
opposed to those reported by the U.S. Treasury. These amounts should agree with the undistributed amounts
reported on the departmental accounting reports. Intransit payments are those payments that have been made to
other agencies or entities that have not been recorded in their accounting records. These payments are applied to
the entities’ outstanding accounts payable balance. Intransit collections are those collections from other agencies
or entities that have not been recorded in the accounting records. These collections are also applied to the entities’
accounts receivable balance.	

The Department’s policy is to allocate supported undistributed disbursements and collections between federal
and nonfederal categories based on the percentage of federal and nonfederal accounts payable and accounts
receivable. The majority of the Department’s components follow this allocation procedure. Unsupported
undistributed disbursements are recorded in accounts payable. Unsupported undistributed collections are
recorded in other liabilities.

Note 2. Nonentity Assets

                           As of September 30                              2006                       2005
                           (amount in millions)
 Intragovernmental Assets
    Fund Balance with Treasury                                  $                     2,896.6   $                1,653.5
    Accounts Receivable                                                                  11.6                        0.3
    Total Intragovernmental Assets                                                    2,908.2                    1,653.8
 Nonfederal Assets
    Cash and Other Monetary Assets                                                   2,085.2                     1,959.4
    Accounts Receivable                                                              5,486.7                     4,469.6
    Other Assets                                                                       196.8                       156.9
    Total Nonfederal Assets                                                          7,768.7                     6,585.9
 Total Nonentity Assets                                                             10,676.9                     8,239.7
 Total Entity Assets                                                              1,356,376.4                1,257,901.2
 Total Assets                                                   $                 1,367,053.3   $            1,266,140.9


Nonentity assets are assets for which the Department maintains stewardship accountability and has a responsibility
to report, but are not available for the Department’s operations.
Fluctuations
                                                         107
                                                 Department of Defense Performance and Accountability Report FY 2006
             .................................................................. Section 3: Financial Information



Nonentity assets increased $2.4 billion (30%) primarily due to an increase of $1.2 billion in nonentity Fund
Balance with Treasury and $1.0 billion in Accounts Receivable. The increase in nonentity Fund Balance with
Treasury primarily results from the withdrawal of $1.0 billion in Foreign Military Sales funds in FY 2005 with no
corresponding withdrawal in FY 2006. The remaining increase in nonentity Accounts Receivable is attributable to
Accounts Receivable associated with litigation cases, and the reclassification of assets from entity to nonentity.

Note 3. Fund Balance with Treasury

                          As of September 30                                 2006                     2005
                          (amount in millions)
 Fund Balances
   Appropriated Funds                                               $               312,055.6   $            278,565.8
   Revolving Funds                                                                    9,619.6                  8,249.0
   Trust Funds	                                                                       2,212.2                    406.2
   Special Funds                                                                        328.1                    344.3
   Other Fund Types                                                                   2,922.8                  3,091.8
   Total Fund Balances                                                              327,138.3                290,657.1
 Fund Balances Per Treasury Versus Agency
   Fund Balance per Treasury                                                        329,921.4                294,103.0
   Fund Balance per Agency                                                          327,138.3                290,657.1
 Reconciling Amount                                                 $                 2,783.1   $              3,445.9


Fluctuations

Fund Balance with Treasury increased $36.5 billion (13%) primarily due to an increase of $32.0 billion in
appropriations for critical mission related efforts such as procurement of military equipment, the Global War on
Terror, Base Realignment and Closure, and hurricane relief in the Gulf Coast region during FY 2006.

Other Disclosures

The Department shows a reconciling net difference of $2.8 billion with the Department of the Treasury, which is
comprised of:

•	$3.4 billion of canceling year authority recorded by Treasury, but not reported by the Department.
•	$(1.2) billion of Foreign Military Sales (FMS) advances from foreign customers based on future requirement
  forecast recorded by the Department, but not reported by the Treasury as Department funds.
•	$369.0 million of unavailable receipts recorded by Treasury, but not reported by the Department.
•	$115.8 million of transfer funds with the Executive Office of the President, the Department of Transportation
  (DOT), and the U.S Department of Agriculture (USDA) recorded by Treasury, but not reported by the Department.
•	$120.5 million in additional availability of funds due to invalid program years recorded by Treasury, but not
  reported by the Department.
•	$(64.9) million of transfer funds with the DOT and the USDA recorded by the Department, but not reported by
  the Treasury as Department funds.



                                                             108
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



                                                   Status of Fund Balance with Treasury
                            As of September 30                                            2006                     2005
                            (amount in millions)
 Unobligated Balance
   Available                                                               $                        75,401.0   $             59,934.1
   Unavailable                                                                                     302,033.4                  8,690.4
 Obligated Balance not yet Disbursed                                                               318,907.6                556,162.3
 Nonbudgetary FBWT                                                                                   7,640.4                  8,783.4
 NonFBWT Budgetary Accounts                                                                      (376,844.1)              (342,387.7)
 Total                                                                     $                       327,138.3   $            291,182.5

The Status of Fund Balance with Treasury (FBWT) consists of unobligated and obligated balances. These balances
reflect the budgetary authority remaining for disbursements against current or future obligations. In addition, the
balances include various accounts that affect either budgetary reporting or FBWT, but not both.

Unobligated Balance represents the cumulative amount of budgetary authority that has not been set aside to cover
outstanding obligations. Unobligated Balance is classified as available or unavailable and is associated with
appropriations expiring at fiscal year end that remain available only for obligation adjustments until the account
is closed. Certain unobligated balances may be restricted for future use and are not apportioned for current use.
These balances are only available for investing in nonmarketable market-based securities purchased through
Treasury.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods that have not been
received or services that have not been performed.

Nonbudgetary FBWT includes entity and nonentity FBWT accounts which do not have budgetary authority, such as
unavailable receipt accounts or clearing accounts.

NonFBWT Budgetary Accounts include budgetary accounts that do not affect FBWT, such as contract authority,
borrowing authority, and investment accounts. This category reduces the Status of FBWT.

The status of fund balance with Treasury disagrees with the FBWT by $525.4 million for FY 2005 due to an error,
which was corrected for FY 2006.

Fluctuations

Total Status of FBWT increased $36.0 billion (13%). Unobligated Balance Unavailable increased $293.3 billion
and Obligated Balance not yet Disbursed decreased $237.3 billion due to the reclassification of certain special
and trust fund balances in FY 2006. This reclassification brings the Department into compliance with the
Office of Management and Budget Circular No. A-136, “Financial Reporting Requirements,” and permits better
reconciliation of FBWT to the President’s Budget.




                                                                   109
                                                      Department of Defense Performance and Accountability Report FY 2006
              .................................................................. Section 3: Financial Information



                                            Disclosures Related to Suspense/Budget Clearing Accounts
                                                                                                                       (Decrease)/
                     As of September 30                               2004              2005           2006           Increase from
                                                                                                                      FY2005 - 2006
                     (amount in millions)
Account
 F3845 – Personal Property Proceeds                             $            0.0 $             0.9 $          0.7 $             (0.2)
 F3875 – Disbursing Officer Suspense                                      (608.5)            263.5          903.9              640.4
 F3880 – Lost or Cancelled Treasury Checks                                  (1.4)              11.9          26.4               14.5
  F3882 – Uniformed Services Thrift Savings Plan Suspense                  (59.5)              83.5         108.5               25.0
 F3885 – Interfund/IPAC Suspense                                          (118.2)           (211.6)       (114.9)               96.7
 F3886 – Thrift Savings Plan Suspense                                         0.2             (4.9)          (6.4)              (1.5)
Total                                                           $        ( 787.4) $          143.3 $        918.2 $            774.9


The F3845 suspense account represents the balance of proceeds from the sale of personal property.

The F3875, F3885, and the F3886 suspense clearing accounts temporarily hold collections or disbursements
until they can be assigned or identified to a valid appropriation. The F3875 suspense clearing account represents
the Disbursing Officer’s suspense. Account F3885 represents the Interfund and Intragovernmental Payment
and Collection (IPAC) suspense. Account F3886 represents payroll deductions for the Thrift Savings Plan (TSP)
suspense.

The F3880 suspense account represents the balance of Treasury checks that (1) have either been lost by the payee
and need to be reissued, (2) have never been cashed by the payee, or (3) have been cancelled by the Treasury and
need to be transferred to the original appropriation.

The F3882 suspense account was established for the Uniformed Services TSP in FY 2002. The amounts in this
account represent a timing difference between the posting of the TSP deductions by the USDA National Finance
Center and the posting of these amounts in the military accounting systems in the following month.

Fluctuations

Total suspense accounts increased $774.9 million. This increase is primarily attributable to the $640.4 million
increase in Disbursing Officer suspense caused by timing differences in disbursements of military and civilian
payroll in the 4th Quarter, FY 2006. In 4th Quarter, FY 2006, these accounts included individual income and
Federal Insurance Contributions Act tax withholdings, whereas, 4th Quarter, FY 2005 payroll tax withholdings were
disbursed prior to the end of the accounting period.

Other Disclosures

The total amount reported above for FY 2005 does not agree with balances reported last year-end due to the
inclusion of the Personal Property Proceeds account in the current year schedule. The note schedule did not
include this account for 4th Quarter, FY 2005.



                                                                      110
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



                               Disclosures Related to Problem Disbursements and In-Transit Disbursements
                                                                                                                        (Decrease)/
              As of September 30                       2004                  2005                  2006                Increase from
                                                                                                                       FY2005 - 2006
                  (amount in millions)
Total Problem Disbursements, Absolute Value
  Unmatched Disbursements (UMDs)               $                817.7 $             2,198.6 $              3,345.4 $            1,146.8
  Negative Unliquidated Obligations (NULO)                       88.8                  89.1                   78.6                (10.5)
Total In-transit Disbursements, Net            $              4,197.0 $             4,130.8 $              4,588.8 $              458.0


An unmatched disbursement (UMD) occurs when a payment is not matched to a corresponding obligation in the
accounting system. Absolute value is the sum of the positive values of debit and credit transactions without regard
to the sign (plus or minus).

A negative unliquidated obligation (NULO) occurs when a payment is made against a valid obligation, but the
payment is greater than the amount of the obligation recorded in the official accounting system. These payments
have been made using available funds and are based on valid receiving reports for goods and services delivered
under valid contracts.

The In-transits represent the net value of disbursements and collections made by the Department disbursing activity
on behalf of an accountable activity and have not been posted to the accounting system.

Fluctuations

The Department reported a $1.1 billion increase (52%) in UMDs. This fluctuation is primarily attributable to
systemic problems, insufficient documentation, erroneous data, and input errors.

The Department reported a $10.5 million decrease (12%) in NULOs. This decrease consists of $7.4 million due to
more timely receipt of supporting documentation.

The Department reported an increase in In-transits of $458 million (11%) primarily attributable to $799.5 million
in Mechanization of Contract Administration Services files for payments that were not posted by the Department
as of 4th Quarter, FY 2006. This increase was partially offset by a $472.9 million decrease in an effort to identify
systemic errors and implement corrective actions to validate data throughout FY 2006.

Other Disclosures

The amounts reported in FY 2004 and FY 2005 have been changed to reflect correct balances reported in the prior
year problem disbursements and in-transits. Due to timing issues in receipt of expenditure information in prior
years, the Department corrected prior year balances to better reflect year-end reporting.




                                                                  111
                                                 Department of Defense Performance and Accountability Report FY 2006
               .................................................................. Section 3: Financial Information



Note 4. Investments and Related Interest

         As of September 30                                                           2006
                                                                                   Amortized
                                                           Amortization                                                      Market Value
          (amount in millions)            Cost                                    (Premium) /           Investments, Net
                                                             Method                                                           Disclosure
                                                                                   Discount
 Intragovernmental Securities
    Nonmarketable, Market-Based       $     304,523.2    Effective Interest   $         (9,105.6) $            295,417.6 $         291,259.5
    Accrued Interest                          3,843.6                                                            3,843.6             3,843.6
 Total Intragovernmental Securities         308,366.8                                   (9,105.6)              299,261.2           295,103.1
 Total Other Investments              $       1,089.8                         $               0.0 $              1,089.8                 N/A


         As of September 30                                                          2005
                                                                                   Amortized
                                                           Amortization                                                      Market Value
         (amount in millions)             Cost                                    (Premium) /       Investments, Net
                                                             Method                                                           Disclosure
                                                                                   Discount
 Intragovernmental Securities
    Nonmarketable, Market-Based       $     273,976.0    Effective Interest   $        (14,551.2) $            259,424.8 $         262,243.7
    Accrued Interest                          3,943.0                                                            3,943.0             3,943.0
 Total Intragovernmental Securities   $     277,919.0                        $         (14,551.2) $            263,367.8 $         266,186.7
 Total Other Investments              $          605.0                       $                  0.0 $              605.0                    N/A


Fluctuations

Intragovernmental Securities

Total Intragovernmental Securities, Net Investments increased $35.9 billion (14%). The increase was primarily due
to increased cash flow made available for investing. The Medicare-Eligible Retiree Health Care Fund investments
increased $24.7 billion because of contributions (in excess of beneficiary payments) from the Treasury, the Military
Services and other Uniformed Services (U.S. Coast Guard, U.S. Public Health Service, and the National Oceanic
Atmospheric Administration) plus accrued interest earned. The Military Retirement Fund investments increased
$10.6 billion because of contributions (in excess of beneficiary payments) from Treasury and the Military Services,
the maturation of U.S. Treasury notes and bills that were reinvested in overnight Treasury securities yielding a
higher interest rate, and accrued interest earned.

Other Investments

Other Investments (with the Public) increased $484.8 million (80%) from new investments in limited partnerships
in support of military housing.




                                                                 112
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


Other Disclosures

The Federal Government does not set aside assets to pay future benefits or other expenditures associated with
earmarked funds. The cash receipts collected from the public for an earmarked fund are deposited in the Treasury,
which uses the cash for general Government purposes. Treasury securities are issued to the Department as
evidence of its receipts. Treasury securities are an asset to the Department and a liability to the Treasury. Because
the Department and the Treasury are both parts of the Government, these assets and liabilities offset each other
from the standpoint of the Government as a whole. For this reason, receipts do not represent an asset or a liability
in the U.S. Governmentwide financial statements. Treasury securities provide the Department with authority to
draw upon the Treasury to make future benefit payments or other expenditures. When the Department requires
redemption of these securities to make the expenditures, the Government finances those expenditures out of
accumulated cash balances, by raising taxes or other receipts, by borrowing from the public or repaying less debt,
or by curtailing other expenditures. This is the same way that the Government finances all other expenditures.

Note 5. Accounts Receivable

              As of September 30                                         2006                                               2005
                                                                      Allowance
                                                                                            Accounts Receivable,         Accounts
              (amounts in millions)         Gross Amount Due         For Estimated
                                                                                                    Net                Receivable, Net
                                                                     Uncollectibles
 Intragovernmental Receivables              $         2,927.4                         N/A   $            2,927.4   $               1,291.3
 Nonfederal Receivables (From the Public)             8,214.5                   (350.4)                  7,864.1                   7,615.5
 Total Accounts Receivable                  $        11,141.9    $              ( 350.4)    $          10,791.5    $               8,906.8


Intragovernmental accounts receivables increased $1.6 billion primarily due to the direct support provided to the
Federal Emergency Management Agency for hurricane relief efforts in the Gulf Coast.




                                                           113
                                                      Department of Defense Performance and Accountability Report FY 2006
              .................................................................. Section 3: Financial Information



                                                             Aged Accounts Receivable
                                                                              2006                                       2005
                    As of September 30
                                                               Intragovernmental         Nonfederal      Intragovernmental       Nonfederal
                   (amounts in millions)
                        Category
 Nondelinquent
   Current                                                     $         7,735.6     $        1,840.8    $         8,446.6   $         2,242.5
   Noncurrent                                                              232.1              1,740.9                341.3             1,713.1
 Delinquent
   1 to 30 days                                                              321.1              159.9               221.3                110.3
   31 to 60 days                                                             345.7               53.4                23.5                 63.3
   61 to 90 days                                                              57.2              117.8                95.4                 77.2
   91 to 180 days                                                            716.5              130.0               100.9                185.3
   181 days to 1 year                                                        908.7              207.2               134.2                255.9
   Greater than 1 year and less than or equal to 2 years                      44.4              192.2               107.6                833.9
   Greater than 2 years and less than or equal to 6 years                     55.0              896.2               100.4                152.8
   Greater than 6 years and less than or equal to 10 years                     1.2              676.0                  9.2               284.1
   Greater than 10 years                                                       0.0            2,640.5                  0.0             2,557.8
 Subtotal                                                      $        10,417.5     $        8,654.9    $         9,580.4   $         8,476.2
   Less Supported Undistributed Collections                               (492.7)              (478.9)             (587.6)              (451.8)
   Less Eliminations                                                    (6,986.3)                 0.0            (7,647.1)                  0.0
   Less Other                                                               (11.1)               38.5               (54.4)               (33.7)
 Total                                                         $         2,927.4     $        8,214.5    $         1,291.3   $         7,990.7


Nondelinquent noncurrent accounts receivable total $1.9 billion for 4th Quarter, FY 2006 and represent those
amounts that are due beyond the next 12 months. These accounts are not considered delinquent since the
associated repayment schedules allow for repayment after a 30-day period and are not yet due under the contract
or billing documents pertaining to the receivable.

The Less Other line item above consists primarily of adjustments posted after closure of the accounting
records. These include (1) adjustments to supported undistributed collections, (2) reclassifications between
intragovernmental and nonfederal as part of the Department of Defense trading partner process that were not
included on the elimination line, and (3) any discrepancies between the subsidiary detail transactions and the trial
balance.

The Department utilizes several different programs (Treasury Offset Program, Vendor Pay Offset Program, Central
Debt System, Intragovernmental Payment and Collection, Defense Cash Accountability System, Delinquent Debt




                                                                       114
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


Management System, Salary Offset Program, and Private Collection Services) to pursue collection action on
delinquent and nondelinquent accounts receivable in accordance with Office of Management and Budget Circular
A-129, “Policies for Federal Credit Programs and Non-Tax Receivables.” In certain instances, the status of litigation
impacts the Department’s ability to pursue collection actions.

The Department is working with the Federal Emergency Management Agency (FEMA) to reduce the
intragovernmental accounts receivable balances. The Department implemented a modified Intragovernmental
Payment and Collection agreement with FEMA which has accelerated collections. In addition, FEMA agreed to
make partial payments for the portion of a bill that can be supported. The Department has also implemented
procedures to monitor the turnaround time for providing billing information to FEMA to avoid unnecessary delays
in receiving payment. During 4th quarter, the Department reduced its delinquent FEMA receivables by
$552.0 million.

Note 6. Other Assets

                           As of September 30                             2006                   2005 Restated
                           (amounts in millions)
 Intragovernmental Other Assets
   Advances and Prepayments                                     $                  1,064.7   $                   1,394.2
   Other Assets                                                                      124.9                         124.9
   Total Intragovernmental Other Assets	                                           1,189.6                       1,519.1
 Nonfederal Other Assets
   Outstanding Contract Financing Payments                                        25,630.4                   21,776.1
   Other Assets (With the Public)	                                                 2,298.3                    2,046.0
   Total Nonfederal Other Assets	                                                 27,928.7                   23,822.1
 Total Other Assets                                             $                 29,118.3   $               25,341.2


Fluctuations

Intragovernmental Other Assets

Intragovernmental Other Assets decreased $329.5 million (22%), primarily due to $222.5 million in Department
advances returned from the Department of the Interior. These advances were returned as a result of a Department-
wide effort to review all Department funds with non-Department federal entities and coordinate the return of funds
that had either expired or were no longer available for use.

Nonfederal Other Assets

Nonfederal Other Assets increased $4.1 billion (17%), primarily due to a $3.3 billion increase in estimated future
contract financing payments. Beginning 4th Quarter, FY 2006, the Department changed its reporting practices to




                                                         115
                                                    Department of Defense Performance and Accountability Report FY 2006
              .................................................................. Section 3: Financial Information


recognize estimated future contract financing payments and a contingent liability (additional discussion in
Note 15, Other Liabilities), conditional upon the future delivery and Government acceptance of a satisfactory
product.

Other Disclosures

Intragovernmental Other Assets include a $124.9 million prior-period adjustment to recognize the Department’s
right to approximately 6.4 million barrels of crude oil held by the Department of Energy (DOE) on behalf of the
Department. The Department provided funds to DOE in FY 1993 to acquire the reserve; however, due to an
accounting error, no asset was established. See Note 25 for further disclosures.

Contract terms and conditions for certain types of contract financing payments convey certain rights to the
Department that protect the contract work from state or local taxation, liens or attachment by the contractor’s
creditors, transfer of property, or disposition in bankruptcy; however, these rights should not be misconstrued to
mean that ownership of the contractor’s work has transferred to the Government. The Government does not have
the right to take the work, except as provided in contract clauses related to termination or acceptance, and the
Department is not obligated to make payment to the contractor until delivery and acceptance of a satisfactory
product.

Other Assets (With the Public) are primarily comprised of advances for military and travel pay, fish and wildlife
migration studies performed by the U.S. Army Corps of Engineers, and an advance payment pool agreement with
the Massachusetts Institute of Technology and other nonprofit institutions.

Note 7. Cash and Other Monetary Assets

                            As of September 30                                  2006                     2005
                            (amounts in millions)
 Cash                                                                 $                 1,389.0   $             1,494.0
 Foreign Currency                                                                         810.8                   578.7
 Total Cash, Foreign Currency, & Other Monetary Assets                $                 2,199.8   $             2,072.7


Approximately $1.3 billion in cash and $810.8 million in foreign currency are nonentity and their use is restricted.

Note 8. Direct Loan and/or Loan Guarantee Programs

Direct Loan and/or Loan Guarantee Programs

The entity operates the following direct loan and/or loan guarantee program(s):
•	Military Housing Privatization Initiative
•	Armament Retooling & Manufacturing Support Initiative

The Federal Credit Reform Act of 1990 governs all amended direct loan obligations and loan guarantee
commitments made after FY 1991 resulting in direct loans or loan guarantees.


                                                                116
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


Direct loans are reported at the net present value of the following projected cash flows:
•	Loan disbursements;
•	Repayments of principal; and
•	Payments of interest and other payments over the life of the loan after adjusting for estimated defaults,
  prepayments, fees, penalties and other recoveries.

Loan guarantee liabilities are reported at the net present value. The cost of the loan guarantee is the net present
value of the following estimated projected cash flows:
•	Payments by the Department to cover defaults and delinquencies, interest subsidies, or other payments; offset by
•	Payments to the Department including origination and other fees, penalties, and recoveries.

Military Housing Privatization Initiative

The Military Housing Privatization Initiative (MHPI) includes both direct loan and loan guarantee programs. The
Department obtains private sector capital to leverage government dollars. The Department provides protection
against specific risks, such as base closure or member deployment, for the private sector partner. The loan
guarantee program is authorized by the National Defense Authorization Act for FY 1996, Public Law 104-106,
Section 2801.

Armament Retooling and Manufacturing Support Initiative

The Armament Retooling and Manufacturing Support Initiative (ARMS), Title 10 United States Code 4551-4555, is a
loan guarantee program designed to encourage commercial use of the Army’s Inactive Ammunition Plants through
many incentives for businesses willing to locate to a government ammunition production facility. The production
capacity of these facilities is greater than current military requirements; however, this capacity may be needed by
the military in the future. The revenues from the property rental are used to pay for the operation, maintenance
and environmental cleanup at the facilities. The resulting savings in overhead costs lower the production cost of
the goods manufactured and fund environmental cleanup at no cost to the government.


                                                    Direct Loans Obligated After FY 1991

                            As of September 30                                             2006                 2005
                            (amounts in millions)
 Loan Programs
 Military Housing Privatization Initiative
  Loans Receivable Gross                                                    $                       296.3   $          141.5
  Allowance for Subsidy Cost (Present Value)                                                      (104.6)              (65.9)
  Value of Assets Related to Direct Loans                                                           191.7                75.6
 Total Loans Receivable                                                     $                       191.7   $            75.6


Fluctuations

Total Loans Receivable increased $116.1 million. The increase is due to five new direct loans disbursed in
FY 2006 for Wright-Patterson Air Force Base (AFB), Ohio; Elmendorf AFB, Alaska; and Kirtland AFB, New Mexico.


                                                                    117
                                                        Department of Defense Performance and Accountability Report FY 2006
                .................................................................. Section 3: Financial Information


Other Disclosures

Subsidy costs are recognized when direct loans are disbursed to borrowers and are reestimated each year as of the
date of the financial statements. The allowance for subsidy cost is the difference between the outstanding principal
of the loans and the present value of their net cash flows.

The Department’s loans receivable are not the same as the proceeds that it would expect to receive from selling the
loans.

Gross direct loans for the MHPI program from inception consist of the following:

                      FY 2006 Direct Loans	             (Amount in millions)
                      Elmendorf AFB, Alaska 	                       $122.5
                      Kirtland AFB, New Mexico	                         58.6
                      Camp Pendleton Marine Corps Base, California	     29.4
                      Dyess AFB, Texas	                                 28.9
                      Robins AFB, Georgia	                              22.3
                      Wright-Patterson AFB, Ohio	                       21.9
                      Lackland AFB, Texas	                              10.2
                      Kingsville AFB, Texas	                             2.5
                      Total Loans Receivable Gross	                 $296.3


                                                       Total Amount of Direct Loans Disbursed

                                As of September 30                                          2006               2005
                               (amounts in millions)
 Direct Loan Programs
  Military Housing Privatization Initiative                                     $                  155.0   $           0.0
 Total                                                                          $                  155.0   $           0.0


The Department disbursed new direct loans for Wright-Patterson AFB, Ohio ($21.9 million); Kirtland AFB,
New Mexico ($58.6 million); and Elmendorf AFB, Alaska ($74.5 million) in FY 2006. The demand for direct
loans by private developers varies from year to year depending upon the progress of planned construction and
renovation, and upon economic factors unrelated to the operations of the Department.




                                                                        118
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



                                                    Subsidy Expense for Post FY 1991 Direct Loan
                                                                    As of September 30
             (amounts in millions)
                                                      Interest
                     2006                                                     Defaults                 Fees                  Other               Total
                                                     Differential
 New Direct Loans Disbursed:
  Military Housing Privatization Initiative     $               27.9    $                20.7   $               0.0   $               0.0    $            48.6
                                                      Interest
                     2005                                                     Defaults                 Fees                  Other               Total
                                                     Differential
 New Direct Loans Disbursed:
  Military Housing Privatization Initiative     $                0.0    $                 0.0   $               0.0   $               0.0    $             0.0
                                                                            Interest Rate            Technical               Total
                     2006                           Modifications                                                                                Total
                                                                            Reestimates             Reestimates           Reestimates
 Direct Loan Modifications and
 Reestimates:
   Military Housing Privatization Initiative    $                0.0    $              (0.3)    $             (7.8)   $              (8.1)   $            (8.1)
                                                                            Interest Rate            Technical               Total
                     2005                           Modifications                                                                                Total
                                                                            Reestimates             Reestimates           Reestimates
 Direct Loan Modifications and
 Reestimates:
    Military Housing Privatization Initiative   $               (0.3)   $              (0.9)    $             (3.6)   $              (4.5)   $            (4.8)


                                                        2006                    2005
 Total Direct Loan Subsidy Expense:
   Military Housing Privatization Initiative    $               40.5    $              (4.8)


Fluctuations

The total subsidy expense for direct loans is $40.5 million due to interest differential and defaults related to the
new loans disbursed for FY 2006 and reestimates on outstanding direct loans.


                                                               Subsidy Rate for Direct Loans

                                                          Interest                                  Fees and other
                As of September 30                                               Defaults                                     Other               Total
                                                         Differential                                 Collections
 Direct Loan Programs
    Military Housing Privatization Initiative              19.44%                   8.95%               0.00%                0.00%               28.39%


Subsidy rates disclosed pertain to the loan agreements contracted during the current fiscal year. These rates cannot
be applied to the direct loans disbursed during the current reporting year to yield the subsidy expense. The subsidy
expense for new loans disbursed in the current year could result from disbursement of loans from both current
and prior-year loan agreements. The subsidy expense reported in the current year also includes modifications and
reestimates.




                                                                              119
                                                     Department of Defense Performance and Accountability Report FY 2006
              .................................................................. Section 3: Financial Information



                           Schedule for Reconciling Subsidy Cost Allowance Balances for Post 1991 Direct Loans

                            As of September 30                                             2006                           2005
                               (amounts in millions)
 Beginning Balance of the Subsidy Cost Allowance                              $                       65.9    $                       70.7
 Add: Subsidy Expense for Direct Loans Disbursed during the Reporting Years by Component
    Interest Rate Differential Costs                                                                  27.9                                0.0
    Default Costs (Net of Recoveries)                                                                 20.7                                0.0
    Total of the above Subsidy Expense Components                                                     48.6                                0.0
 Adjustments
    Subsidy Allowance Amortization                                                                    (1.8)                           (0.3)
    Total of the above Adjustment Components                                                          (1.8)                           (0.3)
 Ending Balance of the Subsidy Cost Allowance before Re-estimates                                    112.7                            70.4
 Add or Subtract Subsidy Reestimates by Component
    Interest Rate Reestimate                                                                          (0.3)                           (0.9)
    Technical/Default Reestimate                                                                      (7.8)                           (3.6)
 Total of the above Reestimate Components                                                             (8.1)                           (4.5)
 Ending Balance of the Subsidy Cost Allowance                                 $                      104.6    $                       65.9


Defaulted Guaranteed Loans from Post FY 1991 Guarantees

The Department had a defaulted guaranteed loan in FY 1999 in the ARMS Initiative Program that was paid in
FY 2006 in the amount of $11.4 million. The third party contractor filed bankruptcy in FY 2000 and dissolved
operations. Therefore, the Department is unable to pursue collection from the contractor. The Department
borrowed $11.4 million and will pursue appropriate methods of reimbursement to the Treasury.

The Department had a guaranteed loan that defaulted in September 2006. The Department is currently working on
issues related to this default.


                                                          Guaranteed Loans Outstanding

                                                                                Outstanding Principal of          Amount of Outstanding
                            As of September 30
                                                                              Guaranteed Loans, Face Value         Principal Guaranteed
                              (amounts in millions)
 Guaranteed Loans Outstanding
   Military Housing Privatization Initiative                                  $                      551.3    $                      551.3
   Armament Retooling & Manufacturing Support Initiative                                              20.5                            18.2
 Total                                                                        $                      571.8    $                      569.5
 New Guaranteed Loans Disbursed
   Armament Retooling & Manufacturing Support Initiative                                               2.7                                2.3
 Total	                                                                       $                        2.7    $                           2.3
 New Guaranteed Loans Disbursed
  Military Housing Privatization Initiative                                   $                      165.0    $                      165.0
  Armament Retooling & Manufacturing Support Initiative                                                0.7                             0.6
 Total	                                                                       $                      165.7    $                      165.6




                                                                      120
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


The Guaranteed Loans Outstanding for the MHPI program as of the 4th Quarter, FY 2006, consists of the following:

                      Loan Guarantees	                                   (Amount in millions)
                      Fort Polk, Louisiana	                                          $165.0
                      Fort Carson, Colorado	                                          144.3
                      Kirtland AFB, New Mexico	                                          74.0
                      Wright Patterson AFB, Ohio	                                        65.0
                      Elmendorf AFB, Alaska	                                             48.0
                      Lackland AFB, Texas	                                               29.4
                      Robins AFB, Georgia	                                               25.6
                      Total	                                                         $551.3


                                                Liabilities for Post FY 1991 Loan Guarantees, Present Value
                                As of September 30                                              2006                     2005
                               (amounts in millions)
 Loan Guarantee Program(s)
    Military Housing Privatization Initiative                                       $                         23.8   $          28.7
    Armament Retooling & Manufacturing Support Initiative                                                     13.0              12.4
 Total                                                                              $                         36.8   $          41.1


For additional information, see the Schedule for Reconciling Loan Guarantee Liability Balances for Post 1991 Loan
Guarantees.




                                                                           121
                                                        Department of Defense Performance and Accountability Report FY 2006
               .................................................................. Section 3: Financial Information



                                               Subsidy Expense for Post FY 1991 Loan Guarantees
                                                                  As of September 30
               (amounts in millions)
                                                        Interest
                       2006                                                    Defaults                Fees                  Other               Total
                                                       Differential
 New Loan Guarantees Disbursed:
   Military Housing Privatization Initiative       $              0.0    $                0.0   $              0.0    $               0.0    $             0.0
   Armament Retooling & Manufacturing
                                                                  0.0                     0.2                 11.6                   11.8                 11.8
   Support Initiative
 Total                                             $              0.0    $                0.0   $              0.0    $               0.0    $             0.0
                                                        Interest
                       2005                                                    Defaults                Fees                  Other               Total
                                                       Differential
 New Loan Guarantees Disbursed:
   Military Housing Privatization Initiative       $              0.0    $              10.3    $              0.0    $               0.0    $            10.3
 Total                                             $              0.0    $              10.3    $              0.0    $               0.0    $            10.3
                                                                             Interest Rate           Technical               Total
                       2006                         Modifications                                                                                Total
                                                                             Reestimates            Reestimates           Reestimates
 Modifications and Reestimates:
   Military Housing Privatization Initiative       $              0.0    $                0.0   $             (6.4)   $              (6.4)   $            (6.4)
  Total                                            $              0.0    $                0.2   $               5.2   $                5.4   $              5.4
                                                                             Interest Rate           Technical               Total
                       2005                         Modifications                                                                                Total
                                                                             Reestimates            Reestimates           Reestimates
 Modifications and Reestimates:
   Military Housing Privatization Initiative       $              1.1    $              (1.5)   $             (3.4)   $              (4.9)   $            (3.8)
 Total                                             $              1.1    $              (1.5)   $             (3.4)   $              (4.9)   $            (3.8)

                                                          2006                   2005
 Total Loan Guarantee:
   Military Housing Privatization Initiative       $             (6.4)   $                6.5
   Armament Retooling & Manufacturing
                                                                 11.8                     0.0
    Support Initiative
 Total                                             $              5.4    $                6.5


The total subsidy expense for guaranteed loans is $5.4 million due to interest rate reestimates and technical
reestimates.


                                                        Subsidy Rates for Loan Guarantees
                                                         Interest                               Fees and other
               As of September 30                                              Defaults                                      Other                Total
                                                       Supplements                                Collections
               (amounts in millions)
 Loan Guarantee Programs:
 Military Housing Privatization Initiative               0.00%                  9.65%                 0.00%                 0.00%                9.65%
 Armament Retooling & Manufacturing Support
                                                         0.00%                 20.00%                 0.00%                 0.00%                20.00%
 Initiative




                                                                         122
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


The subsidy rates disclosed pertain only to loan agreements contracted during the current fiscal year. These rates
cannot be applied to the guarantees of loans disbursed during the current reporting year to yield the subsidy
expense. The subsidy expense for new loans reported in the current year result from disbursements of loans from
both current year loan agreements and prior year(s) loan agreements. The subsidy expense reported in the current
year also includes modifications and reestimates.


                      Schedule for Reconciling Loan Guarantee Liability Balances for Post FY 1991 Loan Guarantees

                           As of September 30                                          2006                         2005
                           (amounts in millions)
 Beginning Balance of the Loan Guarantee Liability                          $                     41.1    $                34.4
 Add: Subsidy Expense for Guaranteed Loans Disbursed during the Reporting Years by Component
    Default Costs (Net of Recoveries)                                                              0.0                     10.3
    Total of the above Subsidy Expense Components                           $                      0.0    $                10.3
 Adjustments
    Fees Received                                                                                   0.0                     0.1
    Claim Payments to Lenders                                                                    (11.4)                     0.0
    Interest Accumulation on the Liability Balance                                                  1.7                     1.1
    Total of the above Adjustments                                          $                     (9.7)   $                 1.2
 Ending Balance of the Loan Guarantee Liability before Reestimates          $                      31.4   $                45.9
 Add or Subtract Subsidy Reestimates by Component
    Interest Rate Reestimate                                                                       0.2                     (1.5)
    Technical/default Reestimate                                                                   5.2                     (3.3)
    Total of the above Reestimate Components                                $                      5.4    $                (4.8)
 Ending Balance of the Loan Guarantee Liability                             $                     36.8    $                41.1


Fluctuations

The Loan Guarantee Liability decreased $4.3 million (11%) primarily due to a loan default for the ARMS Initiative
Program. The loan defaulted in August 1999 and was previously in litigation to determine the actual amount of
debt owed. This claim of $11.4 million was paid during 2nd Quarter, FY 2006. In addition, the Department had a
defaulted loan guarantee in September 2006 which increased the technical reestimate.

Administrative Expenses

Administrative Expense is limited to separately identified expenses administered to direct and guaranteed loans.
The Department does not maintain a separate program to capture the expenses related to direct and guaranteed
loans for the MHPI Program. Administrative expense for the ARMS Initiative Program is a fee paid to the U.S.
Department of Agriculture Rural Business Cooperative Service for administering the loan guarantees under ARMS,
which is a joint program.




                                                                  123
                                                                      Department of Defense Performance and Accountability Report FY 2006
                   .................................................................. Section 3: Financial Information



Note 9. Inventory and Related Property

                                    As of September 30                                                          2006                                     2005
                                     (amounts in millions)
 Inventory, Net                                                                                    $                       83,861.1       $                        79,699.1
 Operating Materials & Supplies, Net                                                                                      146,883.3                               141,533.6
 Stockpile Materials, Net                                                                                                   1,078.8                                 1,340.6
 Total                                                                                             $                      231,823.2       $                       222,573.3


                                                                                    Inventory, Net

                   As of September 30                                                          2006                                       2005
                                                                      Inventory,            Revaluation                                                         Valuation
                   (amounts in millions)                                                                      Inventory, Net          Inventory, Net
                                                                     Gross Value             Allowance                                                           Method
 Inventory Categories
   Available and Purchased for Resale                            $         86,473.7     $      (29,798.8)             56,674.9      $         54,451.6      LAC,MAC
   Held for Repair                                                         30,457.7             (4,108.7)             26,349.0                24,454.0      LAC,MAC
   Excess, Obsolete, and Unserviceable                                      9,785.3             (9,785.3)                  0.0                     0.0        NRV
   Raw Materials	                                                                43.1                  0.0                 43.1                   25.8     MAC,SP,LAC
   Work in Process	                                                             794.1                  0.0               794.1                  767.7             AC
 Total 	                                                         $        127,553.9     $      (43,692.8)             83,861.1      $         79,699.1
Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                                NRV = Net Realizable Value
SP = Standard Price                                                                                          O = Other
AC = Actual Cost                                                                                             MAC = Moving Average Cost



Restrictions

There are no restrictions on disposition of inventory as related to environmental liabilities or issues. Restrictions
on disposition related to other liabilities include material pending litigation or negotiation with contractors or
common carriers. This material is restricted from disposition until litigation or negotiation is completed. The
balance of this restricted inventory as of September 30, 2006, was $89.9 million.

Generally, there are no restrictions on the use, sale, or disposition of inventory except in the following situations:

•	Distributions without reimbursement are made when authorized by Department directives.
•	War reserve material includes fuels and subsistence items that are considered restricted.
•	Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments, private
  parties, and contractors in accordance with the current policies and guidance or at the direction of the President.

General Composition of Inventory

Inventory includes spare and repair parts, clothing and textiles, and fuels held for sale by the Defense Working
Capital Funds. Inventory is tangible personal property that is:

                                                                                         124
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


•	Held for sale, or held for repair and eventual sale;
•	In the process of production for sale; or
•	To be consumed in the production of goods for sale or in the provision of service for a fee.

The relevant cost associated with maintaining the available inventory and the time required to replenish the
inventory are the criteria used in determining the assigned category.


                                                                     Operating Materials and Supplies, Net
                   As of September 30                                                             2006                                      2005
                                                                     OM&S Gross               Revaluation                                                   Valuation
                   (amounts in millions)                                                                          OM&S, Net              OM&S, Net
                                                                       Value                   Allowance                                                     Method
 OM&S Categories
   Held for Use                                                  $        130,617.2       $           (0.0)   $      130,617.2       $          126,300.0   SP, LAC
   Held for Repair                                                         17,624.0               (1,357.9)           16,266.1                   15,233.6   SP, LAC
   Excess, Obsolete, and Unserviceable                                          2,141.6           (2,141.6)                  0.0                      0.0     NRV
   Total 	                                                       $        150,382.8       $       (3,499.5)   $      146,883.3       $          141,533.6
Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                                      NRV = Net Realizable Value
SP = Standard Price                                                                                                O = Other
AC = Actual Cost


Restrictions

Some munitions included in Operating Materials and Supplies (OM&S) are restricted for use. Restricted munitions
are items that cannot be expected to meet performance requirements under all conditions. The restricted
munitions are only used in emergency combat situations in which no other suitable munitions are immediately
available.

General Composition of Operating Materials and Supplies

OM&S includes spare and repair parts, ammunition, tactical missiles, aircraft configuration pods, and centrally
managed aircraft engines held for consumption. The Held for Use category includes a total of $56.9 million held
for future use.

The relevant cost associated with maintaining the available operating materials and supplies, as well as the time
required to replenish the operating materials and supplies, are the criteria used in determining the assigned
category. There were no changes in accounting methods.




                                                                                          125
                                                                     Department of Defense Performance and Accountability Report FY 2006
                   .................................................................. Section 3: Financial Information



                                                                                Stockpile Materials, Net
                   As of September 30                                                           2006                                          2005
                                                                    Stockpile             Allowance for           Stockpile                Stockpile         Valuation
                   (amounts in millions)
                                                                 Materials Amount         Gains (Losses)         Materials, Net           Materials, Net      Method
 Stockpile Materials Categories
   Held for Sale 	                                               $                984.7   $            0.0   $             984.7      $            1,246.5   AC, LCM
   Held in Reserve for Future Sale                                                 94.1                0.0                  94.1                      94.1   AC, LCM
 Total                                                           $              1,078.8   $            0.0   $           1,078.8      $            1,340.6
Legend for Valuation Methods:
Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses                                      NRV = Net Realizable Value
SP = Standard Price                                                                                                LCM = Lower of Cost or Market
AC = Actual Cost                                                                                                   O = Other



Restrictions

There are legal restrictions on the use of stockpile materials. All materials held by the National Defense Stockpile
(NDS) are classified as Material Held in Reserve until congressional action declares the materials are no longer
required to be stockpiled, and are available for sale on the open market. Disposals cannot be made from the
stockpile except under the following situations: (1) necessary upgrading, refining, or processing, (2) necessary
rotation to prevent deterioration, (3) determination as excess with potential financial loss if retained, and (4) as
authorized by law.

Mercury sales were voluntarily suspended by the NDS in 1994. The suspension was in response to concerns
raised by the United States Environmental Protection Agency regarding the accumulation of mercury in the global
environment. An Environmental Impact Statement was issued and storage consolidation at Hawthorne, Nevada,
was the selected alternative.

Additional restrictions on the use of materiel are being proposed in the Requirements Report to Congress for
beryllium metal, mica block, and quartz.

General Composition of Stockpile Materials

Stockpile materials are strategic and critical materials held due to statutory requirements for use in national
defense, conservation, or national emergencies.

The Annual Materials Plan lists the maximum quantity of each commodity that may be sold by the Department in
a given fiscal year. Before any materials may be sold, Congress must enact specific enabling legislation (e.g., the
National Defense Authorization Act). When NDS receives authorization to offer materials for sale, NDS removes
the materials from Material Held in Reserve and reclassifies them as Materials Held for Sale. The estimated market
price of the stockpile materials held for sale is $1.5 billion.




                                                                                          126
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



Note 10. General PP&E, Net

          As of September 30                                                       2006                                      2005 Restated
                                         Depreciation/                                      (Accumulated
                                                          Service          Acquisition                        Net Book           Prior FY Net
          (amounts in millions)          Amortization                                       Depreciation/
                                                           Life              Value                             Value             Book Value
                                           Method                                           Amortization)
 Land	                                       N/A             N/A      $          10,533.4 $             N/A $     10,533.4   $        10,479.4
 Buildings, Structures, and Facilities       S/L          20 or 40              167,909.7        (98,454.5)       69,455.2            68,551.3
 Leasehold Improvements                      S/L         lease term                 328.5           (161.3)          167.2               176.5
 Software	                                   S/L          2-5 or 10               8,669.4         (5,278.4)        3,391.0             3,484.3
 General Equipment                           S/L           5 or 10               59,784.4        (43,066.3)       16,718.1            16,582.2
 Military Equipment                          S/L           various              640,461.6       (295,516.6)     344,945.0            332,651.9
 Assets Under Capital Lease	                 S/L         lease term                 627.8           (478.1)          149.7               185.0
 Construction-in- Progress	                  N/A             N/A                 20,019.5               N/A       20,019.5            20,304.3
 Other	                                                                              61.6              (1.2)          60.4               126.5
 Total General PP&E                                                   $         908,395.9 $     (442,956.4) $   465,439.5    $       452,541.4
 Legend for Valuation Methods:
 S/L = Straight Line                                                       N/A = Not Applicable



Military Equipment

The Department changed its method of valuing military equipment in 3rd Quarter, FY 2006. Previously, military
equipment was valued using Bureau of Economic Analysis (BEA) data. Beginning with the 3rd Quarter, FY 2006,
military equipment value was based on internal records. For comparative purposes, the value of military
equipment for the 4th Quarter, FY 2005, was restated from $340.8 billion to $332.7 billion, using the new
valuation method.

For 4th Quarter, FY 2006, military equipment is valued at $344.9 billion based on internal records. Under the
previously used BEA valuation methodology, this equipment would have been valued at $349 billion.

Heritage Assets and Stewardship Land

The Federal Accounting Standards Advisory Board, Statement of Federal Financial Accounting Standards 29,
“Heritage Assets and Stewardship Land,” requires note disclosures for heritage assets and stewardship land. The
Department is committed to preserving and accounting for its heritage assets’ historical, cultural, educational, or
artistic importance. Additionally, the Department has stewardship land not acquired in connection with General
Property, Plant and Equipment (PP&E), such as land donated to the federal government and land previously
recorded as public domain.

Heritage assets consist of buildings and structures, museums, major collections, monuments and memorials,
archeological sites and cemeteries, while stewardship land consists mainly of mission essential (donated, public
domain, executive order) land. The Department, with minor exceptions, uses most of the buildings and structures
as part of its everyday activities and includes them on the Balance Sheet as multi-use heritage assets (capitalized
and depreciated).


                                                                          127
                                                     Department of Defense Performance and Accountability Report FY 2006
                 .................................................................. Section 3: Financial Information


Other

The Department has restrictions on disposal of real property (lands and buildings) located outside the continental
United States. The Department has the use of land, buildings, and other overseas facilities that are obtained
through various international treaties and agreements negotiated by the Department of State.

The Department does not have the acquisition value for all General PP&E and uses several cost systems to provide
real property values for financial statement reporting purposes.


                                                          Assets Under Capital Lease

                             As of September 30                                        2006                     2005
                             (amounts in millions)
 Entity as Lessee, Assets Under Capital Lease
   Land and Buildings	                                                       $                      619.6   $                619.6
   Equipment	                                                                                         8.2                     10.9
   Accumulated Amortization	                                                                      (478.1)                  (445.5)
 Total Capital Leases	                                                       $                      149.7   $                185.0


Assets Under Capital Lease consist primarily of leases for the Section 801 Family Housing Program.

Note 11. Liabilities Not Covered by Budgetary Resources

                             As of September 30                                        2006                     2005
                               (amounts in millions)
 Intragovernmental Liabilities
    Accounts Payable 	                                                       $                        1.0   $                  0.0
    Debt	                                                                                            13.6                     14.3
    Other	                                                                                        7,754.1                  7,619.4
 Total Intragovernmental Liabilities                                                              7,768.7                  7,633.7
 Nonfederal Liabilities
    Accounts Payable	                                                                               371.9                    425.4
    Military Retirement and Other Federal Employment Benefits	                                1,524,140.2              1,483,425.0
    Environmental Liabilities	                                                                   65,343.7                 62,239.1
    Other Liabilities	                                                                           14,664.4                 14,014.3
 Total Nonfederal Liabilities	                                                                1,604,520.2              1,560,103.8
 Total Liabilities Not Covered by Budgetary Resources	                                        1,612,288.9              1,567,737.5
 Total Liabilities Covered by Budgetary Resources                                              347,143.6                305,625.7
 Total Liabilities                                                           $                1,959,432.5   $          1,873,363.2


Liabilities Not Covered by Budgetary Resources are those liabilities which are not legally obligated with realized
budgetary resources as of the Balance Sheet date.

Intragovernmental Liabilities Other are primarily comprised of $5.9 billion in custodial liabilities and $1.4 billion
in unfunded Employment Compensation Act liabilities.


                                                                     128
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


Nonfederal Other Liabilities are comprised mainly of $9.3 billion in unfunded annual leave liabilities, $2.1 billion
in nonenvironmental disposal contingent liabilities, $1.3 billion in contingent liabilities, and $1.2 billion in
custodial liabilities.

Note 12. Accounts Payable

              As of September 30                                                 2006                                                2005
                                                                          Interest, Penalties,
              (amounts in millions)          Accounts Payable             and Administrative              Total                      Total
                                                                                 Fees
 Intragovernmental Payables              $                1,549.8     $                     N/A   $               1,549.8   $                2,058.0
 Nonfederal Payables (to the Public)                  27,318.9                              2.0                27,320.9                  28,575.4
 Total                                   $            28,868.7        $                     2.0   $            28,870.7     $            30,633.4


Intragovernmental accounts payable decreased $508.2 million (25%). The majority of the decrease is due to an
overstatement of $452.3 million in intragovernmental accounts payable with the General Services Administration,
Department of Transportation, and National Aeronautics and Space Administration that occurred during
4th Quarter, FY 2005. The Department is involved in ongoing reconciliation efforts with its major trading partners
resulting in information that is more accurate and therefore reducing the reliance on the use of estimates.

Note 13. Debt

              As of September 30                                      2006                                                   2005
                                              Beginning
              (amounts in millions)                             Net Borrowing           Ending Balance      Net Borrowing        Ending Balance
                                               Balance
 Agency Debt (Intragovernmental)
   Debt to the Treasury                  $            85.6      $              123.3    $         208.9    $               0.1   $             85.6
   Debt to the Federal Financing Bank                381.5                   (208.3)              173.2                (124.8)                381.5
   Total Agency Debt                     $           467.1      $            ( 85.0)    $         382.1    $          ( 124.7)   $            467.1
 Total Debt                              $           467.1      $            ( 85.0)    $         382.1    $          ( 124.7)   $            467.1


The outstanding debt consists of interest and principal payments due to the U.S. Treasury and the Federal Financing
Bank (FFB).

Fluctuations

Debt to the Treasury

The $123.3 million (144%) increase consists primarily of a $112.5 million increase in direct loan borrowings for
the Military Housing Privatization Initiative in FY 2006. In addition, $11.4 million of the increase is borrowing in
2nd Quarter, FY 2006 for a loan default relating to the Armament Retooling and Manufacturing Support Initiative.
See Note 8 for further disclosures on both programs. This increase is offset by $0.6 million of principal repayments
throughout FY 2006 for capital improvements to the Washington Aqueduct.



                                                                129
                                                      Department of Defense Performance and Accountability Report FY 2006
              .................................................................. Section 3: Financial Information


Debt to the Federal Financing Bank

Outstanding debt decreased $208.3 million (55%) as a result of the reduction in Maritime Prepositioning Ship
loans. As part of the Afloat Prepositioning Force program, the Department makes loan repayments to the FFB on
behalf of ship owners in lieu of capital lease payments to ship owners.

Note 14. Environmental Liabilities and Disposal Liabilities

              As of September 30                                                            2006                                      2005
              (amounts in millions)                    Current Liability              Noncurrent Liability        Total               Total
 Environmental Liabilities--Nonfederal
 Accrued Environmental Restoration Liabilities
   Active Installations—Installation Restoration
   Program (IRP) and Building Demolition and       $               1,137.7        $                 7,947.1   $       9,084.8     $       10,123.9
   Debris Removal (BD/DR)
   Active Installations—Military Munitions
                                                                      89.5                          5,307.0           5,396.5                 7,082.0
   Response Program (MMRP)
   Formerly Used Defense Sites—IRP and
                                                                     158.1                          4,011.4           4,169.5                 4,227.5
   BD/DR
   Formerly Used Defense Sites--MMRP                                  86.7                         14,710.6          14,797.3             14,584.0
 Other Accrued Environmental Liabilities—Active Installations
   Environmental Corrective Action                                    44.4                           683.0                727.4                623.2
   Environmental Closure Requirements                                  8.3                           401.1                409.4                176.5
   Environmental Response at Operational
                                                                           6.5                       298.5                305.0                304.1
   Ranges
   Other	                                                             10.8                           770.6                781.4                561.5
 Base Realignment and Closure (BRAC)
   Installation Restoration Program                                  260.8                          2,621.7           2,882.5                 2,849.2
   Military Munitions Response Program                                21.8                            891.4             913.2                   699.3
   Environmental Corrective Action/Closure
                                                                      30.0                           151.2                181.2                206.5
   Requirements
   Other                                                             149.2                              0.0               149.2                342.9
 Environmental Disposal for Weapons Systems Programs
   Nuclear Powered Aircraft Carriers                                   0.0                          5,604.3           5,604.3              6,426.1
   Nuclear Powered Submarines                                          0.0                          3,377.7           3,377.7              5,837.2
   Other Nuclear Powered Ships                                         0.0                            277.2             277.2                223.9
   Other National Defense Weapons Systems                              0.0                            233.8             233.8                197.8
   Chemical Weapons Disposal Program                               2,461.0                         14,996.3          17,457.3             10,450.0
   Other                                                               0.0                          3,237.4           3,237.4                112.0
 Total Environmental Liabilities                   $               4,464.8        $                65,520.3   $      69,985.1     $       65,027.6




                                                                            130
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



                Service Component – Environmental Restoration (Cleanup) Liabilities and Environmental Disposal Liabilities

                          (Amounts in millions)                              Army        Navy        Air Force    ODO          Total

 Environmental Liabilities-Nonfederal
 Accrued Environmental Restoration Liabilities:
    Active Installations--Installation Restoration Program(IRP) and
                                                                        $ 2,919.2       $ 2,329.2    $ 3,638.6    $ 197.8     $ 9,084.8
    Building Demolition and Debris Removal (BD/DR)
    Active Installations--Military Munitions Response Program (MMRP)          3,317.8       685.0       1,393.7         0.0     5,396.5
    Formerly Used Defense Sites--IRP and BD/DR                                4,169.5         0.0           0.0         0.0     4,169.5
    Formerly Used Defense Sites--MMRP                                        14,797.3         0.0           0.0         0.0    14,797.3
 Other Accrued Environmental Liabilities--Active Installations
    Environmental Corrective Action                                            372.0         40.6         136.9     177.9         727.4
    Environmental Closure Requirements                                          96.9        185.8          99.5      27.2         409.4
    Environmental Response at Operational Ranges                               304.1          0.0           0.0       0.9         305.0
    Other                                                                      689.0          0.0           0.0      92.4         781.4
 Base Realignment and Closure (BRAC)
    Installation Restoration Program                                           523.7       1,117.1      1,204.9      36.8       2,882.5
    Military Munitions Response Program                                        800.4         112.8          0.0       0.0         913.2
    Environmental Corrective Action/Closure Requirements                        32.3          67.5         81.4       0.0         181.2
    Other                                                                      149.2           0.0          0.0       0.0         149.2
 Environmental Disposal for Weapons Systems Programs
     Nuclear Powered Aircraft Carriers                                         0.0         5,604.3          0.0       0.0       5,604.3
     Nuclear Powered Submarines                                                0.0         3,377.7          0.0       0.0       3,377.7
     Other Nuclear Powered Ships                                               0.0           277.2          0.0       0.0         277.2
     Other National Defense Weapons Systems                                    0.0           233.8          0.0       0.0         233.8
     Chemical Weapons Disposal Program                                    17,457.3             0.0          0.0       0.0      17,457.3
     Other                                                                     0.0         3,237.4          0.0       0.0       3,237.4
 Total Nonfederal Environmental Liabilities:                            $ 45,628.7      $ 17,268.4    $ 6,555.0   $ 533.0     $69,985.1




                                                                       131
                                                      Department of Defense Performance and Accountability Report FY 2006
              .................................................................. Section 3: Financial Information


                                                 Others Category Disclosure Comparative Table

                                      As of September 30                                             2006              2005
                                      (amounts in millions)
Other Accrued Environmental Liabilities-Active Installations-Other
  U.S. Army Corps of Engineers Pollution Control & Abatement                                                $653.4            $529.6
  Army Low Level Radioactive Waste Program                                                                   $35.8              $0.0
  National Defense Stockpile (NDS) Transaction                                                               $52.2              $0.0
  Defense Commissary Agency                                                                                  $29.0             $31.9
  TRICARE Management Activity Uniformed Services University of Health Sciences -
                                                                                                             $11.0              $0.0
  Operation and Maintenance
Total                                                                                                       $781.4            $561.5
Base Realignment and Closure (BRAC)-Other
  Army cleanup contracts at BRAC installations                                                              $149.2            $112.1
  Air Force contractual support for environmental program management at BRAC installations.                   $0.0            $230.8
Total                                                                                                       $149.2            $342.9
Environmental Disposal for Weapons Systems Programs-Other
  Navy Spent Nuclear Fuel                                                                               $3,237.4                $0.0
  NDS - Other Defense Organizations (ODO)                                                                     $0.0             $54.2
ODO's Environmental Disposal unliquidated obligations that cannot be identified to a specific
                                                                                                              $0.0             $57.8
program/project.
Total                                                                                                   $3,237.4              $112.0


                                                              Environmental Disclosures

                                       As of September 30                                             2006             2005

                                       (amounts in millions)
A. Amount of operating and capital expenditures used to remediate legacy waste. Legacy wastes
                                                                                                              924.6            730.8
are the remediation efforts covered by IRP, MMRP, and BD/DR regardless of funding source.
B. The unrecognized portion of the estimated total cleanup costs associated with general property,
                                                                                                             1,527.4           152.1
plant, and equipment.
C. The estimated cleanup costs associated with general property, plant, and equipment placed
                                                                                                                 0.0             0.0
into service during each fiscal year. 

D. Changes in total cleanup costs due to changes in laws, regulations, and/or technology.                     (44.9)             0.0

E. Portion of the changes in estimated costs due to changes in laws and technology that is related
                                                                                                                 0.0             0.0
to prior periods. 




                                                                        132
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


Fluctuations

Environmental Disclosures – Line A represents the amount of operating and capital expenditures used to remediate
legacy waste. The amount on Line A increased $193.8 million (27%) from FY 2005. This increase is primarily due
to increases in land sales and BRAC activity which led to a greater amount of environmental corrective actions
and environmental restoration cleanup. The Department is working to more accurately disclose the amount of
operating and capital resources disbursed to remediate legacy waste. As these processes are being developed,
fluctuations due to updated information will occur.

Environmental Disclosures – Line B represents the unrecognized costs associated with General Property, Plant,
and Equipment (PP&E). The amount on Line B increased approximately $1.4 billion from FY 2005, which is
attributed to costs that were recognized in 3rd Quarter, FY 2006 for nuclear aircraft carriers and submarines,
and conventional ships. The Department is working to more accurately disclose the unrecognized portion of the
estimated cleanup costs associated with General PP&E. As these processes are being developed, fluctuations due
to updated information will occur.

Environmental Disclosures – Line C represents the estimated cleanup costs associated with general property,
plant, and equipment placed into service during the fiscal year. The Department is unable to report this cost due
to system and internal control weaknesses. The Department is working to more accurately disclose estimates for
cleanup cost in FY 2007.

Environmental Disclosures – Line D represents the amount of changes in total cleanup costs due to changes in
laws, regulations, and/or technology. The decrease of $44.9 million represents an additional improvement in
the method used to report this information for the Defense Environmental Restoration Program liability. This
improvement is the result of an automated process used to track and report FY 2006 information, whereas the
FY 2005 information was based on a manual process. The Department is working to specifically identify the
causes for changes in estimated liabilities and to more accurately disclose estimates for costs due to changes in
laws and technology.

Environmental Disclosures – Line E represents the portion of changes in estimated costs due to changes in laws
and technology that is related to prior periods. The Department is unable to report this amount due to system and
internal control weaknesses. The Department is working to more accurately disclose the amount of change in
estimates for cost due to changes in laws and technology relating to prior periods in FY 2007.

Other Disclosures

Applicable Laws and Regulations for Cleanup Requirements

The Department is required to clean up contamination resulting from past waste disposal practices, leaks, spills,
and other past activity that created a public health or environmental risk. The Department accomplishes this
effort in coordination with regulatory agencies and, if applicable, other responsible parties and current property
owners. The Department is also required to recognize closure and post-closure costs for its General PP&E and
environmental corrective action costs for current operations. Each of the Department’s major reporting entities is
responsible for tracking and reporting all required environmental information related to environmental restoration

                                                         133
                                           Department of Defense Performance and Accountability Report FY 2006
            .................................................................. Section 3: Financial Information


costs, other accrued environmental costs, disposal costs of weapons systems, and environmental costs related to
BRAC actions that have taken place.

The Department follows the Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
and the Superfund Amendment and Reauthorization Act to clean up Defense Environmental Restoration Program
(DERP)-eligible contamination. Contamination clean up that is not eligible for DERP is performed in accordance
with the Resource Conservation and Recovery Act (RCRA). The CERCLA and RCRA require the Department to
clean up contamination in coordination with regulatory agencies, current owners of property damaged by the
Department, and third parties that have a partial responsibility for the environmental restoration. Failure to comply
with agreements and legal mandates will put the Department at risk of incurring fines and penalties.

The clean-up requirements for nuclear-powered aircraft carriers, submarines, and other nuclear ships are based
on laws that affect the Department’s conduct of environmental policy and regulations. The Atomic Energy Act
of 1954, as amended, assures the proper management of source, special nuclear, and byproduct material. As in
all cases with nuclear power, the Department coordinates actions with the Department of Energy. The Nuclear
Waste Policy Act of 1982 requires all owners and generators of high-level nuclear waste and spent nuclear fuel
to pay their respective shares of the full cost of the program. Finally, the Low Level Radioactive Waste Policy
Amendments Act of 1986 provides for the safe and efficient management of low-level radioactive waste.

The Chemical Weapons Disposal Program is based on FY 1986 National Defense Authorization Act (PL 99-145, as
amended by subsequent acts) that directed the Department to destroy the unitary chemical stockpile by
April 29, 2004. The current guidelines for destruction are based on the Chemical Weapons Convention treaty.
The United States ratified the treaty in April 1997, requiring the stockpile of chemical weapons to be destroyed
by April 2007, according to the terms outlined. The Army, as Executive Agent within the Department, provides
policy, direction, and oversight for both the Chemical Stockpile Program and the Nonstockpile Chemical Materiel
Project. As such, the Army is responsible for the safe and economical disposal of the U.S. stockpile of lethal and
incapacitating chemical warfare agents and munitions.

Methods for Assigning Total Cleanup Costs to Current Operating Periods

The Department uses engineering estimates and independently validated models to estimate environmental costs.
The models are contained within the Remedial Action Cost Engineering Requirements and the Normalization
of Data System. The Department validates the models in accordance with Department Instruction 5000.61 and
primarily uses the models to estimate the liabilities based on data received during a preliminary assessment and
initial site investigation. The Department primarily uses engineering estimates after obtaining extensive data during
the remedial investigation/feasibility phase of the environmental project.

Once the environmental cost estimates are complete, the Department complies with accounting standards to
assign costs to current operating periods. The Department has already expensed the costs for cleanup associated
with General PP&E placed into service prior to October 1, 1997, unless the costs are intended to be recovered
through user charges. If the costs are recovered through user charges, then the Department expensed that portion
of the asset that has passed since the General PP&E was placed into service and is systematically recognizing the
remaining cost over the life of the assets.


                                                         134
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


For General PP&E placed into service after September 30, 1997, the Department expenses the associated
environmental costs systematically over the life of the asset. The Department expenses the full cost to clean up
contamination for Stewardship PP&E at the time the asset is placed into service.

The Department uses two methods for systematic recognition: physical capacity for operating landfills, and life
expectancy in years for all other assets.

Types of Environmental Liabilities and Disposal Liabilities Identified

The Department has clean-up requirements for the DERP sites at active installations, BRAC installations, Formerly
Used Defense Sites, sites at active installations that are not covered by the DERP, weapon systems programs, and
chemical weapons disposal programs. The weapons systems program consists of chemical weapons disposal,
nuclear-powered aircraft carriers, nuclear-powered submarines, and other nuclear ships.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes due to Inflation, Deflation,
Technology, or Applicable Laws and Regulations

The Department had changes in estimates resulting from overlooked or previously unknown contaminants,
reestimation based on different assumptions, and lessons learned. Environmental liabilities may change in the
future due to changes in laws and regulation, changes in agreements with regulatory agencies, and advances in
technology.

Uncertainty Regarding the Accounting Estimates used to Calculate the Reported Environmental Liabilities

The environmental liabilities for the Department are based on accounting estimates which require certain
judgments and assumptions that are reasonable, based upon available information at the time the estimates are
calculated. The actual results may materially vary from the accounting estimates if agreements with regulatory
agencies require remediation to a different degree than anticipated when calculating the estimates. The liabilities
can be further impacted if investigation of the environmental sites reveals contamination levels that differ from the
estimate parameters.

The Department is uncertain regarding the extent of the liabilities at installations that are realigning or closing
as a result of BRAC requirements. The Department is in the process of determining the extent of environmental
liabilities at the BRAC installations, in particular those liabilities associated with unexploded ordnance on training
ranges.

In addition to the liabilities reported above, the Department has the potential to incur costs for restoration
initiatives in conjunction with returning overseas Defense facilities to host nations. The Department is unable to
provide a reasonable estimate at this time because the extent of restoration required is not known.

The Army has a liability to take environmental restoration/corrective action for buried chemical munitions,
and agents. The Army is unable to provide a reasonable estimate at this time, because the extent of the buried
chemical munitions and agents is not known.


                                                          135
                                                    Department of Defense Performance and Accountability Report FY 2006
                .................................................................. Section 3: Financial Information


The Navy is currently surveying installations to identify the inventory of operational assets that may impact
environmental liabilities. The Navy anticipates completing their survey and recording the impact on the
environmental liability for the FY 2007 financial statements.

The U.S. Army Corps of Engineers is unable to provide a complete estimate for the Formerly Utilized Sites
Remedial Action Program. The U.S. Army Corps of Engineers has studies on-going and will update its liabilities as
it identifies additional liabilities.

Note 15. Other Liabilities

                   As of September 30                                             2006                                   2005
                                                           Current              Noncurrent
                   (amounts in millions)                                                               Total             Total
                                                           Liability             Liability
 Intragovernmental
   Advances from Others                                $            448.8   $                0.0   $         448.8   $         394.6
   Deposit Funds and Suspense Account Liabilities                 2,009.3                    0.0           2,009.3             742.1
   Disbursing Officer Cash                                        2,273.2                    0.0           2,273.2           2,092.0
   Judgment Fund Liabilities	                                       164.2                    0.0             164.2             162.6
   FECA Reimbursement to the Department of Labor                    555.5                  849.1           1,404.6           1,395.4
   Other Liabilities                                              4,863.6                1,658.5           6,522.1           6,364.1
 Total Intragovernmental Other Liabilities                       10,314.6                2,507.6          12,822.2          11,150.8
 Nonfederal
   Accrued Funded Payroll and Benefits                            4,497.9                    0.0           4,497.9           7,382.8
   Advances from Others                                           2,074.3                    0.0           2,074.3           1,697.5
   Deferred Credits                                                   0.0                    0.0               0.0              11.8
   Deposit Funds and Suspense Accounts                              205.5                    0.0             205.5             413.9
   Temporary Early Retirement Authority                               0.1                    0.0               0.1               0.7
   Nonenvironmental Disposal Liabilities
      (1) Military Equipment (Nonnuclear)                             0.0                  285.2             285.2            683.5
      (2) Excess/Obsolete Structures                                 59.4                  626.2             685.6            235.9
      (3) Conventional Munitions Disposal                             0.0                1,217.8           1,217.8          1,318.4
   Accrued Unfunded Annual Leave                                  9,403.9                    0.0           9,403.9          8,566.1
   Capital Lease Liability                                           16.7                  209.4             226.1            317.2
   Other Liabilities                                              9,613.4                3,356.3          12,969.7          9,357.6
 Total Nonfederal Other Liabilities                              25,871.2                5,694.9          31,566.1         29,985.4
 Total Other Liabilities                               $         36,185.8   $            8,202.5   $      44,388.3   $     41,136.2


Fluctuations

Total Intragovernmental Other Liabilities increased approximately $1.7 billion (15%), primarily due to a
$1.3 billion increase in Deposit Funds and Suspense Account Liabilities. This increase is attributable to timing
differences in the amount of $490.3 million in the disbursement of payroll tax and Federal Insurance Contributions




                                                                   136
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


Act withholdings in the 4th Quarter FY 2006. In 4th Quarter, FY 2005, the disbursement for these withholdings
occurred in September 2005. In 4th Quarter, FY 2006, the disbursement did not occur until 1st Quarter, FY 2007.
In addition, the Department processed collections from various contractors for the settlement of negotiations for
contract nonperformance, resulting in a $480.9 million increase. The Department also implemented the Defense
Finance and Accounting Service Transaction Interface Module - Intragovernmental Payment and Collection
(DTIM-IPAC) in 3rd Quarter, FY 2006. The DTIM-IPAC greatly reduced disbursements that remained in suspense,
thereby increasing Deposit Fund and Suspense Account Liabilities by $131.6 million.

Other Disclosures

Intragovernmental Other Liabilities are comprised primarily of custodial liabilities from accounts receivable for
cancelled appropriations and interest, penalties, fines, and administrative fees from the public. The amounts
collected cannot be used by the Department and must be distributed to the Treasury.

Nonfederal Other Liabilities primarily consist of contingent liabilities and other accrued liabilities for contractual
services.

The Department has delinquent Federal Employment Compensation Act bills for 4th Quarter, FY 2006, totaling
$9.7 thousand. The National Defense University owes the majority of the delinquency. The bill is expected to be
paid during 1st Quarter, FY 2007.

Contingent Liabilities balance includes $3.3 billion in estimated future contract financing payments that will be
paid to the contractor upon delivery and government acceptance of a satisfactory product. In accordance with
contract terms, specific rights to the contractor’s work vests with the government when a specific type of contract
financing payment is made, thereby protecting taxpayer funds in the event of contract nonperformance. These
rights should not be misconstrued as the rights of ownership. The Department is under no obligation to pay
the contractor for amounts greater than the amounts authorized in the contract until delivery and government
acceptance of a satisfactory product. Because it is probable that the contractor will complete its efforts and
deliver a satisfactory product to the Department and the amount of potential future payments are estimable, the
Department has recognized a contingent liability for estimated future payments, which are conditional pending
delivery and government acceptance of a satisfactory product.




                                                          137
                                                    Department of Defense Performance and Accountability Report FY 2006
              .................................................................. Section 3: Financial Information



                                                            Capital Lease Liability
                                                                                    2006
              As of September 30                                                                                                   2005
                                                                                Asset Category
                                                      Land and
              (amounts in millions)                                       Equipment          Other             Total               Total
                                                      Buildings
 Future Payments Due
   2006                                             $           0.0   $           0.0   $            0.0   $             0.0   $            64.0
   2007                                                        57.9               5.1                0.0                63.0                59.0
   2008                                                        47.1               0.2                0.0                47.3                51.1
   2009                                                        43.9               0.1                0.0                44.0                44.0
   2010                                                        43.9               0.0                0.0                43.9                43.9
   2011                                                        36.8               0.0                0.0                36.8                 0.0
   After 5 Years                                               52.0               0.0                0.0                52.0               137.6
 Total Future Lease Payments Due                              281.6               5.4                0.0               287.0               399.6
 Less: Imputed Interest Executory Costs                        60.8               0.1                0.0                60.9                82.4
 Net Capital Lease Liability                        $         220.8   $           5.3   $            0.0   $           226.1   $           317.2
 Capital Lease Liabilities Covered by Budgetary Resources	                                                             181.2                74.1
 Capital Lease Liabilities Not Covered by Budgetary Resources                                              $            44.9   $           243.1


All leases entered into prior to FY 1992 are funded on an annual basis and subject to the availability of funds.
Noncurrent amounts for these leases are shown as not covered by budgetary resources.

Leases originating after FY 1992 are required to be fully funded in the year of their inception. Therefore, budgetary
resources show the present value of those lease payments as covered by budgetary resources.

Note 16. Commitments and Contingencies

Legal Contingencies

The Department is a party in various administrative proceedings and legal actions, with claims including
environmental damage claims, equal opportunity matters, and contractual bid protests. The Department has
accrued contingent liabilities for legal actions where the Department’s Office of the General Counsel considers an
adverse decision probable and the amount of loss is measurable. In the event of an adverse judgment against the
government, some of the liabilities may be payable from the Judgment Fund. The Department records Judgment
Fund liabilities in Note 12, “Accounts Payable” and Note 15, “Other Liabilities.” See Notes 12 and 15 for details.

The Department’s Office of General Counsel reported 65 legal actions with individual claims greater than the
FY 2006 Department-wide materiality threshold of $107.6 million. Management determined that claims totaling
approximately $484 billion had a remote probability of an adverse decision against the Department.




                                                                      138
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


Other Commitments and Contingencies

The Department also had a number of potential claims that individually do not meet the FY 2006 Department-wide
materiality threshold of $107.6 million, but do meet individual DoD Component materiality thresholds. These
claims are disclosed in the Components’ financial statements.

The undelivered orders for open (unfilled or unreconciled) contracts citing cancelled appropriations, for which the
Department may incur a contractual commitment for payment, are $1.5 billion.

Note 17. Military Retirement and Other Federal Employment Benefits

                As of September 30                                                                 2006                                          2005
                                                                                     Assumed           (Less: Assets
                                                           Present Value of                                                  Unfunded       Present Value
                 (amounts in millions)                                             Interest Rate      Available to Pay
                                                               Benefits                                                       Liability      of Benefits
                                                                                        (%)              Benefits)
 Pension and Health Actuarial Benefits
   Military Retirement Pensions                           $       963,696.1                   6.0     $   (202,031.9)    $      761,664.2   $     892,111.6
   Military Retirement Health Benefits                            299,203.8                  6.25                 0.0           299,203.8         296,473.2
   Military Medicare-Eligible Retiree Benefits                    538,032.5                  6.25          (84,268.7)           453,763.8         537,397.0
   Total Pension and Health Actuarial Benefits                  1,800,932.4                               (286,300.6)         1,514,631.8       1,725,981.8
 Other Actuarial Benefits
   FECA                                                              6,856.0                 5.17                  0.0            6,856.0          6,918.9
   Voluntary Separation Incentive Programs                           1,391.2                  4.0              (656.4)              734.8          1,495.7
   Department Education Benefits Fund                                1,785.3                  5.2            (1,241.8)              543.5          1,661.4
   Total Other Actuarial Benefits                                   10,032.5                                 (1,898.2)            8,134.3         10,076.0
 Other Federal Employment Benefits                                   4,804.6                                 (3,430.5)            1,374.1              0.0
 Total Military Retirement and Other Federal
                                                          $     1,815,769.5                           $   (291,629.3)    $    1,524,140.2   $   1,736,057.8
 Employment Benefits:
Actuarial Cost Method Used: Aggregate entry-age normal method
Assumptions: See below
Market Value of Investments in Market-based and Marketable Securities: $287.7 billion


Fluctuations

The present value of Military Retirement and Other Federal Employment Benefits increased $79.7 billion (5%)
and is primarily attributable to an increase of $71.6 billion (8%) in the actuarial liability for Military Retirement
Pensions. Other Federal Employment Benefits due and payable are included for FY 2006 and contributed another
$4.8 billion to the increase. In prior years, these liabilities were reported in Note 15, “Other Liabilities.”

Military Retirement Pensions

The $71.6 billion increase in the actuarial liability for Military Pensions is largely the result of a decrease in the
assumed interest rate on invested balances, and thus a decrease in the associated assumed earnings of
$32.8 billion and an increase in the actuarial liability. The majority of the remaining change is due to expected
liability increases.


                                                                                 139
                                          Department of Defense Performance and Accountability Report FY 2006
            .................................................................. Section 3: Financial Information


The Military Retirement Fund is a single-employer, defined benefit plan. Administrative costs of the Fund are
not ascertainable. Projected revenues into the Fund, authorized by Public Law 98-94, come from three sources:
interest earnings on Fund assets, monthly Department contributions, and annual contributions from the Treasury.
The monthly Department contributions are determined as a percentage (approved by the Department’s Retirement
Board of Actuaries) of basic pay. The contribution from Treasury is paid into the Fund at the beginning of each
fiscal year, and represents the amortization of the unfunded liability for service performed prior to October 1,
1984, as well as the amortization of actuarial gains and losses that have arisen since then. Effective FY 2005,
 Treasury began making an annual contribution to the Fund that represents the normal cost amount for the
concurrent receipt provisions of the FY 2004 National Defense Authorization Act. The Board of Actuaries
determines the Treasury’s contribution, and the Secretary of Defense directs the Secretary of the Treasury to make
the payment.

The long-term economic assumptions for each valuation are set by the Department’s Retirement Board of Actuaries.
The long-term assumptions for the FY 2005 valuation were 6.25 percent interest, 3.0 percent Consumer Price
Index, and 3.75 percent salary increase. The long-term economic assumption for interest was lowered to
6.00 percent by the Board at its August 2006 meeting. Other assumptions used to calculate the actuarial
liabilities, such as mortality and retirement rates, were based on actual experience. Because of reporting
deadlines, the current year actuarial present value of projected plan benefits is rolled forward, using accepted
actuarial methods, from the prior year valuation results as reported in the Department’s Office of Actuary Valuation
of the Military Retirement System. For purposes of the Fund’s financial reporting, this process is applied annually.
In calculating the FY 2006 roll-forward amount, the following assumptions were used:

	                         Inflation	                    Salary	                      Interest
Fiscal Year 2006	         4.1% (actual)	                3.1% (actual)	               6.0%
Fiscal Year 2007	         3.0% (estimated)	             2.7% (estimated)	            6.0%
Long-Term	                3.0% 	                        3.75%	                       6.0%

Change in MRF Actuarial Liability	                                     (Amounts in billions)
Actuarial Liability as of 9/30/05	                                                  $892.1
Expected Normal Cost for FY 2006	                                                       15.5
Plan Amendment Liability	                                                                0.1
Assumption Change Liability	                                                            35.3
Expected Benefit Payments for FY 2006	                                               (40.5)
Interest Cost for FY 2006	                                                              55.0
Actuarial (gains)/losses due to changes in trend assumptions	                            6.1
Actuarial Liability as of 09/30/06	                                                 $963.7
Change in Actuarial Liability	                                                       $71.6

Actuarial Cost Method Used: Aggregate entry-age normal method.
Market Value of Investments in Market-Based and Marketable Securities: $202.9 billion




                                                        140
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


Military Retirement Health Benefits (MRHB)

The MRHB are post-retirement benefits the Department provides to non-Medicare-eligible military retirees and
other eligible beneficiaries who are not Medicare-eligible, through private sector health care providers and
Department Medical Treatment Facilities.

Change in MRHB Actuarial Liability	                                 (Amounts in billions)
Actuarial Liability as of 09/30/05
(Department pre-Medicare + all Uniformed Services Medicare cost-basis effect)	   $296.5
Expected Normal Cost for FY 2006	                                                    10.0
Expected Benefit Payments for FY 2006	                                               (9.3)
Interest Cost for FY 2006	                                                           18.9
Actuarial (gains)/losses due to other factors	                                       39.4
Actuarial (gains)/losses due to changes in trend assumptions	                     (56.3)
Actuarial Liability as of 09/30/06
(Pre-Medicare + all Uniformed Services Medicare cost-basis effect)	              $299.2
Change in Actuarial Liability	                                                      $ 2.7

Actuarial Cost Method Used: Aggregate Entry-Age Normal
Assumed Interest Rate: 6.25%


                               Medical Trend                            FY 2005 – FY 2006          Ultimate Rate 2030
 Medicare Inpatient                                                                     5.62%                      6.25%
 Medicare Outpatient                                                                    7.83%                      6.25%
 Medicare Prescriptions (Direct Care)                                                   8.13%                      6.25%
 Medicare Prescriptions (Purchased Care)                                               11.22%                      6.25%
 Non-Medicare Inpatient (Direct Care)                                                   7.50%                      6.25%
 Non-Medicare Outpatient (Direct Care)                                                  4.00%                      6.25%
 Non-Medicare Prescriptions (Direct Care)                                               7.00%                      6.25%
 Non-Medicare Inpatient (Purchased Care)                                               10.40%                      6.25%
 Non-Medicare Outpatient (Purchased Care)                                               7.40%                      6.25%
 Non-Medicare Prescriptions (Purchased Care)                                           12.11%                      6.25%


Other Information

The MRHB liability represents Department pre-Medicare liabilities for direct care and purchase care benefits,
plus the direct-care cost-basis effect for Medicare liabilities for all Uniformed Services. The cost-basis effect is
approximately $28 billion as of September 30, 2006, and arises because liabilities for direct care in the total retiree
health liability are valued at a higher cost basis than they are in the Medicare-Eligible Retiree Health Care Fund
(MERHCF) liability. The $299.2 billion liability includes $600 million for the Coast Guard, $69.8 million for the
Public Health Service, and $4.6 million for the National Oceanic and Atmospheric Administration (NOAA).

The actuarial liability reported above does not include $1.4 billion in incurred but not reported liabilities as of
September 30, 2006. These liabilities are reflected in Other Federal Employment Benefits in the table above.


                                                          141
                                               Department of Defense Performance and Accountability Report FY 2006
              .................................................................. Section 3: Financial Information


Military Medicare-Eligible Retiree Benefits

Public Law 106-398 authorized the establishment of the MERHCF for the purpose of accumulating funds to
finance the health care program liabilities of Medicare-eligible retirees for all the Uniformed Services and specific
Medicare-eligible beneficiaries. The Fund began operations on October 1, 2002. Projected revenues into the
MERHCF, authorized by Chapter 56 of Title 10, United States Code, come from three sources: interest earnings on
Fund assets, annual Uniformed Services “normal cost” contributions, and annual contributions from the Treasury.
Prior to October 1, 2005, the normal cost contributions by the Services were paid monthly at per capita amount
(approved by the Department MERHCF Board of Actuaries) times actual end strength. Beginning in FY 2006,
the normal cost is paid annually at the beginning of the fiscal year by the Treasury, from amounts appropriated to
the Military Services, and is calculated at the approved rate times the budgeted force strengths. The contribution
from Treasury is also paid into the Fund at the beginning of each fiscal year and represents the amortization of the
unfunded liability for services performed prior to October 1, 2002, as well as the amortization of actuarial gains
and losses that have arisen since then. The Board determines Treasury’s contribution, and the Secretary of Defense
directs the Secretary of the Treasury to make the payment.

Assumptions used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on actual
experience. Claims cost assumptions for direct care were based on actual experience. Assumptions for purchased
care were developed from industry-based cost estimates adjusted to approximate the military retired population.
Because of reporting deadlines, the current year actuarial present value of projected plan benefits is rolled forward,
using accepted actuarial methods, from the prior year’s results. For purposes of the Fund’s financial reporting,
this process is applied annually. In calculating the FY 2006 roll-forward amount, the following medical trend
assumptions were used:


                               Medical Trend                            FY 2005 – FY 2006          Ultimate Rate 2030
 Medicare Inpatient                                                                     5.62%                      6.25%
 Medicare Outpatient                                                                    7.83%                      6.25%
 Medicare Prescriptions (Direct Care)                                                   8.13%                      6.25%
 Medicare Prescriptions (Purchased Care)                                               11.22%                      6.25%


Changes in MERHCF Actuarial Liability	                                    (Amounts in billions)
Actuarial Liability as of 09/30/05 (all Uniformed Services Medicare)	                  $537.4
Expected Normal Cost for FY 2006	                                                          11.0
Expected Benefit Payments for FY 2006	                                                     (7.5)
Interest Cost for FY 2006	                                                                 34.0
Actuarial (gains)/losses due to other factors	                                             42.1
Actuarial (gains)/losses due to changes in trend assumptions	                           (79.1)
Actuarial Liability as of 09/30/06 (all Uniformed Services Medicare)	                  $538.0
Change in Actuarial Liability	                                                             $0.6

Actuarial Cost Method Used for MERHCF Liability: Aggregate Entry-Age Normal
Market Value of Investments in Market-Based and Marketable Securities: $83.0 billion
Assumed Interest Rate: 6.25%


                                                           142
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


The MERHCF liability includes Medicare liabilities for all Uniformed Services. The $538.0 billion liability
includes $526.3 billion for the Department, $10.5 billion for the Coast Guard, $1.1 billion for the Public Health
Service, and $100 million for NOAA. FY 2006 contributions from each of the services were: $10.8 billion by the
Department, $300 million by the Coast Guard, $34.5 million by the Public Health Service, and $1.6 million by
NOAA.

The actuarial liability reported above does not include $604.7 million in incurred but not reported liabilities as of
September 30, 2006. These liabilities are included in Note 11 “Liabilities Not Covered and Covered by Budgetary
Resources” and Note 15 “Other Liabilities”.

Federal Employees Compensation Act (FECA)

Assumptions

The liability for future workers’ compensation benefits includes the expected liability for death, disability, medical,
and miscellaneous costs for approved compensation cases, plus a component for incurred but not reported claims.
The liability is determined using a method that utilizes historical benefit payment patterns related to a specific
incurred period to predict the ultimate payments related to that period. Consistent with past practice, these
projected annual benefit payments have been discounted to present value using the Office of Management and
Budget’s economic assumptions for 10-year Treasury notes and bonds. A 5.17 percent interest rate was assumed in
year 1 and 5.31 percent was assumed in year 2 and thereafter.

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits,
wage inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index
medical or CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors
for charge back year (CBY) 2006 were also used to adjust the methodology’s historical payments to current year
constant dollars.

The compensation COLAs and CPIMs used in the projections for various charge back years were as follows:

CBY	                           COLA	                              CPIM
2006	                          3.50%	                             4.00%
2007	                          3.13%	                             4.01%
2008	                          2.40%	                             4.01%
2009	                          2.40%	                             4.01%
2010	                          2.43%	                             4.09%

The model’s resulting projections were analyzed to ensure that the estimates were reliable. The analysis was based
on four tests: (1) a sensitivity analysis of the model of economic assumptions, (2) a comparison of the percentage
change in the liability amount by agency to the percentage change in the actual payments, (3) a comparison of
the incremental paid losses (the medical component in particular) in CBY 2006 (by injury cohort) to the average
pattern observed during the prior three charge back years, and (4) a comparison of the ratio of the estimated
liability to the actual payment of the beginning year calculated for the current projection to the liability-payment
ratio calculated for the prior projection.

                                                          143
                                             Department of Defense Performance and Accountability Report FY 2006
            .................................................................. Section 3: Financial Information


Voluntary Separation Incentive Programs (VSI)

Assumptions

The VSI program was established by Public Law 102-190. The intent of this program is to reduce the number of
military personnel on active duty. This plan was offered to personnel with a minimum of six years of service who
did not qualify for retirement. The incentive payments are spread over a period equivalent to twice the years of
active service. The annual payment is based on 2.5% of the person’s annual basic pay at the time they departed
service multiplied by the number of years of service. The September 30, 2006, VSI Actuarial Present Value of
Projected Plan Benefits (Actuarial Liability) was calculated at an assumed annual interest rate of 4%. Since the VSI
program is no longer offered, each year the Actuarial Liability is expected to decrease with benefit outlays, and
increase with interest cost. The present value of plan benefits actuarial liability for the VSI fund is $1.4 billion as of
September 30, 2006. The liability was calculated, as in prior years, at the present value of all remaining payments
as of September 30, 2006.

Market Value of Investments in Market-based and Marketable Securities: $615 million.

Department Education Benefits Fund (EBF)

The present value of plan benefits actuarial liability for the EBF is $1.8 billion as of September 30, 2006.

Assumptions

The EBF was established by Public Law 98-525. The program is designed to accumulate funds for the Educational
Assistance program, to promote the recruitment and retention of members for the All-Volunteer Forces program
and the Total Force Concept of the Armed Forces, and aid in the readjustment of members of the Armed Forces to
civilian life after separation from military service.

Market Value of Investments in Market-based and Marketable Securities: $1.2 billion

Other Federal Employment Benefits

The format of this note was changed in FY 2006 to include Other Federal Employment Benefits, such as pension
and other post-employment benefits due and payable, which were previously included in Note 15.




                                                           144
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



Note 18. General Disclosures Related to the Statement of Net Cost

                                             Intragovernmental Costs and Exchange Revenue

                            As of September 30                                        2006                    2005
                           (amounts in millions)
 Intragovernmental Costs                                                   $                   31,748.6   $            24,510.0
 Public Costs                                                                                597,987.8               655,576.6
 Total Costs                                                                                 629,736.4               680,086.6
 Intragovernmental Earned Revenue                                                            (24,293.6)              (18,264.1)
 Public Earned Revenue                                                                       (24,056.7)              (26,943.0)
 Total Earned Revenue                                                                        (48,350.3)              (45,207.1)
 Net Cost of Operations                                                    $                 581,386.1    $          634,879.5


Fluctuations

Total Costs decreased $50.4 billion (7%). This decrease was primarily due to a $33.1 billion reduction as the
result of actuarial assumption changes for drug and other costs and a $57.5 billion reduction primarily due to costs
incurred in FY 2005 and not in FY 2006 for a one-time actuarial adjustment in recognition of increasing numbers
of retirees taking full advantage of their health care benefits. The decrease was partially offset by $27.3 billion in
increased expenses in support of the Global War on Terror, hurricane relief in the Gulf of Mexico, and increased
depreciation expense on military equipment.

Other Disclosures

The Department recorded a prior-period adjustment due to a change in the methodology for reporting
military equipment. The FY 2005 restatement impacts the value of general property, plant, and equipment and
associated accumulated depreciation reported on the Balance Sheet. The Department has determined that
developing the prior year value for the depreciation expense is cost-prohibitive, and thus has elected not to restate
the Statement of Net Cost (SNC).

The SNC is unique because its principles are driven on understanding the net cost of programs and/or
organizations that the Federal Government supports through appropriations or other means. This statement
provides gross and net cost information that can be related to the amount of output or outcome for a given
program and/or organization administered by a responsible reporting entity. Intragovernmental costs and revenue
are related to transactions made between two reporting entities within the Federal Government. Public costs and
revenues are exchange transactions made between the reporting entity and a nonfederal entity.

For General Funds, the amounts presented in the SNC are based on obligations and disbursements and therefore
may not, in all cases, accrue actual costs. While the Department’s Working Capital Funds generally record
transactions on an accrual basis, the systems do not always capture actual costs in a timely manner. As such,
information presented in the SNC is based on budgetary obligations, disbursements, and collection transactions, as
well as nonfinancial feeder systems, adjusted to record known accruals for major items such as payroll expenses,
accounts payable, and environmental liabilities.

                                                                 145
                                                     Department of Defense Performance and Accountability Report FY 2006
              .................................................................. Section 3: Financial Information


The majority of the Department’s accounting systems do not capture information relative to Heritage Assets
separately and distinctly from normal operations. Where it was able to separately identify the cost of acquiring,
constructing, improving, reconstructing or renovating heritage assets, the Department has identified $2.3 million
for the fiscal year.

Note 19. Disclosures Related to the Statement of Changes in Net Position

                As of September 30                                        2006                                       2005 Restated

                                                      Cumulative Results of           Unexpended        Cumulative Results of        Unexpended
                (amounts in millions)
                                                          Operations                 Appropriations         Operations              Appropriations

 Prior Period Adjustments Increases (Decreases) to Net Position Beginning Balance
 Changes in Accounting Standards                      $                 0.0      $                0.0   $            3,632.4    $               0.0
 Errors and Omissions in Prior Year Accounting
                                                                   (8,033.1)                      0.0                 (776.5)                   0.0
 Reports
 Total Prior Period Adjustments                       $            (8,033.1)     $                0.0   $            2,855.9    $               0.0
 Imputed Financing
   Civilian CSRS/FERS Retirement                      $             1,553.8      $                0.0   $            1,604.1    $               0.0
   Civilian Health                                                  2,646.5                       0.0                2,457.1                    0.0
   Civilian Life Insurance                                             26.1                       0.0                   24.7                    0.0
   Judgment Fund                                                      183.2                       0.0                  379.4                    0.0
   IntraEntity                                                          0.0                       0.0                    0.0                    0.0
 Total Imputed Financing                              $             4,409.6      $                0.0   $            4,465.3    $               0.0


Prior Period Adjustments

The Department recognized prior period adjustments in FY 2006 and restated cumulative results of operations for
FY 2005 and FY 2006 by $8.1 billion. The adjustments related to the revaluation of military equipment, and the
recognition of a strategic petroleum reserve established in FY 1993 which was erroneously expensed at that time.
Refer to Note 25, Restatements, for additional details relating to these adjustments.

Fluctuations

Budgetary Financing Sources, Appropriations Received increased $69.7 billion from FY 2005, largely due to
increased funding received for the Global War on Terror. During FY 2006, the Department received $52.7 billion
more in supplemental appropriations than in FY 2005. The balance of the increase is spread across the DoD
appropriations.

Other Disclosures

The amounts the DoD remits to the Office of Personnel Management by and for employees covered by the Civil
Service Retirement System, the Federal Employees’ Retirement System, the Federal Employees’ Health Benefits
program, and the Federal Employees’ Group Life Insurance program do not fully cover the government’s cost
to provide these benefits. An imputed cost is recognized as the difference between the government’s cost of

                                                                      146
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


providing these benefits to employees and the Department’s contributions for them. The Office of Personnel
Management provides cost factors for the computation of imputed financing costs, and their inclusion in the
Department’s financial statements.

Statement of Federal Financial Accounting Standards Number 27, “Identifying and Reporting Earmarked Funds,”
effective for reporting years after FY 2005, required that DoD modify the Statement of Changes in Net Position.
The Federal Accounting Standards Advisory Board determined that restatement of prior comparative balances
would not be allowed. To meet the requirement, additional columns were added to separately display gross
amounts for earmarked funds, and all other (non-earmarked) funds. In the Statement of Changes in Net Position,
all offsetting balances (i.e. transfers-in and transfers out, revenues and expenses) for intra-DoD activity between
earmarked and other (non-earmarked) funds are reported on the same lines. This results in an eliminations column
which appears to contain no balances. In reality, the column contains all appropriate elimination entries, but all
net to zero within each respective line.

Fiscal year 2006 cumulative results of operation ending balance on the Statement of Changes in Net Position does
not agree with the cumulative results reported on the Balance Sheet because the cumulative results on the Balance
Sheet are presented net of eliminations.

There is an $87.0 billion difference between Appropriations Received that are reported on the Statement of
Changes in Net Position ($594.7 billion) and Appropriations Received in the Statement of Budgetary Resources
($681.7 billion). This difference is primarily due to appropriations transferred to the trust and special funds which
are duplicated in the Statement of Budgetary Resources. In addition, a small portion of the difference relates to
interest collected by the trust funds. See Note 20, “Disclosures Related to the Statement of Budgetary Resources”
for additional information.

Note 20. Disclosures Related to the Statement of Budgetary Resources

                               As of September 30                                    2006                   2005
                               (amounts in millions)
 Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End
                                                                                 $          295,463.2   $          275,627.9
 of the Period
 Available Borrowing and Contract Authority at the End of the Period                         26,045.7               28,006.3


Fluctuations

The Nonbudgetary Financing, Budgetary Resources section of the Statement of Budgetary Resources (SBR) reflects
a decrease of $109.8 million (44%). This section of the SBR reports activity for the Military Housing Privatization
and the Armament Retooling and Manufacturing Support Initiatives. The fluctuation was primarily due to a decline
in borrowing authority and spending authority from offsetting collections without advance from federal sources.
During FY 2005, there were no new direct loans issued for the year. However, in FY 2006, there were three new
loans issued. The issuance of these new loans had a decreasing effect on borrowing authority and the value of
unfilled customer orders without advance.



                                                                       147
                                           Department of Defense Performance and Accountability Report FY 2006
            .................................................................. Section 3: Financial Information


Reconciliation Differences

There is a difference of $33.5 billion between the Available Borrowing and Contract Authority reported
($26.0 billion) in the table above and the amount reported for Available Borrowing and Contract Authority on
the SBR ($59.5 billion). The table above reports current-year activity as well as carry-forward amounts for both
categories of authority. The SBR only reports current-year activity for these categories.

Appropriations Received on the Statement of Budgetary Resources (SBR) exceed Appropriations Received on
the Statement of Changes in Net Position by $87.0 billion. Appropriations received at the Military Services and
Defense Agencies that are subsequently recognized a second time on the SBR as appropriation transferred into trust
and special funds comprise $68.2 billion of the excess. Interest earnings on the Military Retirement and Health
Care investments make up an additional $16.4 billion. The balance of the difference consists primarily of other
revenues collected into the Department’s special and trust funds.

Permanent Indefinite Appropriations

The Department received the following permanent indefinite appropriations:

•	Department of the Army General Gift Fund (10 USC 2601(b)(1))
•	Department of the Navy General Gift Fund (10 USC 2601(b)(2))
•	Department of the Air Force General Gift Fund (10 USC 2601 (b)(3))
•	Foreign National Employees Separation Pay Account, Defense (10 USC 1581)
•	United States Naval Academy Gift and Museum Fund (10 USC 6973-4)
•	Ship Stores Profits, Navy (10 USC 7220, 31 USC 1321)
•	Midshipmen’s Store (10 USC 6971B)
•	Burdensharing Contributions Account (10 USC 2350(j))
•	Forest Program (10 USC 2665)
•	Department of Defense Base Closure Account (10 USC 2687)
•	Medicare Eligible Retiree Health Care Fund (MERHCF) (10 USC 1111)
•	Military Retirement Fund (MRF) (10 USC 1461)
•	Education Benefits Fund (10 USC 2006)
•	Reserve Mobilization Income Insurance Fund (10 USC 12528)
•	Host Nation Support for U.S. Relocation Activities (10 USC 2350(k))
•	National Defense Sealift Fund (10 USC 2218)
•	Environmental Restoration, Navy (10 USC 2702)
•	Hydraulic Mining Debris Reservoir (33 USC 683)
•	Maintenance and Operation of Dams and Other Improvements of Navigable Waters (16 USC 810(a))
•	Payments to States (33 USC 701c-3)
•	Wildlife Conservation (16 USC 670-670(f))
•	Ainsworth Bequest (31 USC 1321)

The above permanent indefinite appropriations cover a wide variety of purposes to help the Department
accomplish its missions. These purposes include (1) military retirees healthcare benefits, retirement and survivor
pay, and education benefits for veterans; (2) environmental, coastal, and wildlife habitat restoration, and water

                                                        148
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


resources maintenance; (3) costs associated with the closure or realignment of military installations; (4) relocation
of armed forces to a host nation; (5) separation payments for foreign nationals; (6) the construction, purchase,
alteration, and conversion of sealift vessels; and (7) upkeep of libraries and museums. Reference Note 23 for
additional information on those funds that are earmarked.

Other Disclosures

The Department received supplemental appropriations totaling $130.5 billion to address the Global War on Terror,
the hurricane relief effort in the Gulf of Mexico, and the Pandemic Influenza Act.

The SBR includes intraentity transactions because the statements are presented as combined and combining.

The Department utilizes borrowing authority for the Military Housing Privatization and the Armament Retooling
and Manufacturing Support Initiatives.

There are no legal arrangements affecting the use of unobligated balances of budget authority.

The Department reported the following amounts of direct obligations: $469.4 billion in category A;
$129.9 billion in category B, and $47.2 billion in exempt from apportionment. The Department reported the
following amounts of reimbursable obligations: $96.9 billion in category A; $62.7 billion in category B; and
$5.9 billion in exempt from apportionment. Category A relates to appropriations for a specific period of time (e.g.,
Military Personnel appropriation), and category B relates to appropriations for a specific project (e.g., Military
Construction appropriation).

Note 21. Disclosures Related to the Statement of Financing

Due to the Department’s financial system limitations, budgetary data is not in agreement with proprietary expenses
and assets capitalized. The difference between budgetary and proprietary data is a previously identified deficiency.
To bring the Statement of Financing into balance with the Statement of Net Cost, the following adjustments
(absolute value) were made:

            Resources That Finance the Acquisition of Assets	                              $11.3 billion
            Other - Other Components Not Requiring or Generating Resources	                $12.0 million

The following Statement of Financing lines are presented as combined instead of consolidated due to intra-agency
budgetary transactions not being eliminated:

•	Obligations Incurred
•	Less: Spending Authority from Offsetting Collections and Recoveries
•	Obligations Net of Offsetting Collections and Recoveries
•	Less: Offsetting Receipts
•	Net Obligations
•	Undelivered Orders
•	Unfilled Customer Orders

                                                         149
                                           Department of Defense Performance and Accountability Report FY 2006
            .................................................................. Section 3: Financial Information


Fluctuations

Resources Used to Finance Activities

Other Resources – Other increased $5.6 billion primarily due to a change in accounting procedures in 1st Quarter,
FY 2006 requiring the inclusion of nonexchange gains and losses necessary to reconcile the proprietary and
budgetary accounts. This increase is also comprised of other gains and losses to adjust intragovernmental transfers
in and transfers out of construction in progress amounts and property.

Resources Used to Finance Items not Part of the Net Cost of Operations

Resources That Finance the Acquisition of Assets increased $19.2 billion due primarily to a change in the military
equipment valuation methodology implemented 3rd Quarter, FY 2006. See Note 10 for further disclosure on
military equipment.

Components Requiring or Generating Resources

Components Requiring or Generating Resources in Future Period-Other decreased $94.3 billion due to future
funded expenses that are not funded in the period the costs are incurred primarily related to the change in actuarial
liability as discussed in Note 17.

Components not Requiring or Generating Resources

Other decreased $29.2 billion primarily due to cost capitalization offsets and other expenses not requiring
budgetary resources.

Other Disclosures

The Department recorded other expenses not requiring budgetary resources of $281.8 million to reconcile
budgetary activity with current period expenses for allocation transfers. The Department executed allocation
transfers on behalf of the Department of Agriculture, Department of Transportation, and Department of Energy
for various public work projects. These items include the treatment of disease in trees due to infestation for the
State and Private Forestry, public bridge inventory and inspection of the Federal Lands Highway Program, and the
maintenance of hydroelectric plants that the U.S. Army Corps of Engineers operates. In addition, the Department
executed the funding for Iraqi Relief and Reconstruction Fund on behalf of the Executive Office of the President
and Department of Transportation.

Liabilities not covered by budgetary resources on the Balance Sheet total $1.6 trillion and the amount reported as
components requiring or generating resources in future periods on the Statement of Financing totals $86.8 billion.
The difference of $1.5 trillion is primarily due to the differing perspectives between the two statements. Liabilities
not covered by budgetary resources report the cumulative balance for Balance Sheet liabilities not yet funded
whereas components requiring or generating resources in future periods reflect only the current period changes for
all unfunded liabilities.


                                                         150
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



Note 22. Disclosures Related to the Statement of Custodial Activity

The Statement of Custodial Activity displays current year collections and disbursements for three custodial
accounts: (1) Foreign Military Sales, (2) Development Fund for Iraq, and (3) Seized Assets. Funds held in a
custodial activity are only used for the stated purposes and are not available for the Department’s use.

Foreign Military Sales

Under authority of the Arms Export and Control Act, the Foreign Military Sales Trust Fund (FMSTF) receives
collections from foreign governments that are dedicated specifically to FMS purchases. Funds collected into the
FMSTF are in advance of the performance of services or sale of articles. These advance collections constitute a
fiduciary relationship with the countries.

Current year Deposits by Foreign Governments into FMSTF are $13.7 billion. Disbursements on Behalf of Foreign
Governments and International Organizations total $12.5 billion.

The FMSTF neither recognizes nor reports revenue, except for cost clearing accounts, which are reflected in all
other principal financial statements. Since various Department Components actually perform the services and sell
the articles, recognition of revenue and expense occurs in the financial statements of the applicable Department
Components.

Development Fund for Iraq (DFI)

The DFI is for urgent humanitarian assistance, reconstruction, and other projects carried out for the benefit of
the Iraqi people. During FY 2006, there were $34.6 million in disbursements by the Multi-National Force Iraq
with no additional deposits. As of September 30, 2006, $18.8 million remains to be disbursed. The Department
made adjustments in 1st Quarter, FY 2006 for prior year disbursements, which resulted in a negative disbursement
amount for Education, Refugees, Human Rights, and Governance, on the following page.




                                                        151
                                                        Department of Defense Performance and Accountability Report FY 2006
                .................................................................. Section 3: Financial Information



                              (amounts in millions)                                  During FY 2006               Cumulative from Inception
 Source of Collections
    Deposits By Foreign Governments                                                                  $        0                      $   136.0
 Disposition of Collections
    Security and Law Enforcement                                                                     $       .2                      $     1.0
    Electric Sector                                                                                       20.8                            45.2
    Oil Infrastructure                                                                                        0                               .4
    Water Resources and Sanitation                                                                          9.9                           16.6
   Transportation and Telecommunications                                                                     .1                            5.3
    Roads, Bridges and Construction                                                                          .8                            5.0
    Health Care                                                                                              .2                            2.9
    Private Sector Development                                                                              3.4                            7.2
    Education, Refugees, Human Rights, and Governance                                                      (.8)                           33.6
 Total Disbursed on Behalf of Foreign Governments                                                         34.6                           117.2
 Retained for Future Support of Foreign Governments *                                                    (34.6)                           18.8
 Total Disposition of Collections                                                                    $        0                      $   136.0
 Net Custodial Collection Activity                                                                   $        0                      $        0
*Note – Reported on the Statement of Custodial Activity under Disposition of Collections, Increase (Decrease) in Amounts to be Transferred.


Seized Assets

During Operation Iraqi Freedom, the U.S. Government seized assets from the Iraqi Government that are used
in support of the Iraqi people. In FY 2006, $31.2 million was disbursed with no additional seized assets. As of
September 30, 2006, $30.2 million of seized monetary assets remain to be disbursed in support of the Iraqi people
as shown below.


                              (amounts in millions)                                  During FY 2006               Cumulative from Inception
 Source of Collections
  Seized Iraqi Cash                                                                              $           0                   $       927.2
 Disposition of Collections
   Iraqi Salaries                                                                                $            0                  $        30.8
   Repair/Reconstruction/Humanitarian Assistance                                                           31.2                          526.2
   Iraqi Ministry Operations (Ministry of Finance, Defense, etc.)                                             0                          264.7
   Fuel/Supplies                                                                                              0                           75.3
 Total Disbursed on Behalf of Iraqi People                                                                 31.2                          897.0
 Retained for Future Support of Foreign Governments                                                      (31.2)                           30.2
 Total Disposition of Collections                                                                $            0                  $       927.2
 Net Custodial Collection Activity                                                               $            0                  $           0




                                                                     152
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



Note 23. Earmarked Funds

      BALANCE SHEET
   As of September 30, 2006                                               Other Earmarked
                                     MRF               MERHCF                                     Eliminations               Total
                                                                               Funds
      (amounts in millions)
 ASSETS
 Fund balance with Treasury      $         30.7    $          37.9    $            1,787.8    $                    0.0   $        1,856.4
 Investments                          208,392.1           85,395.0                 5,474.1                       (0.1)          299,261.1
 Accounts and Interest
                                           23.3                 8.8                  468.2                   (26.4)                   473.9
 Receivable
 Other Assets                               0.0                0.0                 1,767.5                     0.0                1,767.5
 Total Assets                    $    208,446.1    $      85,441.7    $            9,497.6    $            ( 26.5)       $      303,358.9
     LIABILITIES and NET
          POSITION
 Military Retirement
 Benefits and Other Federal      $    967,106.1    $     538,032.8    $            3,176.5    $                   0.0    $    1,508,315.4
 Employment Benefits
 Other Liabilities                           1.3             876.9                   949.8                   (64.0)                  1,764.0
 Unexpended Appropriations                   0.0               0.0                    11.4                      0.0                     11.4
 Cumulative Results of
                                     (758,661.3)        (453,468.0)                5,360.0              (64,915.2)           (1,271,684.5)
 Operations
 Total Liabilities and Net
                                 $    208,446.1    $      85,441.7    $            9,497.7    $         (64,979.2)       $      238,406.3
 Position
  STATEMENT OF NET COST
       For the Year Ended
       September 30, 2006
 Program Costs                   $     112,821.7   $        7,610.6   $             3,120.2   $          (2,422.4)       $      121,130.1
 Less Earned Revenue                  (51,737.7)         (31,802.7)               (1,005.4)              67,512.1               (17,033.7)
 Net Program Costs               $      61,084.0   $     (24,192.1)   $             2,114.8   $          65,089.7        $      104,096.4
 Less Earned Revenues Not
                                             0.0                0.0                     0.0                       0.0                    0.0
 Attributable to Programs
 Net Cost of Operations          $     61,084.0    $     (24,192.1)   $             2,114.8   $           65,089.7       $      104,096.4
 STATEMENT OF CHANGES
     IN NET POSITION
  As of September 30, 2006
 Net Position Beginning of the
                                 $   (697,577.3)   $    (477,660.1)   $            4,374.7    $                   0.0    $   (1,170,862.7)
 Period
 Net Cost of Operations                 61,084.0         (24,192.1)                2,114.8                65,089.7               104,096.4
 Budgetary Financing Sources                 0.0                0.0                3,288.9                   174.3                 3,463.2
 Other Financing Sources                     0.0                0.0                (177.4)                     0.2                 ( 177.2)
 Change in Net Position          $    (61,084.0)   $       24,192.1   $              996.7    $         (64,915.2)       $     (100,810.4)
 Net Position End of Period      $   (758,661.3)   $    (453,468.0)   $            5,371.4    $         (64,915.2)       $   (1,271,673.1)


The Statement of Federal Financial Accounting Standards 27 (SFFAS 27), “Identifying and Reporting Earmarked
Funds,” requires the disclosure of Earmarked Funds separately from All Other Funds on the Statement of Changes
in Net Position and Balance Sheet. Funds must meet three criteria to be classified as earmarked: (1) a statute
committing use of specifically identified revenues for designated purposes, (2) explicit authority to retain the
revenues, and (3) a requirement to account and report on the revenues. The Department earmarked funds are

                                                                153
                                           Department of Defense Performance and Accountability Report FY 2006
            .................................................................. Section 3: Financial Information


either special or trust funds and use both receipt and expenditure accounts to report activity to the Treasury. There
have been no changes in legislation during or subsequent to this reporting period that significantly changed the
purposes of any of the funds.

The Total Earmarked Funds column is shown as consolidated and relates only to Earmarked Funds. The elimination
column on this note includes only eliminations associated with Earmarked Funds and exludes the offsetting
eliminations from All Other Funds. This exclusion causes assets to not equal liabilites and net position in the note.
However, the amount in the Total column equal the amounts reported for Earmarked Funds on the Balance Sheet.

The SFFAS 27, effective for reporting years after FY 2005, required that DoD modify the Statement of Changes
in Net Position. To meet the requirement, additional columns were added to separately display gross amounts
from Earmarked Funds and All Other (non-earmarked) Funds. Cumulative Results of Operations ending balances
for Earmarked Funds on the Statement of Changes in Net Position do not agree with the Cumulative Results of
Operations for Earmarked Funds reported on the Balance Sheet because the Cumulative Results on the Balance
Sheet are presented net of eliminations. The summation for MRF, MERCHF, and Other Earmarked Funds is
equivalent to the gross amount presented on the Statement of Changes in Net Position.

Military Retirement Fund (MRF), 10 United States Code (USC) 1461. The MRF accumulates funds in order to
finance, on an actuarially sound basis, the liabilities of the Department military retirement and survivor benefit
programs. Financing sources for the MRF are interest earnings on Fund assets, monthly Department contributions,
and annual contributions from the Treasury. The monthly Department contributions are determined as a
percentage of basic pay. The contribution from Treasury represents the amortization of the unfunded liability for
service performed prior to October 1, 1984, as well as the amortization of actuarial gains and losses that have
arisen since then. The Treasury annual contribution also includes the normal cost amount for the concurrent
receipt provisions of the fiscal year 2004 National Defense Authorization Act.

Medicare-Eligible Retiree Health Care Fund (MERHCF), 10 USC 1111. The MERHCF accumulates funds to
finance, on an actuarially sound basis, liabilities of the Department and the uniformed services health care
programs for specific Medicare-eligible beneficiaries. The MERHCF was authorized by Public Law 106-398.
Financing sources for MERHCF are provided primarily through an annual actuarial liability payment from Treasury,
annual contribution(s) from the Military Services and other Uniformed Services (US Coast Guard, the National
Oceanic and Atmospheric Administration, and the US Public Health Service), and interest earned from the Fund’s
investments.

Other Earmarked Funds

Special Recreation Use Fees, 16 USC 4061-6a note. The United States Army Corps of Engineers (USACE) is
granted the authority to charge and collect fair and equitable Special Recreation Use Fees at campgrounds located
at lakes or reservoirs that are under the jurisdiction of the USACE. Types of allowable fees include, but are not
limited to, daily use fees, admission fees, recreational fees, annual pass fees, and other permit type fees. The
receipts are used for the operation and maintenance of the recreational sites.

Hydraulic Mining in California, Debris, 33 USC 683. Operators of hydraulic mines through which debris flows
in part or in whole to a body restrained by a dam or other work erected by the California Debris Commission are

                                                         154
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


required to pay an annual tax as determined by the Commission. Taxes imposed under this code are collected and
then expended under the supervision of the USACE and the direction of the Department of the Army. The funds
are used for repayment of funds advanced by the federal government or other agency for construction, restraining
works, settling reservoirs, and maintenance.

Payments to States, Flood Control Act of 1954, 33 USC 701c-3. Seventy-five percent of all funds received and
deposited from the leasing of lands acquired by the United States for flood control, navigation and allied purposes,
including the development of hydroelectric power, are returned to the state on which the property is located.
The USACE collects lease receipts into a receipt account. Funds are appropriated for the amount of receipts the
following fiscal year.

Maintenance and Operation of Dams and Other Improvements of Navigable Waters, 16 USC 803(f) and 810.
The United States Code (USC) states, “all proceeds from any Indian reservation shall be placed to the credit of the
Indians of such reservation.” However, the USC also states, “all other charges arising from licenses” except those
charges established by the Federal Power Commission, now known as the Federal Energy Regulatory Commission,
for purpose of administrative reimbursement shall be paid to the Treasury from which specific allocations will be
made. From the specific allocations, 50% of charges from “all other licenses” is reserved and appropriated as a
special fund in the Treasury to be expended under the direction of the Secretary of the Army in the maintenance,
operation and improvement of dams and other navigation structures that are owned by the United States or in
construction, maintenance, or operation of headwater or other improvements of navigable waters of the United
States.

Fund for Non-Federal Use of Disposal Facilities (for dredged material), 33 USC 2326. Any dredged material
disposal facility under the jurisdiction of, or managed by, the Secretary of the Army (Secretary) may be used by a
nonfederal interest if the Secretary determines that such use will not reduce the availability of the facility for project
purposes. Fees may be imposed to recover capital, operation and maintenance costs associated with such use.
Any monies received through collection of fees under this law shall be available to, and used by, the Secretary for
the operation and maintenance of the disposal facility from which the fees were collected.

South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund, Public Law 106-53 Sec. 603. Yearly transfers
are made from the General Fund of the Treasury to the Trust Fund for investment purposes. Investment activity
is managed by the Bureau of Public Debt (BPD). The BPD purchases and redeems nonmarketable market-based
securities issued by the BPD. Investments include one-day certificates, bonds and notes. When the fund reaches
the aggregate amount of $108 million, withdrawals may be made by the USACE for payment to the State of South
Dakota. The state uses the payments to fund the annually scheduled work for wildlife habitat restoration.

Coastal Wetlands Restoration Trust Fund and Coastal Wetlands Planning, Protection and Restoration Act,
16 USC 3951-3956. The USACE, (along with the Environmental Protection Agency, and the Fish and Wildlife
Service) is granted the authority to work with the State of Louisiana to develop, review, evaluate, and approve
a plan to achieve a goal of “no net loss of wetlands” in coastal Louisiana. The USACE is also responsible for
allocating funds among the named task force members. Federal contributions are established at 75% of project
costs or 85% if the State has an approved Coastal Wetlands Conservation Plan.




                                                           155
                                           Department of Defense Performance and Accountability Report FY 2006
            .................................................................. Section 3: Financial Information


Rivers and Harbors Contributed and Advance Funds, 33 USC 701h, 702f, and 703. Whenever any state or
political subdivision offers to advance funds for a flood control project duly adopted and authorized by law, the
Secretary of the Army, may in his discretion, receive such funds and expend them in the immediate prosecution
of such work. The funding may be used to construct, improve, and maintain levees, water outlets, flood control,
debris removal, rectification and enlargement of river channels, etc. in the course of flood control and river/harbor
maintenance.

Inland Waterways Trust Fund, 26 USC 9506. This law made the Inland Waterways Trust Fund available for
USACE expenditures for navigation, construction, and rehabilitation projects on inland waterways. Collections for
excise taxes from the public are made into the Trust Fund. The collections are invested and investment activity is
managed by the BPD. The BPD purchases and redeems nonmarketable market-based securities issued by the BPD.
Investments include one-day certificates, bonds and notes. The fund is classified as a trust fund and utilizes receipt
and expenditure accounts in accounting for and reporting the fund.

Harbor Maintenance Trust Fund, 26 USC 9505. The USACE Civil Works mission is funded by the Energy and
Water Developments Appropriations Act. The Water Resources Development Act of 1986 was implemented to
cover a portion of USACE operations and maintenance costs for deep draft navigation. The Harbor Maintenance
Trust Funds is available for making expenditures to carry out the functions specified in the act and for the payment
of all expenses of administration incurred by the Treasury, USACE, and the Department of Commerce. Collections
are made into the Trust Fund from taxes collected from imports, domestics, passengers and foreign trade. The
collections are invested and investment activity is managed by the BPD. The fund is classified as a trust fund and
utilizes receipt and expenditure accounts in accounting for and reporting the fund.

Foreign National Employees Separation Pay Account Trust Fund, 10 USC 1581. This fund is used to make
payments from amounts obligated by the Secretary of Defense that remain unexpended for separation pay for
foreign national employees of the Department. The foreign national employees’ separation pay funded by Foreign
Military Sales administrative funds is maintained as a separate fund.

Defense Commissary Agency Surcharge Revenue, 10 USC 2685. The Defense Commissary Agency Surcharge
account was established as the repository for the surcharge on the cost of commissary goods paid for by authorized
patrons to finance certain operating expenses and capital purchases of the Commissary System, which are
precluded by law from being paid with appropriated funds. The major part of the Surcharge public revenue is
generated by the 5% surcharge applied to each sale. These funds may be used to pay for the commissary store-
related information technology investments, to purchase commissary equipment, to finance advance design
modifications to prior year projects, for both minor and major construction projects and to maintain and repair
commissary facilities and equipment. The surcharge account also allows for obligations based on anticipated
proceeds without regard to fiscal year limitations, if needed to carry out the uses of the revenue as identified.




                                                         156
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



Note 24. Other Disclosures

          As of September 30                                               2006 Asset Category
          (amounts in millions)          Land and Buildings           Equipment                  Other               Total
 ENTITY AS LESSEE-Operating Leases
 Future Payments Due
   FY 2007                           $                  188.9   $                 1.3   $                124.2   $             314.4
   FY 2008                                              176.6                     0.1                    127.9                 304.6
   FY 2009                                              163.9                     0.1                    131.7                 295.7
   FY 2010                                              155.8                     0.1                    135.7                 291.6
   FY 2011                                              173.0                     0.0                    139.8                 312.8
   After 5 Years	                                       188.6                     0.0                    143.4                 332.0
   Total Future Lease Payments Due   $                1,046.8   $                 1.6   $                802.7   $           1,851.1


Note 25. Restatements

The Department posted prior period adjustments due to material errors that reduced the FY 2005 and FY 2006
beginning cumulative results of operations by $8.1 billion. The total is comprised primarily of an adjustment due
to a change in the methodology for reporting of military equipment resulting in an $8.2 billion restatement, offset
slightly by a $124.9 million adjustment to recognize an intragovernmental other asset for 6.4 million barrels of
crude oil held by the Department of Energy on behalf of the DoD. A portion of the military equipment adjustment
also impacted the FY 2005 Statement of Net Cost however the cost and manpower to develop the prior year value
for the depreciation expense prohibited the Department from restating the Statement of Net Cost.

Military Equipment Adjustment

In accordance with Statement of Federal Financial Accounting Standards (SFFAS) Number 23, Eliminating the
Category National Defense Property, Plant, and Equipment, the Department reported military equipment values in
the financial statements beginning in FY 2003. As an interim measure, while the Department worked to develop
its military equipment baseline from internal records, the military equipment values reported were based on
estimates obtained from the Bureau of Economic Analysis (BEA).

Effective 3rd Quarter, FY 2006, the Department replaced the BEA estimation methodology with a valuation based
on transaction level details. During the process of establishing a baseline, the Department discovered that the
BEA estimates had failed to consider disposals, thresholds, and construction in process. While an estimation
methodology is acceptable per SFFAS Number 23, due to the nature of the BEA omissions, the Department
considers that the method previously used was not compliant with Generally Accepted Accounting Principles, and
thus have treated the adjustment as correction of a material error.

The resulting adjustment decreased the value of general property, plant, and equipment and associated
accumulated depreciation. This reduced General Plant, Property and Equipment, Net on in the Balance Sheet by
$8.2 billion for FY 2005 and FY 2006.



                                                                157
                                                 Department of Defense Performance and Accountability Report FY 2006
              .................................................................. Section 3: Financial Information


Intragovernmental Other Asset for Strategic Petroleum Reserve

During FY 2006, as part of the trading partner reconciliation process, the Department recognized that it had
erroneously expensed funds provided to the Department of Energy (DoE) in FY 1993 for the acquisition of a
strategic petroleum reserve for national defense purposes. Legislation enacted in November 1992 Public Law
102-396, Sec. 9149 provided appropriations to DoD and established the requirement that they be transferred to
DoE to acquire and maintain the reserve for national defense purposes on behalf of DoD. By law, the reserve
cannot be drawn down or released to DoD without the President (with the advice of the Secretary of Defense)
making findings under Section 161(d) of the Energy Policy and Conservation Act (42 USC 6241(d)). According to
the law, proceeds of any sales of this reserve will be deposited to the accounts of, and remain available to DoD
until expended. Due to the unusual nature of this asset and the specifics of the law that enacted the requirement
the Department considered it qualitatively material and chose to recognize the asset with restatement.

In 4th quarter, FY 2006 DoD increased the value of Other Assets for FY 2005 and FY 2006 in the Balance Sheet by
$124.9 million to recognize the right to the approximately 6.4 million barrels of crude oil. The DoE reports this
crude oil as a non-entity asset in its financial statements, with an offsetting custodial liability to DoD. To date none
of the reserve has been drawn upon, thus the full inventory remains on hand with DoE.



                    Required Supplementary Stewardship Information

Nonfederal Physical Property

                                                  Department Of Defense Consolidated
                                                      Nonfederal Physical Property
                         Annual Investments In State And Local Governments For Fiscal Years 2002 Through 2006
                                                         (In Millions Of Dollars)

                        Categories                           FY 2002        FY 2003        FY 2004        FY 2005     FY 2006
 Transferred Assets:
 National Defense Mission Related                                      $7          $85            $54           $71      $1,295
 Funded Assets:
 National Defense Mission Related                                   $21            $11            $18            $8          $9
 Total                                                              $28            $96            $72           $79      $1,304


The Department incurs investments in Nonfederal Physical Property for the purchase, construction, or major
renovation of physical property owned by state and local governments, including major additions, alterations,
and replacements, the purchase of major equipment, and the purchase or improvement of other physical assets.
In addition, Nonfederal Physical Property Investments include federally-owned physical property transferred to
state and local governments. The significant increase in assets from FY 2005 to FY 2006 is a result of assets now
reported by the U.S. Army Corps of Engineers.




                                                                 158
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures).
Outlays are used because current Department accounting systems are unable to capture and summarize costs in
accordance with federal accounting standards.

Investments in Research and Development

                                                  Department Of Defense Consolidated
                                               Investments In Research And Development
                          Annual Investments In Research And Development For Fiscal Years 2002 Through 2006
                                                        (In Millions Of Dollars)
                       Categories                         FY 2002        FY 2003        FY 2004        FY 2005         FY 2006
 Basic Research                                               $1,356         $1,444         $1,554            $1,404       $1,342
 Applied Research                                              4,311          4,388          4,639             4,527        4,433
 Development
   Advanced Technology Development                             4,604          5,080          6,178             7,045        5,904
   Demonstration and Validation                               10,525         11,928         14,779            15,971       13,581
   Engineering and Manufacturing Development                   9,500         11,234         14,633            16,190       17,454
   Research, Development, Test & Evaluation
                                                               3,351          3,210          4,188             4,431        4,719
   Management Support
   Operational Systems Development                            11,804         12,289         14,906            16,324       15,060
 Total                                                      $45,451         $49,573        $60,877        $65,892         $62,493


Investment values included in this report are based on Research and Development outlays (expenditures).
Outlays are used because current Department accounting systems are unable to capture and summarize costs in
accordance with the federal accounting standards.

Research and Development programs are classified in the following categories: Basic Research, Applied Research,
and Development. The following table presents representative program examples for each of the major Research
and Development categories and highlights outcomes.




                                                                159
                                                     Department of Defense Performance and Accountability Report FY 2006
             .................................................................. Section 3: Financial Information



                                                          Department of Defense
                                                 Investments in Research and Development

 Basic Research
Systematic study to gain knowledge or understanding of the fundamental aspects of phenomena and of observable facts without specific
applications, processes, or products in mind.

          Major Program Areas                                                               Outcomes
Defense Research Sciences                    Provides new technologies for the Army’s Future Force, and fosters innovation in niche areas where
                                             investment is lacking due to limited markets.
University and Industry Research Centers     Leverages research in the private sector through Collaborative Technology Alliances, Centers of
                                             Excellence, and the University Affiliated Research Centers. Partners with academia, entertainment
                                             and gaming industries to leverage innovation research and concepts for training and design.
Radar Resonant Enhanced Multi-Photo
                                             Designing more efficient high-speed vehicles by better understanding hypersonic flows.
Ionization

Applied Research
Systematic study to understand the means to meet a recognized specific national security requirement. Systematic application of knowledge to
develop useful materials, devices, and system or methods.

          Major Program Areas                                                               Outcomes
Materials Technology                         Matures materials technology for armor and armaments lethality and survivability capabilities to be
                                             fielded in the Future Combat Systems and Future Force systems.

                                             Provides the technology base required for solving materials-related problems in individual Soldier
                                             support equipment, armor, armaments, aircraft, ground and combat vehicles and combat support.
Combat Vehicle and Automotive                Improves survivability, mobility, sustainability, and maintainability of Army ground vehicles.
Technology
                                             Supports transformation goals by reducing reliance on heavy passive armor using a layered
                                             approach, substituting long-rang situational awareness, multi-spectral signature reduction, active
                                             protection systems and advanced lightweight armor.
Nanorobot Fabrication Makes Ultrasmall       Leverages nano technology to enhance surveillance capabilities using infrared cameras small
Sensors Possible                             enough to fit into mini-unmanned aerial vehicles.
Free-Electron Laser Being Developed For      Provides shipboard defense against enemy threats from missiles to small fishing boats. The strength
Shipboard Defense                            of the laser may also be useful for penetrating the ground to aid in detecting improvised explosive
                                             devices and land mines.
Commander’s Predictive Environment           Create capabilities that will enable commanders to anticipate and shape battlespace.

                                             Anticipate the strengths, capabilities and vulnerabilities of adversaries.
Hard Target Defeat                           Develop tunnel and hard target attack technologies, including testing advanced energetic materials,
                                             using new explosive mixtures in penetrating warheads.




                                                                       160
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................



                                                            Department of Defense
                                                   Investments in Research and Development

 Development
 Takes what has been discovered or learned from basic and applied research and uses it to establish: technological feasibility, assessment of
 operability, and production capability. Development is comprised of five stages: advanced technology, development, advanced component
 development and prototypes, system development and demonstration; management support, and operational systems development.

           Major Program Areas                                                                Outcomes
 Test Ranges and Facilities and Research,      Sustains the Department’s required developmental test and evaluation capability and operates the
 Development, Test and Evaluation              developmental test activities required by weapons systems developers.
 Management Support
                                               Operates White Sands Missile Range (NM), Aberdeen Test Center (MD), Yuma Proving Ground (AZ),
                                               Aviation Technical Test Center (AL), Redstone Arsenal (AL), and Electronic Proving Ground (AZ)

                                               Supports research and development efforts and includes test ranges, military construction,
                                               maintenance support of laboratories, and operations and maintenance of test aircraft and ships.

                                               Funds the planning, improvements and modernization for three national asset test centers.

                                               Two efforts utilizing these unique test capabilities are the Propulsion Wind Tunnel Upgrade at Arnold
                                               Engineering Development Center and the Threat Simulator Development/Low Radar Cross Section
                                               threat modeling and simulation

                                               Provides resources for test planning and safety verification and confirmation.

                                               Achieved successful launches of military satellites, utilizing Titan, and Atlas and Delta.

                                               Develops the Family of Advanced Beyond Line of Sight Terminals to provide robust, secure, strategic
                                               and tactical global communications for nuclear and conventional forces.
 Electronic Warfare Advanced Technology        Provides technologies for a secure, mobile, wireless network that operates in diverse and complex
                                               terrain.

                                               Also matures:
                                                  Protection technologies for tactical wireless networks
                                                  Smart communication technologies to enable network and control of unmanned systems
                                                  shortening the sensor-decider-engagement time to defeat critical targets.
 Advanced Tank Armament System                 Improves the deploy ability and operational effectiveness of rapid response/early entry forces.

                                               Leverages common platform/common chassis design which reduces requirements for repair parts
                                               and logistics support in the area of operations.
 Multiple Launch Rocket System Product         Supports improvements to High Mobility Artillery Rocket System, Guided Multiple Launch Rocket
 Improvement Program                           System and Unitary munition which provide precision strike capability.
 Plumbing the Chemistry of Iraq Improvised     Analyzing molecular interaction of explosive materials to study the physics and chemistry of
 Explosive Devices                             improvised explosive devices and to find techniques to detonate or short circuit the devices before
                                               causing harm.
 Assured Fuel Initiative                       Developing new fuel alternatives based on mixtures of conventional fuel, natural gas and coal to
                                               power jets.
 Air Defense Command, Control and              Integrates Air and Missile Defense operations.
 Intelligence -- Engineering Development
                                               Provides continuously tailored situational awareness and situational understanding of the battle
                                               space.


                                                                         161
                                             Department of Defense Performance and Accountability Report FY 2006
             .................................................................. Section 3: Financial Information



                                 Required Supplementary Information

Heritage Assets

                                             Department Of Defense Consolidated
                                                        Heritage Assets
                                           For Fiscal Year Ended September 30, 2006

                                                    Unit of          As of                                        As of
                    Categories                                                    Additions        Deletions
                                                   Measure          10/01/05                                     9/30/06
 Museums                                             Each                 241                              138          103
 Monuments and Memorials                             Each               2,010              12                         2,022
 Cemeteries                                          Sites                565               6                           571
 Archeological Sites                                 Sites             93,906           4,005                        97,911
 Buildings and Structures                            Each              25,311                            1,867       23,444
 Major Collections                                   Each                  90                 20                        110


Heritage Assets are real and personal property with importance at the national level due to their significant
historical, natural, cultural, educational, artistic, architectural, or, aesthetic value. Heritage Assets can include
museums and/or their collections, art and other collections, archival records, cemeteries, monuments and
memorials, and archeological sites.

Establishing items as having heritage significance varies among categories and type of assets. Subject matter
experts, criteria such as listing on the National Register of Historic Places, and Federal laws, all play a significant
role in characterizing these assets.

The fiscal year 2006 categories are defined as follows:

Museums. Buildings that house collection-type items including artwork, archeological artifacts, archival materials,
and other historical artifacts. The primary use of such buildings is the preservation, maintenance and display of
collection-type Heritage Assets.

Monuments and Memorials. Sites and structures built to honor and preserve the memory of significant individuals
and/or events in history.

Cemeteries. Land on which gravesites of prominent historical figures or honored individuals are located.

Archeological Sites. Land on which items of archeological significance are located.

Buildings and Structures. Includes buildings and structures that are listed on, or are eligible for listing on,
the National Register of Historic Places, including Multi-Use Heritage Assets. These buildings do not include
museums.

Major Collections. Significant collections that are maintained outside of a museum.

                                                              162
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


Stewardship Land

                                        Department Of Defense Consolidated Stewardship Land
                                              For Fiscal Year Ended September 30, 2006
                                                         (Acres In Thousands)

                         Land Use                    As of 10/01/05            Additions        Deletions                As of 9/30/06
 Mission                                                     16,669                        --               654                      16,015
 Parks and Historic Sites                                         1                        --                 --                          1
 Total                                                       16,700                                                                  16,016


Stewardship Land is land that is not acquired for, or in connection with, items of General Property, Plant and
Equipment. All land, regardless of its use, provided to the Department from the Public Domain, or at no cost, is
classified as Stewardship Land. Stewardship Land is reported in physical units (acres) rather than cost or fair value.

Deferred Maintenance of Real Property

Sustainment is the maintenance and repair activities necessary to keep the Department’s real property (buildings,
structures, and utilities) in good working order. It includes regularly scheduled adjustments and inspections,
preventive maintenance tasks, and emergency response and service calls for minor repairs. It also includes major
repairs or replacement of facility components (usually accomplished by contract) that are expected to occur
periodically throughout the life cycle of facilities. This work includes regular roof replacement, refinishing of wall
surfaces, repairing and replacement of heating and cooling systems, replacing tile and carpeting, and similar types
of work. It does not include environmental compliance costs, facility leases, or other tasks associated with facilities
operations (such as custodial services, grounds services, waste disposal, and the provision of central utilities). The
Department’s fiscal year 2006 sustainment requirements were $7.5 billion and it received $6.5 billion to fund
these requirements leaving a deferred sustainment requirement of $1.0 billion this year. The Department’s deferred
sustainment trend for the past several years is summarized below:


                                            Annual Deferred Sustainment Trend ($Millions)

 Property Type                                   FY 2001        FY 2002            FY 2003      FY 2004            FY 2005       FY 2006
 Buildings, Structures, and Utilities               $2,036            $1,762           $1,555      $2,127             $1,876             $984


Restoration is returning the Department’s real property (buildings, structures, and utilities) to such a condition that
it may be used for its designated purpose. Restoration includes repair or replacement work to restore facilities
damaged by inadequate sustainment, excessive age, natural disaster, fire, accident, or other causes. Modernization
is the alteration or replacement of facilities solely to implement new or higher standards, to accommodate new
functions, or to replace building components that typically last more than 50 years (such as the framework or
foundation).




                                                                163
                                            Department of Defense Performance and Accountability Report FY 2006
            .................................................................. Section 3: Financial Information


Beginning in fiscal year 2005, the Department began transitioning to a more consistent and verifiable methodology
to assess the total restoration and modernization requirements by using a standardized Department-wide quality
rating system to replace the former Military Service-defined condition ratings. Until a standardized methodology
is in place, the Department is unable to report its restoration and modernization requirements. The Department
Component’s financial statements contain detailed information on the restoration and modernization estimates.

The United States Army Corps of Engineers reports $1.8 million of deferred maintenance for water resources
projects. This amount is not included in the table above. It is reported separately due to the nature of the projects
and the different methodology used to calculate the amount reported.



Deferred Maintenance of Military Equipment

Depot maintenance requirements for military equipment are developed during the annual budget process. The
depot maintenance requirements for individual items are determined by considering numerous factors. Analysis
factors include: changes in the fleet size or in-use inventory; the date of last overhaul or operating hours since last
overhaul; the current maintenance engineering plan expressed as a time interval or as an operational factor; and
the planned operating tempo expressed in miles, flying hours, or steaming hours. The depot maintenance cost
for each major program is determined using costing models. Fiscal constraints determine requirements that are
funded. The deferred maintenance numbers reported in the table below reflect the difference. The Department
Components’ financial statements contain detailed information on each program.

		                                            Deferred Maintenance
	Military Equipment Type	                     (Amounts in millions)
 Aircraft 	                                                 $290.9
 Engines	                                                      25.8
 Software	                                                     97.0
 Other Major End Items	                                         4.2
 Ships 	                                                       26.0
 Missiles 	                                                  233.5
 Combat Vehicles 	                                           382.4
 Other Weapon Systems 	                                      533.2
 Total 	                                                  $1,593.0




                                                          164
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


                         Statement of Disaggregated Budgetary Resources
Department of Defense
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the Years Ended September 30, 2006 and 2005
($ in Millions)
                                                                                                                     Research, Development,
                                                                Military Retirement Fund       Other
                                                                                                                        Test & Evaluation
BUDGETARY FINANCING ACCOUNTS
Budgetary Resources
Unobligated balance, brought forward, October 1             $                        97.2 $              9,528.1 $                    9,924.9
Recoveries of prior year unpaid obligations                                           0.0                  416.3                      2,698.8
Budget authority
   Appropriation                                                                 83,655.0               62,205.3                     69,379.9
   Borrowing authority                                                                0.0                    0.0                          0.0
   Contract authority                                                                 0.0                  372.9                          0.1
   Spending authority from offsetting collections
       Earned
          Collected                                                                    0.0               2,175.5                      8,364.8
          Change in receivables from Federal sources                                   0.0                  28.7                      (274.3)
       Change in unfilled customer orders
          Advance received                                                             0.0                   14.7                      (46.9)
          Without advance from Federal sources                                         0.0                  (1.3)                       704.5
   Subtotal                                                                       83,655.0              64,795.8                    78,128.1
Nonexpenditure transfers, net, anticipated and actual                                  0.0              (8,405.3)                       942.0
Temporarily not available pursuant to Public Law                                (35,442.9)                (293.4)                         0.0
Permanently not available                                                              0.0                (404.1)                   (1,404.0)
Total Budgetary Resources                                   $                     48,309.3 $            65,637.4 $                  90,289.8

Status of Budgetary Resources
Obligations incurred:
   Direct                                                   $                    48,309.3 $             55,775.1 $                   69,234.8
   Reimbursable                                                                       0.0                1,381.5                      8,805.2
   Subtotal                                                                      48,309.3               57,156.6                     78,040.0
Unobligated balance:
   Apportioned                                                                        0.0                6,066.7                     11,459.1
   Exempt from apportionment                                                          0.0                  724.0                          0.0
   Subtotal                                                                           0.0                6,790.7                     11,459.1
Unobligated balance not available                                                     0.0                1,690.1                        790.7
Total Status of Budgetary Resources                         $                    48,309.3 $             65,637.4 $                   90,289.8

Change in Obligated Balance
Obligated balance, net
   Unpaid obligations, brought forward, October 1           $                     3,709.0 $              6,709.8 $                  33,995.6
   Less: Uncollected customer payments                                                0.0                (117.0)                    (5,336.3)
   from Federal sources, brought forward, October 1
   Total unpaid obligated balance                                                 3,709.0                 6,592.8                    28,659.3
Obligations incurred net                                                         48,309.3                57,156.6                    78,040.0
Less: Gross outlays                                                             (48,211.3)             (54,419.7)                  (73,069.0)
Obligated balance transferred, net:
  Actual transfers, unpaid obligations                                                 0.0                   0.0                          0.0
  Actual transfers, uncollected customer                                               0.0                   0.0                          0.0
     payments from Federal sources
   Total Unpaid obligated balance transferred, net                                     0.0                    0.0                         0.0
Less: Recoveries of prior year unpaid obligations, actual                              0.0                (416.3)                   (2,698.8)
Change in uncollected customer payments from Federal                                   0.0                 (27.0)                     (430.3)
    sources
Obligated balance, net, end of period:
   Unpaid obligations                                                             3,807.0                9,030.4                    36,267.8
   Less: Uncollected customer payments                                                0.0                (144.0)                    (5,766.6)
     from Federal sources
        Total, unpaid obligated balance, net, end of
        period                                                                    3,807.0                8,886.4                     30,501.2
Net Outlays:
   Gross outlays                                            $                     48,211.3 $            54,419.7 $                  73,069.0
   Less: Offsetting collections                                                        0.0              (2,190.2)                   (8,317.9)
   Less: Distributed Offsetting receipts                                        (57,326.7)              (2,608.3)                         0.0
   Net Outlays                                              $                    (9,115.4) $            49,621.2 $                  64,751.1




                                                                        165
                                                            Department of Defense Performance and Accountability Report FY 2006
                .................................................................. Section 3: Financial Information


Department of Defense
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the Years Ended September 30, 2006 and 2005
($ in Millions)
                                                                      Civil Works                Operation and Maintenance     Procurement
BUDGETARY FINANCING ACCOUNTS
Budgetary Resources
Unobligated balance, brought forward, October 1                $                     5,003.2 $                     7,788.4 $             25,206.4
Recoveries of prior year unpaid obligations                                              0.0                      16,383.9                3,937.2
Budget authority
   Appropriation                                                                    12,439.7                     211,473.2              103,401.6
   Borrowing authority                                                                   0.0                            0.0                   0.0
   Contract authority                                                                    0.0                          (0.1)                   0.0
   Spending authority from offsetting collections
       Earned
          Collected                                                                  9,407.1                      26,302.8                   2,796.7
          Change in receivables from Federal sources                                 1,690.7                       (641.7)                     (92.4)
       Change in unfilled customer orders
          Advance received                                                               22.7                          47.2                   33.6
          Without advance from Federal sources                                       (719.5)                           (6.3)                  31.1
   Subtotal                                                                         22,840.7                     237,175.1              106,170.6
Nonexpenditure transfers, net, anticipated and actual                                   (8.1)                       3,205.7                3,299.4
Temporarily not available pursuant to Public Law                                       (10.0)                            0.0                   0.0
Permanently not available                                                              (54.5)                     (3,944.1)              (2,704.6)
Total Budgetary Resources                                      $                    27,771.3 $                   260,609.0 $            135,909.0

Status of Budgetary Resources
Obligations incurred:
   Direct                                                      $                     6,902.3 $                   225,864.2 $            100,135.7
   Reimbursable                                                                     11,500.7                      25,193.7                2,951.8
   Subtotal                                                                         18,403.0                     251,057.9              103,087.5
Unobligated balance:
   Apportioned                                                                       8,621.4                       3,817.1               31,779.6
   Exempt from apportionment                                                           746.8                           0.0                    0.0
   Subtotal                                                                          9,368.2                       3,817.1               31,779.6
Unobligated balance not available                                                        0.1                       5,734.0                1,041.9
Total Status of Budgetary Resources                            $                    27,771.3 $                   260,609.0 $            135,909.0

Change in Obligated Balance
Obligated balance, net
   Unpaid obligations, brought forward, October 1              $                  3,945.4 $                       86,482.8 $              97,411.4
   Less: Uncollected customer payments                                          (5,450.0)                        (11,294.6)              (2,664.1)
   from Federal sources, brought forward, October 1
   Total unpaid obligated balance                                               (1,504.6)                          75,188.2               94,747.3
Obligations incurred net                                                         18,403.0                         251,057.9             103,087.5
Less: Gross outlays                                                            (16,870.3)                       (229,372.1)             (92,351.7)
Obligated balance transferred, net:
  Actual transfers, unpaid obligations                                                   0.0                           0.0                       0.0
  Actual transfers, uncollected customer                                                 0.0                           0.0                       0.0
     payments from Federal sources
   Total Unpaid obligated balance transferred, net                                       0.0                            0.0                    0.0
Less: Recoveries of prior year unpaid obligations, actual                                0.0                     (16,383.9)              (3,937.2)
Change in uncollected customer payments from Federal                                 (971.2)                          648.0                   61.3
    sources
Obligated balance, net, end of period:
   Unpaid obligations                                                             5,478.1                          91,784.7             104,210.0
   Less: Uncollected customer payments                                          (6,421.2)                        (10,646.6)              (2,602.8)
     from Federal sources
        Total, unpaid obligated balance, net, end of
        period                                                                       (943.1)                      81,138.1              101,607.2
Net Outlays:
   Gross outlays                                               $                16,870.3 $                       229,372.1 $             92,351.7
   Less: Offsetting collections                                                 (9,429.8)                        (26,350.0)              (2,830.4)
   Less: Distributed Offsetting receipts                                        (1,906.6)                           (136.6)                    0.0
   Net Outlays                                                 $                  5,533.9 $                      202,885.5 $             89,521.3




                                                                        166
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


Department of Defense
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the Years Ended September 30, 2006 and 2005
($ in Millions)
                                                                                            Military Construction/Family
                                                                Military Personnel                                           Working Capital Funds
                                                                                                      Housing
BUDGETARY FINANCING ACCOUNTS
Budgetary Resources
Unobligated balance, brought forward, October 1             $                     899.9 $                        5,705.6 $                    4,435.8
Recoveries of prior year unpaid obligations                                     4,045.7                            779.6                      1,980.7
Budget authority
   Appropriation                                                             124,884.7                         10,046.8                      4,196.5
   Borrowing authority                                                             0.0                              0.0                          0.0
   Contract authority                                                              0.0                              0.0                     59,078.8
   Spending authority from offsetting collections
       Earned
          Collected                                                             1,012.6                          4,625.6                   110,032.4
          Change in receivables from Federal sources                            (209.0)                            (78.1)                      225.1
       Change in unfilled customer orders
          Advance received                                                           0.0                          321.1                         (78.5)
          Without advance from Federal sources                                     (6.1)                          664.9                        (488.2)
   Subtotal                                                                  125,682.2                         15,580.3                    172,966.1
Nonexpenditure transfers, net, anticipated and actual                           2,804.3                         (433.6)                      (1,586.6)
Temporarily not available pursuant to Public Law                                     0.0                            0.0                            0.0
Permanently not available                                                     (1,393.4)                         (533.3)                    (61,416.5)
Total Budgetary Resources                                   $                132,038.7 $                       21,098.6 $                   116,379.5

Status of Budgetary Resources
Obligations incurred:
   Direct                                                   $                130,216.5 $                        8,802.3 $                    1,191.8
   Reimbursable                                                                  922.1                          5,288.4                    109,477.9
   Subtotal                                                                  131,138.6                         14,090.7                    110,669.7
Unobligated balance:
   Apportioned                                                                   206.7                          6,881.7                      5,790.0
   Exempt from apportionment                                                       0.0                              0.0                      (250.4)
   Subtotal                                                                      206.7                          6,881.7                      5,539.6
Unobligated balance not available                                                693.4                            126.2                        170.2
Total Status of Budgetary Resources                         $                132,038.7 $                       21,098.6 $                  116,379.5

Change in Obligated Balance
Obligated balance, net
   Unpaid obligations, brought forward, October 1           $                   2,745.5 $                      13,080.9 $                    52,365.1
   Less: Uncollected customer payments                                          (192.1)                        (5,009.8)                   (24,523.0)
   from Federal sources, brought forward, October 1
   Total unpaid obligated balance                                               2,553.4                          8,071.1                     27,842.1
Obligations incurred net                                                      131,138.6                        14,090.7                     110,669.7
Less: Gross outlays                                                         (126,210.3)                       (11,345.3)                  (111,777.7)
Obligated balance transferred, net:
  Actual transfers, unpaid obligations                                               0.0                             0.0                             0.0
  Actual transfers, uncollected customer                                             0.0                             0.0                             0.0
     payments from Federal sources
   Total Unpaid obligated balance transferred, net                                  0.0                              0.0                          0.0
Less: Recoveries of prior year unpaid obligations, actual                     (4,045.7)                          (779.6)                    (1,980.7)
Change in uncollected customer payments from Federal                              215.1                          (586.8)                        263.1
    sources
Obligated balance, net, end of period:
   Unpaid obligations                                                           3,628.1                        15,046.7                      49,276.4
   Less: Uncollected customer payments                                             23.0                        (5,596.6)                   (24,259.9)
     from Federal sources
        Total, unpaid obligated balance, net, end of
        period                                                                  3,651.0                          9,450.1                    25,016.4
Net Outlays:
   Gross outlays                                            $                126,210.3 $                        11,345.3 $                  111,777.7
   Less: Offsetting collections                                               (1,012.6)                        (4,946.7)                  (109,953.9)
   Less: Distributed Offsetting receipts                                            0.0                              0.0                          0.0
   Net Outlays                                              $                125,197.7 $                         6,398.6 $                    1,823.8




                                                                      167
                                             Department of Defense Performance and Accountability Report FY 2006
.................................................................. Section 3: Financial Information


Department of Defense
STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
For the Years Ended September 30, 2006 and 2005
($ in Millions)
                                                                  2006 Combined           2005 Combined
BUDGETARY FINANCING ACCOUNTS
Budgetary Resources
Unobligated balance, brought forward, October 1             $                68,589.5 $              73,282.9
Recoveries of prior year unpaid obligations                                  30,242.2                36,376.7
Budget authority
   Appropriation                                                            681,682.7               604,969.5
   Borrowing authority                                                            0.0                     0.0
   Contract authority                                                        59,451.7                56,753.1
   Spending authority from offsetting collections
       Earned
          Collected                                                         164,717.5               158,928.0
          Change in receivables from Federal sources                            649.0                   (18.2)
       Change in unfilled customer orders
          Advance received                                                      313.9                    642.0
          Without advance from Federal sources                                  179.1                  5,065.9
   Subtotal                                                                906,993.9                826,340.3
Nonexpenditure transfers, net, anticipated and actual                         (182.2)                    264.5
Temporarily not available pursuant to Public Law                           (35,746.3)               (31,875.4)
Permanently not available                                                  (71,854.5)               (58,299.7)
Total Budgetary Resources                                   $              898,042.6 $              846,089.3

Status of Budgetary Resources
Obligations incurred:
   Direct                                                   $               646,432.0 $             601,516.8
   Reimbursable                                                             165,521.3               175,983.1
   Subtotal                                                                 811,953.3               777,499.9
Unobligated balance:
   Apportioned                                                               74,622.3                59,206.9
   Exempt from apportionment                                                  1,220.4                   725.9
   Subtotal                                                                  75,842.7                59,932.8
Unobligated balance not available                                            10,246.6                 8,656.6
Total Status of Budgetary Resources                         $               898,042.6 $             846,089.3

Change in Obligated Balance
Obligated balance, net
   Unpaid obligations, brought forward, October 1           $              300,445.5 $              282,772.9
   Less: Uncollected customer payments                                     (54,586.9)               (49,538.8)
   from Federal sources, brought forward, October 1
   Total unpaid obligated balance                                           245,858.6               233,234.1
Obligations incurred net                                                    811,953.3               777,499.9
Less: Gross outlays                                                       (763,627.4)             (723,450.6)
Obligated balance transferred, net:
  Actual transfers, unpaid obligations                                            0.0                     0.0
  Actual transfers, uncollected customer                                          0.0                     0.0
     payments from Federal sources
   Total Unpaid obligated balance transferred, net                                0.0                      0.0
Less: Recoveries of prior year unpaid obligations, actual                  (30,242.2)               (36,376.7)
Change in uncollected customer payments from Federal                          (827.8)                (5,048.0)
    sources
Obligated balance, net, end of period:
   Unpaid obligations                                                      318,529.2                300,445.5
   Less: Uncollected customer payments                                     (55,414.7)               (54,586.9)
     from Federal sources
        Total, unpaid obligated balance, net, end of
        period                                                              263,114.5               245,858.6
Net Outlays:
   Gross outlays                                            $               763,627.4 $             723,450.6
   Less: Offsetting collections                                           (165,031.5)             (159,570.1)
   Less: Distributed Offsetting receipts                                   (61,978.2)              (55,072.9)
   Net Outlays                                              $               536,617.7 $             508,807.6




                                                            168
Department of Defense Performance and Accountability Report FY 2006
Section 3: Financial Information ..................................................................


  Department of Defense
  STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
  For the Years Ended September 30, 2006 and 2005
  ($ in Millions)
                                                                  Other               2006 Combined              2005 Combined
  NONBUDGETARY FINANCING ACCOUNTS
  Budgetary Resources
  Unobligated balance, brought forward, October 1             $             35.0 $                     35.0 $                     24.6
  Recoveries of prior year unpaid obligations                                0.0                        0.0                        0.0
  Budget authority
     Appropriation                                                           0.0                        0.0                        0.0
     Borrowing authority                                                    93.8                       93.8                      170.3
     Contract authority                                                      0.0                        0.0                        0.0
     Spending authority from offsetting collections
         Earned
            Collected                                                       58.5                       58.5                       16.9
            Change in receivables from Federal sources                       0.0                        0.0                        0.0
         Change in unfilled customer orders
            Advance received                                                  0.0                        0.0                        0.0
            Without advance from Federal sources                           (46.8)                     (46.8)                      40.6
     Subtotal                                                              105.5                      105.5                      227.8
  Nonexpenditure transfers, net, anticipated and actual                       0.0                        0.0                        0.0
  Temporarily not available pursuant to Public Law                            0.0                        0.0                        0.0
  Permanently not available                                                 (0.1)                      (0.1)                      (2.2)
  Total Budgetary Resources                                   $            140.4 $                    140.4 $                    250.2

  Status of Budgetary Resources
  Obligations incurred:
     Direct                                                   $            108.9 $                    108.9 $                    215.2
     Reimbursable                                                            0.0                        0.0                        0.0
     Subtotal                                                              108.9                      108.9                      215.2
  Unobligated balance:
     Apportioned                                                             0.5                        0.5                        1.5
     Exempt from apportionment                                               0.0                        0.0                        0.0
     Subtotal                                                                0.5                        0.5                        1.5
  Unobligated balance not available                                         31.0                       31.0                       33.5
  Total Status of Budgetary Resources                         $            140.4 $                    140.4 $                    250.2

  Change in Obligated Balance
  Obligated balance, net
     Unpaid obligations, brought forward, October 1           $             446.3 $                 446.3 $                      238.8
     Less: Uncollected customer payments                                  (123.7)                 (123.7)                        (83.1)
     from Federal sources, brought forward, October 1
     Total unpaid obligated balance                                         322.6                   322.6                        155.7
  Obligations incurred net                                                  108.9                   108.9                        215.2
  Less: Gross outlays                                                     (176.8)                 (176.8)                         (7.7)
  Obligated balance transferred, net:
    Actual transfers, unpaid obligations                                     0.0                        0.0                        0.0
    Actual transfers, uncollected customer                                   0.0                        0.0                        0.0
       payments from Federal sources
     Total Unpaid obligated balance transferred, net                         0.0                        0.0                         0.0
  Less: Recoveries of prior year unpaid obligations, actual                  0.0                        0.0                         0.0
  Change in uncollected customer payments from Federal                      46.8                       46.8                      (40.6)
      sources
  Obligated balance, net, end of period:
     Unpaid obligations                                                    378.5                      378.5                    446.3
     Less: Uncollected customer payments                                   (76.9)                     (76.9)                 (123.7)
       from Federal sources
          Total, unpaid obligated balance, net, end of
          period                                                           301.6                      301.6                      322.6
  Net Outlays:
     Gross outlays                                            $            176.8 $                    176.8 $                       7.7
     Less: Offsetting collections                                          (58.5)                     (58.5)                     (16.9)
     Less: Distributed Offsetting receipts                                    0.0                        0.0                        0.0
     Net Outlays                                              $             118.3 $                    118.3 $                    (9.2)




                                                                  169
page left blank intentionally
Section 4:
Other
Accompanying
Information
page left blank intentionally
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................


                                                                         Office of Management and Budget Circular A-123,
  Management Assurance Details                                           Appendix A, for the areas covered in the FY 2006
                                                                         assessment review to include: investments, real property,
A summary of the Department’s management assurances
                                                                         military equipment, Federal Employee Compensation Act
over internal management controls for the Federal Managers’
                                                                         Liabilities, environmental liabilities, Medicare-Eligible
Financial Integrity Act as required by Office of Management
                                                                         Retiree Health Care Liabilities, appropriations received.
and Budget Circular A-123, Management’s Responsibility
                                                                         Also a limited review occurred for fund balance with
for Internal Control, is included in Section 1: Management’s
                                                                         Treasury.
Discussion and Analysis. The details for these assurances are
included below.

                                                                       The following six tables list the weaknesses grouped as
The Department classifies internal management control
                                                                       follows:
weaknesses into four categories: The following six tables list
the weaknesses grouped as follows:
                                                                       Table I, Section 2 Corrected Financial and Non-Financial
                                                                       Material Weaknesses lists seven corrected during this fiscal
1. Section 2 Overall Material Weaknesses: Weaknesses
                                                                       year.
  materially affecting internal management controls that
  warrant reporting to a higher level and usually affect a
                                                                       Table II, Section 2 Financial Material Weaknesses
  single Department component. Includes overall material
                                                                       Consolidated with Other Similar Weaknesses lists four
  weaknesses for all functions except financial reporting
                                                                       financial material weaknesses that were consolidated into
  weaknesses. Includes some financial weaknesses
                                                                       similar systemic weaknesses.
  identified through self assessments which were not
  included in the Department’s statement of assurance over
                                                                       Tables IIIa and IIIb, Section 2 Overall Financial and
  financial reporting under the oversight of the Department
                                                                       Non-Financial Material Weaknesses – Ongoing list the 18
  Senior Assessment Team.
                                                                       ongoing material weaknesses. Four are financial issues of
2. Section 2 Overall Systemic Weaknesses: Weaknesses
                                                                       which one is being newly identified. Fourteen are related to
  materially affecting internal management controls across
                                                                       non-financial issues of which six were newly identified this
  organizational and program lines and usually affecting
                                                                       fiscal year. For these material weaknesses, a sample of the
  multiple Department components. Includes overall
                                                                       corrective actions was selected for reporting. The status dates
  systemic weaknesses for all functions except financial
                                                                       for FYs 2005 and 2006 are displayed to show any progress in
  reporting weaknesses. Includes some financial weaknesses
                                                                       completing the weakness as projected.
  identified through self assessments which were not
  included in the Department’s statement of assurance over
                                                                       Table IV, Section 2 Overall Systemic Weaknesses – Ongoing
  financial reporting under the oversight of the Department’s
                                                                       lists the eleven systemic weaknesses that are outstanding at
  Senior Assessment Team.
                                                                       the end of FY 2006.
3. Section 4 System Nonconformance Weaknesses: System
  nonconformance with government-wide requirements
                                                                       Table V, Section 4 System Nonconformance Weaknesses
  such as the Federal Financial Management Improvement
                                                                       – Ongoing lists one ongoing Section 4 system
  Act as prescribed by the Office of Management and
                                                                       nonconformance material weakness.
  Budget Circular A-127, Financial Management Systems.
4. Section 2 Financial Reporting Weaknesses: Weaknesses
                                                                       Table VI, Section 2 Financial Reporting Weaknesses lists five
  materially affecting the Department’s financial reporting
                                                                       outstanding weaknesses as of the end of FY 2006.
  found during the assessment of internal controls over
  financial reporting conducted in compliance with the


                                                                 173
                                                       Department of Defense Performance and Accountability Report FY 2006
          .................................................. Section 4: Other Accompanying Information



                                       Table I. Section 2 Corrected Overall Material Weaknesses
                                                                                                             Status Date      Status Date
                                                              Major Corrective Action(s)
Non-Financial Material Weaknesses                                                                           as Reported in   as Reported in
                                                         A sample of the actions is presented.
                                                                                                                FY05             FY06

1. The Defense Logistics Agency’s           -	 Issued standard guidance and procedures for managing
                                               accounts receivables and payables.                            Completed        Completed
accounts receivable and accounts
payable were reduced to acceptable
                                            -	 Collected, wrote-off, or closed-out supportable and valid
levels.
                                               accounts receivables over 2 years old except for certain      Completed        Completed
(Defense Logistics Agency)
                                               categories.
                                            -	   Implemented a plan to liquidate valid over aged accounts
                                                                                                             Completed        Completed
                                                 payable and write-off invalid payables.
                                            -	 Validated that the weakness is corrected.
                                                                                                              1st Qtr 06       Completed
First Reported: FY 2002                     Completed

2. The Department of Army has               -	 Developed policies and procedures.                            Completed        Completed
favorably resolved an issue for             -	 Conducted legal review of the regulation changes.             Completed        Completed
processing the line of duty and
incapacitation pay, that adversely          -	 Published the regulatory guidance.                            Completed        Completed
affected reservists who attempted
to receive benefits after their duty        -	 Conducted audit review to validate the effectiveness of
obligation was met.                            corrective actions.
(Department of the Army)                                                                                      1st Qtr 06      Completed

First Reported: FY 2002                     Completed


3. The Defense Threat Reduction             -	 The Russian Federation signed the amendments for
Agency has resolved an issue where             storage security, weapons transportation security, and        Completed        Completed
the Russian Federation failed to honor         chemical weapon elimination.
its commitments associated with             -	 Worked with the Russian Federation to ensure plans are
the Cooperative Threat Reduction               prepared for further reduction on nerve agents.                1st Qtr 06      Completed
Program.
(Defense Threat Reduction Agency)           -	 Validated that the weakness is corrected.
                                                                                                              1st Qtr 06      Completed
First Reported: FY 2002                     Completed

4. The Counter Intelligence Activity        -	 Developed and implemented a plan.                             2nd Qtr 06       Completed
has reduced to a level of non-              -	 Conducted training.                                           3nd Qtr 06       Completed
materiality instances where planning
for periods of crisis were not fully        -	 Validated that the weakness is corrected.
developed.
(Office of the Under Secretary of                                                                            3nd Qtr 06       Completed
Defense, (Intelligence) Counter-
Intelligence Field Activity)
First Reported: FY 2005                     Completed




                                                                        174
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................



                                     Table I. Section 2 Corrected Overall Material Weaknesses
                                                                                                              Status Date        Status Date
                                                               Major Corrective Action(s)
 Non-Financial Material Weaknesses                                                                           as Reported in     as Reported in
                                                          A sample of the actions is presented.
                                                                                                                 FY05               FY06

 5. The National Defense University         -	 Developed remedial training for contractors.                    Completed         Completed
 has resolved issues where contractors      -	 Standardized e-mail procedures for contractors.                 Completed         Completed
 are not always appropriately identifying
 themselves according to the Federal        -	 Established proper identification.                              2nd Qtr 06        Completed
 Acquisition Regulation.
 (National Defense University)              -	 Validated that the weakness is corrected.
                                                                                                               2nd Qtr 06        Completed
 First Reported: FY 2005                    Completed

 6. The Department of the Army has          -	 Validated the missions. Refined the linkage between
                                                                                                               Completed         Completed
 resolved processes for managing               operating and generating forces.
 workload, linking workload to dollars      -	 Analyzed workload for peacetime and wartime. Linked the
 required, and predicting future                                                                               Completed         Completed
                                               workload to the operating force.
 manpower requirements have not been
                                            -	 Ensured that there is accurate documentation to validate
 established.
                                               the manpower requirements in the official record called the     Completed         Completed
 (Department of the Army)
                                               “Table of Distribution and Allowances.”
                                            -	 Issued a change to the regulation on the approval authority
                                                                                                               Completed         Completed
                                               for manpower requirement determinations.
                                            -	 Completed audit review to validate that the weakness is
                                               corrected.
                                                                                                               1st Qtr 06        Completed
 First Reported: FY 1997                    Completed
 7. The Office of the Under Secretary       -	 Identified the requirement for manpower.                        Completed         Completed
 of Defense (Intelligence) has resolved     -	 Developed supporting documentation.                             Completed         Completed
 the issue where skill sets to support
 critical missions were not adequate.       -	 Obtained senior level approval.                                 3rd Qtr 06        Completed
                                            -	 Validated that the weakness is corrected.
                                                                                                               4th Qtr 06        Completed
 First Reported: FY 2005                    Completed




                                   Table II. Section 2 Consolidated Overall Material Weaknesses

                                                                                                                                 Status Date
                                                              Major Corrective Action(s)                      Status Date as
 Financial Material Weaknesses                                                                                                   as Reported
                                                         A sample of the actions is presented.               Reported in FY05
                                                                                                                                   in FY06

 1. Instances where an ineffective          -	 Established adequate staffing.                                   Completed         Completed
 process prevents ensuring that
 disbursements and collections              -	 Establish a baseline for reconciliation.                         4th Qtr 06        4th Qtr 07
 by service providers are properly
                                            -	 Reconcile the Fund Balance with Treasury account.                1st Qtr 07        1st Qtr 09
 recorded.
 (Defense Intelligence Agency)              -	 Validate that the weakness is corrected.
 First Reported: FY 2005                                                                                        4th Qtr 07        4th Qtr 09
                                            Consolidated into Financial Reporting Weakness #5 at Table VI

                                                                         175
                                                       Department of Defense Performance and Accountability Report FY 2006
          .................................................. Section 4: Other Accompanying Information



                                   Table II. Section 2 Consolidated Overall Material Weaknesses

                                                                                                                                  Status Date
                                                              Major Corrective Action(s)                        Status Date as
Financial Material Weaknesses                                                                                                     as Reported
                                                         A sample of the actions is presented.                 Reported in FY05
                                                                                                                                    in FY06

2. The Fund Balance with Treasury           -	 Developed a plan and milestones that address controls,
accounts for the Defense Agencies              reconciliation, and assertion that the accounts are ready to       1st Qtr 06      Completed
and Navy cannot always be accurately           audit.
reconciled.
(Defense Finance and Accounting             -	 Implemented full operational capability of financial system
                                                                                                                  2nd Qtr 06      Completed
Service)                                       (Columbus Cash Accountability System).

                                            -	 Reconciled disbursements.                                          3rd Qtr 06      Completed

                                            -	 Modified business procedures to eliminate incorrect
                                                                                                                  4th Qtr 06      Completed
                                               subheads on transactions.

                                            -	 Perform validation of identified actions for selected Defense
                                                                                                                  1st Qtr 07      2nd Qtr 07
                                               Agencies.

                                            -	 Validate that the weakness is corrected.
                                                                                                                  3rd Qtr 07      3rd Qtr 07
First Reported: FY 2005                     Consolidated into Financial Reporting Weakness #5 at Table VI.

3. Accounts Payable were not always         -	 Defined scope and created plan to correct problem.                 Completed       Completed
accurately recorded in a timely
manner.                                     -	 Conducted training.                                                1st Qtr 06      Completed
(Department of the Navy)
                                            -	 Collected requirements to modify the workflow process.             2nd Qtr 06      Completed

                                            -	 Modify the workflow and systems to accurately record
                                                                                                                  1st Qtr 07       4th Qtr 09
                                               accounts payable.

                                            -	 Ensure that corrective actions are working.                        3rd Qtr 07       1st Qtr 10

                                            -	 Assert that the account is ready to audit.                         1st Qtr 08      3rd Qtr 10

                                            -	 Conduct audit to validate that the weakness is corrected.
                                                                                                                  2nd Qtr 08       1st Qtr 11
First Reported: FY 2005                     Consolidated into Overall Systemic Weakness #11 at Table IV.

4. The accounts payable do not              -	 Reviewed current business practices.                               Completed       Completed
always accurately reflect the liabilities
associated with the actual receipt of       -	 Established a plan of actions.                                     Completed       Completed
goods and services in the appropriate
                                            -	 Implemented metrics to measure magnitude of problem
time period.                                                                                                      2nd Qtr 06      Completed
                                               and impact of corrective actions.
(Defense Finance Accounting Service)
                                            -	 Certify and implement procedures for capturing and
                                                                                                                      -           2nd Qtr 07
                                               reporting accounts payable.

                                            -	 Cleanup accounting systems at the transaction level.                   -           3rd Qtr 08

                                            -	 Validate that the weakness is corrected.
                                                                                                                  1st Qtr 07       4th Qtr 08
First Reported: FY 2004                     Consolidated into Overall Systemic Weakness #11 at Table IV.




                                                                         176
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................



                               Table IIIa. Section 2 Overall Financial Material Weaknesses - Ongoing

                                                            Major Corrective Action(s)                    Status Date as     Status Date as
 Financial Material Weaknesses
                                                       A sample of the actions is presented.             Reported in FY05   Reported in FY06

 1. Adequate documentation             -	    Built crosswalks from the legacy line of accounting to
 does not always exist to support            the standard fiscal code to the Defense Departmental           Completed          Completed
 adjustments used to reconcile               Reporting System-Budgetary.
 general ledger data to budgetary
 data.                                 -	    Implemented and validated a crosswalk process to map
                                                                                                            Completed          Completed
 (Defense Finance & Accounting               transactions to the appropriate general ledger accounts.
 Service)                              -	    Activated the Defense Departmental Reporting System-
                                                                                                            Completed          Completed
                                             Budgetary.
                                       -	    Implement the Defense Departmental Reporting System-
                                                                                                                -              1st Qtr 07
                                             Budgetary.
                                       -	    Begin reporting exclusively through the Defense
                                                                                                                               2nd Qtr 07
                                             Departmental Reporting System-Budgetary
                                       -	    Validate that the weakness is corrected
                                                                                                            2nd Qtr 06         3rd Qtr 07
 First Reported: FY 2003               Revised Correction Target Date: 3rd Qtr, FY 2007
 2. Policy for recording, reporting,   -	    Monitored monthly and performed quarterly reconciliation.      Completed          Completed
 collecting and reconciling accounts
 receivable from public and            -	    Conducted random review of compliance to policy and
                                                                                                            2nd Qtr 06         Completed
 government sources is not always            procedures.
 followed.                             -	    Published standard accounts receivable operating
 (Defense Finance & Accounting                                                                              4th Qtr 06         Completed
                                             procedures for Department.
 Service)
                                       -	    Validate the accounting events in the accounting systems.          -              2nd Qtr 07
                                       -	    Provide assertion that accounts receivables are ready for
                                             audit and validate that the weakness is corrected.
                                                                                                            2nd Qtr 07         4th Qtr 07
 First Reported: FY 2003               Revised Correction Target Date: 4th Qtr, FY 2007
 3. Lack of controls to accurately          - Identified scope of project.                                      -              Completed
 reconcile obligation of the foreign
 military sales with budgetary         -	    Complete the accounting reconciliation and reprioritize
                                                                                                                -              3rd Qtr 07
 authority.                                  workload.
 (Department of the Air Force)         -	    Implement reprogramming changes recommended by the
                                                                                                                -              1st Qtr 08
                                             working group.

                                       - Validate that the weakness is corrected.
                                                                                                                -              1st Qtr 08
 First Reported: FY 2006               Correction Target Date: 1st Qtr, FY 2008




                                                                             177
                                                      Department of Defense Performance and Accountability Report FY 2006
         .................................................. Section 4: Other Accompanying Information



                            Table IIIa. Section 2 Overall Financial Material Weaknesses - Ongoing

                                                         Major Corrective Action(s)                   Status Date as     Status Date as
Financial Material Weaknesses
                                                    A sample of the actions is presented.            Reported in FY05   Reported in FY06

4. There are instances where          -	   Launched agency-wide effort to properly establish codes
                                                                                                        Completed           Completed
unsupported adjustments are                and correctly use them.
being made to the general ledger
accounts.                             -	   Reviewed procedures to maintain supporting
                                                                                                        1st Qtr 06          Completed
(Defense Logistics Agency)                 documentation.
                                      -	   Implement procedures to perform reconciliation.              1st Qtr 06          3rd Qtr 07
                                      -	   Review and validate accounts payable.                               -            2nd Qtr 08

                                      -	   Validate that the weakness is corrected.
                                                                                                        4th Qtr 06          4th Qtr 08
First Reported: FY 2005               Revised Correction Target Date: 4th Qtr, FY 2008




                          Table IIIb. Section 2 Overall Non-Financial Material Weaknesses - Ongoing

                                                                                                      Status Date
Non-Financial Material                                   Major Corrective Action(s)                                      Status Date as
                                                                                                     as Reported in
Weaknesses                                          A sample of the actions is presented.                               Reported in FY06
                                                                                                         FY05
5. Instances where inefficiencies     -	   Issue guidance.                                                 -               1st Qtr 07
occurred in planning for and paying
for joint training exercises due to   -	   Report results.                                                 -               2nd Qtr 07
inadequate controls.                  -	   Validate that the weakness is corrected.
(Joint Staff)
                                                                                                           -               3rd Qtr 07
First Reported: FY 2006               Correction Target Date: 3rd Qtr, FY 2007
6. Inadequate controls                -	   Issued policy.                                              Completed           Completed
to effectively manage
pharmaceuticals.                      -	   Implemented system modifications to alert medical
(Department of the Air Force)              personnel of inappropriate procurement sources and to       2nd Qtr 06          Completed
                                           track backorder status.
                                      -	   Published procedures to manage procurement of
                                                                                                       3rd Qtr 06          Completed
                                           pharmaceuticals.
                                      -	   Review the effectiveness of corrective actions.             3rd Qtr 07          3rd Qtr 07
                                      -	   Validate that the weakness is corrected.
                                                                                                       3rd Qtr 07          3rd Qtr 07
First Reported: FY 2005               Correction Target Date: 3rd Qtr, FY 2007




                                                                       178
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................



                           Table IIIb. Section 2 Overall Non-Financial Material Weaknesses - Ongoing

                                                                                                        Status Date
 Non-Financial Material                                    Major Corrective Action(s)                                    Status Date as
                                                                                                       as Reported in
 Weaknesses                                           A sample of the actions is presented.                             Reported in FY06
                                                                                                           FY05
 7. Inadequate controls to ensure       -	   Completed a draft of the plan.                                  -             Completed
 that systems engineering plans
 meet technical objectives.             -	   Coordinated plan for review.                                    -             Completed
 (Missile Defense Agency)               -	   Complete and issue plan and guidance.                           -             1st Qtr 07
                                        -	   Audit the plan.                                                 -             3rd Qtr 07
                                        -	   Validate that the weakness is corrected.
                                                                                                             -             3rd Qtr 07
 First Reported: FY 2006
                                        Correction Target Date: 3rd Qtr, FY 2007
 8. Instances where civilian            -	   Conducted timekeeper training on a quarterly basis.             -             Completed
 premium payments, such as
 overtime pay, were not properly        -	   Conducted supervisor training on a bi-annual basis.             -             Completed
 processed and authorized.              -	   Review policies for employee overtime and compensatory
 (United States Transportation                                                                               -             1st Qtr 07
                                             time.
 Command)
                                        -	   Validate that the weakness is corrected.
                                                                                                             -             1st Qtr 07
                                        Correction Target Date: 1st Qtr, FY 2007
 First Reported: FY 2006
 9. The Department’s capital            -	   Completed the inventory of the enterprise information
 investment process for information          technology hardware and established a mechanism to         Completed          Completed
 technology does not confirm that            maintain it.
 the best investments are selected,
 that they deliver expected benefits,   -	   Published a capital planning and investment guide
 or that the final product or service        that incorporates the portfolio management, enterprise      1st Qtr 06        Completed
 delivers what the Department                architecture requirements, and information management.
 expects.                               -	   Ensure senior management performs oversight for
 (Defense Information Systems                selecting appropriate projects governed by Enterprise           -             1st Qtr 07
 Agency)                                     Architecture.
                                        -	   Publish instruction to institutionalize the information
                                                                                                             -             1st Qtr 07
                                             technology portfolio management.

                                        -	   Validate that the weakness is corrected.
                                                                                                                           1st Qtr 07
                                                                                                         1st Qtr 06
 First Reported: FY 2002                Revised Correction Target Date: 1st Qtr, FY 2007

 10. Instances where programs           -	   Established an internal configuration control board.            -             Completed
 have deviated from cost and
 schedule thresholds of the             -	   Received funding.                                               -             Completed
 acquisition program baseline.
                                        -	   Approve proper authority.                                                     2nd Qtr 07
 (Office of the Secretary of Defense,
 TRICARE Management Activity)           -	   Validate that the weakness is corrected.
                                                                                                             -             2nd Qtr 07
 First Reported: FY 2006                Correction Target Date: 2nd Qtr, FY 2007




                                                                            179
                                                       Department of Defense Performance and Accountability Report FY 2006
          .................................................. Section 4: Other Accompanying Information



                          Table IIIb. Section 2 Overall Non-Financial Material Weaknesses - Ongoing

                                                                                                           Status Date
Non-Financial Material                                    Major Corrective Action(s)                                        Status Date as
                                                                                                          as Reported in
Weaknesses                                           A sample of the actions is presented.                                 Reported in FY06
                                                                                                              FY05
11. Inadequate controls on funds       -	   Issue guidance.                                                     -             2nd Qtr 07
availability.
(Office of the Secretary of            -	   Reengineer processes for future operations.                         -             1st Qtr 09
Defense, Washington Headquarter
Service)                               -	   Validate that the weakness is corrected.
                                                                                                                -             1st Qtr 09
First Reported: FY 2006                Corrected Target Date: 1st Qtr, FY 2009

12. Inadequate controls to             -	   Fifty percent implementation of the continuity program
implement a continuity planning                                                                                 -             1st Qtr 07
                                            according to guidance.
program.
(Department of the Navy)               -	   Full implementation.                                                -             1st Qtr 07
                                       -	   Develop continuity plans.                                           -             3rd Qtr 07
                                       -	   Validate that the weakness is corrected.
                                                                                                                -             3rd Qtr 07
First Reported: FY 2006                Correction Target Date: 3rd Qtr, FY 2007
13. Automated management               -	   Modified the global command and control system to allow
                                                                                                           Completed          Completed
tools are needed to ensure                  data entry at all the mobilization stations.
accountability of Reserve
component personnel from home          -	   Corrected the mobilized unit identification codes.             Completed          Completed
station and back home.                 -	   Corrected any disconnects between mobilization orders
(Department of the Army)                                                                                   Completed          Completed
                                            and the data entry.
                                       -	   Interfaced between the global command and control
                                            system and the mobilization deployment integration             Completed          Completed
                                            system to obtain the on-hand data.
                                       -	   Complete audit review.                                         2nd Qtr 06         2nd Qtr 07


                                       -	   Validate that the weakness is corrected.
                                                                                                            4th Qtr 06        2nd Qtr 07
                                       Revised Correction Target Date: 2nd Qtr, FY 2007
First Reported: FY 2003
14. Lack of clearly defined            -	   Developed draft strategies and implement risk
                                                                                                           Completed          Completed
strategies or implementation                management plans.
plans has caused program
inefficiencies for both the Chemical   -	   Submitted draft strategies and plans for review and
                                                                                                           Completed          Completed
Demilitarization and the Nuclear            approval.
Weapons Physical Security              -	   Completed actions required for a clearly defined strategies
Programs.                                                                                                  Completed          Completed
                                            and implementation plans.
(Office of the Under Secretary
of Defense for Acquisition,            -	   Submit final transition plan to leadership.                    2nd Qtr 06         2nd Qtr 07
Technology and Logistics)
                                       -	   Validate that the weakness is corrected.
                                                                                                           2nd Qtr 06         2nd Qtr 07

First Reported: FY 2004                Revised Corrected Target Date: 2nd Qtr, FY 2007


                                                                          180
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................



                            Table IIIb. Section 2 Overall Non-Financial Material Weaknesses - Ongoing

                                                                                                          Status Date
 Non-Financial Material                                    Major Corrective Action(s)                                      Status Date as
                                                                                                         as Reported in
 Weaknesses                                           A sample of the actions is presented.                               Reported in FY06
                                                                                                             FY05
 15. Inadequate controls have           -	   Set record keeping standards.                                Completed          Completed
 caused instances of inaccurate
 accountability for equipment sold      -	   Developed checklists for validation.                         Completed          Completed
 to foreign countries.                  -	   Deployed automated application and conducted
 (Defense Security Cooperation                                                                            Completed          Completed
                                             assessment visits.
 Agency)
                                        -	   Continue establishing a baseline and consolidate the data
                                             recommended by the Government Accountability Office               -             1st Qtr 07
                                             report.

                                        -	   Conduct final assessment visits and validate that the
                                             weakness is corrected.
 First Reported: FY 2004                                                                                   4th Qtr 06        1st Qtr 07

                                        Revised Correction Target Date: 1st Qtr, FY 2007

 16. Lack of policy and clear           -	   Reviewed and coordinated changes to regulations.             Completed          Completed
 delineation of organizations
 and responsibilities puts the          -	   Inspect and assess physical security.                             -             1st Qtr 07
 organization at risk for security      -	   Publish handbook.                                            2nd Qtr 06         2nd Qtr 07
 violations, duplication of efforts,
 delays in program activities, and
                                        -	   Validate that the weakness is corrected.
 confusion over requirements.
 (Defense Security Cooperation
 Agency)                                                                                                  2nd Qtr 06         2nd Qtr 07


                                        Revised Correction Target Date: 2nd Qtr, FY 2007
 First Reported: FY 2004
 17. Controls were not always           -	   Actively participated with interagency working groups.       Completed          Completed
 adequate over exported Defense
 articles from initial shipment point   -	   Confirmation that the Bureau of Customs and Border
                                                                                                           3rd Qtr 06        Completed
 to receipt by foreign customers.            Protection received adequate information on shipments.
 (Defense Security Cooperation          -	   Issue detailed documentation requirements and policy.        2nd Qtr 06         2nd Qtr 07
 Agency)
                                        -	   Issue policy decision on freight tracking system.             4th Qtr 06        4th Qtr 07
                                        -	   Validate that the weakness is corrected.
                                                                                                           4th Qtr 06        4th Qtr 07
 First Reported: FY 2004
                                        Revised Correction Target Date: 4th Qtr, FY 2007
 18. Adequate policies to mandate       -	   Obtained approval of a transformation roadmap.               Completed          Completed
 the appropriate proficiency in
 foreign languages are necessary        -	   Published revised Department Directive.                      Completed          Completed
 to more adequately support the         -	   Publish revised Department Instruction.                       3rd Qtr 06        1st Qtr 07
 global war on terror.
 (Office of the Under Secretary
                                        -	   Validate that the weakness is corrected.
 of Defense (Personnel and
 Readiness))                                                                                               4th Qtr 06        1st Qtr 07
                                        Revised Correction Target Date: 1st Qtr, FY 2007
 First Reported: FY 2004


                                                                          181
                                              Department of Defense Performance and Accountability Report FY 2006
          .................................................. Section 4: Other Accompanying Information



                         Table IV. Section 2 Overall Systemic Weaknesses - Ongoing

Title                     1. Department of Defense Financial Management Systems and Processes

Description of Issue      The Department of Defense financial and business management systems and processes are costly to maintain
                          and operate, not fully integrated, and do not provide information that is reliable, timely, and accurate. In addition,
                          the Department has reported this issue as non-compliance with the Federal Financial Management Improvement
                          Act of 1996 and as non-conformance with Section 4 of the Federal Managers Financial Integrity Act of 1982.

Progress to Date          A.	 Completed Milestones:
                          •	 Established five core business mission areas: financial management, human resources management,
                              weapon system lifecycle management, real property and installation lifecycle management, and materiel
                              supply and service management. These business areas, working together, will unify the Department’s
                              business transformation efforts.
                          •	 Established six initial business enterprise priorities: financial visibility, acquisition program visibility, materiel
                              transaction visibility, personnel visibility, real property accountability, and common supplier engagement to
                              guide the initial direction of transformation activities.
                          •	 Defined six core financial capabilities in support of the financial visibility priority, and established performance
                              measures to monitor and guide activities that led to the full development and maintenance of those
                              capabilities. The six capabilities are: forecast, plan, program and budget; management of financial assets
                              and liabilities; managerial accounting; funds allocation, collection, control, and disbursement; management of
                              general ledger; and financial reporting.
                          •	 Identified five initiatives to support the financial visibility priority: standard financial information structure,
                              business enterprise information services, Defense cash accountability system, intra-governmental transaction
                              system, and the program budget framework. The initial list of potential initiatives was narrowed to five in
                              order to ensure adequate and appropriate focus and resource allocation is made that will yield the highest
                              likelihood for success. Chartered the Defense Business System Management Committee to oversee
                              transformation in the five core business mission areas.
                          •	 Published Version 3.0 of the business enterprise architecture, which includes the standard financial
                              information structure.
                          •	 Published the Department’s enterprise transition plan in September 2005. The enterprise transition plan will
                              reflect the goals, objectives, and implementation strategies to create an integrated picture of the Department’s
                              business transformation.
                          •	 Published in a report to Congress the first update to the enterprise transition plan on progress made in
                              business transformation.
                          •	 The business transformation agency of the Department oversees the Investment Review Boards, which as
                              the authoritative body, reviews and decides investment priorities for all Defense business systems. These
                              Investment Review Boards greatly enhanced the Department’s ability to meet the FY 2005 Ronald W. Reagan
                              National Defense Authorization Act to review all business system investments, at least annually, and certify as
                              compliant the business system modernizations over $1,000,000.




                                                                 182
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................



                         Table IV. Section 2 Overall Systemic Weaknesses - Ongoing

                         B.	 Planned Milestones for FY 2007 and beyond:
                         •	 Update the enterprise transition plan and financial improvement and audit readiness plan every 6 months to
                             ensure the components have the most up to date guidance available in planning for business transformation,
                             which is being continuously updated and refined.
                         •	 Update the business enterprise architecture Version 3.1 and integrate it into the enterprise transition plan.
                         •	 Integrate the standard financial information structure Phase 1 into the business enterprise information
                             services to create a shared business intelligence environment. The business enterprise information services
                             will include a corporate general ledger when the legacy accounting system transactions, which have been
                             cross-walked to the standard financial information structure, can be recorded. The business transformation
                             agency will work closely with the targeted accounting systems to ensure a common understanding and
                             implement Phase 1 elements of the standard financial information structure.
                         •	 Implement Phase 2 of the standard financial information structure into the framework for a statement of net
                             cost. Phase 2 will define segments of responsibility, provide links to support the consolidation of financial
                             statements, and provide a corporate level view of major operations and responsibility segments.
                         •	 Align and integrate the program budget framework initiative with Phases 1 and 2 of the standard financial
                             information structure to create a direct link between the Department’s plans, programs, and budgets with
                             execution and performance data.
                         •	 Align the financial visibility performance measures to the strategic plan’s goals and measures.
                         •	 Update the business enterprise architecture to Version 4.0 and integrate it into the enterprise transition plan.

                         Correction Target Date: 4th Qtr, FY 2015

 Title                   2. Management of Information Technology and Assurance

 Description of Issue    The Department of Defense information systems are potentially vulnerable to an information warfare attack. In
                         addition, the Department has reported this issue as a “significant deficiency” under the reporting requirements of
                         the Federal Information Security Management Act.

 Progress to Date        A.	 Completed Milestones:
                         •	 Issued the Department of Defense Information Assurance Training and Certification Manual which provides
                             guidance for identification and certification of personnel conducting information assurance functions within the
                             Department.
                         •	 Directed the Department-wide use of the public key infrastructure token common access card for logon to
                             information networks.
                         •	 Awarded the enterprise license for the host-based security solutions software, which includes tools to support
                             policies, centralized management of host-based computer network defense capabilities, and the prevention of
                             unauthorized access to files and information.
                         •	 Completed the formal coordination of the revised security certification and accreditation policy to improve
                             compliance and provide an enterprise management capability. Directed components to appropriately report
                             all security weaknesses identified in their annual reviews.
                         •	 Developed an on-line knowledge service providing detailed guidelines, standards, and tools for security
                             certification and accreditation.
                         •	 Completed the draft Version 1.1 of the information assurance component of the Global Information Grid
                             architecture.
                         •	 Made available the enterprise automated certification and accreditation capability of the enterprise mission
                             assurance support system. Pilots of the enterprise mission assurance support system are ongoing at multiple
                             components.
                         •	 Reported 87.1 percent of the systems certified and accredited in the Federal Information Security
                             Management Act report.
                         •	 Issued the Defense assurance certification and accreditation process in a policy memorandum which is
                             pending review and further synchronization with the certification and assurance revitalization process.




                                                               183
                                               Department of Defense Performance and Accountability Report FY 2006
          .................................................. Section 4: Other Accompanying Information



                         Table IV. Section 2 Overall Systemic Weaknesses - Ongoing

                          B.	 Planned Milestones for FY 2007 and Beyond:
                          •	 Achieve 100 percent capability to log onto the Department networks using the public key infrastructure token.
                          •	 Complete updating the database of the Defense civilian personnel system with detailed information and
                              assurance for the military workforce.
                          •	 Provide the United States Strategic Command a real-time situational awareness of the Department of
                              Defense information assurance posture.
                          •	 Publish the final version of the information assurance component of the Global Information Grid architecture.
                          •	 Incorporate changes to the Department of Defense military personnel databases to support the information
                              assurance workforce management program which will accommodate any delays in the Defense integrated
                              military human resource system.
                          •	 Sponsor the information assurance management tools at a Defense enterprise computing center.
                          •	 Achieve 100 percent security certification and accreditation for the Department of Defense systems.
                          •	 Continue the development of the information assurance component of the Global Information Grid
                              architecture and implement the information assurance capabilities.
                          •	 Continue to identify and track information assurance for both civilian and military personnel.

                          Correction Target Date: 3rd Qtr, FY 2007

Title                     3. Valuation of General Personal Property

Description of Issue      The Department of Defense does not currently meet Federal Accounting Standards for the financial reporting of
                          personal property. Documentation for personal property is neither accurate nor reliable.
                          (Newly reported: FY 2006)

Progress to Date          A.	   Completed Milestones:
                          •	    Identified the universe of general equipment for the National Geospatial-Intelligence Agency.
                          •	    Revised and published the Department of Defense Instruction, “Equipment and Administrative Property.”
                          •	    Completed documents for functional requirements of the Defense property accountability system.

                          B.	   Planned Milestones for FY 2007 and beyond:
                          •	    Publish the concept of operations.
                          •	    Establish the Department of Defense property council.
                          •	    Identify the universe of general equipment for Army, Navy, Marine Corps, and the Defense Logistics Agency.
                          •	    Determine values for the Defense Logistics Agency general equipment.
                          •	    Identify the universe of general equipment for Air Force.
                          •	    Ensure that the National Geospatial-Intelligence Agency determines values for general equipment.
                          •	    Ensure that Army, Navy, and Marine Corps determine values for general equipment.
                          •	    Submit the National Geospatial-Intelligence Agency assertion package, asserting that it is ready for audit.
                          •	    Complete a technical refresh of Defense property accountability system.
                          •	    Submit the Defense Logistics Agency assertion package, asserting that it is ready for audit.
                          •	    Submit the Army assertion package.
                          •	    Determine values for general equipment for Air Force.
                          •	    Submit the assertion packages for Navy and Marine Corps.
                          •	    Complete the National Geospatial-Intelligence Agency audit.
                          •	    Complete the Army audit.
                          •	    Recertify and accredit the Air Force management system.
                          •	    Complete the Defense Logistics Agency audit.
                          •	    Complete the Navy and Marine Corps audit.
                          •	    Submit the Air Force assertion package.
                          •	    Complete the Air Force audit.

                          Correction Target Date: 3rd Qtr, FY 2017


                                                                 184
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................



                         Table IV. Section 2 Overall Systemic Weaknesses - Ongoing

 Title                   4. Personnel Security Investigations Program

 Description of Issue    The Department of Defense hiring is adversely affected because personnel security investigations are
                         backlogged.

 Progress to Date        A.	 Completed Milestones:
                         •	 The Office of Management and Budget issued a policy on the reciprocal recognition of existing personnel
                             security clearances in an effort to ensure that background investigations or other requirements are only done
                             when actually required.
                         •	 The Clearance Verification System, operated and maintained by the Office of Personnel Management,
                             went into initial operation. The Clearance Verification System is the central index for investigative and
                             clearance information within the government. Until the final architecture and requirements are determined
                             and implemented, the Department will maintain its linkage between the joint personnel adjudication system
                             and the Office of Personnel Management security investigations index to share investigative and clearance
                             information on Department of Defense personnel.
                         •	 The President approved the new adjudication guidelines for determining eligibility for access to classified
                             information and other types of protected information. These guidelines were implemented in FY 2006.

                         B.	 Planned Milestones for FY 2007 and beyond:
                         •	 Implement the electronic questionnaire for investigative processing for submission of national security
                             investigations to the Office of Personnel Management.
                         •	 Evaluate the Air Force predictive model for military and civilian investigative requirements for application
                             throughout the Department.
                         •	 Complete 80 percent of all Department of Defense investigations within 90 days with no case over a year old.
                         •	 Receive completed investigations electronically from the Office of Personnel Management.
                         •	 Adequately staff adjudication facilities to meet mission needs.
                         •	 Adjudicate 80 percent of completed investigations within 30 days.
                         •	 Develop a strategic plan for the Department of Defense personnel security program.
                         •	 Implement an automated continuing evaluation system.
                         •	 Update yearly security forms.
                         •	 Complete 90 percent of all applications for a personnel security clearance. Complete the investigation in 40
                             days and the adjudication in 20 days.

                         Correction Target Date: 4th Qtr, FY 2007




                                                              185
                                              Department of Defense Performance and Accountability Report FY 2006
          .................................................. Section 4: Other Accompanying Information



                         Table IV. Section 2 Overall Systemic Weaknesses - Ongoing

Title                     5. Real Property Infrastructure

Description of Issue      The Department has not adequately managed the real property infrastructure to halt the deterioration or
                          obsolescence of facilities on military installations.

Progress to Date          A.	 Completed Milestones:
                          •	 Refined the use of the reporting metrics for sustainment and recapitalization of used property infrastructure.
                          •	 Completed the common reporting of facility condition in the annual submission of real property inventory data
                              and an independent study to validate the methodology of the process.
                          •	 Deployed the facilities recapitalization model to predict the average annual dollar amount required to update
                              and renew the inventory of facilities on a continual, ongoing basis.
                          •	 Published the Department of Defense Instruction, “Real Property Inventory and Forecasting,” which details
                              guidance for performing the requirements for real property inventory.
                          •	 Implemented new corporate demolition and disposal procedures that will more adequately capture the net
                              effect on the inventory by eliminating excess and obsolete facilities.
                          •	 Deployed a test version of the facilities operations model that predicts the requirements for facility-related
                              services, utilities, and leasing.
                          •	 Reported the facilities data in the Defense readiness reporting system to reflect the impact of facilities on
                              mission readiness.
                          •	 Completed the Department’s reporting of inventory for the federal property profile.
                          •	 Continued the analytical efforts for developing and implementing the means for identifying facility deficits and
                              for projecting new facility requirements.
                          •	 Integrated military family housing into other metrics.

                          B.	 Planned Milestones for FY 2007:
                          •	 Capture real property inventory data elements as prescribed by the Federal Real Property Council for use in
                              the submission to the federal real property profile.
                          •	 Use metrics and systems’ tools already in place to evaluate progress toward goals.

                          Correction Target Date: 1st Qtr, FY 2008




                                                                186
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................



                         Table IV. Section 2 Overall Systemic Weaknesses - Ongoing

 Title                   6. Government Card Program Management

 Description of Issue    Instances of misuse, abuse, and fraud in respect to purchase and travel card use, and centrally billed accounts
                         have been attributed to inadequate Department of Defense emphasis on proper use of the cards, poorly enforced
                         controls, and lax oversight.

 Progress to Date        Purchase Card Program:
                         A.	 Completed Milestones:
                         •	 Cancelled unnecessary cards and reduced workloads on billing officials so that they can perform, timely, and
                             complete reviews of all card transactions.
                         •	 Developed a comprehensive purchase card concept of operations that the components use as a guide to
                             oversee their programs.
                         •	 Completed initial field tests of centralized data mining capability to detect fraudulent, wasteful, and abusive
                             card transactions.
                         •	 Implemented new disciplinary guidelines, specifically targeted to card misuse, and aggressively, prosecuted
                             known fraud cases.
                         •	 Completed all internal administrative and policy recommendations that were developed internally (to include
                             the Department of Defense charge card task force recommendations) to address purchase card misuse.
                         •	 Developed a Defense-wide provisioning capability that will provide a web-based means for system users to
                             document and update management and system hierarchies. The purchase card program management office
                             will be the first user of this provisioning capability.
                         •	 Developed the authorization, issuance, and maintenance capability for the purchase card program
                             management office. Capability will provide an interface to initiate and approve requests for issuance,
                             suspension, or cancellation of purchase card accounts and will have interfaces to the card issuing banks,
                             which create and maintain the purchase card accounts.
                         •	 Solicited for data mining capability.

                         B.	   Planned Milestones for FY 2007:
                         •	    Complete Spiral 1 development testing of authorization, issuance, and mining capabilities.
                         •	    Complete operational testing of provisioning capability.
                         •	    Initial operating capability of authorization, issuance, and maintenance.

 Progress to Date        Travel Card Program:
                         A.	 Completed Milestones:
                         •	 Implemented a data mining pilot program with the Bank of America and Visa Corporation to flag and review
                             high risk transactions.
                         •	 Published a standard training guide.
                         •	 Developed additional guidelines for management of centrally billed accounts.
                         •	 Continued to implement premium class travel task force recommendations regarding policies for the
                             Department.
                         •	 Developed a method for identifying and preventing reimbursements for centrally billed travel tickets claimed
                             on an individual’s travel voucher.
                         •	 Collected approximately $3 million through salary offset.
                         •	 Closed 6,967 accounts upon review of separation and retirement lists.
                         •	 Formed the Defense Travel Management Office.




                                                                187
                                               Department of Defense Performance and Accountability Report FY 2006
          .................................................. Section 4: Other Accompanying Information



                         Table IV. Section 2 Overall Systemic Weaknesses - Ongoing

                          B.	   Planned Milestones for FY 2007:
                          •	    Enhance the Defense travel system by providing visibility of the charges and additional controls.
                          •	    Complete the travel card program assessment.
                          •	    Develop a web based tool for tracking the approvals of premium class travel.
                          •	    Complete component audits concerning unused tickets, improper payments, and premium class travel.
                          •	    Form governance boards for policy and regulatory changes.
                          •	    Continue monitoring travel card performance through monthly metric reviews.
                          •	    Issue guidance to the components for developing plans of action and milestones in expanding the use of
                                individually billed accounts within the Department of Defense for official travel expenses.

                          Correction Target Date: 4th Qtr, FY 2007

Title                     7. Valuation of Inventory on Financial Reports

Description of Issue      The valuation of inventory is not always correctly reported.

Progress to Date          A.	 Completed Milestones:
                          •	 Updated the Department of Defense Financial Management Regulation, Volume 11B, Chapter 5.
                          •	 Issued policy for “Accounting for Inventory Held for Repair in Working Capital Funds” memorandum dated
                              August 4, 2003.
                          •	 Convened an inventory working group, charged with developing a baseline for inventory valuation,
                              establishing methodologies for valuing inventory, and testing the existence and completeness of assertions.
                          •	 Developed the methodologies for valuing inventory; identified systems that are compliant with and could
                              sustain moving average cost inventory valuations; developed processes to baseline compliant systems and
                              sustain those baselines using moving average cost methodology; and developed timelines and approaches to
                              completing baselines for all systems to include testing existence and completing assertions.
                          •	 Worked with the Federal Accounting Standards Advisory Board to interpret and apply standards to the
                              Department’s processes.
                          •	 Issued an update to the policy on unique identification of assets memorandum for new equipment, major
                              modifications, and reprocurement of equipment and spares.
                          •	 Issued an interim Defense federal acquisition regulation supplement on item unique identification
                              memorandum entitled, “Item Unique Identification and Valuation.”
                          •	 Issued the policy on radio frequency identification memorandum entitled, “Radio Frequency Identification
                              Policy Update.”
                          •	 Published the Defense federal acquisition regulation supplement clause governing application of passive
                              radio frequency identification in the federal register for public comments.
                          •	 Issued the final item unique identification rule published for the Defense federal acquisition regulation
                              supplement.
                          •	 Included the valuation requirements in the enterprise transition plan.
                          •	 Included milestones for completion in the financial improvement and audit readiness plan.

                          B.	 Planned Milestones for FY 2007 and beyond:
                          •	 Update the financial improvement and audit readiness plan.
                          •	 Publish the Defense federal acquisition regulation supplement clause governing the application of tags to
                              remaining commodities and locations.
                          •	 Ensure the solicitations and contracts for government furnished property meet the item unique identification
                              requirements.
                          •	 Publish the in-transit inventory accountability policy.
                          •	 Extend the item unique identification to legacy items.
                          •	 Implement systems and processes to sustain baselines.
                           Correction Target Date: 4th Qtr, FY 2016




                                                                188
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................



                         Table IV. Section 2 Overall Systemic Weaknesses - Ongoing

 Title                   8. Improper use of Non-Department of Defense Contracting Vehicles

 Description of Issue    Non-Department of Defense contracting vehicles have been used improperly to procure services or supplies.

 Progress to Date        A.	 Completed Milestones:
                         •	 Commenced workforce training with continuous learning module established on the Defense Acquisition
                             University website and additional roadshow training.
                         •	 Conducted outreach programs with assisting civilian agencies.
                         •	 Issued a policy memorandum.
                         •	 Issued an interim rule to implement requirements of the Ronald W. Reagan National Defense Authorization
                             Act for FY 2005.
                         •	 Reported on the Department’s use of non-Department contracts from assisting civilian agencies.
                         •	 Completed a compliance review regarding implementing policy regarding the proper use of non-Department
                             contracts.
                         •	 Issued guidance on the proper use of interagency agreements for non-Department contracts under authority
                             other than the Economy Act.
                         •	 Established a joint task force.

                         B.	Planned Milestones for FY 2007:
                         •	 Issue a policy memorandum on “Severable Services.”
                         •	 Expand the utilization of interagency acquisition website.
                         •	 Establish a senior level memorandum of agreement with the General Services Administration, the Department
                            of the Interior, and the National Aeronautics and Space Administration.
                         •	 Establish a senior level memorandum of agreement with the Department of the Treasury, the National
                            Institutes of Health, and the Department of Veterans Affairs.

                         Correction Target Date: 2nd Qtr, FY 2007




                                                             189
                                             Department of Defense Performance and Accountability Report FY 2006
          .................................................. Section 4: Other Accompanying Information



                         Table IV. Section 2 Overall Systemic Weaknesses - Ongoing

Title                     9. Department of Defense Contracting for Services

Description of Issue      The Office of the Inspector General, Department of Defense and the Government Accountability Office, have
                          identified deficiencies in the policy for, and the execution of, procurement for services.

Progress to Date          A.	 Completed Milestones:
                          •	 Resolved overpayment issues identified in the Department of Defense Inspector General report.
                          •	 The Army reviewed all logistic civil augmentation plan contract orders to ensure that contracts are within
                              scope and backlog of undefinitized orders eliminated. Developed new procedures to ensure prompt
                              completion.
                          •	 Revised the policy on the proper use of other agencies’ contracts to include conducting surveillance of
                              services procured from other agencies’ contracts.
                          •	 Published an updated policy on how to appoint and train contracting officer representatives. The Defense
                              Acquisition University updated the contractor officer representatives training.
                          •	 Established working groups that were identified in the improvement plan. Implemented the improvement
                              plan and initiated periodic status briefs on the improvement plan and systemic weaknesses to senior Defense
                              leadership.
                          •	 Issued a policy memorandum on the performance based services acquisition and required progress
                              reports on performance based services acquisition training for individuals participating in the preparation of
                              performance based work statements.
                          •	 Developed metric goals and thresholds for the strategic sourcing program.
                          •	 Developed a concept of operations for the Department of Defense strategic sourcing.
                          •	 Updated the plan for improving the Government Accountability Office high risk areas of contract management.
                          •	 Published guidance regarding procedures for and use of, waivers to competitive requirements.
                          •	 Reviewed and updated the policy on quality assurance surveillance and written oversight plans.
                          •	 Published the Acquisition, Technology and Logistics Workforce Human Capital Strategic Plan.
                          •	 Established goals for FY 2006 and beyond on the competition of task and delivery orders under multiple
                              award contracts.
                          •	 Published policy entitled “Management Structure for the Procurement of Contract Services,” which
                              implements the National Defense Authorization Act for FY 2006 requirements.
                          •	 Designated senior officials who are required to ensure that their service contract review processes and data
                              collection requirements support adequate contract surveillance.
                          •	 Reviewed component data for the top 20 acquisitions of services.
                          •	 Designated that senior officials verify that their service contract review processes and data collection
                              requirements adequately support contract surveillance.

                          B.	 Planned Milestones for FY 2007:
                          •	 Address the Government Accountability Office high risk areas in training or policy requirements.
                          •	 Review the guidance procedures for task orders, competition, price reasonableness determinations, and
                              quality assurance surveillance in response to weaknesses identified in the Department’s self assessment.
                          •	 Implement the spend analysis of the initial acquisition.
                          •	 Process 51 percent of invoices applicable to each military department office through wide area work flow.
                          •	 Complete component self assessments of pricing techniques, performance based services acquisition, and
                              quality assurance surveillance and written oversight plans.
                          •	 Complete 80 percent of the training for personnel who develop statements of work.

                          Correction Target Date: 4th Qtr, FY 2007




                                                               190
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................



                         Table IV. Section 2 Overall Systemic Weaknesses - Ongoing

 Title                   10. Federal Procurement Data Reporting

 Description of Issue    The new Federal Procurement Data System is not fully functional causing inaccurate procurement reporting data
                         and increased costs required for continued maintenance of legacy systems.

 Progress to Date        A.	 Completed Milestones:
                         •	 Established a joint Federal Procurement Data System-Next Generation migration team.
                         •	 Identified outstanding requirements to the General Services Administration, necessary to transition to the new
                             system.
                         •	 Certified the contract writing systems that directly report to the new system.
                         •	 Certified that all FY 2005 data has been submitted to the Federal Procurement Data System-Next Generation.
                         •	 Completed testing to ensure that data from FY 1997– 2004 has been appropriately migrated from the original
                             source system.

                         B.	 Planned Milestones for FY 2007:
                         •	 Certify that all FY 2006 data has been submitted to the Federal Procurement Data System-Next Generation.
                         •	 Receive certification from the General Services Administration that the Federal Procurement Data System-
                             Next Generation attained full operating capability.
                         •	 Initiate decommissioning of component feeder systems.
                         •	 Complete migration from the current reporting environment to the Federal Procurement Data System-Next
                             Generation.

                         Correction Target Date: 2nd Qtr, FY 2007

 Title                   11. Department of Defense Accounts Payable

 Description of Issue    The Department of Defense does not meet accounting standards for the financial reporting of public accounts
                         payable because of its inability to support balances due to a lack of standard procedures for recording, reporting,
                         and reconciling the amounts between the financial, accounting, and reporting systems.

 Progress to Date        A.	 Completed Milestones:
                         •	 Establish a plan of action and milestones.
                         •	 Name accounts payable as a focus area in the financial improvement and audit readiness plan for concerted
                             effort and attention to corrective action milestones.
                         •	 Develop a monthly report and tool for reconciling accounts payable balances between the financial,
                             accounting, and reporting systems.




                                                               191
                                             Department of Defense Performance and Accountability Report FY 2006
          .................................................. Section 4: Other Accompanying Information



                          Table IV. Section 2 Overall Systemic Weaknesses - Ongoing

                          B.	 Planned Milestones for FY 2007 and Beyond:
                          •	 Ensure implementation of the standard guidance provided in the Department of Defense Financial
                              Management Regulation, Volume 4, Chapter 9, Accounts Payable.
                          •	 Identify and document accounts payable universe.
                          •	 Establish and implement the processes to initiate and record accounts payable in a timely manner.
                          •	 Complete the Office of Management and Budget Circular A-123 requirement for the annual assessment on
                              internal controls over financial reporting.
                          •	 Identify the costs and submit budget requirements for preferred solutions.
                          •	 Coordinate and obtain the approvals from appropriate offices (Investment Review Boards, Defense Business
                              Systems Management Committee).
                          •	 Obtain funding for the preferred solution.
                          •	 Ensure the cleanup of the Department’s legacy systems.
                          •	 Ensure all material audit recommendations were addressed.
                          •	 Identify and document the preferred solution’s key processes, internal controls, and risk assessments.
                          •	 Populate the accounts payable reconciliation tool with data from major financial systems.
                          •	 Populate the accounts payable reconciliation tool with data from the remaining financial systems.
                          •	 Complete implementation of the accounts payable repository at the transaction level for budgetary and
                              proprietary reporting.
                          •	 Implement the preferred solution for intragovernmental accounts payable.
                          •	 Submit assertion packages for the components.
                          •	 Complete all audits.

                          Correction Target Date: 4th Qtr, FY 2015




                       Table V. Section 4 System Nonconformance Weaknesses - Ongoing

Title                     Department of Defense Financial Management Systems and Processes

Description of Issue      The Department of Defense financial and business management systems and processes are costly to maintain
                             and operate, not fully integrated, and do not provide information that is reliable, timely, and accurate.

Progress to Date          See Table IV, number 1 above, for progress explanation.




                                                              192
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................



                                Table VI. Section 2 Financial Reporting Weaknesses

 Title                   1. Valuation of Military Equipment Assets

                         The Department’s inability to accurately report the financial value of military equipment supports the probability of
 Description of Issue
                         material misstatement in financial reporting.

 Progress to Date        A.	   Completed Milestones
                         •	    Documented the acquisition costs for military equipment acquired for 1,101 military equipment programs.
                         •	    Implemented a core system capability to value and depreciate military equipment assets.
                         •	    Reported the updated acquisition and disposal costs on the 3rd Quarter, FY 2006 financial statements.
                         •	    Developed and delivered training classes for updating baseline valuations.

                         B.	 Planned Milestones for FY 2007 and Beyond:
                         •	 Use the baseline valuation methodologies for FY 2006 year-end close.
                         •	 Conduct initial operational testing and loading of data for the first military equipment increment of the Capital
                             Asset Management System to obtain full operational capability.
                         •	 Achieve initial operating capability for the second increment of the Capital Asset Management System
                             – Military Equipment.
                         •	 Transfer responsibility for acquisition cost valuation to the Military Services.
                         •	 Complete audit of baseline values.

                         Correction Target Date: 1st Qtr, FY 2010




                                                               193
                                              Department of Defense Performance and Accountability Report FY 2006
          .................................................. Section 4: Other Accompanying Information



                                Table VI. Section 2 Financial Reporting Weaknesses

Title                     2. Valuation of Real Property Assets

Description of Issue      The Department of Defense does not have adequate internal controls in place to provide assurance that real
                          property assets are identified and properly reported in its financial reports.

Progress to Date          A.	 Completed Milestones:
                          •	 Published a revision to the Department of Defense Financial Management Regulation, Volume 4, Chapter 6,
                              “General Property, Plant, and Equipment” that codifies the Statement of Federal Financial Accounting
                              Standards.
                          •	 Issued a revised capitalization threshold that capitalizes 99 percent of real property assets.
                          •	 Standardized the core data elements for a real property inventory repository and issued the Department of
                              Defense Instruction 4165.14, “Real Property Inventory and Forecasting.”
                          •	 Received the Military Services’ plans for implementing the real property inventory repository requirements to
                              streamline the business processes, standardize data elements, and put into practice the business rules as
                              depicted in the Department of Defense business enterprise architecture.
                          •	 Conducted a business process reengineering of the construction in progress to identify sustainable business
                              processes and management controls that will improve reliability for construction in progress cost information.

                          B.	Planned Milestones for FY 2007 and Beyond:
                          •	 Validate the Military Services’ implementation of standardized data reporting for real property assets.
                          •	 Develop a common Department-wide real property baseline methodology.
                          •	 Revise guidance on standardized transactions for acceptance and transfer of real property assets.
                          •	 Inspect cost and purchase documents of selected assets for existence, pricing, and ownership rights.
                          •	 Check the United States Standard General Ledger posting of asset accounts to ensure correct posting logic
                             and categorization.
                          •	 Continue to monitor Military Services’ progress toward implementing the real property inventory requirements
                             and business processes to ensure consistency with the enterprise transition plan.
                          •	 Validate that the Military Services have updated and developed new policies and procedures for real
                             property accountability and real property financial reporting. Validate that the Military Services have initiated
                             implementation of sustainable procedures.
                          •	 Validate that the Military Services have completed implementation of the real property inventory requirements
                             of sustainable business processes, standard data elements, and consistent management controls. Validate
                             that the Military Services have begun monitoring the operational effectiveness of these processes and
                             systems.

                          Correction Target Date: 4th Qtr, FY 2009




                                                                 194
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................



                              Table VI. Section 2 Financial Reporting Weaknesses

 Title                   3. Reporting of Environmental Liabilities

 Description of Issue    The Department of Defense internal controls for reporting environmental liabilities do not provide assurance that
                         cleanup costs for all of its ongoing, inactive, closed, and disposal operations are identified, consistently estimated,
                         and appropriately reported.

 Progress to Date        A.	 Completed Milestones:
                         •	 Issued guidance to accomplish an initial inventory of operational ranges inventory and assess the
                             environmental condition of the operational ranges.
                         •	 Reported the operational range inventory to Congress in February of FY 2004.
                         •	 Revised the Department of Defense Financial Management Regulation to add procedures for recognizing
                             liabilities and reporting on operational ranges and munitions response areas.
                         •	 Completed the final inventory of munitions sites (other than operational ranges).
                         •	 Developed and issued an interim change to the regulation that requires the reconciliation of real property and
                             environmental site records.
                         •	 Developed and coordinated guidance on how to conduct operational range assessments.
                         •	 Developed and coordinated guidance on how to report and forecast real property inventory.
                         •	 Formed an environmental liabilities policy workgroup, with representation from the Department components,
                             to assist in implementing the new environmental liabilities’ policy and guidance. The workgroup is improving
                             standardization of business processes across the components.
                         •	 Published the “Best Practices Guide for Environmental Liabilities” which provides best practices for preparing
                             for an audit and proper accounting that supports environmental liabilities in financial statements.
                         •	 Issued guidance for recognizing, measuring, and reporting environmental liabilities not eligible for the defense
                             environmental restoration program funding (i.e., non-defense environmental restoration program guidance),
                             November 15, 2005. This guidance allows the components to develop procedures for identifying and
                             estimating future liabilities not previously addressed under current programs.
                         •	 The Department of Navy completed a “fence-to-fence” survey of all Navy installations and estimated the
                             environmental disposal liabilities for all conventional and nuclear ships and submarines.
                         •	 Through the environmental liabilities workgroup, the components provided input to an updated and
                             standardized key milestone plan within the financial improvement and audit readiness plan to help identify a
                             critical path to achieve a clean audit.
                         •	 Updated the guidelines for Note 14, Environmental and Disposal Liabilities, of the consolidated financial
                             statements to meet the new disclosure requirements and improve Department-wide reporting.
                         •	 The Department of the Navy completed a “fence-to-fence” survey and developed preliminary cost estimates
                             of the environmental liabilities for the non-defense environmental restoration program at all the Department of
                             Navy installations.

                         B.	 Planned Milestones for FY 2007 and Beyond:
                         •	 Identify the universe of environmental liabilities’ candidate units, facilities, and property where environmental
                             issues have been identified.
                         •	 Document that all property plant and equipment records have been reviewed and properly recorded for
                             environmental liabilities.
                         •	 Complete and document initial estimates for all sites in the environmental liabilities universe.
                         •	 Develop policies and procedures to identify, calculate, and record closing and disposal costs for
                             environmental liabilities.
                         •	 Develop and implement internal controls for identifying, calculating, and recording closing and disposal costs
                             for environmental liabilities.

                         Correction Target Date: 2nd Qtr, FY 2009




                                                                195
                                             Department of Defense Performance and Accountability Report FY 2006
          .................................................. Section 4: Other Accompanying Information



                               Table VI. Section 2 Financial Reporting Weaknesses

Title                     4. Reporting of Defense Health Care Liabilities

Description of Issue      The military health care current financial processes cannot collect accurate cost and performance information to
                          produce reliable Department of Defense health care financial reports and actuarial liabilities.

Progress to Date          A.	 Completed Milestones:
                          •	 Established procedures requiring the Military Service medical facilities to submit monthly reports on the
                              quality of their medical records.
                          •	 Published a Department-wide policy on how to code medical records.
                          •	 Developed a reconciliation process for reviewing expense data at Military Service medical facilities.

                          B.	 Planned Milestones for FY 2007 and Beyond:
                          •	 Construct records that contain data that tracks supplementary patient services and matches to the patient’s
                              initial contact with the provider.
                          •	 Fully install a coding compliance editor system within all the military treatment facilities.
                          •	 Develop a process for the distribution of funds using the “prospective payment method.”
                          •	 Incorporate the use of Medicare rates into the Medicare-Eligible Retiree Health Care Fund distribution plan for
                              patient encounters and incorporate the use of Medicare rates for estimating actuarial liability.
                          •	 Implement systems that will reconcile source data used in actuarial estimates with financial records.
                          •	 Purchase and install a commercial off-the-shelf pharmacy system to interface with the health care accounting
                              system.

                          Correction Target Date: 2nd Qtr, FY 2009




                                                               196
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................



                                       Table VI. Section 2 Financial Reporting Weaknesses

 Title                            5. Fund Balance with Treasury

 Description of Issue             The Department of Defense is unable to reconcile cash account balances to the Department of the Treasury cash
                                  account balances.

 Progress to Date                 A.	 Completed Milestones:
                                  •	 Documented transaction processes such as reconciling, tracking, and reporting clearing accounts. Also
                                      documented payments of intra-governmental accounts.
                                  •	 Developed reports to identify the amount of adjustments prepared each quarter.
                                  •	 Ensured the cash reconciliation system was used as a reconciliation tool for funds.
                                  •	 Determined the proper solution for resolving a $238 million negative cash balance.
                                  •	 Established operating procedures to ensure timely updates of edit tables.
                                  •	 Developed clear definitions for a balanced scorecard measure and monthly in-transit disbursements report to
                                      ensure consistency among the reports.
                                  •	 Implemented full operational capability of the cash reconciliation system.
                                  •	 Documented the entire reconciliation process for the Treasury Index 97 general fund, including specific
                                      procedures of the various reconciliations within the overall process.
                                  •	 Modified interfund business procedures to eliminate the use of incorrect “default” subheads on transactions.
                                  •	 Completed research, reconciliation, and resolution of the Treasury Index 97 general fund departmental
                                      adjustments.
                                  •	 Developed a procedure to reduce the number of days required to post entries to the accounts.

                                  B.	 Planned Milestones for 2007 and Beyond:
                                  •	 Identify and document processes and controls that significantly impact the Fund Balance with Treasury
                                      balances.
                                  •	 Perform risk control assessments to identify potential weakness areas.
                                  •	 Develop corrective action plans to mitigate identified weaknesses.
                                  •	 Test critical systems and implement compensating controls to mitigate deficiencies and produce accurate
                                      Fund Balance with Treasury transactions.

                                  Correction Target Date: 3rd Qtr, FY 2008


Note: In some instances, there may be date inconsistencies between the PAR and Component source information. The Department will review this
matter and make appropriate adjustments as needed during FY 2007.




                                                                      197
                                           Department of Defense Performance and Accountability Report FY 2006
         .................................................. Section 4: Other Accompanying Information



Auditor-Identified Financial Statement                          made, the challenge of Infrastructure and Environment
Weaknesses                                                      was removed. However, implementation of those
                                                                decisions will affect Department employees, so BRAC
Audits performed by the Department Inspector                    issues pertaining to personnel were merged with
General identified several financial statement material         Human Capital. The challenge areas, summarized in
weaknesses. A material weakness is a technical                  the following pages, include:
term referring to an identified problem that may
impact the accuracy and reliability of financial                •	Acquisition Processes and Contract Management
information. The majority of the auditor-identified             •	Financial Management
weaknesses and corrective actions are reported                  •	Health Care
as material internal control weaknesses by the                  •	Human Capital
Department in this section. The auditor-identified              •	Information Security and Privacy
material weaknesses not individually included in the            •	Joint Warfighting and Readiness
Department’s inventory of material weaknesses are
Intragovernmental Eliminations, Accounting Entries,             Acquisition Processes and Contract
Government Property and Material in the Possession              Management
of Contractors, and Operating Materials and Supplies.
Resolving these material weaknesses requires the                The Department’s management challenge is to provide
initiatives, system solutions, and corrective actions           required materiel and services that are superior in
developed and outlined in the Department’s Financial            performance, high in quality, sufficient in quantity, and
Improvement and Audit Readiness Plan and the                    reasonable in cost despite the ever increasing volume
Department’s Enterprise Transition Plan discussed in            and complexity of purchases. Every acquisition dollar
Section 1: Management’s Discussion and Analysis.                that is not prudently spent results in the unavailability
                                                                of that dollar to fund the top priorities of the Secretary
                                                                of Defense and wastes valuable taxpayer dollars.
 Inspector General’s Summary of
  Management and Performance                                    Ensuring the appropriate size and experience level
           Challenges                                           of the acquisition workforce in light of changing
                                                                acquisition strategies and vehicles, prior downsizing,
                                                                and an aging workforce, is a challenge.
Based on audits, investigations, and inspections, the
Inspector General (IG) identified six management and
                                                                Management is also challenged to make appropriate
performance challenges for FY 2006 compared to the
                                                                use of acquisition streamlining initiatives. Government
nine challenges reported for FY 2005. In identifying
                                                                quality assurance is more limited under commercial
the six challenges the Office of the Inspector General
                                                                contracts. Before procuring against a commercial
(OIG) has combined elements of previously identified
                                                                specification, the procurement community must be
management challenges and added new challenges.
                                                                vigilant in deciding that the item will meet warfighter
Information technology management is now part of
                                                                requirements as well as being a truly commercial item.
the larger issue of “Information Security and Privacy,”
                                                                The Department also continues to experience a variety
logistics and homeland defense are now part of
                                                                of shortcomings in its approach to compliance with
“Joint Warfighting and Readiness,” and “Acquisition
                                                                the DoD 5000 series of guidance and the Federal
Processes and Contract Management” now include
                                                                Acquisition Regulation in FY 2006. The OIG identified
information technology acquisition. Additionally,
                                                                instances where Army acquisition officials misused
with Base Realignment and Closure (BRAC) decisions
                                                                appropriated funds by not complying with the DoD

                                                          198
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................


5000 series of guidance and the Federal Acquisition             The Department needs to continue to vigilantly
Regulation.                                                     investigate allegations of corrupt acquisition, both
                                                                criminally and administratively. Unfortunately, the
The Department also has significant challenges                  works of a few to undermine the integrity of the
regarding purchases made through other agencies                 acquisition process can set back the success of
for the Department. Last year, the OIG found that               millions of acquisition actions within the Department.
Military Interdepartmental Purchase Requests used               The Department also needs to strike a proper balance
primarily in the fourth quarter of FY 2004 did not              between reducing the time to award procurements
comply with the appropriations law and the Federal              and maintaining adequate controls to safeguard scarce
Acquisition Regulation for making purchases through             resources. Use of acquisition streamlining initiatives
other agencies. These purchases were valued at                  such as buying commercial items makes sense, but
approximately $406 million.                                     buying unique major military systems as commercial
                                                                items does not.
The Department has a goal to influence development
of acquisition, planning, and innovation processes              Financial Management
that will further the information assurance mission
and support transformation of the force. One of                 The Department faces financial management
the strategic objectives of the goal is to ensure that          challenges that are complex, long-standing, and
information assurance is integrated and sustained               pervade virtually all of its business operations, thus
throughout the life cycle of Department programs. The           affecting the ability to provide reliable, timely, and
objective states that Department business processes             useful financial and managerial data to support
should include information assurance across the                 operating, budgeting, and policy decisions. The
enterprise and conform to the Administration’s “smart           Department’s financial management problems are
buy” concept. The Department is challenged to                   so significant that they constitute the single largest
ensure that contracting for Information Technology (IT)         and most challenging impediment to the U.S.
includes information assurance and all contracting              Government’s ability to obtain an opinion on its
clauses required by the federal and Department                  consolidated financial statements. The weaknesses
regulations to safeguard our IT infrastructure.                 that affect the auditability of the financial statements
                                                                also impact other Department programs and
Inspector General Assessment of Progress                        operations and contribute to waste, mismanagement,
                                                                and inefficient use of Department resources.
The Department has made progress improving
numerous acquisition processes. Despite progress,               The Government Accountability Office first identified
the increasing volume of acquisitions, the decrease             Department financial management as a high-risk
in the number of acquisition personnel, and the                 area in 1995, a designation that continues to date.
numerous types of contracting vehicles and methods              Combined with the high-risk areas of business systems
for accomplishing acquisition make this a long-term             modernization (designated a high-risk area in 1995),
challenge. The Department management reacts                     and supply chain management (designated a
positively after problems are identified; however, the          high-risk area in 1990), these three areas directly affect
sheer volume of contracting and the pressures on                the Department’s ability to attain an unqualified audit
contracting officials to award procurements faster              opinion on its financial statements. In its
make the challenge of correcting the problems more              March 3, 2006, Executive Branch Management
difficult.                                                      Scorecard, OMB assessed the status of the


                                                          199
                                          Department of Defense Performance and Accountability Report FY 2006
        .................................................. Section 4: Other Accompanying Information


Department’s financial performance as “Red,” or                •	Implement the corrective action plans that address
“Unsatisfactory.”                                                the system, control, reporting, or quality of data
                                                                 weakness.
The Department OIG previously identified and
reported on several material control weaknesses                Inspector General Assessment of Progress
that reflect some of the pervasive and long-standing
financial management issues faced by the Department            One significant measure of the ongoing progress
and prevent the Department from obtaining an                   in the area of financial management would be the
unqualified opinion on its financial statements. These         Department’s ability to obtain unqualified audit
weaknesses also affect the safeguarding of assets and          opinions on its financial statements. The Department
proper use of funds, thus impairing the prevention and         is far from reaching this milestone as demonstrated by
identification of fraud, waste, and abuse, to include          the audit opinions received by the Department and
the following:                                                 its components on their FY 2005 and 2006 financial
                                                               statements.
•	Fund balance with Treasury
•	Inventory                                                    However, the Department’s ongoing initiatives in the
•	Operating materials and supplies                             area of financial management improvement indicate
•	Property, plant, and equipment                               that the Department management is responding to the
•	Government-furnished material and contractor-                significant and pervasive financial management issues
  acquired material                                            and is positioning itself to leverage planned systems
•	Environmental liabilities                                    and business improvements to achieve sustainable
•	Financial management systems                                 and long-term solutions. The Department has made
•	Intragovernmental eliminations                               progress by establishing a framework to direct and
•	Other accounting entries                                     hold managers accountable for the Department’s
•	Statement of Net Cost                                        financial improvement efforts. The framework, called
•	Statement of Financing                                       the Financial Improvement and Audit Readiness (FIAR)
                                                               improvement initiative, comprises a directorate that is
The following elements and actions are essential to            responsible for centrally coordinating the initiative; a
improving the Department’s financial management:               regularly updated, written plan with stated objectives
                                                               and milestones; a defined process with protocols for
•	Create an environment that fully supports clean              making decisions; a tool for tracking progress; and
  financial reporting. The financial managers need             oversight groups consisting of participants from across
  buy-in from senior management and personnel in               the Department to guide the decision making process.
  the field offices in order to successfully implement
  the corrective action plans.                                 The FIAR plan categorizes the financial management
•	Maintain a significant level of continued review to          challenges faced by the Department into three broad
  identify all of the material financial management            categories: those that heavily depend on systems
  and reporting deficiencies, internal control                 solutions; those that depend primarily on process
  weaknesses, and quality of data issues.                      solutions; and those that depend on both systems
•	Develop corrective action plans that will adequately         and process solutions. The FIAR plan focuses on the
  correct the deficiencies and result in financial             process solutions that Department financial managers
  reporting in accordance with generally accepted              identify, develop, and implement to correct financial
  accounting principles.                                       reporting deficiencies or internal control weaknesses.


                                                         200
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................


The Department OIG has primarily focused its audit               that there are many variables affecting the execution
efforts on the FIAR improvement initiative. The                  of the Department improvement initiatives, such as
Enterprise Transition Plan addresses systems solutions.          the ability of specific Components’ to make corrective
The Department has made progress by establishing                 actions and meet the projected milestones. The
the Business Transformation Agency and developing                Department OIG will continue to provide input to the
the business enterprise architecture and the Enterprise          Department managers on these initiatives as requested,
Transition Plan.                                                 or as part of the Department OIG advisory role on the
                                                                 Department committees that support these initiatives.
The Department OIG considers the following
Department financial management efforts to be                    Health Care
successes:
                                                                 The Department Military Health System must provide
•	implementation of integrated organizational                    quality care for approximately 9.2 million eligible
  structures and processes to address financial                  beneficiaries within fiscal constraints while facing
  management improvement,                                        growth pressures, legislative, imperatives and inflation
•	assignment of accountability to Department                     that make cost control difficult in both the public
  managers,                                                      and private sectors. The Department challenge is
•	Department improvement initiatives at the entity and           magnified because the Military Health System’s
  line item level, and                                           primary mission is to provide health support for the
•	self-assessment of controls over financial reporting           full range of military operations. Part of the challenge
  related to OMB Circular A-123, Management’s                    in delivering health care is combating fraud. As of
  Responsibility for Internal Control.                           June 30, 2006, health care fraud constituted 8 percent
                                                                 of the 1,595 Defense Criminal Investigative Service’s
Although the Department OIG anticipates that                     open cases.
Department will need to make refinements in these
areas, the Department OIG considers these to be                  A major challenge to the Department is sufficient
critical steps in establishing a culture and ingrained           oversight of the growing cost of health care for military
structure that will (1) enable Department managers               members. The increased frequency and duration of
to identify internal control weaknesses, (2) effectively         military deployment further stresses the Military Health
plan for resolution of those weaknesses, and (3) hold            System in both the Active and Reserve components.
Department managers accountable for improving                    The Department’s budget for health care costs was
internal controls over financial reporting. Further,             $38.4 billion in 2006, including $20.4 billion in the
these steps should result in a financial management              Defense Health Program appropriation, $6.9 billion
structure that can provide accurate, relevant, and               in the Military Departments’ military personnel
timely financial management information for decision             appropriations, $0.3 billion for military construction,
making.                                                          and $10.8 billion for contributions to the Department’s
                                                                 Medicare-Eligible Retiree Health Care Fund to cover
We fully support the Department’s goal to implement              future costs of health care for Medicare-Eligible
internal controls that will result in sustained                  retirees, retiree family members, and survivors. The
improvements in its ability to produce timely, reliable,         Department’s challenge is how to oversee the growing
and complete financial management information. To                cost of health care for military members.
that end, the Department needs to continue to develop
comprehensive, integrated plans that will lead to                A challenge related to medical readiness remains the
improved systems and internal control. We recognize              completion of a Medical Readiness Review (MRR)

                                                           201
                                             Department of Defense Performance and Accountability Report FY 2006
         .................................................. Section 4: Other Accompanying Information


being overseen by a steering group co-chaired by                   industry because some companies in the industry have
the Under Secretary of Defense for Personnel and                   challenged the government’s legal right to control
Readiness and the Director, Program Analysis and                   prices by establishing ceilings. Resolution of this issue
Evaluation. The MRR continues to identify medical                  could allow the Military Health System to realize
readiness and personnel management capabilities                    millions of dollars of savings annually in pharmacy
required by the National Security Strategy and                     costs dispensed in the retail venue. Also, in an attempt
related transformation of war fighting. Readiness                  to sustain medical benefits and costs, the Military
of the medical staff and units includes ensuring that              Health System proposed modifications to beneficiary
medical staff can perform at all echelons of operation             costs. The status of the proposal is in question and
and that units have the right mix of skills, equipment             currently being reviewed in Congress.
sets, logistics support, and evacuation and support
capabilities. As with most Department functions,                   The Medical Readiness Review continues. Four
the Military Health System continues to face the                   working groups are addressing: medical readiness
challenges of increased joint operations.                          capabilities, casualty estimation, capability metrics,
                                                                   and medical resources. The review has completed
The FY 2004 National Defense Authorization Act                     significant portions of its review of military resource
authorized temporary provisions to expand TRICARE                  requirements. Because of the dynamics of troop
health and dental coverage for Reserve Component                   deployments and other factors, the review continues
members and families. The FY 2005 National                         to operate as conditions warrant. A tentative
Defense Authorization Act permanently extended the                 completion date is December 2006. The focus of the
benefits for Reserve Component members and their                   Medical Readiness Review was expanded to address
family members. The challenge of keeping reservists                operational tempo issues, the Military Health System
medically ready to deploy continues because of the                 role in the Global War on Terror, and national disaster
frequency and duration of Reserve deployments.                     response.

Inspector General Assessment of Progress                           Although the challenge of medically preparing
                                                                   reservists and guardsmen for deployment still exists,
The Department’s Military Health System has been                   the Military Health System has tools available to
moving forward on improving health care while                      commanders to screen deployers both pre-deployment
attempting to control costs. It has made significant               and post-deployment, and to assist the deployed
progress in implementing new TRICARE contracts.                    reservists’ and guardsmen’s family members. The
TRICARE transitioned from 12 regions and 7 contracts               Department also has a deployment-based medical
in the United States to 3 regions and 3 contracts. The             service contract (FEDS-HEAL) to assist units with
contracts provide incentives for customer satisfaction             screening, dental services, immunizations, needed
and include the managed care support contractors as                medical appointments, and administrative support.
partners in support of medical readiness. Some issues
still exist as the Military Health System enters its third         Human Capital
year with the new contracts. Lessons learned are
being developed that will be used to improve the next              The challenge in the area of human capital is
set of contracts.                                                  multifaceted. The Department must ensure that its
                                                                   Total Force, which includes Active Component,
The Department continues to pursue the                             Reserve Component, civilians, and contractors, is:
implementation of federal ceiling prices for
pharmaceuticals. The issue is in litigation with

                                                             202
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................


•	Appropriately sized,                                          the Department’s efforts to meet their personnel and
•	Maintaining a balanced level of skills to support             readiness goals.
  core defense capabilities,
•	Motivated,                                                    The Department is phasing in the NSPS, the system
•	Held to high standards of integrity,                          designed to change how the Department hires, pays,
•	Capable of functioning in an integrated work                  promotes, disciplines, and fires its civilian workforce to
  environment, and                                              make practices more in line with personnel practices
•	Capable of handling the emerging technologies and             in the private sector. The Department has conducted
  threats.                                                      meetings with employees, unions, and other affected
                                                                parties and has formed working groups to identify
The Department’s challenge in human capital includes            and develop options and alternatives for NSPS. The
implementing the National Security Personnel                    Department has adjusted its implementation schedule
System (NSPS) and minimizing disruption from Base               to better effect the changes needed for the program.
Realignment and Closure (BRAC).                                 It has developed communications to target groups
                                                                within the Department and methodologies to gauge
The Department’s challenges also involve issues such            effectiveness.
as the continuing and growing backlog of security
clearances and correcting past deficiencies in the              The Department has required business plans to
Defense Security Service handling and processing of             implement the Base Realignment and Closure (BRAC)
security clearances. The security clearance backlog             recommendations, but the extent of the loss of
directly affects the placement of both Department and           human capital skills is pending on the progress and
contractor personnel in needed positions.                       effectiveness of the implementation. Employees may
                                                                leave or retire instead of moving to a new location or
The Department also faces a challenge in meeting its            face the uncertainty of being downsized. Many of the
goal to reduce preventable accidents. Accidents not             BRAC recommendations will be implemented in years
only reduce readiness through lost man-hours and the            2008 through 2011 which further increases the level
unavailability of personnel but are estimated to cost           of uncertainty. It is too early in the implementation
the Department approximately $25 billion a year. In             phase to determine the extent of loss of specialized
May 2003, the Secretary of Defense challenged senior            and general skills and whether the Department
leaders within the Department to reduce in 2 years the          adequately planned for this loss.
accident mishap rate by 50 percent. In March 2004,
the Secretary challenged Department managers to                 The Department has taken some steps to address
reduce accidents 75 percent by 2008. The challenge              identified problems within the personnel security
for the Department is to make safety an institutional           clearance program. However, longstanding issues
value. Responsibility for environment, safety, and              must be resolved to make any meaningful progress in
health policy is dispersed throughout the Department.           reducing the backlog and ensuring a more effective
                                                                and efficient end-to-end security clearance process.
Inspector General Assessment                                    Resolution of these systemic problems should
of Progress                                                     contribute to a more fiscally sound program.


The Department issued a new Personnel and                       Reducing preventable accidents remains a challenge
Readiness Strategic Plan in April 2006 that focuses             for the Department. The Department did not achieve
on developing the right mix of people and skills                the Secretary’s goal of reducing accidents by
across the Total Force. The plan is a critical piece in         50 percent. The Defense Safety Oversight Council was

                                                          203
                                           Department of Defense Performance and Accountability Report FY 2006
         .................................................. Section 4: Other Accompanying Information


established to facilitate oversight of the Department’s         security posture. Unresolved issues are now
efforts to achieve the Secretary’s goal. The council            exacerbated by the recent losses of privacy data by
is working to determine which indicators should be              various federal agencies, including components of
tracked and how to collect such data and is exploring           the Department, and the dearth of clear Department
leading (pre-accident) rather than lagging (post-               policy from the Assistant Secretary of Defense
accident) indicators. The Under Secretary of Defense            (Networks & Information Integration) regarding
for Personnel and Readiness has issued guidance                 protection of privacy data.
that includes using safety management and results in
performance plans and appraisals.                               The Department also has made little progress during
                                                                the course of FY 2006 in improving its information
Information Security and Privacy                                assurance posture and has not addressed key policy
                                                                issues pertaining to that posture. Although the
Ensuring that a robust information security program is          Deputy Secretary of Defense assured the Director of
in place is still a challenge to the Department. Such a         the Office of Management and Budget on November
program includes periodic risk assessments; security            8, 2005, that the Department would resolve such
awareness training; security policies, procedures,              issues as the applicability of National Institute of
and practices, as well as tests of their effectiveness;         Standards and Technology standards and guidelines
and procedures for addressing deficiencies and for              to the Department, the lack of a standard definition
detecting, reporting, and responding to security                of “system” for reporting purposes, and the lack of
incidents.                                                      an adequate Department inventory of information
                                                                systems, little or no progress has been made.
The Department has developed five priorities for
information assurance: protecting information,                  The Department continues to make progress
defending systems and networks, providing situational           implementing the Health Insurance Portability and
awareness, improving information assurance                      Accountability Act. Ongoing efforts throughout
capabilities, and creating a professional information           the federal government to better use encryption
assurance workforce. However, there is no action                capabilities will assist in lessening this challenge.
plan to assess the effectiveness of these initiatives.          The Administrative Simplification Enforcement final
                                                                rule, effective March 2006, covers civil penalties for
The Department also faces the challenge of ensuring             violations of administrative simplification provisions of
that privacy protections are not compromised by                 the Act.
advances in technology.
                                                                Joint Warfighting and Readiness
One of the major challenges identified last year was
implementation of the Health Insurance Portability and          The challenge in the area of Joint Warfighting and
Accountability Act. Challenges continue for protecting          Readiness is to provide the right force, the right
sensitive personal and medical information as the               personnel, the right equipment, and supplies in the
Department and health care industry move toward                 right place, at the right time, and in the right quantity,
electronic health care records.                                 across the full range of military operations. To meet
                                                                this challenge, the Department is continuously
Inspector General Assessment of Progress                        transforming.

The Department has made little progress during                  While U.S. forces continue to operate around the
the course of FY 2006 in improving its information              world, changes are underway to better align the

                                                          204
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................


resources of the Department to benefit the warfighters,           capable of decision superiority, and increasingly
wherever they are located. Those changes have                     lethal. In addition, transformed logistics capabilities
taken a variety of forms, not the least of which is the           must support future joint force operations that are
improvement of the tools used to fight the enemies of             continuous and distributed across the full range of
the United States. The fight against terrorism, as well           military operations.
as the ongoing Operations Enduring Freedom and Iraqi
Freedom, continue to test the limits of the Department            Supply chain management is a challenge for the
and its ability to successfully defend the United States.         Department. The Government Accountability Office
But those have been shared battles, with each Service             (GAO) identified supply chain management as a High-
shouldering its portion of the load.                              Risk Area because of weaknesses uncovered in key
                                                                  aspects, such as distribution, inventory management,
The Global War on Terror will continue to be a                    and asset visibility. The GAO has reported on
long and difficult war affecting the entire global                numerous problems associated with supply chain
community. It will require firm commitment and                    management, such as shortages of items caused
cooperation of U.S. allies and coalition partners, as             by inaccurate or inadequately funded war reserve
well as international organizations, domestic state               requirements and the Department’s lack of visibility
governments, and the private sector. The demands                  and control over the supplies and spare parts it owns.
placed on the U.S. forces the past few years have been
extensive, but our military is unwavering in its focus,           Inspector General Assessment of Progress
resolve, and dedication to peace and freedom. With
Congress’s continued strong support, the military will            The Department continues to make progress in the
continue to effectively combat terrorism, counter the             area of Joint Warfighting and Readiness. However,
proliferation of weapons of mass destruction, help                there is still much to do. The drawdown and
Iraq and Afghanistan build a stable and secure future,            reorganization of forces in the European and Pacific
improve joint warfighting capabilities, and transform             theaters will add to the ability of the armed forces to
the Force to meet future threats.                                 readily respond to situations as required. Although the
                                                                  Department is taking positive actions to increase its
The Department’s available resources are finite and               warfighting ability and readiness posture, opportunities
require constant monitoring of our abilities and of               for improvement will continue to exist.
the world situation to enable the Department to
successfully operate on a global scale. The continued             The Department has made progress toward meeting
operations in Afghanistan and Iraq require a significant          its goal of transforming logistics through numerous
commitment of forces. Meanwhile, the advances                     initiatives. The Department and the military services
by the Peoples Republic of China in modernizing its               have issued policy and procedures to implement
armed forces and the possibility of nuclear weapons in            performance-based logistics. However, that progress
North Korea and Iran also require constant monitoring.            is tempered by the sheer magnitude of logistics
The combination of these various factors continues to             operations that will continue to make it a long-term
challenge the Department.                                         challenge.

Transformation of logistics capabilities poses a                  The Department has taken actions to improve the
significant challenge to the Department. The                      supply chain management, such as assigning new
Department’s transformed logistics capabilities must              organizational responsibilities for distribution,
support future joint forces that are fully integrated,            developing a logistics transformation strategy, and
expeditionary, networked, decentralized, adaptable,               implementing other specific process improvements.

                                                            205
                                            Department of Defense Performance and Accountability Report FY 2006
         .................................................. Section 4: Other Accompanying Information


However, the Department must be vigilant in                       Management’s Response to Auditor
ensuring that the strategy for logistics transformation           Challenges
is continuously reevaluated and that new initiatives
and systems are adequately funded and effectively                 In general, the Department concurs with the concerns
implemented.                                                      identified by the Inspector General in his Summary
                                                                  of Management and Performance Challenges and the
Government Accountability Office                                  issues presented in the Government Accountability
High-Risk Areas                                                   Office’s High Risk List. The Department is taking
                                                                  progressive steps to evaluate weaknesses across
Since 1990, the Government Accountability Office has              the Department in systems, processes and internal
periodically reported on government operations that it            controls. The Department established comprehensive
has designated as high risk. Its audits and evaluations           plans, presented throughout this report, that describe
identify federal programs and operations that, in some            the steps necessary to improve these areas of concern
cases, are high risk due to their greater vulnerabilities         within the Department. Without question, the path
to fraud, waste, abuse, and mismanagement. In                     forward to implement solutions will be challenging,
its latest report, the Government Accountability                  expensive, and require much time. However, the
Office designated 26 high-risk areas. Eight involved              Department has made a good start and has made
Department of Defense programs and operations;                    substantial progress in many areas. The support of the
five involved the Department as well as other federal             Congress and the Department’s many stakeholders,
agencies. The Department-related high-risk areas are              as well as the efforts of individuals and organizations
listed below.                                                     across the entire Department, have contributed to the
                                                                  development of these plans and the progress made in
Department of Defense:                                            implementing solutions.

•	Approach to Business Transformation
•	Business Systems Modernization
                                                                   Improper Payments Information
•	Personnel Security Clearance Program                                 Act Reporting Details
•	Support Infrastructure Management
•	Financial Management                                            As discussed in Section 1: Management’s Discussion
•	Supply Chain Management (formerly Inventory                     and Analysis, the Department conducted a review of
  Management)                                                     the improper payments per the Office of Management
•	Weapon Systems Acquisition                                      and Budget guidance.
•	Contract Management
                                                                  Risk Assessment
Department of Defense and Other Federal
                                                                  The Department reviewed all of its programs and
Agencies:
                                                                  activities and determined that six programs/activities
                                                                  were susceptible to improper payments: Military
•	Strategic Human Capital Management
                                                                  Retirement, Travel Pay, Military Health Benefits,
•	Managing Federal Real Property
                                                                  Military Pay, Civilian Pay, and Commercial Pay. These
•	Protecting the Federal Government’s Information
                                                                  programs represent approximately 86 percent of
  Systems and the Nation’s Critical Infrastructures
                                                                  the Department’s total payments. The Department
•	Establishing Appropriate and Effective Information-
                                                                  of Defense performed risk assessments for each of
  Sharing Mechanisms to Improve Homeland Security
                                                                  these programs/activities that addressed the strength
•	Management of Interagency Contracting

                                                            206
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................


of the internal controls in place to prevent improper             identified through other than retired pay random
payments (such as prepayment reviews), system                     or special audits, to determine an overall improper
weaknesses identified internally or by outside audit              payments population estimate for retired pay.
activities, voluntary returns of overpayments by
vendors, etc. The subsequent paragraphs summarize                 Travel Pay. The Department performs monthly random
the process and results of these assessment surveys.              post-payment reviews of travel records settled through
There are two other types of payment programs/                    the Defense Travel System and Integrated Automated
activities that the Department did not conduct                    Travel System. These reviews satisfy requirements
surveys for and as a result are not discussed below,              of Certifying Officers Legislation and ensure
intragovernmental payments (approximately                         payments are legal, accurate, and have supporting
$75 billion in fiscal year (FY) 2005) and payments for            documentation. These random reviews are designed
afloat and deployed forces (approximately                         to produce annual estimates of improper payments,
$600 thousand in FY 2005). The Department is                      with probability of 95 percent and sample precision
developing a program to cover these remaining                     of plus or minus 2.5 percent, at the Military Service
program/activity payments.                                        component level (Army, Navy, Air Force, and Marine
                                                                  Corps).
Statistical Sampling
                                                                  For travel payments made by the U. S. Army Corps of
Military Retirement. During FY 2006, the Department               Engineers, all temporary duty and permanent change
continued the process, implemented in FY 2004,                    of station travel vouchers greater than or equal to
of monthly random reviews of confirmed deceased                   $2,500 are subject to a post audit review. A sample
retiree accounts, in addition to monthly random                   composed of every 366th temporary duty travel
reviews from the overall population of retired and                voucher less than $2,500 is also reviewed. These
annuitant pay accounts. Both of these sampling plans              reviews are designed to produce annual estimates of
are designed to produce annual estimates of improper              improper payments, with probability of 95 percent and
payments, with probability of 95 percent and sample               sample precision plus or minus 2 percent.
precision of plus or minus 2.5 percent.
                                                                  Military Health Benefits. To determine the statistically
A monthly sample of accounts is selected from the                 valid estimate of the annual amount of improper
population of confirmed deceased accounts. Each                   payments, the Department uses the following sampling
account is audited to determine if the member was                 methodology to pull TRICARE (i.e., triple option health
overpaid after the member’s death. Statistics collected           benefit plan available for military families) encounter
from the review include the number of accounts                    data records for the annual target health care cost
reviewed, number with overpayments, dollar amount                 audits of the managed care support services contracts.
of the overpayment, amount of correct pay (what the
payment should have been), and the dollar amount                  For each contract option period, a statistically valid
collected back from the member’s account/estate                   sample of claims with care end dates within the
within the first 60 days after notification. These sample         specified option period is selected for payment error
statistics are projected to the population of deceased            auditing. Variable sampling, using stratified sampling
retirees to then determine an improper payment rate               with optimum allocation, is used to calculate the
population estimate for deceased accounts.                        sample size for the payment errors. The sample size
                                                                  is designed to produce annual estimates of improper
Population estimates from the deceased account                    payments, with probability of 90 percent and sample
reviews are then added to any improper payments                   precision plus or minus 1 percent.

                                                            207
                                           Department of Defense Performance and Accountability Report FY 2006
         .................................................. Section 4: Other Accompanying Information


Claims with a cost less than $100 are not sampled               Civilian Pay. The Department uses a stratified sampling
(except for Medicare dual eligibility claims). One              plan for civilian pay, similar to that used for military
sample category includes all claims $100,000 and                pay. The sampling plan is designed to produce
more. Claims with a cost of greater than $100 but               annual estimates of improper payments at the Service
less than $100,000 are broken down into 12 sample               component level (annual target sample of 1,800 or
categories. A formula is applied to calculate the               150 accounts monthly per component). The annual
sample size for each sample category. If the sample             sample provides improper payment estimates with
category universe count is less than 30, all the                95 percent probability and sampling precision of plus
claims in that category are audited. The percentage             or minus 2.5 percent, at the Service Component level
of overpayments for the sample is applied to all                (Army, Navy, Air Force, Marine Corps, and Defense
the payments to determine the improper payment                  Agencies).
amounts.
                                                                The Department reviews monthly randomly selected
Military Pay. The Department uses a stratified                  civilian pay accounts for accuracy. The root cause
sampling plan designed to produce annual estimates of           and detail of the improper payments are documented
improper payments at the Military Service component             for correction and follow-up actions. The sample rate
level (annual target sample of 1,800 or 150 accounts            is multiplied by the total net pay of the population
monthly per component). The annual sample provides              to determine an estimated improper payment dollar
improper payment estimates with 95 percent                      value. Any improper payments identified through
probability and sampling precision of plus or minus             means other than the random review are summarized
2.5 percent, at the Service Component level (Army,              and added to the population estimate (from the
Navy, Air Force, and Marine Corps).                             random review) to determine an overall population
                                                                improper payment estimate for civilian pay.
The Department reviews monthly randomly selected
military pay accounts and their associated entitlements         Commercial Pay. The Department uses a stratified
and deductions for accuracy. The root cause and                 sampling plan designed to produce estimates of
detail of the improper payments are documented for              improper payments at the program (entitlement
correction and follow-up actions. The sample rate               system) level. These sample results are compared
is multiplied by the total net pay of the population            with the Department’s database used to track and
to determine an estimated improper payment dollar               resolve commercial pay improper payments to develop
value. Any improper payments identified through                 annual improper payment estimates with 95 percent
means other than the random review are summarized               probability and sampling precision of plus or minus
and added to the population estimate (from the                  2.5 percent.
random review) to determine an overall population
improper payment estimate for military pay.                     For commercial pay payments made by the U. S. Army
                                                                Corps of Engineers, a random sample is selected from
The FY 2006 improper payments rate for military                 all commercial payments. The sample size is based
pay was substantially lower than the FY 2005 rate.              on the estimated minimum (374,400) commercial
Because this large difference is primarily attributed           payments expected to be processed in a year. This
to fewer sampled accounts having high dollar rate               sample provides annual improper payment estimates
erroneous payments, the Department is performing                with 95 percent probability and sampling precision of
a comprehensive analysis, comparing the types and               plus or minus 2 percent.
dollar values of errors from FY 2005 to FY 2006.


                                                          208
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................


Corrective Action Plans                                         a value exceeding $32.6 million. Improper payments
                                                                accounted for .968 percent of the tested sample, so
Military Retirement. The improper payments rate for             projected improper payments in the population of
the military retirement is projected to remain nearly           settlements could approach $7.97 million.
the same from FY 2005 ($49.3 million or
.1381 percent) to FY 2006 ($48.8 million or                     Military Health Benefits. The Department has had
.137 percent). The majority of the improper payments            contracts with payment performance standards for
are made to deceased retirees (approximately                    military health benefit claims processing in place for
$48.5 million). Random reviews from FY 2006                     many years. Under the existing managed care support
indicate 95 percent of the overpaid dollars to deceased         contracts, the Department has a zero tolerance for
retirees is recovered within the first 60 days after            unallowable costs. If the contractor pays a claim that
notification. To reduce the initial improper payment            is not allowable, the Department will not reimburse
primarily caused by the delay in death notification to          the contractor. In addition to placing the contractors
the paying office by family members, the Department             at risk for unallowable costs, this contractual design
has substantially improved its internal processing              provides a built-in incentive for contractors to
methods and is using data mining techniques with the            continually perfect their claims processing system,
Social Security Administration. This process allows             up to the point where financial costs outweigh the
the Department to receive death notice information              benefits.
through an automated system and helps prevent
improper payments by the pay system.                            The Department currently audits statistically valid
                                                                samples that over the years have consistently produced
Travel Pay. The Defense Travel System contains                  an error rate of less than the 2 percent standard
numerous automated prepayment flags to alert                    contained in the TRICARE contracts. Improperly
travelers and approving officials of potential                  submitted claims by the provider community, as
inconsistencies that could result in an improper                well as a minimal degree of human error that can
payment. In addition, results of monthly random                 be expected with handling a large volume of claims
reviews of Defense Travel System trip records are               within the tight time parameters established through
summarized and presented to applicable Service                  the prompt payment regulations, cause errors in health
component representatives and to Defense Travel                 care claims processing. Based on the FY 2006 survey,
System management personnel. These reports                      the FY 2006 improper payments rate for the military
include number, dollar value, and reasons for errors            health benefits is projected to be $140.0 million or
discovered among the sampled claims, as well as                 2.0 percent.
recommendations to prevent similar errors on future
travel records. Analysis indicates most errors are              Numerous prepayment and post-payment controls
attributed to traveler input or authorizing official            are built into the military health benefits’ claims
oversight. Training of both travelers and authorizing           processing system to minimize improper payments.
officials is one of the primary tools the Department            Every TRICARE claim is adjudicated against this system
uses to alleviate these types of discrepancies.                 of checks and balances. The managed care support
                                                                contractors are required to utilize specialized software
In FY 2006, over 783,000 trip records, with total               containing specific auditing logic designed to ensure
settlement dollar value of $823.6 million, were                 appropriate coding on professional service claims
processed through the Defense Travel System. As                 and eliminate overpayments. The software does not
of September 30, 2006, the Department randomly                  set coverage/benefit policy; it merely audits claims
selected and reviewed 30,100 settled trip records with          for appropriate code combinations. For calendar

                                                          209
                                            Department of Defense Performance and Accountability Report FY 2006
         .................................................. Section 4: Other Accompanying Information


year 2005, the prepayment automated software                     include both random and targeted pre-payroll
used by managed care contractors accounted for                   (payday) reviews, and producing pay abnormality and
approximately $184 million in cost avoidance for the             inconsistent condition reports.
TRICARE program. The $89 million increase over
the calendar year 2004 savings of $95 million can be             In the pre-payroll review process, the Department
attributed to the implementation of additional edits, as         selects random individual pay accounts from the
well as increased claims volume.                                 Military Services for review prior to mid-month
                                                                 and end-of-month payroll release. The goal is to
Another control is the prepayment review required                identify any incorrect pay generated by a systems or
under the TRICARE contracts. The contractors use this            procedural issue and correct it.
strategy to prevent payment for questionable billing
practices. Prepayment review allows for a closer                 Pay abnormality reports are generated by the pay
examination of the services rendered and may require             systems to identify accounts that are receiving pay at
the provider to submit medical documentation to                  a rate of 225 percent or greater increase from their
support the services billed. In calendar year 2005,              normal pay. It provides the normal pay amount, what
prepayment review resulted in a cost savings of                  is being paid on the current payday, and identifies
$14 million, almost double the $7.3 million saved in             the input creating the increase in pay. Each account
calendar year 2004.                                              on this list is reviewed in detail to ensure the pay is
                                                                 accurate based on some unique occurrence (e.g.,
The Department also requires each contractor to have             payment of a new entitlement, payment of a one-time
a fraudulent claims investigation or anti-fraud unit             item, such as a bonus, etc.)
to identify and investigate any pattern of suspicious
or potential fraudulent billings. In FY 2005, fraud              Inconsistent condition reports identify pay conditions
judgments were ordered for $5.9 million. In                      within the pay system that should not exist (e.g., the
addition, the anti-fraud efforts resulted in identifying         member is receiving Basic Allowance for Housing at
$3.7 million in benefit dollars for administrative               the “no dependents” rate but also is receiving cost of
recoupment.                                                      living allowance at the “with dependents” rate). The
                                                                 reports are sent to the appropriate input source for
Military Pay. The projected FY 2006 improper                     research and correction of the account.
payments rate for military pay of $65.9 million
(.091 percent) is a substantial decrease from the                Both system and operations managers are notified of
FY 2005 rate of $432 million (.6254 percent). The                any randomly reviewed pay accounts with over or
FY 2006 decrease in estimated improper payments for              under payments, as they are detected, from the post-
military pay is primarily attributed to fewer randomly           payment review. Also, a monthly report is produced
sampled accounts having confirmed high dollar                    that illustrates monthly and year to date error trends
value erroneous payments. The Department places                  and reasons for discrepancies that impact net pay.
substantial emphasis on the accuracy of military pay.
Several sources identify improper payments for military          To further reduce improper payments, the
pay. The Department performs monthly random                      Department implemented a process in May 2006
reviews by Military Service, identifies pay system               to capture reconciliation rates for overpayments
discrepancies, and conducts special audits or reviews.           and underpayments identified among the sampled
The Department has established several processes to              accounts. An interim reconciliation rate target of
ensure correctness of pay and thus prevent improper              93 percent was established for the 4th Quarter of
payments within the military pay systems. These                  FY 2006. A more definitive rate will be established

                                                           210
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................


for FY 2007 pending the confirmation and analysis              FY 2007, pending confirmation and analysis of more
of more comprehensive data on reconciliation of                comprehensive data on reconciliation of overpayments
overpayments and underpayments among the sampled               and underpayments among the sampled accounts to
accounts to ensure accuracy of the Service member’s            ensure accuracy of civilian pay.
pay.
                                                               Commercial Pay. The Department uses various
The Department has also established a Military Pay             manual and automated prepayment initiatives to
Improvement Action Plan with five key milestones:              prevent commercial pay improper payments. Based
Personnel and Pay Leadership and Process                       on review of improper payment data, detection logic
Improvement, Personnel and Pay Systems Integration,            is continually reevaluated and adjusted to improve
Interim Improvements to Antiquated Pay System,                 the detection and prevention of improper payments.
Active and Reserve Pay Accounts Integration, and               In addition, manual review procedures are used for
Improving Responses to Legislative Changes. The                selected high dollar value payments. During FY 2006,
Department appointed a project manager and the                 the Department identified more than $550 million in
plan’s implementation is monitored by management,              improper payments out of the approximately
such as the Military Services’ Financial Managers,             $300 billion in commercial payments, which equates
the Business Transformation Agency, and the Defense            to an improper payment rate of .1830 percent.
Finance and Accounting Service Military Pay
Operations Directors.                                          In FY 2007, the Department will implement a Business
                                                               Activity Monitoring service, employing the latest
Civilian Pay. The Department also places substantial           technology to increase the efficiency and effectiveness
emphasis on the correctness of civilian pay. The               of improper payment detection efforts.
Department has established several processes to
ensure accuracy of pay and thus prevent improper               The Defense Finance and Accounting Service Internal
payments within the civilian pay system. These                 Review Office also conducts periodic independent
measures include targeted pre-payroll (payday) reviews         reviews of commercial payments to improve the
that focus on high visibility areas and those where            Department’s improper payment detection, correction,
recent system changes have occurred that impact                and prevention efforts. Since FY 2003, this office
net pay. In addition, as is the case in military pay,          has identified $212.4 million in improper payments
both system and operations managers are notified of            of which $197.4 million has been recouped by the
any randomly reviewed pay accounts with over or                Department.
under payments, as they are detected, from the post-
payment review. Also, a monthly report is produced             The U.S. Army Corps of Engineers manages the
that illustrates monthly and year-to-date error trends         Military Lease Program for all military services. When
and reasons for discrepancies that impact net pay.             leased property is sold or leases are terminated without
Improper payments for civilian pay in FY 2006 are              timely notifications to the appropriate contracting
projected at $62.8 million or .1231 percent.                   officer or real estate office, extra payments may be
                                                               made after the sale or termination. When such errors
To further reduce improper payments, the                       are identified, the U.S. Army Corps of Engineers helps
Department implemented a process in May 2006 to                correct the error and reminds the Military Service of
capture reconciliation rates for overpayments and              the importance of accurate and timely notifications.
underpayments identified among the sampled civilian
pay accounts, similar to that for military pay. The            The U.S. Army Corps of Engineers also manages the
Department intends to establish targets for                    utility payments for the Department. When there is a

                                                         211
                                                                    Department of Defense Performance and Accountability Report FY 2006
                   .................................................. Section 4: Other Accompanying Information


    merger or acquisition of utility companies, payments                                       In all cases of improper payments, the U.S. Army
    may be made before the U.S. Army Corps of Engineers                                        Corps of Engineers reminds the parties involved of the
    is aware of changes to the payee information. To                                           importance of accurate payments to prevent improper
    reduce the likelihood of these errors, the U.S. Army                                       payments and the associated liability. For clerical
    Corps of Engineers is monitoring for news of pending/                                      errors in data entry, the personnel are notified and
    new acquisitions and mergers of utility companies.                                         provided with additional guidance to help prevent the
    Additionally, many major companies now notify the                                          error from recurring.
    U.S. Army Corps of Engineers directly as well as the
    end user/customer. The U.S. Army Corps of Engineers                                        Improper Payment Reduction Outlook
    has also developed queries of all relevant databases
    to help ensure records are modified promptly upon                                          The following table summarizes the Department’s
    receipt of change notifications.                                                           improper payment (IP) reduction outlook and total
                                                                                               program outlays (payments) from FY 2005 through FY
                                                                                               2009.



                                FY 2005                           FY 2006                            FY 2007                      FY 2008 Estimated                  FY 2009 Estimated
 Program
                      Outlays      IP         IP       Outlays        IP         IP       Outlays        IP         IP       Outlays        IP         IP       Outlays        IP         IP
                       ($ B)      (%)       ($ M)       ($ B)        (%)       ($ M)       ($ B)        (%)       ($ M)       ($ B)        (%)       ($ M)       ($ B)        (%)       ($ M)

 Military
 Retirement            $35.7     .1381      $49.3       $35.6        .137      $48.8       $37.8       .1283      $48.5       $39.6       .1234      $48.8       $41.3       .1209      $50.0
 (Note 1)

 Military Health
 Benefits               $7.5      1.17      $87.8        $7.0        2.0      $140.0        $9.0        2.0      $180.0        $8.3        2.0      $166.0        $8.9        2.0      $178.0
 (Notes 2-5)

 Military Pay
                       $69.1     .6254      $432.0      $72.2        .091      $65.9       $60.3       .5019     $302.7       $63.0       .4676     $294.6       $64.4        .458     $295.1
 (Notes 1, 6-7)

B - Billions, M - Millions

Note 1: Military retirement and military pay outlays are net amounts (e.g., net of Federal and state withholdings). To estimate net outlays for future years, the percentage of net to gross for
FY 2006 is determined and multiplied by the gross outlays reported in the FY 2007 President’s Budget submission.

Note 2: The final payment error rate for FY 2005 is 1.17 percent, which is less than the amount reported in the FY 2005 report and the contract performance standard of 2 percent.

Note 3: The FY 2005 outlays include all benefit dollars subjected to the audit process. The total was computed as $7.5 billion as reflected in this chart. Fee for service claims are
determined to be susceptible to improper payments as payment is made based upon an individual claim being submitted by a provider or beneficiary based on a certification that the
services were provided as billed. The $7.5 billion does not include contracts, such as the dental and the U.S. Family Health Plan contracts, whereby the contractor is 100 percent
responsible for improper payments—there is no shared risk with the government. Administrative or change order costs are also not included as those costs do not fall into the definition of
areas susceptible to improper payments.

Note 4: Pharmacy claims for FY 2005 and FY 2006 were not included in the audit process. The Department is developing a process for future use.

Note 5: The improper payment amount for FY 2005 is understated by a $3.6 million contract overpayment that was not included in the audit contractor review. The overpayment is being
evaluated for recoupment.

Note 6: The FY 2006 decrease in estimated improper payments for military pay is primarily attributed to fewer randomly sampled accounts having confirmed high dollar value erroneous
payments. The Department is performing a comprehensive analysis, comparing the types and dollar values of errors from FY 2005 to FY 2006.

Note 7: The military pay outlays appear lower for FY 2007 through FY 2009 because emergency supplemental funding is not included.



                                                                                         212
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................


Improper Payment Auditing                                         improper payments. The improper payments estimate
                                                                  becomes an unallowable cost to the vendor making
The Department utilizes a number of different                     the payment. The Department also is utilizing a
mechanisms to prevent, identify, and collect improper             recovery audit contractor to recapture overpayments
payments to include recovery and contract auditing.               made to hospitals that failed to submit amended cost
                                                                  reports from calendar years 1992 through 1997. From
Recovery Auditing. The Department maintains                       October 2003 through July 2006, these reviews have
an extensive post-payment process for identifying                 realized over $20.6 million in recoupments.
improper payments. This process utilizes post-
payment review techniques, performed both internally                                                       Recovery Audit Activity
and by recovery auditing contractors paid from the                                                               Commercial       Military Health
proceeds actually recovered.                                                                  Agency-wide         Payments           Benefits
                                                                                              Commercial          Recovery          Recovery
                                                                                               Payments            Auditing          Auditing
For agency-wide commercial payments, the
                                                                                                                 Contractor        Contractor
overpayment amounts identified for recovery are
primarily attributable to internal recovery audit efforts          Amount Subject to
                                                                   Review for Current         $299.4 billion          N/A                N/A
and recoveries identified by other means (including                Year Reporting
contract reconciliation and statistical sampling as well
                                                                   Actual Amount
as contractor voluntary refunds). In addition to the               Reviewed and               $299.4 billion          N/A                N/A
overpayments, these efforts identified underpayments.              Reported
Approximately $307.6 million was disbursed to                      Overpayment
correct underpayments in prior years, and                          Amounts Identified        $170.0 million           N/A          $25.3 million
$256.2 million was disbursed in the current year for               for Recovery

identified underpayments. Around $19.0 million                     Amounts Identified/
                                                                   Actual Amount                 .0006%               N/A                N/A
remains in the recovery process or referred to a
                                                                   Reviewed
Department of Defense debt management office for
collection.                                                        Amounts recovered
                                                                                             $133.3 million           N/A           $4.6 million
                                                                   Current Year

For commercial payments contractor recovery                        Amounts recovered
                                                                                             $138.3 million $18.6 million          $16.0 million
                                                                   Prior Years(s)
auditing, the Department has recouped more than
$18 million in improper commercial payments                       Note: Because of timing differences, there is no direct relationship between
since its inception in 1996. During FY 2006, the                  recovery auditing efforts and actual recovery amounts (e.g., recovery audit effort
                                                                  may have been performed in a previous fiscal year on disbursements made
Navy conducted a pilot to determine the feasibility
                                                                  in multiple fiscal years). As a result, the table is limited to the actual amounts
and scope of a Department-wide recovery audit for                 recovered in FY 2006 and prior years.
the Navy. Based on the results, the Navy plans to
perform a recovery audit in FY 2007. The Department               Contract Auditing. The Defense Contract Audit
anticipates additional recovery auditing by contractors           Agency routinely performs billing system audits at
in FY 2007.                                                       major contractors (e.g., contractors with a substantial
                                                                  amount of flexibly priced contracts and fixed
The Department utilizes contractors to perform the                price contracts) to determine the adequacy of the
entitlement process related to health care claims.                contractor’s billing system internal controls and its
To ensure the integrity of the payments made, a                   compliance with those controls. This effort provides
different contractor performs post-payment reviews                assurance to the Department that the contract payment
using statistical methods to quantify the amount of               billings are based on costs incurred and approved

                                                            213
                                              Department of Defense Performance and Accountability Report FY 2006
         .................................................. Section 4: Other Accompanying Information


provisional billing rates. The Defense Contract Audit             payments, as previously mentioned, the Department is
Agency also performs paid voucher reviews at major                currently in the process of procuring business activity
contractors and special purpose audits at contractor              monitoring services, which will employ the latest
locations when a risk factor for improper payments is             technology to increase the efficiency and effectiveness
identified and neither a billing system review nor a test         of improper payment detection efforts. The
of paid vouchers is planned.                                      Department will prioritize the use of this capability
                                                                  first toward commercial payments and then to all
Accountability                                                    payment areas.

Certifying officer legislation currently in effect holds          Statutory or Regulatory Barriers
certifying and disbursing officers accountable for
government funds. Pecuniary liability attaches                    There are currently no statutory or regulatory barriers
automatically when there is a fiscal irregularity, i.e.,          limiting the Department’s corrective actions for five of
(a) a physical loss of cash, vouchers, negotiable                 the six major program/activity areas.
instruments, or supporting documents, or (b) an
improper payment. Pecuniary liability for                         For military retirement, two barriers impede the
accountable officials attaches if a commander/director            agency’s ability to take corrective actions in reducing
determines an improper payment was the result of                  improper payments: the Federal Acquisition
the accountable official’s negligence. For certifying             Regulation and the Retired and Annuitant Pay service
officers and disbursing officers, there is a presumption          contract. In January 2002, the Defense Finance and
of negligence and those individuals bear the burden               Accounting Service awarded the Retired and Annuitant
of proof in establishing the absence of negligence,               Pay service operations to a government contractor.
i.e., they must produce evidence to establish that                Although most functions remain unchanged from
there was no contributing fault or negligence on their            when the government performed these functions,
part. A presumption of negligence does not apply                  there are now contractual limits to the government’s
to accountable officials. Efforts to recover from the             involvement in the day-to-day operations of Retired
recipient must be undertaken in accordance with the               and Annuitant Pay. The Continuing Government
debt collection procedures in Volume 5, Chapters                  Activity Office was formed to oversee the Retired and
29 and 30, of the Department’s Financial Management               Annuitant Pay contract. To ensure the contractual
Regulation.                                                       requirements are followed, however, the government
                                                                  can no longer direct how the work is accomplished.
In addition, the Department actively monitors                     To bring about an operational change, both the
performance metrics to further reduce improper                    government and the contractor must agree on how to
payments. These metrics include all programs/                     effect and fund the change. The Federal Acquisition
activities the Department has identified as having                Regulation requires any deviation from the current
a risk of improper payments (i.e., military retired,              contract be accomplished via a contract modification.
military health benefits, and military, civilian, travel,
and commercial pay areas).                                        Additional Comments

Information Systems                                               The Office of Management and Budget requested
                                                                  that the Department identify Iraq improper payment
The Department has the information and infrastructure             indicators. In support of this request, additional
needed to reduce improper payments for five of the                reviews are conducted on payments for Iraq by the
six major program/activity areas. For commercial

                                                            214
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................


Defense Finance and Accounting Service and the U. S.              the importance of continuing this critical initiative. In
Army Corps of Engineers, as discussed below.                      an effort to identify and prevent improper payments
                                                                  before they occur, the Department recently procured
The Defense Finance and Accounting Service                        a managed service that includes the latest “best in
initiated a survey to identify military contracts and             class” private industry Business Activity Monitoring
payments made from the Mechanization of Contract                  processes coupled with a comprehensive Enterprise
Administration Services entitlement system in support             Risk Management Strategy Program. The combination
of Iraq reconstruction to determine if there were any             of these two processes will allow the Department to
improper payments made during the first three quarters            (1) more accurately, efficiently, and effectively identify
of FY 2006. The intent of the first phase of the survey           potential improper payments before they occur, and
is to assess if payments made for Iraq Reconstruction             (2) integrate improper payment root cause analysis
contracts are at any greater risk of improper payments            with existing internal management control program
than other contract payments processed under the                  and audit “weaknesses” to assign inherent risks to
same system. A secondary review will encompass                    better isolate areas for future improper payment
high visibility/high dollar value Iraq contract                   prevention. Additional FY 2007 Department initiatives
payments. The Defense Finance and Accounting                      to facilitate identification and reporting of improper
Service is also pursuing lists of contracts for Coalition         payments include: (1) periodic workgroup meetings of
Support (military operations) requirements to enable              Military Service and Defense Agency representatives
the post-payment review of contracts paid from the                to establish guidelines and ensure consistent reporting
Mechanization of Contract Administration Services.                and adherence to the Office of Management and
Future plans will be dependent upon the results of                Budget implementation guidelines for the Improper
these initial reviews and system comparisons. Data is             Payments Information Act and (2) increased emphasis
not currently available, as this comparative process is           on data mining or reviewing additional subsets of the
still underway. The Defense Finance and Accounting                pay system populations that are deemed as potentially
Service will report results of reviews after the end of           at higher risk for improper payments.
the first quarter of FY 2007.
                                                                       Funds Managed by the
For the U. S. Army Corps of Engineers, a random
sample of every 15th item from the population                        Department for the Executive
of monthly Iraqi payments greater than or equal                        Office of the President
to $500,000 is selected for audit. The audit
process includes: verifying Prompt Payment Act                    The Department manages the following funds for the
compliance; reviewing receiving report information                Executive Office of the President:
to ensure payments were for goods/services actually
received; reviewing vendor invoices and supporting                •	International Military Education and Training
documentation to ensure that correct vendors were                 •	Foreign Military Financing Program Grants
paid the correct amounts; verifying vendors are not               •	Military Debt Reduction Financing
on the contractor indebtedness list; and reviewing                •	Special Defense Acquisition Fund
appropriation expense coding for validity.                        •	Foreign Military Loan Liquidating Account
                                                                  •	Foreign Military Financing, Direct Loan Financing
Although the Department has made significant                      •	Foreign Military Sales Trust Fund
progress toward preventing overall improper
payments, identifying occurrences, and acting to                  The consolidated FY 2006 financial statements below
alleviate similar future errors, the Department realizes          summarize the activities of these funds.

                                                            215
                                  Department of Defense Performance and Accountability Report FY 2006
.................................................. Section 4: Other Accompanying Information


                                                Unaudited

               Funds Appropriated to the President
               Administered by the Department of Defense
               Security Assistance

                              BALANCE SHEET
                                                                        FY 2006
                           As of September 30, 2006
                                 ($ in Millions)

                                   ASSETS
               Fund Balance With Treasury                           $      2,604.6
               Non-Entity Other                                            1,199.2
               Accounts Receivable                                            14.4
               Loans Receivable                                            3,663.4
               Total Assets                                         $      7,481.6

                                    LIABILITIES
               Debt                                                 $      3,315.6
               Other Liabilities                                             377.7
               Accounts Payable                                               67.5
               Military Retirement and Other Federal Employment
               Benefits                                                        0.3
               Other Liabilities                                           1,834.4
               Total Liabilities                                    $      5,595.5

                                 NET POSITION
               Unexpended Appropriations - Other Funds                     1,823.1
               Cumulative Results of Operations - Other Funds                 63.0
               Total Net Position                                   $      1,886.1

               Total Liabilities and Net Position                   $      7,481.6




                          STATEMENT OF NET COST                         FY 2006
                    For the Year Ended September 30, 2006
                                 ($ in Millions)

               Program Costs:
                 Gross Cost                                         $      5,321.0
                 Less: Earned Revenue                                       (659.4)
                Net Program Costs                                   $      4,661.6
               Cost not Assigned to Programs                                   -

               Less: Earned Revenues not Attributable to Programs              -
               Net Cost of Operations                               $      4,661.6




                                                    216
Department of Defense Performance and Accountability Report FY 2006
Section 4: Other Accompanying Information ...............................................

                                                          Unaudited
  Funds Appropriated to the President
  Administered by the Department of Defense
  Security Assistance


                                                                                                  Non-Budgetary Credit
                                                                       Budgetary Financing
                                                                                                   Reform Financing
            STATEMENT OF BUDGETARY RESOURCES                               Accounts
                                                                                                       Accounts
              For the Year Ended September 30, 2006
                           ($ in Millions)

  Budgetary Resources
  Unobligated balance, brought forward, October 1                  $                  81.0    $                   48.0
  Recoveries of Prior Year unpaid obligations                                         10.4                           -
  Budget Authority
    Appropriations Received                                        $               4,601.7    $                   16.0
    Borrowing Authority                                                                  -                        25.6
    Contract Authority                                                               373.0                           -
  Spending Authority from Offsetting Collections
    Earned                                                                               -                           -
      Collected                                                                      661.8                     1,110.9
      Change in Receivable from Federal Sources                                          -                           -
   Subtotal                                                        $               5,636.5    $                1,152.5
  Nonexpenditure transfers, net, anticipated and actual                               26.0                           -
  Permanently Not Available                                                         (254.3)                   (1,083.0)

  Total Budgetary Resources                                        $               5,499.6    $                 117.5


  Status of Budgetary Resources
  Obligations Incurred
    Direct                                                         $               4,588.0    $                 102.2
    Reimbursable                                                                     199.8                          -
    Subtotal                                                       $               4,787.8    $                 102.2
  Unobligated Balance
    Apportioned                                                                        1.3                        0.7
    Exempt from Apportionment                                                        696.7                          -
    Subtotal                                                                         698.0                        0.7
  Unobligated Balances Not Available                                                  13.8                       14.6
  Total Status of Budgetary Resources                              $               5,499.6    $                 117.5

  Change in Obligated Balance:
  Obligated Balance, Net
    Unpaid obligations, brought forward, October 1                 $               2,469.2    $                3,417.5
    Less: Uncollected customer payments from Federal sourcese,
    brought forward, October 1                                                           -                           -
    Total unpaid obligated balance                                                 2,469.2                     3,417.5
  Obligations incurred, net                                                        4,787.8                       102.2
  Less: Gross outlays                                                             (5,196.1)                     (480.4)
  Less: Recoveries of prior year unpaid obligations, actual                          (10.4)                          -
  Obligated balance, net, end of period
    Unpaid obligations                                                             2,050.5                     3,039.3
    Less: Uncollected customer payments from Federal Sources                             -                           -
    Total, unpaid obligated balance, net, end of period                            2,050.5                     3,039.3
  Net Outlays
    Gross outlays                                                                  5,196.1                       480.4
    Less: Offsetting collections                                                    (661.8)                   (1,110.9)
    Less: Distributed Offsetting Receipts                                                -                           -
  Net Outlays                                                      $               4,534.3    $                 (630.5)



                                                             217
                                                         Department of Defense Performance and Accountability Report FY 2006
            .................................................. Section 4: Other Accompanying Information


                                                                          Unaudited

Funds Appropriated to the President
Administered by the Department of Defense
Security Assistance


       STATEMENT OF CHANGES IN NET POSITION                 FY 2006                                 STATEMENT OF FINANCING                                  FY 2006
              As of September 30, 2006                                                        For the Year Ended September 30, 2006
                    ($ in Millions)                                                                        ($ in Millions)
CUMULATIVE RESULTS OF OPERATIONS                                                  Resources Used to Finance Activities:
  Beginning Balance                                  $            69.9               Budgetary Resources Obligated
  Prior Period Adjustments:                                                              Obligations Incurred                                           $    4,890.1
                                                                                         Less: Spending Authority from Offsetting Collections and
  Changes in accounting principles                                    -
                                                                                         Recoveries                                                          (1,783.1)
  Corrections of errors                                           (1.2)                  Obligations Net of Offsetting Collections and Recoveries       $     3,107.0
Beginning Balance, as adjusted                       $            68.7                   Less: Offsetting Receipts                                                  -
                                                                                         Net Obligations                                                $     3,107.0
Budgetary Financing Sources                                                          Other Resources
   Appropriations Transferred in/out                 $             -                     Donations and Forfeitures of Property                          $          -
   Other Adjustments (rescissions, etc.)                           -                     Transfers In/Out Without Reimbursement                                (67.0)
   Appropriations Used                                         4,722.8                   Net Other Resources Used to Finance Activities                        (67.0)
Other Financing Sources:                                                          Total Resources Used to Finance Activities                            $    3,040.0
                                                                                  Resources Used to Finance Items not part of the Net Cost of
   Donations and forfeitures of property
                                                     $                -           Operations:
                                                                                     Change in Budgetary Resources Obligated for Goods,
   Transfers in/out Without Reimbursement
                                                                  (66.9)             Services, and Benefits ordered but not yet provided
   Imputed financing from costs absorbed by others                  -                    Undelivered Orders                                             $      523.4
   Other (+/-)                                                      -                Resources that fund expenses recognized in Prior Periods                  (26.6)
                                                                                     Budgetary Offsetting Collections and Receipts that do not affect
Total Financing Sources                              $         4,655.9               Net Cost of Operations                                                  1,572.5
                                                                                     Resources that Finance the Acquisition of Assets                         (480.4)
                                                                                     Other Resources or Adjustments to net Obligated that do not
Net Cost of Operations                               $         4,661.6               affect Net Cost of Operations
                                                                                         Other                                                                  66.9
                                                                                  Total Resources Used to Finance Items not part of the Net
Net Change                                           $             (5.7)          Cost of Operations                                                    $    1,655.8

CUMULATIVE RESULTS OF OPERATIONS                     $            63.0            Total Resources Used to Finance the Net Cost of Operations            $    4,695.8

UNEXPENDED APPROPRIATIONS
                                                                                  Components of the Net Cost of Operations that will not
   Beginning Balance                                 $         1,966.6            Require or Generate Resources in the Current Period
                                                                                     Components Requiring or Generating Resources in Future
   Prior Period Adjustments:                                                         Periods
  Corrections of errors                                            (0.5)                 Upward/Downward Reestimates of Credit Subsidy Expense $                (33.8)
                                                                                  Total Components of Net Cost of Operations that will require
Beginning Balance, as adjusted                       $         1,966.1            or generate Resources in Future Periods                               $       (33.8)
Budgetary Financing Sources
   Appropriation Received                            $         4,601.7               Components Not Requiring or Generating Resources
   Appropriations Transferred in/out                              25.9                   Revaluation of Assets or Liabilities                           $        (0.4)
   Other Adjustments (rescissions, etc.)                         (47.8)                  Other                                                                      -
                                                                                  Total Components of Net Cost of Operations that will not
   Appropriations Used                                         (4,722.8)                                                                                $        (0.4)
                                                                                  Require or Generate Resources
Total Budgetary Financing Sources                    $           (143.0)
                                                                                  Total Components of Net Cost of Operations that will not
TOTAL UNEXPENDED APPROPRIATIONS                      $         1,823.1            Require or Generate Resources in the Current Period                   $       (34.2)

Net Position                                         $         1,886.1            Net Cost of Operations                                                $    4,661.6




                                                                            218
Appendixes
page left blank intentionally
Department of Defense Performance and Accountability Report FY 2006
Appendixes ................................................................................................




                                             Appendix A: Glossary of Terms
         Acronym                                                        Full Name
  BRAC                Base Realignment and Closure
  e-Gov               Electronic Government
  FEDS-HEAL           Deployment-based medical service contract
  FIAR                Financial Improvement and Audit Readiness
  FMFIA               Federal Managers’ Financial Integrity Act
  FY                  Fiscal Year
  GAO                 U.S. Government Accountability Office
  IG                  Inspector General
  IP                  Improper payment
  IPv6                Internet Protocol Version 6
  IT                  Information Technology
  MRR                 Medical Readiness Review
  NSPS                National Security Personnel System
  OIG                 Office of Inspector General
  OMB                 Office of Management and Budget
  PART                Program Assessment Rating Tool
  PERSTEMPO           Personnel Tempo
  VA                  Department of Veterans Affairs




                                                                  A-1
                                                    Department of Defense Performance and Accountability Report FY 2006
                 ................................................................................................ Appendixes




                                       Appendix B: Internal Internet Links
                              General Information about the Department of Defense

                         LINKS                                                                TOPIC/SUBJECT


Internal Links

www.defenselink.mil                                        Main Department of Defense website, provides daily news about activities,
                                                           extensive search capabilities, photographs, and links to all Departmental websites

www.dodig.osd.mil                                          Office of Inspector General’s website, which contains information about the OIG’s
                                                           activities and reports
www.dod.mil/comptroller/par                                The Department Comptroller’s website, which includes the Performance and
                                                           Accountability Reports since 2002

www.defenselink.mil/qdr/report/Report20060203.pdf          Quadrennial Defense Review (2006)
www.defenselink.mil/execsec/adr2005.pdf                    Annual Defense Report (2005)
www.defenselink.mil/news/Mar2005/d20050318nds1.pdf         National Defense Strategy
www.defenselink.mil/news/Mar2005/d20050318nms.pdf          National Military Strategy
www.whitehouse.gov/nsc/nss.html                            National Security Strategy
www.dod.mil/comptroller/defbudget/fy2006/index.html        The Department’s FY 2006 Budget
www.dod.mil/comptroller/par                                Detailed FY 2006 Performance Information (summaries are provided in Section 2
                                                           of this report)
www.dod.mil/comptroller/FIAR/index.html                    Financial Improvement and Audit Readiness Plan
www.dod.mil/dbt/ETP.html                                   Enterprise Transition Plan
www.dod.mil/dbt                                            The Department’s Business Transformation Agency website. This agency is
                                                           responsible for tranforming business operations to achieve improved warfighter
                                                           support while enabling financial accountability across the Department
www.cpms.osd.mil/nsps                                      Information on the National Security Personnel System
www.brac.gov                                               Information about the Base Realignment and Closure process for 2005

External Links

www.results.gov                                            Information about the President’s Management Agenda
www.expectmore.gov                                         Information about the Program Assessment Rating Tool (PART) process
www.whitehouse.gov/omb                                     Office of Management and Budget’s website
www.gao.gov                                                U.S. Government Accountability Office’s website
www.cfoc.gov                                               Chief Financial Officers Council
www.firstgov.gov                                           U.S. Government’s Official Web Portal




                                                            B-1
left blank intentionally
